           Pakistan and Afghanistan




               AFGHANISTAN



                                  PAKISTAN




              Arabian Sea


                         December 31, 2011

                         WASHINGTON, D.C.

1300 PENNSYLVANIA AVENUE NW, SUITE 6.6.101, WASHINGTON, DC 20523
                            Pakistan and Afghanistan

                                                       Contents
Tab                                                                                                                            Page

1. Executive Summary ............................................................................................................... 1

2. Office of Inspector General—Overview ................................................................................. 5

                                                            Pakistan
3. Pakistan—Introduction .......................................................................................................... 7

4. Pakistan Performance Audit Findings and Recommendations .......................................... 11

5. Pakistan Financial Audit Findings ...................................................................................... 17

6. Planned Performance Audits of USAID/Pakistan-Funded
   Activities—Fiscal Year 2012 ................................................................................................. 23


                                             Pakistan Performance Audits

7. Pakistan Performance Audits—Fiscal Year 2012

          USAID/Pakistan’s Energy Efficiency and Capacity Program (November 2011) .................. 27

          USAID/Pakistan’s FIRMS Project (November 2011) ....................................................... 29


8. Pakistan Performance Audits—Fiscal Year 2011

          USAID/Pakistan’s Community Rehabilitation Infrastructure (August 2011) ..................... 33

          USAID/Pakistan’s Road Rehabilitation and Reconstruction Activities Under the
          Quick Impact Projects in South Waziristan (June 2011) ................................................... 36

          USAID/Pakistan’s Management of Preaward Assessments (May 2011) ............................. 39

          USAID/Pakistan’s Flood Relief Efforts as Administered by Local
          Nongovernmental Organizations (January 2011) ............................................................. 42
           USAID/Pakistan’s Livelihood Development Program for the Upper Region of the
           Federally Administered Tribal Areas (December 2010) ....................................................... 44

           USAID/Pakistan’s Livelihood Development Program for the Lower Region of the
           Federally Administered Tribal Areas (December 2010) ...................................................... 47


 9. Pakistan Performance Audits—Fiscal Year 2010

           USAID/Pakistan’s Family Advancement for Life and Health Program
           (August 2010) ............................................................................................................... 51

           USAID/Pakistan’s Primary Healthcare Revitalization, Integration and
           Decentralization in Earthquake-Affected Areas Project (June 2010) .................................... 53

           USAID’s Internally Displaced Persons Programs in Pakistan (June 2010) ............................ 55

           USAID/Pakistan’s Capacity Building Program for the Federally Administered
           Tribal Areas Development Program (January 2010) ........................................................... 58

                                              Pakistan Investigative Activity

10. Pakistan Investigative Case Work and Fraud Prevention Briefings .................................... 61

11. Pakistan Investigative Summaries ........................................................................................67

                                                           Afghanistan

12. Afghanistan—Introduction ................................................................................................... 73

13. Afghanistan Performance Audit Findings and Recommendations ..................................... 77

14. Afghanistan Financial Audit Findings ................................................................................. 97

15. Planned Performance Audits of USAID/Afghanistan-Funded
    Activities—Fiscal Year 2012 ...............................................................................................103

                                            Afghanistan Performance Audits

16. Afghanistan Performance Audits—Fiscal Year 2012

           Review of Responses to Internal Audit Findings on the Local Governance and Community
           Development Project (December 2011) … .......................................................................... 109




                                                                      ii
       USAID/Afghanistan’s Afghanistan Stabilzation Initiative for the Southern Region
       (November 2011) … ....................................................................................................... 112

17. Afghanistan Performance Audits—Fiscal Year 2011

       USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public Health in
       Support of the Partnership Contracts for Health Services Program (September 2011) … ........ 117

       USAID/Afghanistan’s Afghanistan Civilian Assistance Program (August 2011) … ............. 121

       USAID/Afghanistan’s Support to The Electoral Process (STEP) and Support for Increased
       Electoral Participation in Afghanistan (IEP) Programs (June 2011) … ................................ 124

       USAID/Afghanistan’s Portion of the Embassy Air Program (June 2011) …......................... 127

       USAID/Afghanistan’s Construction of
       Health and Education Facilities Program (March 2011) … ................................................ 130

       USAID/Afghanistan’s Bank Supervision Assistance Activities and the Kabul Bank Crisis
       (March 2011) ................................................................................................................. 134

       Cash Disbursement Practices Employed by Selected
       USAID/Afghanistan Contractors and Grantees (March 2011) .......................................... 137

       USAID/Afghanistan’s Agriculture, Water, and Technology Transfer
       Program (February 2011) ................................................................................................. 139

       USAID/Afghanistan’s Ministerial Assessment Process
       (November 2010) ............................................................................................................. 142

       USAID/Afghanistan’s Support to American University of Afghanistan (November 2010) ..... 144

       USAID/Afghanistan’s Partnership for Advancing Community-Based
       Education in Afghanistan (October 2010) ........................................................................ 149

18. Afghanistan Performance Audits—Fiscal Year 2010

       Security Costs Charged to USAID Projects in Afghanistan
        (September 2010) ............................................................................................................ 153

       USAID/Afghanistan’s Alternative Development Program Expansion—
       South West (July 2010) ................................................................................................... 156




                                                                 iii
            School and Health Clinic Buildings Completed Under the Schools and
            Clinics Construction and Refurbishment Program (June 2010) ............................................ 158

            USAID/Afghanistan’s Oversight of Private Security Contractors in
            Afghanistan (May 2010) .................................................................................................. 160

            USAID/Afghanistan’s Afghanistan Vouchers for Increased Productive Agriculture (AVIPA)
            Program (April 2010) ....................................................................................................... 163

           USAID/Afghanistan’s Human Resources and Logistical Support
           Program (March 2010) ..................................................................................................... 165

           USAID/Afghanistan’s Building Education Support Systems for
           Teachers Project (January 2010) ........................................................................................ 170

            USAID/Afghanistan’s Civilian Assistance Program (December 2009) ................................. 173

            USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan Infrastructure
            Rehabilitation Program (November 2009) .......................................................................... 177

                                           Afghanistan Investigative Activity

19. Afghanistan Investigative Case Work and Fraud Prevention Briefings ............................... 181

20. Afghanistan Investigative Summaries ................................................................................... 189




                                                                      iv
                                   Executive Summary

Overview

This summary document provides                             USAID obligations in Afghanistan for
information about Office of Inspector                      FY 2002 through first quarter FY 2012 totaled
General (OIG) oversight activities in Pakistan             more than $13.2 billion. Since FY 2003, OIG
and Afghanistan since fiscal year (FY) 2003.               has expended nearly $15.5 million in base
                                                           appropriations and supplemental funding to
OIG has strengthened its focus in Pakistan                 oversee USAID’s activities in that country.
since the U.S. Agency for International                    From FY 2002 through first quarter FY 2012,
Development (USAID) reopened its mission                   USAID has provided more than $5.4 billion
in 2002. OIG has been providing oversight of               to address priority programs in Pakistan. OIG
USAID activities in Afghanistan since 2002 as              has spent approximately $7.4 million to
well. Our oversight activities cover a wide                provide in-country oversight in Pakistan
spectrum of USAID programs in these two                    through first quarter FY 2012. In both
countries, including such areas as relief and              countries, we have adjusted our approach to
stabilization, reconstruction, sustainable                 ensure the maximum possible oversight of the
development, education, and health care.                   increasing levels of assistance provided to local
Our activities help USAID make sure that tax               nongovernmental organizations and host
dollars are being spent wisely and effectively.            governments in the form of project assistance
                                                           and direct budget support.


            Results—Fiscal Years 2003 Through Fiscal Year 2012
               Activities                         Pakistan                Afghanistan
           Performance audits/reviews                17                       49
           Recommendations made                      68                        248
           Recommendations closed                    52                        189
           Recommendations open                       16                       59
           Financial audits conducted                 47                       45
           Questioned costs                      $6.2 million            $148.7 million
           Sustained costs                       $3.1 million             $3.9 million
           Investigations opened                      76                      169
           Investigations closed                      52                      108
           Investigations pending                 24                           61
           Referrals for prosecution               2                           38
           Indictments                             0                           13
           Convictions                             0                           11
           Arrests                                 0                           13
           Administrative actions                 18                          119
           Recoveries and savings            $101.6 million               $163 million
           Fraud awareness briefings              32                           96
          Attendees at briefings                     780                      1,879




                                                     1
Highlights—FY 2012 First Quarter

Audit of USAID/Pakistan’s Energy Efficiency and Capacity Program

To help address power blackouts and other                   In the first year of the program, OIG found
severe supply shortages, USAID/Pakistan                     that the mission had not achieved the
awarded a 3–year, $23.5 million contract in                 majority of its targets. It had not helped any
March 2009 to the International Resources                   distribution companies implementing
Group to focus on training in the energy sector             conservation strategies or any energy
and on a variety of conservation activities                 companies evaluating energy efficiency,
throughout Pakistan. In April 2010, in response             upgrading equipment or with energy
to a shift in U.S. Government strategy, the                 conservation plans.
mission modified the program’s goal to focus on
reducing energy demand through an activity to               It also had trained less than half the energy
improve the efficiency of tube wells. This                  sector individuals intended.
activity was designed to replace irrigation pumps
used by farmers with more energy–efficient                  After the shift in strategy, the mission planned
models.                                                     to install 11,000 energy efficient irrigation
                                                            pumps. Although a pilot phase determined
                                                            that the activity was unlikely to succeed, the
                                                            mission proceeded with the program.

                                                            By September of 2011, less than 1,000 pumps,
                                                            or 9 percent, had been installed. This was as a
                                                            result of multiple problems, including the
                                                            mission setting unrealistic goals and budgets.
                                                            For instance, the mission budgeted almost
                                                            $1,500 per pump, but in actuality paid almost
                                                            $9,000.

                                                            In addition, partners and beneficiaries often
                                                            did not participate as intended. The regional
                                                            energy distribution company, a key partner,
                                                            did not fully support the program and farmers
                                                            would not pay the additional cost of installing
                                                            the pump, including masonry and electrical
                                                            work.

                                                            The OIG report made three
                                                            recommendations to address these issues.
                                                            Management decisions have been reached on
                                                            two recommendations and final action has
                                                            been taken on one.

The pump that was provided by USAID’s tube well
replacement activity operates on a farm in Punjab
Province. Above, irrigation water flows from the pump
shown at left. (Photo by the Office of Inspector General,
July 19, 2011)




                                                        2
Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative for the Southern Region
                                                      them at a significantly higher cost than other
In June 2009, the USAID Office of                     implementers, making their use questionable.
Transition Initiatives (USAID/OTI) signed a
3–year, $159.6 million contract with                  The long–term benefits of the initiative were
Chemonics International, Inc. (Chemonics)             also undercut by a lack of planning. Although
to implement the Afghanistan Stabilization            some key districts were ready for longer–term
Initiative for the Southern Region (ASI–SR).          development projects, no comprehensive
ASI–SR has implemented project activities             plans were in place to guide this transition.
through grants in districts and municipalities        Without a comprehensive transition plan to
in Kandahar and Helmand Provinces.                    prepare for longer–term development, key
                                                      districts may not be able to sustain gains in
OIG was unable to reach a conclusion about            stability, as district governors may not have
whether the program as a whole was achieving          the resources to meet the needs of their
its goal because of multiple issues with the          communities.
program. Many of these problems stemmed
from program implementation, which was                Financial controls were also problematic. For
delayed by a lack of formal work plans,               example, Chemonics used cash to make large
inadequate USAID/OTI oversight, staffing              tax payments to the Afghan Government,
difficulties, and poor quality subcontractors,        increasing the risk that a payment may be
among other issues. In addition, ASI–SR did           stolen. For example, in May 2011, an
not properly manage its budget and began              employee sent to a bank in Lashkar Gah with
running out of funds in the first quarter of          $62,398 to pay taxes to the Ministry of
fiscal year 2011.                                     Finance disappeared with the money.
                                                      Chemonics officials also contend that this
Security costs were also questionable.                presents a risk to companies, as funds have
Chemonics paid $1.2 million for personal              had a tendency to “get lost” in the banking
security details for staff members who lived on       system and it is difficult to prove deposits
military bases and traveled exclusively in            were ever made.
military convoys, even though no other
contractor incurs this type of cost when their        This report contains 18 recommendations to
staff are resident on a military installation.        assist USAID/Afghanistan and management
                                                      decisions have been reached on 12 of them.
Furthermore, Chemonics officials stated that
the company had leased 13 armored vehicles
because it felt the vehicles were needed to
provide sufficient security. However,
Chemonics’ security personnel prohibited
expatriate staff from traveling into the field,
and to maintain a low profile, local staff were
using unarmored vehicles. They also leased




                                                  3
4
                   Office of Inspector General
                                          Overview
The mission of the Office of Inspector                technology systems. OIG’s criminal
General (OIG) is to protect and enhance the           investigators are special agents who work
integrity of the U.S. Government’s                    diligently to ensure that those who would
approximately $30 billion annual foreign              illegally divert U.S. Government funds are
assistance program administered in over 100           detected. Our special agents are sworn law
countries by the U.S. Agency for International        enforcement officers who have authority to
Development (USAID), the United States                carry firearms, execute search warrants, and
African Development Foundation (USADF),               make arrests. Investigations of criminal, civil,
the Inter-American Foundation (IAF), and the          and administrative violations cover all facets
Millennium Challenge Corporation (MCC).               of these worldwide operations.

Who We Are                                            OIG Priorities

OIG is an independent oversight organization          Some of OIG’s work is mandated by statute or
within USAID that derives its primary                 regulation. Other work is performed at our
authorities and independence from the                 discretion after considering the risks
Inspector General Act of 1978 (IG Act),               associated with the agencies’ programs and
Public Law 95-452, as amended.                        assessing potential vulnerabilities in internal
                                                      controls. OIG’s top oversight priorities are:
OIG’s staff of approximately 200 employees—
both Foreign Service and Civil Service—               •     Pakistan
includes auditors, certified public                   •     Afghanistan
accountants, investigators, and program               •     HIV/AIDS, malaria, and
analysts, as well as specialists in management,
                                                            tuberculosis
budget, information technology, and
personnel operations. Our fiscal year 2012            •     Iraq
appropriation was $51 million.                        •     Haiti

What We Do                                            Joint Work and Partners

OIG is responsible for conducting and                 Interagency coordination is an important
supervising audits and investigations involving       element of the oversight process. OIG is a key
the programs and operations of USAID,                 participant in the Southwest Asia Joint
USADF, IAF, and MCC. Auditors, certified              Planning Group, led by the Department of
public accountants, and program analysts join         Defense Office of Inspector General. Other
forces to design and conduct audits and               members of the group include representatives
reviews to determine whether agency                   from the Office of Inspector General for the
programs and operations are working as                Department of State, the Defense Contract
envisioned.                                           Audit Agency, the Government
                                                      Accountability Office (GAO), the Special
Audit activities include performance audits of        Inspector General for Afghanistan
programs, financial statement audits required         Reconstruction, and the Special Inspector
under the Chief Financial Officers Act of             General for Iraq Reconstruction.
1990, Public Law 101-576, as amended, audits
related to financial accountability of grantees       USAID/OIG also works closely with the
and contractors, and audits of information            Office of the Special Representative for
                                                      Afghanistan and Pakistan (SRAP).


                                                  5
As a member of the National Procurement              OIG has overseas offices in Baghdad, Cairo,
Fraud Task Force, OIG assists the                    Dakar, Kabul, Islamabad, Manila, Port-au-
Department of Justice in addressing                  Prince , Pretoria, San Salvador and Tel Aviv.
procurement and grant fraud—especially in
Iraq, Afghanistan, and Pakistan.                     OIG General Information

                                                     To learn more about USAID/OIG and its
Where We Work                                        work, visit our Web site at www.usaid.gov/oig
                                                     or contact us at 202-712-1150.
Approximately 70 direct-hire OIG auditor,
analyst, and special agent positions are based
overseas, and the remaining workforce is
stationed in Washington, DC.




                                                 6
                                        Pakistan
                                       Introduction
Background. The primary goals of U.S.                provided more than $5.4 billion (including
assistance to Pakistan are to tangibly improve       emergency economic assistance) to address
the lives of the poor and to build support for       needs in education, health, economic growth,
the Government of Pakistan’s decision to join        and good governance, as well as in earthquake
international efforts to thwart terrorism and        reconstruction assistance. OIG has
reduce terrorist recruiting from within the          historically provided oversight of Pakistan
country.                                             from its regional office in Manila, but it now
                                                     has 12 staff members located in Islamabad.
The U.S. Government reopened the USAID               OIG has spent approximately $7.4 million to
mission in Islamabad in 2002. From FY 2002           provide in-country oversight for Pakistan
through the first quarter of FY 2012, USAID          through the first quarter of FY 2012.




         Results—Fiscal Year 2003 Through Fiscal Year 2012
                  Activities                                   Pakistan
           Performance audits/reviews                             17
            Recommendations made                                  68
            Recommendations closed                                 52
            Recommendations open                                   16
           Financial audits conducted                              47
                 Questioned costs                             $6.2 million
                 Sustained costs                              $3.1 million
              Investigations opened                                76
               Investigations closed                               52
             Investigations pending                                24
            Referrals for prosecution                               2
                  Indictments                                       0
                  Convictions                                       0
                    Arrests                                         0
             Administrative actions                                18
             Recoveries and savings                          $101.6 million
            Fraud awareness briefings                              32
              Attendees at briefings                              780




                                                 7
Performance Audits. The chart                        The agency-contracted audit (ACA) program is
beginning on page 11 depicts the findings of         implemented by USAID on its implementing
the 17 audits we have completed and the              partners. Financial audits conducted under
status of each of the 68 associated                  this program accomplish numerous goals,
recommendations. Starting on page 27 are             such as improving accountability and internal
narrative summaries of the audits, arranged          control over funds and commodities and
by fiscal year.                                      ensuring compliance with agreements and
                                                     applicable laws and regulations. USAID
OIG’s performance audit work in Pakistan             normally requests an ACA to provide needed
has shown that security conditions have              audit coverage or to address real or perceived
either hindered program accomplishment or            problems in financial management.
had the potential to create implementation
problems. Forty-seven percent raised                 ACAs are usually performed by independent
concerns about security conditions. Our              public accounting firms located in the United
audits also identified trends in inadequate          States that have overseas affiliates. USAID
contract oversight or activities management          contracts to have ACA audits conducted, but
(65 percent) and data integrity or quality           OIG approves the statement of work used to
issues (29 percent).                                 procure the audit services, monitors the
                                                     audits, reviews the audit reports, summarizes
                                                     the findings and recommendations, and
Financial Audits. By federal law (31                 performs quality-control reviews of them on a
U.S.C. Chapter 75), nonfederal entities that         limited basis.
expend $500,000 or more in federal awards
annually are required to have audits                 OIG may also initiate an ACA to address
conducted in accordance with Office of               problems concerning a contract, grant, or
Management and Budget (OMB) Circular A-              cooperative agreement, and it may enlist the
133. This OMB requirement applies to audits          services of the Defense Contract Audit Agency
of States, local governments, and nonprofit          (DCAA) to conduct incurred cost audits on
organizations based in the United States.            for-profit entities that are not based in the
Audits conducted pursuant to Circular A-133          United States. However, DCAA performs all
are sometimes referred to as “nonfederal             financial audits on U.S.-based, for-profit
audits.”                                             entities.2

USAID requires foreign nonprofit                     Financial audits performed on USAID’s
organizations that expend $300,000 or more           implementing partners in Pakistan are
in federal funds per year to undergo an annual       reflected in the chart on page 17. Questioned
financial audit. These audits follow the rules       costs are those costs determined by an audit to
and procedures contained in USAID’s                  not be allowable (e.g., liquor charges billed to
Guidelines for Financial Audits Contracted by        USAID), allocable (e.g., charges that cannot
Foreign Recipients. These audits are generally       be tied to a specific contract, grant, or
called recipient-contracted audits.                  cooperative agreement), or reasonable (e.g.,
Firms selected to perform nonfederal audits          charges for 25 computers for a staff of 10).
and recipient-contracted audits must be              The USAID contracting or agreement officer
approved by OIG, which then reviews the
audits, summarizes the findings and                  2
                                                      DCAA may also be called upon to conduct audits
recommendations, and performs quality-               on nonprofit entities to address concerns over
control reviews of them on a limited basis.          noncompliance or problems with financial
                                                     management.




                                                 8
makes a final determination on the                     When our investigators uncover evidence of
questioned costs and seeks reimbursement               probable cause to believe a criminal or civil
from the implementing partner for any costs            crime has occurred, they consult with the
sustained.                                             Department of Justice to determine its interest
                                                       in pursuing the matter.
OIG has developed relationships with local
institutions, such as the Auditor General of           Investigative findings on administrative
Pakistan, to help strengthen the accountability        matters are referred to Agency management
environment. OIG has entered into a                    for action. OIG investigators also conduct
memorandum of understanding with the                   fraud awareness briefings to alert participants
Auditor General that will permit the Auditor           (employees, contractors, and grantees) to
General’s audits to be accepted as meeting the         fraudulent practices and schemes and to
requirement for annual audits of Pakistani             provide guidance on how to report fraud if it
Government entities implementing USAID-                is encountered. The chart on page 61
funded programs. OIG recently provided a               summarizes OIG’s investigative work
financial audit training session, which                involving Pakistan.
included a segment on fraud awareness to the
Auditor General’s staff.                               OIG and USAID/Pakistan collaborated to
                                                       establish an antifraud hotline in Pakistan.
OIG also uses local accounting firms to                The antifraud hotline became fully
conduct financial audits in Pakistan. Before           operational in early February, but was
using any local accounting firms for this type         formally launched during a fraud-awareness
of work, OIG first conducts an assessment of           conference held in Islamabad on February 17,
their capabilities to perform the work.                2011.

Investigations. OIG’s investigative goals              This 5-year project is funded by a cooperative
are to eliminate fraud in contracts, grants, and       agreement between USAID/Pakistan and
cooperative agreements and to prevent serious          Transparency International—Pakistan in
misconduct by USAID employees. To                      partnership with the Office of the Inspector
accomplish these goals, special agents conduct         General, although OIG is solely responsible
investigations into possible violations of             for handling complaints received through the
federal laws, rules, and regulations.                  hotline. During the first quarter, the hotline
                                                       received 489 complaints related to projects
In a number of criminal and civil case matters,        funded by USAID and other organizations
OIG has worked closely with local authorities.         through various channels.
We work with the Government of Pakistan’s
National Accountability Bureau, for example,
to pursue allegations of wrongdoing by local
nationals.




                                                   9
10
                                                          Pakistan Performance Audit Findings and Recommendations
                                                                                                                                                     Total # of    Total #
          No.                    Report Title                   Report Date                      Summary of Findings                                                         Open Recommendations   USAID Response
                                                                                                                                                 Recommendations   Closed

                                                                              The audit found that USAID did not effectively monitor the
                                                                              Government of Pakistan’s compliance with certain provisions
                 Audit of USAID’s Bureau for Asia and the                     of the grant agreement, which was to be used as
FY 2003




                Near East Monitoring of the Government of                     reimbursement of debt paid and service of debt, to the United
           1    Pakistan’s Compliance with the Provisions        7-Jan-03     States, World Bank, Asian Development Bank, or                            3            3              None.
                      of USAID Grant No. 391-K-005                            International Monetary Fund. USAID officials had no
                             (0-000-03-001-F)                                 assurance that the grant funds were used in accordance with
                                                                              the terms of the grant agreement until after the Government
                                                                              of Pakistan had expended the funds.
                                                                          OIG conducted a risk assessment of education and
                                                                          governance programs, which identified several areas where
                                                                          vulnerability for risk was high: Two education programs were
                                                                          designated as high risk because of the lack of prior
FY 2004




                    Risk Assessment of Major Activities
                                                                          experience with USAID grants and because of having
           2           Managed by USAID/Pakistan                30-Oct-03                                                                               0            0              None.
                                                                          numerous U.S. and Pakistani partners to implement the
                             (5-391-04-001-S)                             programs. One local governance program was deemed high
                                                                          risk because there were problems with the participating
                                                                          nongovernmental organizations and with the legislative
                                                                          orientation component of the program.
                                                                          Overall, the selected activities under USAID/Pakistan’s Basic
                                                                          Health Program generally did not achieve its intended
FY 2007




                    Audit of Selected Activities Under                    program results. Areas where it fell short were in the
           3      USAID/Pakistan’s Basic Health Program         23-May-07 distribution of family planning products, the promotion of                    4            4              None.
                             (5-391-07-005-P)                             program activities, the percentage of health facilities
                                                                          upgraded, the number of health care providers trained, and
                                                                          the number of grants awarded.
                                                                              The audit found that USAID/Pakistan did not monitor the
FY 2008




                Audit of USAID/Pakistan’s Education Sector           Education Sector Reform Assistance Program effectively, nor
           4            Reform Assistance Program          28-Mar-08 did it approve revisions to the program’s scope and budget.                        1            1              None.
                             (5-391-08-004-P)                        OIG also found a lack of documentation of a potential conflict
                                                                              of interest.
                                                                              The audit found that construction and livelihood activities were
FY 2009




                    Audit of Critical USAID/Pakistan’s
                                                                              experiencing delays, contractor performance reviews were not
           5       Earthquake Reconstruction Activities         25-Nov-08                                                                               4            4              None.
                                                                              conducted, performance management plans were not
                             (5-391-09-001-P)                                 approved, and a data quality assessment was needed.

                                                                      OIG’s audit found that, although the program had provided
                                                                      training, taken initial steps to automate institutions in the
                                                                      Federally Administered Tribal Areas (FATA), and completed
                Audit of USAID/Pakistan's Capacity Building           some media activities, little had yet been achieved to build the
FY 2010




                                                                      capacity of FATA governmental institutions and
                  Program for the Federally Administered
           6                                                28-Jan-10 nongovernmental organizations (NGOs) responsible for                              4            4              None.
                    Tribal Areas Development Program                  providing services. The program had been in place for nearly
                              (5-391-10-005-P)                        2 years of its 3-year planned lifespan, and it had not made
                                                                      significant progress with two of the program’s main goals:
                                                                      improving institutions’ capacity to govern and improving the
                                                                      capacity of NGOs to promote good governance.




                                                                                                                                            11
                                                                                                                                                  Total # of    Total #
          No.                   Report Title                   Report Date                     Summary of Findings                                                                     Open Recommendations                                      USAID Response
                                                                                                                                              Recommendations   Closed
                                                                          USAID implemented third-party monitoring in only one of its
                                                                          six internally displaced persons (IDP) programs.
                                                                          Consequently, without an instrument to easily employ third-
                                                                          party monitoring in high-threat environments in Pakistan,
                                                                          USAID did not verify program performance or consistently
                                                                          validate results first hand for its IDP program activities. The
                  Review of USAID’s Internally Displaced                  grant agreement for the $44 million cash transfer for IDP
           7          Persons Programs in Pakistan              28-Jun-10 families identified four controls to be implemented by the                 4            4                               None.
                             (5-391-10-001-S)                             mission and the GOP. However, 6 months after the cash
                                                                          transfer was made to the Government of Pakistan (GOP),
                                                                          neither the mission nor the GOP had implemented any of the
                                                                          controls that were meant to provide reasonable assurance
                                                                          that the funds had actually reached IDPs. Thus, USAID has
                                                                          little assurance that cash transfers actually reached displaced
                                                                          families.

                                                                          In response to the intent of the project's cooperative
                                                                          agreement to establish appropriate patient referral
                                                                          mechanism, the implementer's work plan for 2008 identified
                                                                          five activities to be completed in fiscal year 2008 that were
                    Audit of USAID/Pakistan’s Primary                     meant to strengthen the referral system. As of September
                                                                          2009, 1 year later than planned, the implementer had
                 Healthcare Revitalization, Integration and
           8                                                    28-Jun-10 completed four of five activities. The activities were delayed in          1            1                               None.
                 Decentralization in Earthquake-Affected
                                                                          part because GOP staff scheduled to work with the
                      Areas Project (5-391-10-010-P)                      implementer were not available when needed. As a result, at
                                                                          the time of the audit, the new approach for the referral system
                                                                          was working in only 7 of 126 health facilities in the Mansehra
                                                                          and Bagh Districts, representing only a minimal improvement
                                                                          in access to health care.

                                                                         OIG's audit found that the Family Advancement for Life and
                                                                         Health Program was achieving its main goals. Among its
                    Audit of USAID/Pakistan's Family                     accomplishments were (1) an increased demand for family
           9     Advancement for Life and Health Program       31-Aug-10 planning services, (2) improved family planning services in the             1            1                               None.
                             (5-391-10-012-P)                            public sector, and (3) improved family planning services in the
                                                                         private sector. Overall, the audit found that participants were
                                                                         very satisfied with the program.

                                                                                                                                                                          (5) USAID/Pakistan make a management decision
                    Audit of USAID/Pakistan’s Livelihood              The audit found that USAID/Pakistan had made little progress                                                                                                 The mission examined the allowability of the
                                                                                                                                                                          regarding the allowability of and recover, as
FY 2011




                                                                      in reaching annual targets. Although the hostile situation                                                                                                   questioned costs and sustained $352,470. The
                Development Program for the Lower Region                                                                                                                  appropriate, questioned costs of $767,841 ($432,482
          10                                                10-Dec-10 contributed to the program’s limited results, the mission did                  7            6                                                                mission planned to recover these funds in April
                 of the Federally Administered Tribal Areas                                                                                                               ineligible and $335,359 unsupported) identified in the
                                                                      not ensure adequate monitoring and oversight to achieve                                                                                                      2012. Until then, this recommendation remains
                              (G-391-11-001-P)                                                                                                                            financial review and recover those costs determined to
                                                                      program goals.                                                                                                                                               open.
                                                                                                                                                                          be unallowable.




                                                                                                                                        12
                                                                                                                                     Total # of    Total #
No.                    Report Title                   Report Date                   Summary of Findings                                                      Open Recommendations   USAID Response
                                                                                                                                 Recommendations   Closed

                                                            We found that USAID/Pakistan staff overrode management
                                                            controls by conducting work reserved for the agreement
                                                            officer, such as administering and making determinations
                                                            regarding a cooperative agreement, and taking action without
                                                            authorized approval. For example, in August 2008, shortly
                                                            after starting work in upper FATA, USAID/Pakistan directed
                                                            the implementer to provide disaster response and emergency
                                                            relief services that were not part of the Livelihood
                                                            Development Program (LDP) scope of work or budget. The
          Audit of USAID/Pakistan’s Livelihood              services included response to the flood victims in Khyber
      Development Program for the Upper Region              Agency and response to internally displaced persons coming
11                                                10-Dec-10                                                                             5            5              None.
       of the Federally Administered Tribal Areas           into the Peshawar region as a result of conflict. At that time,
                    (G-391-11-002-P)                        no other U.S. Government response was available in the
                                                            area, and the mission determined that LDP resources should
                                                            be used for this work. However, the mission made no
                                                            revisions to the program to reflect this change in program
                                                            focus. The work, which spun off into infrastructure activities
                                                            that extended into the second year of implementation,
                                                            diverted resources from program activities, changed the
                                                            scope of work, and affected LDP’s budget. The implementer
                                                            attributed $7.9 million to the disaster and relief work from
                                                            August 2008 to March 2010.




                                                                The audit focused on two Pakistani NGOs: Pakistan Poverty
                                                                Alleviation Fund (PPAF), which received $2.7 million, and
        Audit of USAID/Pakistan’s Flood Relief                  Rural Support Programmes Network (RSPN), which received
                                                                $2.3 million. The two agreements were to provide relief in the
          Efforts as Administered by Local
12                                                    24-Jan-11 provinces of Balochistan, Punjab, Sindh, and Khyber                     0            0              None.
          Nongovernmental Organizations
                                                                Pakhtunkhwa—immediate relief to 80,100 households in the
                   (G-391-11-003-P)                             form of food hampers and supplies to an affected population
                                                                of 190,058 people. The audit determined that the program
                                                                goals were met.




                                                                                                                             13
                                                                                                                                   Total # of    Total #
No.                    Report Title                  Report Date                   Summary of Findings                                                                  Open Recommendations                                       USAID Response
                                                                                                                               Recommendations   Closed

                                                               With the implementation of the strategy to build Pakistani
                                                               capacity, concerns have been raised in the media and within
                                                               the U.S. Government that providing too much money to
                                                               Pakistani recipients too quickly could jeopardize U.S. funds.
                                                               USAID/Pakistan recognized the challenges and took
                                                               proactive steps to address the risks. One key step taken by
                                                               the mission was to contract with international and local
       Audit of USAID/Pakistan’s Management of
                                                               accounting firms to conduct pre-award assessments (also
13              Pre-Award Assessments                 6-May-11                                                                        4            4                               None.
                                                               referred to as pre-award surveys) of potential first-time
                    (G-391-11-004-P)                           recipients of USAID funds. The intent of these assessments is
                                                               to determine whether the recipients can effectively manage
                                                               and account for these funds. The accounting firms identify
                                                               vulnerabilities and recommend actions to address the
                                                               vulnerabilities. For fiscal year 2010, USAID/Pakistan
                                                               expended approximately $657,000 on the 28 pre-award
                                                               assessments conducted and the resultant reports.

                                                                                                                                                                                                                    A management decision was reached upon
                                                                                                                                                                                                                    report issuance. The mission agreed with the
                                                                                                                                                           (5) USAID/Pakistan provide implementers with copies
                                                                                                                                                                                                                    recommendation. The mission plans to circulate
                                                                                                                                                           of USAID's policies on ethics and conflicts of interest,
                                                                                                                                                                                                                    USAID guidance on ethics and conflicts of
                                                                                                                                                           and with written explanations and examples of potential
                                                                                                                                                                                                                    interest related to USAID award recipients to its
                                                                                                                                                           conflicts.
                                                          OIG conducted this audit to determine whether                                                                                                             implementers. This recommendation remains
                                                          USAID/Pakistan’s road rehabilitation and reconstruction                                                                                                   open.
                                                          activities under the Quick Impact Projects in South Waziristan
                                                          were rebuilding selected roads. Despite some difficulties                                                                                                 A management decision was reached upon
                                                          noted with mission operations, we determined that the road                                                                                                report issuance. The mission agreed with the
                                                          rebuilding efforts were on track. Two sections of road totaling                                                                                           recommendation and indicated that it would put a
                                                                                                                                                           (8) USAID/Pakistan develop and implement a plan to
                                                          215 kilometers were completed that met all specifications and                                                                                             new monitoring & evaluation contract in place.
                                                                                                                                                           monitor and document the status of branding and
           Audit of USAID/Pakistan’s Road                 approvals required for reimbursement by USAID. Although                                                                                                   This contract will monitor compliance of
                                                                                                                                                           marking plans of contractors working on the Quick
                                                          security issues caused some delays, work progressed on                                                                                                    implementers with the full terms of their
      Rehabilitation and Reconstruction Activities                                                                                                         Impact Projects in South Waziristan, and provide
                                                          schedule. The FATA Secretariat hired Frontier Works                                                                                                       agreement with USAID. This is to include
14     Under the Quick Impact Projects in South 20-Jun-11                                                                             9            6       training as necessary for compliance with Automated
                                                          Organization (Frontier Works) of Pakistan to carry out road                                                                                               compliance with USAID branding and marking
                       Waziristan                                                                                                                          Directives System 320.
                                                          activities. For additional support, Frontier Works                                                                                                        requirements as identified in their agreement and
                    (G-391-11-005-P)                      subcontracted with the Pakistani engineering firm National                                                                                                agency guidance. This recommendation remains
                                                          Engineering Services Pakistan Limited (NESPAK). Both                                                                                                      open.
                                                          Frontier Works and NESPAK have extensive experience in
                                                          building roads and other infrastructure projects, and both will                                                                                           A management decision was reached upon
                                                          work on all the Quick Impact Projects in South Waziristan,                                                                                                report issuance. The mission agreed with the
                                                          including the water infrastructure and power systems. We                                         (9) USAID/Pakistan provide additional details to the     recommendation. USAID/Pakistan will engage a
                                                          found that these two entities contributed to the initial success                                 Federally Administrated Tribal Areas Secretariat         media support contractor to ensure wider
                                                          of the road activities.                                                                          concerning publicizing and marking USAID's               dissemination of information about the range and
                                                                                                                                                           contribution to the Quick Impact Projects in South       impact of our assistance programs.
                                                                                                                                                           Waziristan as specified in the implementation letter     USAID/Pakistan will assist the FATA Secretariat
                                                                                                                                                           dated December 31, 2009.                                 in publicizing and marking USAID’s contribution
                                                                                                                                                                                                                    to programs in FATA. This recommendation
                                                                                                                                                                                                                    remains open.




                                                                                                                          14
                                                                                                                                 Total # of    Total #
No.              Report Title               Report Date                     Summary of Findings                                                                        Open Recommendations                                            USAID Response
                                                                                                                             Recommendations   Closed

                                                                                                                                                                                                                       The mission will develop and implement an action
                                                                                                                                                         (3) USAID/Pakistan develop and implement an action
                                                                                                                                                                                                                       plan to determine the best use for the equipment
                                                                                                                                                         plan to determine the best use for the equipment and
                                                                                                                                                                                                                       and furniture at the Khyber Institute of Child
                                                                                                                                                         furniture at the Khyber Institute of Child Health.
                                                                                                                                                                                                                       Health. This recommendation remains open.


                                                                                                                                                                                                                       The mission will revise the CRISP activity approval
                                                                                                                                                         (4) USAID/Pakistan revise the activity approval process
                                                                                                                                                                                                                       process to include a sustainability analysis/plan for
                                                                                                                                                         to include a sustainability analysis for all infrastructure
                                                                                                                                                                                                                       all infrastructure activities implemented under this
                                                                                                                                                         activities implemented under this program, regardless of
                                                                                                                                                                                                                       program, regardless of the funding level. This
                                                                                                                                                         the funding level.
                                                                                                                                                                                                                       recommendation remains open.



                                                                                                                                                                                                                       USAID/Pakistan, in coordination with the
                                                      USAID/Pakistan exercised a substantial degree of control                                                                                                         USAID/Washington Office of General Council, will
                                                      over the program that would have been more appropriate for                                                                                                       develop and conduct training sessions for
                                                      a contract rather than a cooperative agreement. For example,                                       (6) USAID/Pakistan develop and implement a plan to            contracting and agreement officers' technical
                                                      work plans had to be prepared by the implementer and                                               increase awareness among mission and implementing             representatives regarding legal prohibitions
                                                      approved by the mission quarterly. Also, all proposed                                              partner staff of USAID's policy prohibiting the funding of    including funding of religious activities. The mission
                                                      activities had to be approved by the mission before                                                religious activities.                                         will also instruct implementing partners to contact
                                                      implementation. Although the program was awarded under a                                                                                                         USAID for guidance if they suspect that a potential
                                                      cooperative agreement, both USAID/Pakistan officials and the                                                                                                     problem with funding religious institutions may
                                                                                                                                                                                                                       arise. This recommendation remains open.
                                                      implementing partner agreed that the program has been
                                                      implemented more like a contract. Mission officials
                                                      commented that the nature of the work assigned to the                                                                                                            The mission agreed with the recommendation.
      Audit of USAID/Pakistan's Community
                                                      program has changed drastically since the program's                                                                                                              Because funding is approved in the Activity
15        Rehabilitation Infrastructure     29-Aug-11                                                                              10            3       (7) USAID/Pakistan determine whether to amend or
                                                      inception. According to mission officials, the variety, large                                                                                                    Approval Document, the mission has decided to
                (G-391-11-006-P)                      value, and complexity of current construction activities require                                   follow the program's internal control procedure requiring
                                                                                                                                                                                                                       delete the procedure requiring the mission
                                                      the mission to give daily technical directions to the                                              the mission director's approval for all activities that
                                                                                                                                                                                                                       director's approval for all activities exceeding
                                                                                                                                                         exceed $500,000.
                                                      implementer to ensure the quality and timeliness of facilities                                                                                                   $500,000 and will formalize this change in an
                                                      constructed through the program. USAID/Pakistan officials                                                                                                        action memo. This recommendation remains open.
                                                      agreed that continuing to use the cooperative agreement to
                                                      implement this program will lead to further delays and                                                                                                      USAID/Pakistan has obtained a revised marking
                                                      inefficiencies, particularly on large infrastructure activities that                                                                                        plan from the implementing partner. Moreover, a
                                                      are ongoing or in the program’s work plan. Mission officials do                                                                                             mission-wide monitoring and evaluation contract
                                                      not believe that the award recipient has demonstrated the                                          (8) The mission obtain an updated marking plan from the
                                                                                                                                                                                                                  was recently awarded. This contract includes
                                                                                                                                                         implementing partner within 90 days, and implement a
                                                      technical capacity to provide the required monitoring and                                                                                                   responsibilities for the contractor to monitor the
                                                                                                                                                         plan to monitor the status of the implementing partner's
                                                      oversight on the activities listed in the table.                                                                                                            compliance of all implementers with the full terms
                                                                                                                                                         marking plan.
                                                                                                                                                                                                                  of their agreement with USAID. This includes
                                                                                                                                                                                                                  compliance with USAID branding and marking
                                                                                                                                                                                                                  requirements. This recommendation remains open.


                                                                                                                                                                                                                       The mission will modify the cooperative agreement
                                                                                                                                                         (9) USAID/Pakistan modify the cooperative agreement to
                                                                                                                                                                                                                       to allow cost-sharing contributions on a flexible,
                                                                                                                                                         require that cost-sharing contributions for all activities be
                                                                                                                                                                                                                       case-by-case basis and expects the modification to
                                                                                                                                                         calculated on a flexible, case-by-case basis.
                                                                                                                                                                                                                       be issued. This recommendation remains open.


                                                                                                                                                         (10) USAID/Pakistan notify the program's implementing         The mission will modify the cooperative agreement
                                                                                                                                                         partner that the previously submitted cost-sharing            to allow cost-sharing contributions on a flexible,
                                                                                                                                                         contributions totaling $4.7 million are ineligible, and       case-by-case basis and expects the modification to
                                                                                                                                                         amend the program's financial reports.                        be issued. This recommendation remains open.




                                                                                                                        15
                                                                                                                                                       Total # of    Total #
          No.                    Report Title                   Report Date                      Summary of Findings                                                                         Open Recommendations                                            USAID Response
                                                                                                                                                   Recommendations   Closed


                                                                              To help improve Pakistan's economic stability,
                                                                                                                                                                                                                                             A management decision can be reached upon
                                                                              USAID/Pakistan awarded a 4-year, $89.8 million contract in                                       (2) USAID/Pakistan develop and implement a
                                                                                                                                                                                                                                             report issuance. The Economic Growth office is
                                                                              May 2009 to Chemonics International (Chemonics) to                                               performance management plan for the Firms Project that
                                                                                                                                                                                                                                             revising the PMP so that the results framework
                                                                              implement the Firms Project. The project's goal is to develop                                    complies with USAID's Automated Directives System 203
                                                                                                                                                                                                                                             reflects the shift in geographical focus, the change
                                                                              and improve the productivity and competitiveness of Pakistani                                    and adjusts targets to reflect strategy shifts, delays, and
                                                                                                                                                                                                                                             in scope, and current conditions. This
                                                                              small to medium-size firms by increasing exports and                                             current conditions.
                                                                                                                                                                                                                                             recommendation remains open.
                                                                              employment. In July 2010, 14 months after the award, USAID
                                                                              modified the project's goal to promote economic development
                                                                              in vulnerable areas as an alternative to extremism. The                                                                                                        The Office of Acquisition and Assistance, the
                                                                              project set out to achieve its revised goal through two                                                                                                        Office of Financial Management, and the technical
                                                                              complementary components: Private Sector Development                                                                                                           office Economic Growth will investigate the
                                                                              and Improvement of the Business-Enabling Environment. As                                                                                                       unsupported questioned costs and make a
                                                                                                                                                                               (5) USAID/Pakistan determine the allowability of
                                                                              of May 2011, USAID/Pakistan had obligated approximately                                                                                                        decision on those costs. A management decision
                                                                                                                                                                               $1,359,337 in questioned costs (unsupported) and
                                                                              $42 million and expended $29 million on the Firms Project. A                                                                                                   on this recommendation will be reached when
                                                                                                                                                                               recover those costs determined to be unallowable.
                                                                              review of the first 2 years showed that the Firms Project was                                                                                                  USAID/Pakistan determines whether the
                                                                              not on track to achieve its main goal. Despite the mission's                                                                                                   questioned costs are allowed or disallowed; final
                  Audit of USAID/Pakistan's Firm Project                                                                                                                                                                                     action will occur when any disallowed amount is
          16                                                     3-Nov-11     attempt to increase sales and employment in a number of                     9            5
                             (G-391-12-001-P)                                                                                                                                                                                                collected. This recommendation remains open.
                                                                              sectors-leather, livestock, textile, dates, and mangoes-the
                                                                              audit found no measureable increases in sales or
                                                                              employment. Project did not increase sales or employment in                                                                                                    A management decision can be reached upon
                                                                              the leather, livestock, textile, or date sectors because of shifts                                                                                             report issuance. The mission plans a financial
                                                                              in U.S. Government strategy that resulted in the cancellation                                    (6) USAID/Pakistan verify that Chemonics has corrected        review of Firms Project costs that will verify that
                                                                              of these activities. Efforts to boost sales and jobs in the                                      all procurement deficiencies identified in this report.       Chemonics has corrected all procurement
                                                                              mango sector were stalled, and activities to improve                                                                                                           deficiencies identified in this report. This
                                                                              competitiveness through economic policy reform were behind                                                                                                     recommendation remains open.
                                                                              schedule. The audit disclosed the following problems with
                                                                              project implementation and management: Sector-specific
                                                                              activities did not increase sales or employment; the                                                                                                    A management decision can be reached upon
                                                                              performance management plan did not meet Agency                                                                                                         report issuance. The Economic Growth office has
                                                                                                                                                                               (8) USAID/Pakistan reassess the project component
FY 2012




                                                                                                                                                                                                                                      been working with Chemonics to develop an
                                                                              standards; the approving official did not provide sufficient                                     devoted to improving the business-enabling environment
                                                                                                                                                                                                                                      improved set of results and corresponding
                                                                              procurement oversight; efforts to improve the business-                                          and develop meaningful targets that align with Firms
                                                                                                                                                                                                                                      indicators that cover the business-enabling
                                                                              enabling environment fell short; and the mission did not                                         Project goals.
                                                                                                                                                                                                                                      environment component. This recommendation
                                                                              complete annual past performance evaluations.
                                                                                                                                                                                                                                      remains open.

                                                                      Pakistan suffers power blackouts of 4 to 16 hours per day
                                                                      because of severe supply shortages. To help address this
                                                                      problem, USAID/Pakistan initiated the Energy Efficiency and
                                                                      Capacity Program in March 2009. The mission awarded a 3-
                                                                      year, $23.5 million contract to the International Resources
                                                                      Group to focus on training in the energy sector and on a
                                                                      variety of conservation activities throughout Pakistan, such as
                                                                      assisting industries with conservation plans. During the first
                                                                      year, the mission spent about $2.1 million on these activities
                                                                      with modest progress. As of September 15, 2011, the
                                                                      program was substantially short of its goal of replacing 11,000                                                                                                  USAID/Pakistan stated that it has developed a
                                                                      pumps by March 2012 to reduce energy demand. Mission                                                                                                             revised business plan to improve program
                Audit of USAID/Pakistan's Energy Efficiency                                                                                                                    (1) USAID/Pakistan discontinue the tube well program
                                                                      officials reported that farmers had replaced 963 pumps (9                                                                                                        deliverables and achieve the target goals. The
                                                                                                                                                                               under the Energy Efficiency and Capacity Program at the
          17               and Capacity Program             23-Nov-11 percent of 11,000 planned). Replacing this number of pumps                          2            1                                                               mission is expected to approve the business plan
                                                                                                                                                                               end of the contract period unless the mission develops
                             (G-391-12-002-P)                         was not efficient. USAID’s replacement cost increased from                                                                                                       by January 31, 2012. A management decision has
                                                                                                                                                                               an action plan to reach program goals.
                                                                      the original estimate of $1,400 to nearly $8,500 each because                                                                                                    been reached on Recommendation 1. This
                                                                      contractor administrative fees were distributed over 963                                                                                                         recommendation remains open.
                                                                      pumps replaced rather than over the anticipated 11,000
                                                                      pumps. We estimate that 1,500 pumps will have been
                                                                      replaced by March 2012 when the contract ends. The major
                                                                      contributing factor to the lack of progress in achieving the
                                                                      program goal was problems with program implementation,
                                                                      including failure to address farmers’ reluctance to participate.
                                                                      A shift in high-level U.S. Government strategy in the latter part
                                                                      of 2009 to use local contractors and historic flooding in July
                                                                      2010 also delayed program implementation. Some factors
                                                                      beyond the mission’s control hindered program progress.
                                                                                                                                                                                              Total Recommendations                                                    68
                                         15
                                                                                                                                                                                         Total Closed Recommendations                                                  52


                                                                                                                                              16
                                                     Pakistan Financial Audit Findings
                                                                                                                                Details for
                                                        Report                        Total Costs   Questioned   Sustained      Questioned
No.                   Audit Title                                      Report Date
                                                        Number                        Audited ($)    Costs ($)   Costs ($)      Costs Over
                                                                                                                                 $1 Million
      Financial Audit of USAID/Pakistan's Rupee
 1
      Trust Fund for Operating Expenses , for         5-391-06-003-N    10-Jan-2006     432,270
      Fiscal Years Ended September 30, 2002,
      2003, and 2004

      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
 2                                                    5-391-06-020-R   11-May-2006     1,805,257       830
      391-A-00-03-01016-00, Managed by the
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited , for the Period from
      November 7, 2003, to June 30, 2004
      Quality Control Review of the Audit Report
      and Audit Documentation for the Financial
      Audit Conducted by Ford Rhodes Sidat
      Hyder & Co., Pakistan, of the Program Titled
      'Improved Pakistani Family Planning and
 3    Reproductive Health Services,'                  5-391-06-003-Q   26-Sep-2006
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-03-01016-00, Managed by the
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited, for the Period from
      November 7, 2003, to June 30, 2004
      Financial Audit of the Rural Support
      Programmes Network—USAID Grant
 4    Rewarding Innovations at the District Level,    5-391-06-031-R   13-Sep-2006      471,255
      Agreement No. 391-A-00-03-01015-00, for
      the 9-Month Period Ended June 30, 2004
      Financial Audit of the Rural Support
      Programmes Network—USAID Grant
 5    Rewarding Innovations at the District Level,    5-391-06-032-R   26-Sep-2006      997,500
      Agreement No. 391-A-00-03-01015-00, for
      the Period Ended June 30, 2005
      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Project, USAID/Pakistan Cooperative
 6                                                    5-391-06-033-R   27-Sep-2006     1,853,591
      Agreement No. 391-A-00-03-01011-00,
      Managed by Khushhali Bank , for the Period
      from October 1, 2003, to December 31, 2004
      Quality Control Review of the Audit Report
      and Audit Documentation for the Financial
      Audit Conducted by KPMG Taseer Hadi

 7
      & Co., of the Aga Khan University -             5-391-07-001-Q    6-Oct-2006
      Examination Board (AKU-EB),
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-03-01003-00, for the Period from
      July 1, 2003, to December 31, 2004
      Financial Audit of the Four Year Bachelor's
      Degree Program, USAID/Pakistan Grant
      Agreement No. 391-G-00-04-01036-00,
 8                                                 5-391-07-006-R       12-Jan-2007     764,472
      Managed by Forman Christian College,
      Lahore, for the Period from August 23, 2004,
      to June 30, 2005

      Financial Audit of the Enterprise
      Development Facility Program, Cooperative                                                                               Questioned costs
      Agreement No. 391-A-00-03-01010-00,                                                                                     related to ineligible
 9                                                5-391-07-007-R        12-Jan-2007    3,194,633     1,999,553    1,639,230
      Managed by the Pakistan Poverty                                                                                         loans by the
      Alleviation Fund (PPAF) for the Period from                                                                             recipient.
      October 1, 2003, to June 30, 2005




                                                                                 17
                                                                                                                            Details for
                                                       Report                        Total Costs   Questioned   Sustained   Questioned
No.                   Audit Title                                     Report Date
                                                       Number                        Audited ($)    Costs ($)   Costs ($)   Costs Over
                                                                                                                             $1 Million
      Financial Audit of the Fulbright-USAID
      Scholarship Program, Grant Agreement No.
      391-G-00-04-01035-00, Managed by the
10                                                   5-391-07-010-R   22-Feb-2007      234,757
      United States Educational Foundation in
      Pakistan , for the Period from September 1,
      2004, to August 31, 2005
      Financial Audit of the Aga Khan University
      Examination Board , USAID/Pakistan
11    Cooperative Agreement No. 391-A-00-03-         5-391-07-014-R    3-May-2007      771,546
      01003-00, for the Period from July 1, 2003, to
      December 31, 2004
      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
12                                                   5-391-07-020-R    25-Jul-2007    1,805,257      34,804
      391-A-00-03-01016-00, Managed by the
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited , for the Period from
      November 7, 2003, to June 30, 2004
      Financial Audit of the Enterprise
      Development Facility Program, Cooperative
      Agreement No. 391-A-00-03-01010-00,
13                                                   5-391-07-023-R   22-Aug-2007     1,160,768      951,400     921,512
      Managed by the Pakistan Poverty
      Alleviation Fund for the Period from July 1,
      2005, to June 30, 2006

      Financial Audit of the Year Bachelor's
      Degree Program, USAID/Pakistan Grant
      Agreement No. 391-G-00-04-01036-00,
14                                                   5-391-07-024-R   28-Sep-2007      769,134
      Managed by Forman Christian College,
      Lahore, for the Period from July 1, 2005, to
      June 30, 2006

      Financial Audit of the Project Titled
      "Technical Assistance and Training to
      Improve Project and Financial Management
      of Provincial and District Health and
      Population Welfare Services in Pakistan,"
      USAID/Pakistan Limited Scope Grant
15                                                   5-391-08-005-N   20-Aug-2008      697,058
      Agreement No. 391-G-00-04-01020-00,
      Managed by the Options Consultancy
      Services Limited (Options) - Technical
      Assistance Management Agency (TAMA), for
      the Period from January 1, 2004, to March
      31, 2006

      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
16                                                   5-391-08-017-R    15-Apr-2008    2,662,527      82,126       66,916
      Agreement No. 391-A-00-03-01011-00,
      Managed by Khushhali Bank , for the Period
      from January 1, 2005, to December 31, 2006


      Financial Audit of the Aga Khan University -
      Examination Board (AKU-EB),
17    USAID/Pakistan Cooperative Agreement No.       5-391-08-027-R    2-Jul-2008      902,755
      391-A-00-03-01003-00, for the Period from
      January 1, 2005, to December 31, 2005


      Closeout Audit of the Enterprise
      Development Facility Program, Cooperative
      Agreement No. 391-A-00-03-01010-00,
18                                                   5-391-08-029-R   15-Aug-2008      734,597
      Managed by the Pakistan Poverty
      Alleviation Fund (PPAF) for the Period from
      July 1, 2006, to September 30, 2007




                                                                                18
                                                                                                                            Details for
                                                       Report                        Total Costs   Questioned   Sustained   Questioned
No.                  Audit Title                                      Report Date
                                                       Number                        Audited ($)    Costs ($)   Costs ($)   Costs Over
                                                                                                                             $1 Million
      Closeout Audit of the Programs Titled
      "Rewarding Innovation at the District Level,"
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-03-01015-00 for the Period from
      July 1, 2005 to March 31, 2006, and
19    "Establishing Tent Schools and Cash for       5-391-08-030-R    27-Aug-2008     2,847,871      222,294     222,294
      Work Program," Grant Agreement No. 391-G-
      00-06-0169-00 for the Period from December
      9, 2005, to June 15, 2006; Managed by
      Rural Support Programmes Network
      (RSPN)

      Financial Audit of the Program Title
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
20                                                   5-391-08-032-R   19-Sep-2008     5,707,948
      391-A-00-03-01016-00, Managed by the
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited , for the Period from
      July 1, 2004, to June 30, 2005


      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
21                                                   5-391-08-034-R   25-Sep-2008     5,399,408
      391-A-00-03-01016-00, Managed by the
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited , for the Period from
      July 1, 2005, to June 30, 2006


      Financial Audit of the Program Titled
      "Improved Pakistani Family Planning and
      Reproductive Health Services,"
      USAID/Pakistan Cooperative Agreement No.
22                                                   5-391-08-035-R   26-Sep-2008     4,295,177
      391-A-00-03-01016-00, Managed by the
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited , for the Period from
      July 1, 2006, to June 30, 2007


      Financial Audit of the Interactive Teaching
      and Learning Program in Pakistan,
      USAID/Pakistan Cooperative Agreement No.
      391-A-00-06-01075-00, Managed by the
23                                                   5-391-09-006-R   15-Dec-2008     1,557,736      763,449       158
      Children's Resources International
      Pakistan (G) Limited (CRI Pakistan), for
      the Period from March 1, 2006, to June 30,
      2007


      Financial Audit of the Aga Khan University -
      Examination Board (AKU-EB),
24    USAID/Pakistan Cooperative Agreement No.       5-391-09-007-R    29-Apr-2009     979,040
      391-A-00-03-01003-00, for the Period from
      January 1, 2006, to December 31, 2006




                                                                                19
                                                                                                                             Details for
                                                       Report                        Total Costs    Questioned   Sustained   Questioned
No.                   Audit Title                                     Report Date
                                                       Number                        Audited ($)     Costs ($)   Costs ($)   Costs Over
                                                                                                                              $1 Million

      Financial Audit of the College Improvement
      Program, USAID/Pakistan Grant Agreement
      No. 391-G-00-04-01036-00, Managed by
25                                                   5-391-09-008-R    30-Apr-2009    2,631,254      1,163,564     56,008
      Forman Christian College , Lahore, for the
      Period from August 23, 2004, to June 30,
      2007


      Quality Control Review of the Audit Report
      and Audit Documentation for the Financial
      Audit Conducted by A.F. Ferguson & Co. of
      the College Improvement Program,
26                                               5-391-09-001-Q        30-Apr-2009
      USAID/Pakistan Grant Agreement No. 391-G-
      00-04-01036-00, Managed by Forman
      Christian College, Lahore, for the Period
      from August 23, 2004, to June 30, 2007

   Financial Audit of USAID/Pakistan's Rupee
26
   Trust Fund for Operating Expenses , for           5-391-09-002-N   11-May-2009      979,028
      Fiscal Years Ended September 30, 2005,
      and 2006

      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
28                                                   5-391-09-013-R    25-Jun-2009     1,776,113
      Agreement No. 391-A-00-03-01011-00,
      Managed by Khushhali Bank , for the Period
      from January 1 to December 31, 2007

      Financial Audit of the Budgetary Support,
      USAID/Pakistan Program Assistance
      Agreement Nos. 391-005-ES-05 and 391-005
29                                              5-391-09-006-N        13-Aug-2009     400,000,000
      ES-06, Managed by the Ministry of
      Finance, Government of Pakistan , for the
      Years Ended June 30, 2006, and 2007

      Financial Audit of USAID Funds Managed by
   Children's Global Network Pakistan (G)
30 Limited (formerly Children's Resources            5-391-10-012-R   22-Dec-2009     1,863,786       376,942       242
      International Pakistan (G) Limited), for the
      Year Ended June 30, 2008

      Closeout Financial Audit of the Aga Khan
      University - Examination Board (AKU-
      EB), USAID/Pakistan Cooperative
31                                                   5-391-10-020-R   10-Feb-2010     1,853,975       63,367       63,367
      Agreement No. 391-A-00-03-01003-00, for
      the Period from January 1, 2007 to
      December 31, 2007

      Closeout Financial Audit of the Program
      Entitled "Improved Pakistani Family Planning
      and Reproductive Health Services:"
      USAID/Pakistan Cooperative Agreement No.
32                                                   5-391-10-026-R   24-Mar-2010     2,146,908
      391-A-00-03-01016-00, Managed by
      Greenstar Social Marketing Pakistan
      (Guarantee) Limited , for the Period from
      July 1, 2007 to December 31, 2007




                                                                                20
                                                                                                                             Details for
                                                        Report                        Total Costs   Questioned   Sustained   Questioned
No.                   Audit Title                                      Report Date
                                                        Number                        Audited ($)    Costs ($)   Costs ($)   Costs Over
                                                                                                                              $1 Million
      Financial Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
33                                                    5-391-10-029-R    30-Apr-2010    1,653,377      89,934       65,652
      Agreement No. 391-A-00-03-01011-00,
      Managed by Khushhali Bank , for the Year
      Ended December 31, 2008

      Financial Audit of the College Improvement
      Program, USAID/Pakistan Grant Agreement
34    No. 391-G-00-04-01036-00, Managed by            5-391-10-033-R   18-May-2010      394,255
      Forman Christian College , Lahore, for the
      Period from July 1, 2007 to June 30, 2009

      Financial Audit of the Pakistan
      Competitiveness Support Fund,
      USAID/Pakistan Grant Agreement No. 391-G-
35    00-06-01073-00, Managed by                   G-391-10-001-R       4-Aug-2010     5,637,011      355,471
      Competitiveness Support Fund (CSF), for
      the Period from February 3, 2006 to June 30,
      2009
      Audit of Costs Incurred under School
      Enhancement Program Component of the
      Pakistan Education Sector Reform
      Assistance Program, USAID/Pakistan
36                                                    G-391-11-001-D    8-Nov-2010     14,432,228
      Cooperative Agreement No. 391-A-00-03-
      01000-00, Managed by the RTI
      International (RTI), for the Period from
      December 4, 2002 to December 31, 2007

      Closeout Audit of the Developing Non-
      Bankable Territories for Financial Services
      Program, USAID/Pakistan Cooperative
37                                                G-391-11-001-R       30-Dec-2010      450,607
      Agreement No. 391-A-00-03-01011-00,
      Managed by Khushhali Bank , for the Period
      from January 1, 2009 to September 30, 2009

      Closeout Audit of the Program “Interactive
      Teaching & Learning Project,
      ”USAID/Pakistan Cooperative Agreement
      No. 391-A-00-06-01075-00, and Financial
      Audit of Program “Links to Learning
38    Education Support to Pakistan,” Sub-Award       G-391-11-002-R    8-Apr-2011     1,315,348      12,669
      Under USAID/Pakistan Cooperative
      Agreement No. 391-A-00-08-01100-00,
      Managed by Children’s Global Network
      Pakistan Limited , for the Period from July
      1, 2008 to February 26, 2010
      Quality Control Review of the Audit Report
      and Audit Documentation for Financial Audits
      Conducted by Khalid Majid Rahman Sarfraz
      Rahim Iqbal Rafiq of the “Interactive
      Teaching & Learning Project,” Managed by
39                                                    G-391-11-001-Q    8-Apr-2011
      Children’s Global Network Pakistan
      Limited , Under USAID/Pakistan Cooperative
      Agreement No. 391-A-00-06-01075-00 for
      the Period from July 1, 2008, to February 26,
      2010




                                                                                 21
                                                                                                                                                        Details for
                                                        Report                                Total Costs          Questioned          Sustained        Questioned
No.                   Audit Title                                       Report Date
                                                        Number                                Audited ($)           Costs ($)          Costs ($)        Costs Over
                                                                                                                                                         $1 Million
      Quality Control Review of the Audit Report
      and Audit Documentation for Financial Audit
      Conducted by Nasir Javaid Maqsood Imran,
      of Pakistan Competitiveness Support Fund,
40    USAID/Pakistan Grant Agreement No. 391-G- G-391-11-002-Q           10-May-2011
      00-06-10730, Managed by
      Competitiveness Support Fund (CSF), for
      the Period from July 1, 2009 to June 30,
      2010
      Financial Audit of the Pakistan
      Competitiveness Support Fund,
      USAID/Pakistan Grant Agreement No. 391-G-
41    00-06-1073-00, Managed by                 G-391-11-003-R           10-May-2011            2,184,844               2,822
      Competitiveness Support Fund (CSF), for
      the Period from July 1, 2009 to June 30,
      2010
      Financial Audit of USAID/Pakistan’s Rupee
42    Trust Fund , for the Period from October 1,    G-391-11-001-N      26-May-2011            1,511,547
      2006 to September 30, 2009
      Closeout Financial Audit of the Forman
      Christian College, USAID/Pakistan Grant
      Agreement No. 391-G-00-04-01036-00,
43                                                   G-391-11-004-R      23-Jun-2011            1,974,491              122,515           90,655
      Managed by Forman Christian College
      (FCC), for the Period from July 1, 2009, to
      March 31, 2010
      Quality Control Review of the Audit Report
      and Audit Documentation for Financial Audit
      Conducted by A.F. Ferguson, of the Forman
      Christian College, USAID/Pakistan Grant
44                                                   G-391-11-003-Q      23-Jun-2011
      Agreement No. 391-G-00-04-01036-00,
      Managed by Forman Christian College
      (FCC), for the Period from July 1, 2009, to
      March 31, 2010


      Financial Audit of the Business Revitalization
      Program, USAID/Pakistan Cooperative
45    Agreement No. 391-A-00-10-01145-00,            G-391-11-005-R      21-Sep-2011            8,443,128
      Managed by Khushhali Bank , for the Period
      from February 6, 2010 to December 31, 2010



      Financial Audit of the Budgetary Support,
      USAID/Pakistan Program Assistance
      Agreement No. 391-AAG-012-IL -02,
46                                                   G-391-12-001-R      26-Oct-2011            85,000,000
      Managed by the Benazir Income Support
      Program (BISP), for the Period from
      September 30, 2009, to March 31, 2011

      Financial Audit of the Budgetary Support to
      the Government of Pakistan,
      USAID/Pakistan Program Assistance
47                                                   G-391-12-002-R       3-Nov-2011           200,000,000
      Agreement No. 391-005-ES-07, Managed by
      Ministry of Finance, for the Year Ended
      June 30, 2008
47    Financial Audits Issued                                                                $774,292,457           $6,241,740         $3,126,034
      Percentage of Costs Audited                                                                                     0.81%              0.40%

                                                    R = Recipient-     Q = Quality
      Alpha designation in report number                                                     D = Defense Contract Audit Agency Audit        N = Nonfederal audit
                                                    contracted Audit   control review




                                                                                        22
             Planned Performance Audits of
            USAID/Pakistan-Funded Activities
                                 Fiscal Year 2012
         Audit of USAID/Pakistan’s Design for Sustainability in the
                 Jamshoro Thermal Power Station Repair
                       and Maintenance Activity
USAID/Pakistan awarded an $18 million agreement to the Government of Pakistan to repair the
Jamshoro Thermal Power Station. This activity was scheduled to be completed by June 2011. One
of the principal goals of U.S. development cooperation is to promote conditions enabling
developing countries to achieve self-sustaining economic growth with equitable distribution of
benefits.

This audit will determine whether USAID/Pakistan built sustainability into the Jamshoro Thermal
Power Station Repair and Maintenance Activity.

Status: Planned.



     Follow-up Audit of USAID/Pakistan’s Livelihood Development
            Program for the Lower Region of the Federally
                      Administered Tribal Areas
In February 2008, USAID/Pakistan signed a five-year $150 million agreement with CHF
International to implement this program. In December 2010, the Office of Inspector General
issued an audit report entitled “Audit of USAID/Pakistan’s Livelihood Development Program for
the Lower Region of the Federally Administered Tribal Areas” (Audit Report No. G-391-11-001-P).

This audit will focus on six of seven recommendations in that report (excluding a recommendation
with questioned costs). Although none of the recommendations had been closed at the time of
report issuance, the mission stated in its management comments that all recommendations would
be closed by August 2011.

This audit will determine if USAID/Pakistan implemented the recommendations from Audit
Report No. G-391-11-001, dated December 10, 2010, and whether those actions were effective.

Status: Planned




                                              23
        Audit of USAID/Pakistan’s Assessment and Strengthening
           Program for Local Organizations and Government
                         of Pakistan Entities

In October 2010, USAID/Pakistan signed a $19.5 million cooperative agreement with Rural
Support Programme Network to implement USAID/Pakistan’s Assessment and Strengthening
Program for local organizations and Government of Pakistan entities. To provide assistance to the
primary implementer, USAID/Pakistan signed cooperative agreements with Lahore University of
Management Sciences for $3.8 million and Associates in Development for $8.9 million.

The primary objective of this program is to establish a mechanism that will enable USAID/Pakistan
to work with more local implementing partners and host government institutions in providing
technical assistance required to build the institutional capacity up to USAID standards.

This audit will determine whether USAID/Pakistan’s Assessment and Strengthening Program
improved the capacity of local organizations and Government of Pakistan entities to responsibly
manage USAID funds.

Status: Planned


   Audit of USAID/Pakistan’s Benazir Income Support Program

 In 2008, the Government of Pakistan launched the Benazir Income Support Program to provide a
permanent cash support mechanism for families in poverty. This program provides participating
families about $12 per month and to be delivered only to the senior female member of the family.
In February 2010, USAID/Pakistan disbursed $85 million to provide budgetary support to the
Government of Pakistan. A second disbursement of $75 million was made in July 2010 to support
this program for a total of $160 million.

This audit will determine whether USAID/Pakistan’s cash transfer provided to the Benazir Income
Support Program reached the intended beneficiaries.

Status: Planned



                     Audit of USAID/Pakistan’s Gomal Zam
                           Multipurpose Dam Project

In 2010, the Government of Pakistan requested USAID to support the Gomal Zam Dam Project
that was reportedly 88 percent completed. Consequently, in January 2011, USAID signed a $40
million agreement with the Government of Pakistan’s Water and Power Development Authority to
provide funds to finish the project.

Once completed, the dam is projected to provide electricity to 25,000 households or 200,000
people, control flooding, and generate economic activity. Also after the irrigation component is
completed, USAID expects about 191,000 acres will be served benefitting about 30,000 families.


                                               24
This audit will determine whether USAID/Pakistan’s Gomal Zam Multipurpose Dam Project is on
track to meet its budget and timelines.

Status: Planned



   Audit of USAID/Pakistan’s Monitoring and Evaluation Program
In June 2011, USAID/Pakistan signed a five-year $71 million contract to handle its independent
monitoring and evaluation program. Operating in high-threat locations such as Pakistan imposes
unique constraints on USAID’s normal mode of operations. Among these constraints has been the
inability of USAID officials to adequately monitor program activities in the field.

This program will monitor project effectiveness by collecting data through conducting site visits,
and by producing performance reports.

This audit will determine whether USAID/Pakistan is using results from its monitoring and
evaluation program to manage its portfolio.

Status: Planned



            Audit of USAID/Pakistan’s Entrepreneurs Program

In June 2009, USAID/Pakistan signed a $30 million cooperative agreement with the Mennonite
Economic Development Associates to implement the Empower Pakistan-Entrepreneurs Program.

This program is designed to increase the incomes of at least 75,000 small enterprise owners, the
majority of whom will be women, covering 20 districts in Pakistan.

This audit will determine whether USAID/Pakistan’s Empower Pakistan-Entrepreneurs program is
increasing the incomes of at least 75,000 micro-entrepreneurs and small enterprise owners.

Status: Ongoing


           Audit of USAID/Pakistan’s Reconstruction Activities
                        in Flood Affected Areas

In October 2006, USAID/Pakistan signed a $120 million contract with CDM Constructors, Inc. to
provide services that support the implementation of USAID’s Earthquake Program. Consequently
in July 2010, after the heavy rainfall in multiple regions of Pakistan that led to devastating flooding,
USAID expanded the contractor’s activities to include reconstruction of 20 schools and a hospital
in the flood affected areas.


                                                  25
This audit will determine whether USAID/Pakistan’s reconstruction activities of schools and a
hospital in the flood affected areas are being implemented effectively.

Status: Planned




                                             26
               Pakistan Performance Audits
                                Fiscal Year
                                            2012
                                       
      Audit of USAID/Pakistan’s Energy  Efficiency and Capacity Program
                             (G-391-12-002-P
                                                )

Date:                            November 23, 2011

Implementing Partner:            Government of Pakistan

Audit Period:                    July 2011 to February 2011

Funding:                         As of September 2011, USAID/Pakistan had obligated
                                 $14.9 million and spent $10.2 million on the subject
                                 contract.

Background—Summary of Findings

To help address power blackouts and other             It also had trained less than half the energy
severe supply shortages, USAID/Pakistan               sector individuals intended.
awarded a 3–year, $23.5 million contract in
March 2009 to the International Resources             After the shift in strategy, the mission
Group to focus on training in the energy              planned to install 11,000 energy efficient
sector and on a variety of conservation               irrigation pumps. Although a pilot phase
activities throughout Pakistan. In April              determined that the activity was unlikely to
2010, in response to a shift in U.S.                  succeed, the mission proceeded with the
Government strategy, the mission modified             program. By September of 2011, less than
the program’s goal to focus on reducing               1,000 pumps, or 9 percent, had been
energy demand through an activity to                  installed. This was the result of multiple
improve the efficiency of tube wells. This            problems, including the mission setting
activity was designed to replace irrigation           unrealistic goals and budgets. For instance,
pumps used by farmers with more energy–               the mission budgeted almost $1,500 per
efficient models.                                     pump, but in actuality paid almost $9,000.
                                                      In addition, partners and beneficiaries often
In the first year of the program, OIG found           did not participate as intended. The regional
that the mission had not achieved the                 energy distribution company, a key partner,
majority of its targets. It had not helped any        did not fully support the program and
distribution companies implementing                   farmers would not pay the additional cost of
conservation strategies or any energy                 installing the pump, including masonry and
companies evaluating energy efficiency,               electrical work.
upgrading equipment or with energy
conservation plans.




                                                 27
Recommendations—Management Decisions

The audit report made two recommendations:


1.     Discontinue the tube well program under the Energy Efficiency and Capacity Program at
       the end of the contract period unless the mission develops an action plan to reach program
       goals.

       USAID/Pakistan stated that it has developed a revised business plan to improve program deliverables
       and achieve the target goals. The mission is expected to approve the business plan by January 31,
       2012. This recommendation remains open.

2.     Modify the Energy Efficiency and Capacity Program contract to reflect changes in the
       statement of work.

       On September 30, 2011, the Office of Acquisition and Assistance modified the contract to address
       changes made in the statement of work. This recommendation is closed.


                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    
                                                    

                                                  28
    Audit of USAID/Pakistan’s FIRMS Project (G-391-12-001-P)


Date:                             November 3, 2011

Implementing Partner:             Chemonics International

Audit Period:                     February 2011 through June 2011

Funding:                          As of May 2011, USAID/Pakistan had obligated $42 million
                                  and expended approximately $29 million on the project. In
                                  May of 2009, an $89.8 million agreement was signed.

Background—Summary of Findings

To help improve Pakistan’s economic                    The mission also focused activities around
stability, USAID/Pakistan awarded a 4–year,            increasing sales and production of mangoes,
$89.8 million contract to Chemonics                    but these activities were a year behind
International to implement the Firms                   schedule. Further, the implementer intended
Project. In 2010, 14 months after the project          to supply processing equipment to the mango
began, USAID modified the project goal to              farmers, but did not deliver them on
promote economic development in                        schedule. One farmer did receive all of the
vulnerable areas as an alternative to                  equipment promised, but was unable to
extremism.                                             operate it because a design flaw prevented its
                                                       assembly.
Despite the mission’s attempt to increase
sales and employment in a number of                    Although a performance management plan
sectors—leather, livestock, textile, dates, and        was approved by the mission, it did not
mangoes—project activities did not increase            comply with Agency standards. As a result,
sales or employment. Efforts to boost sales            sales and employment figures were overstated
and jobs were stalled, and activities to               and methods for collecting data are currently
improve competitiveness through economic               inconsistent and unreliable. In addition, the
policy reform were behind schedule. This is            contracting officer’s technical representative
in part because of shifts in the mission’s             (COTR) did not provide sufficient
strategy that resulted in the cancellation of          monitoring and oversight, in particular for
these activities. In addition, the mission did         the procurement process.
not set realistic targets. For example, though
Chemonics was tasked with working with the             For instance, the COTR did not conduct any
government of Pakistan to enact regulatory             site visits to the project and approved over 20
reform, they are not expected to achieve this          invoices without knowing whether the
by 2013. According to Chemonics, long term             material ordered had been received.
reform is a 10- to 12-year process because of          Consequently, the mission did not discover
all of the stakeholders involved.                      multiple problems in the process.




                                                  29
Recommendations—Management Decisions

The audit report made 9 recommendations:


1.     Develop and implement a plan with measurable targets to help ensure the mango activity
       achieves its contract goals.

       The Office of Economic Growth (EG) has developed and implemented a monitoring plan to track the
       progress of the partner mango farmers. Final action has been taken, and Recommendation 1 is
       closed.

2.     Develop and implement a performance management plan for the Firms Project that
       complies with USAID’s Automated Directives System (ADS) 203 and adjusts targets to
       reflect strategy shifts, delays, and current conditions.

       The EG office is revising the Performance Management Plan so that the results framework reflects the
       shift in geographical focus, the change in scope, and current conditions. Mission officials estimate that
       this document will be completed and implemented by January 31, 2012. A management decision has
       been reached on Recommendation 2. This recommendation remains open.

3.     Develop procedures to collect and analyze indicator results periodically to measure progress
       toward planned results in accordance with ADS Chapter 203.

       The mission has initiated a mission-wide independent monitoring and evaluation contract on all
       mission program activities. The scope of this contract is to provide verification, monitoring,
       evaluation, and reporting for all mission projects throughout Pakistan in compliance with ADS 203.
       Final action has been taken, and Recommendation 3 is closed.

4.     Instruct Chemonics to exclude from project sales totals all procurements from local
       vendors.

       The mission has instructed Chemonics to use the standard sales definition when reporting sales and
       not to include procurements from local vendors as increases to sales and employment. Final action
       has been taken, and Recommendation 4 is closed.

5.     Determine the allowability of $1,359,337 in questioned costs (unsupported) and recover
       those costs determined to be unallowable.

       The Office of Acquisition and Assistance, the Office of Financial Management, and the technical
       office (EG) will investigate the unsupported questioned costs and make a decision on those costs. A
       management decision on this recommendation will be reached when USAID/Pakistan determines
       whether the questioned costs are allowed or disallowed; final action will occur when any disallowed
       amount is collected. This recommendation remains open.

6.     Verify that Chemonics has corrected all procurement deficiencies identified in this report.




                                                     30
     The mission plans a financial review of Firms Project costs that will verify that Chemonics has
     corrected all procurement deficiencies identified in this report on or by June 30, 2012. This
     recommendation remains open.

7.   Develop and implement procedures to conduct site visits to ensure goods and services
     acquired under the Firms contract are maintained in accordance with Agency property
     management standards and requirements.

     USAID/Pakistan has modified the contract to include procedures to conduct site visits to ensure that
     contract goods and services are received and maintained according to Agency standards. Final action
     has been taken, and Recommendation 7 is closed.

8.   Reassess the project component devoted to improving the business-enabling environment
     and develop meaningful targets that align with Firms Project goals.

     The EG office has been working with Chemonics to develop an improved set of results and
     corresponding indicators that cover the business-enabling environment component. The Logical
     Framework Analysis and PMP will be finalized by January 31, 2012. This recommendation remains
     open.

9.   Complete and file all past performance reports in accordance with federal and USAID
     policies and procedures.

     USAID/Pakistan initiated the process of completing and filing all past performance reports for years
     2009 and 2010. As of September 2011, all past performance reports had been filed in the
     Contractor Performance Assessment Reporting System. Final action has been taken, and
     Recommendation 9 is closed.




                                                 31
  
  




32
                Pakistan Performance Audits
                                  Fiscal Year
                                              2011
                                                      
          Audit of USAID/Pakistan’s Community Rehabilitation
                    Infrastructure (G-391-11-006-P)


Date:                              August 29, 2011

Implementing Partner:              Winrock International

Audit Period:                      February 2009 through March 31, 2011

Funding:                           As of March 31, 2011, USAID/Pakistan had obligated
                                   $41.9 million and expended approximately $16.9 million on the
                                   program.

Background—Summary of Findings

One of the many problems facing Pakistan is              Part of the program’s lack of progress was
poor infrastructure for delivering basic                 due to poor program design. Although
human services such as education, health                 Winrock is the main implementer,
care, water supply, sanitation, electricity, and         70 percent of the award’s budget was
transportation. To address these issues,                 implemented by subcontractors, who in turn
USAID/Pakistan signed a 5–year,                          also employed subcontractors. Employing
$150 million cooperative agreement with                  multiple subcontractors led to duplicate
Winrock International to implement the                   layers of construction oversight. According
Community Rehabilitation Infrastructure                  to the mission, Winrock did not have the
Support Program (CRISP).                                 staff or technical expertise to monitor
                                                         subcontractors’ management of the projects
OIG found that the mission and CRISP had                 effectively. In the few cases where projects
made very little progress toward achieving               were completed, the mission often did not
any of the main goals of the project.                    consider whether the project could be
Although tasked with rebuilding or                       sustained. For instance, $900,000 worth of
renovating up to 2,000 schools and                       furniture and equipment was delivered to the
constructing up to 350 small– to medium–                 Khyber Institute of Child Health in
sized infrastructure projects, the program was           Peshawar, but a year after its delivery, most of
far behind schedule. Specifically, more than             the material remained in storage unused. The
2 years after signing the agreement, the                 institute’s director said that the institute did
mission had completed only four minor                    not have the funding to support the
renovations of universities, six career centers,         operations of the facility, adding he could
two design projects, and conducted two                   not even pay the monthly electric bill. By not
feasibility studies and the procurement of               ensuring that the institute was viable, the
furniture and equipment for a children’s                 mission spent more than $900,000 that
health institute.                                        could have been put to better use.




                                                   33
Moreover, an internal control was often                   mission established an unwritten policy to
bypassed in order to approve projects above               bypass this step and approved nearly
$500,000, which according to the project’s                $13 million in projects that did not follow
activity approval document, required written              the program’s objectives. Furthermore, the
consent. When the new mission director did                mission approved cost–sharing contributions
not want to authorize the projects, the                   from the project that cannot be supported.

Recommendations—Management Decisions

The audit report made 10 recommendations:

1.      Evaluate the implementing mechanism for the program and determine how to restructure
        it to realize efficiencies in program implementation.

        On May 17, 2011, the mission notified the program’s implementing partner that USAID would be
        restructuring the program to prevent further program delays and inefficiencies. USAID believes that
        excluding large-scale construction projects from the program will allow the cooperative agreement to
        function within the capabilities and capacity of the program staff and will ensure that small-scale
        construction and other activities are undertaken effectively. The mission has taken steps to address
        this deficiency and the recommendation is closed.

2.      Establish performance indicators and targets for each activity implemented by CRISP, and
        document that the results of these activities are included in the mission’s performance
        management plan.

        Mission officials informed us that they are revising the CRISP performance management plan, which
        will include targets for measuring results. As part of a mission-wide exercise to report on results
        generated by implementing partners, program resource management has worked closely with the
        CRISP team and the mission’s technical teams to incorporate results in the mission’s performance
        management plan. This recommendation has been closed.

3.      Develop and implement an action plan to determine the best use for the equipment and
        furniture at the Khyber Institute of Child Health.

        The mission agreed with the recommendation. The mission planned to develop and implement an
        action plan to determine the best use for the equipment and furniture at the Khyber Institute of Child
        Health. This recommendation remains open.

4.      Revise the activity approval process to include a sustainability analysis for all infrastructure
        activities implemented under this program, regardless of the funding level.

        The mission planned to revise the CRISP activity approval process to include a sustainability
        analysis/plan for all infrastructure activities implemented under this program, regardless of the
        funding level. This recommendation remains open.

5.      Review the list of all educational institutions receiving assistance with construction
        supervision under the program’s Infrastructure Support and Capacity Development Project




                                                    34
      to determine whether any are religious institutions, and recover any costs deemed
      unallowable.

      The mission is obtaining further details on all educational institutions receiving assistance with
      construction supervision under the Infrastructure Support and Capacity Development Project. This
      information will be analyzed to determine whether any adjustments to programs, or recovery of
      unallowable costs, are warranted. The mission planned to convey these results to OIG/Pakistan
      under a separate memorandum on or before September 15, 2011. This recommendation is closed.

6.    Develop and implement a plan to increase awareness among mission and implementing
      partner staff of USAID’s policy prohibiting the funding of religious activities.

      The mission, in coordination with the USAID/Washington Office of General Council, will develop
      and conduct training sessions for contracting and agreement officers’ technical representatives
      regarding legal prohibitions including funding of religious activities. The mission will also instruct
      implementing partners to contact USAID for guidance if they suspect that a potential problem with
      funding religious institutions may arise. This recommendation remains open.

7.    Determine whether to amend or follow the program’s internal control procedure requiring
      the mission director’s approval for all activities exceeding $500,000.

      Because funding is approved in the Activity Approval Document, the mission has decided to delete the
      procedure requiring the mission director’s approval for all activities exceeding $500,000 and will
      formalize this change in an action memo. This recommendation remains open.

8.    Obtain an updated marking plan from the implementing partner within 90 days, and
      implement a plan to monitor the status of the implementing partner’s marking plan.

      The mission has obtained a revised marking plan from the implementing partner. Moreover, a
      mission-wide monitoring and evaluation contract was recently awarded. This contract includes
      responsibilities for the contractor to monitor the compliance of all implementers with the full terms of
      their agreement with USAID. This includes compliance with USAID branding and marking
      requirements. This recommendation remains open.

9.    Modify the cooperative agreement to require that cost-sharing contributions for all
      activities be calculated on a flexible, case-by-case basis.

      The mission will modify the cooperative agreement to allow cost-sharing contributions on a flexible,
      case-by-case basis. This recommendation remains open.

10.   Notify the program’s implementing partner that the previously submitted cost-sharing
      contributions totaling $4.7 million are ineligible, and amend the program’s financial
      reports.

      The mission will issue a modification to the cooperative agreement, removing the rigid cost-sharing
      contribution requirement. The program’s financial reports shall also be amended. This
      recommendation remains open.




                                                   35
         Audit of USAID/Pakistan’s Road Rehabilitation and
      Reconstruction Activities Under
                                    the Quick Impact Projects
                         in South Waziristan
                          (G-391-11-005-P)

Date:                              June 20, 2011

Implementing Partner:              Government of Pakistan

Audit Period:                      December 31, 2009, to February 2011

Funding:                           As of December 2009, USAID had committed $55 million.


Background—Summary of Findings

                                                        The FATA Secretariat hired the Frontier
In 2009, the Governments of Pakistan and                Works Organization (Frontier Works) of
the United States signed a strategic                    Pakistan to carry out road activities. For
agreement that provided a commitment to                 additional support, Frontier Works
help generate broad-based economic growth               subcontracted with the Pakistani engineering
through infrastructure development.                     firm National Engineering Services Pakistan
According to the agreement, USAID is                    Limited (NESPAK). Both Frontier Works
providing $55 million directly to the                   and NESPAK have extensive experience in
Federally Administered Tribal Areas (FATA)              building roads and other infrastructure
Secretariat to implement Quick Impact                   projects, and both will work on all of the
Projects (i.e., rebuild roads, develop water            Quick Impact Projects in South Waziristan,
infrastructure, and improve power systems).             including the water infrastructure and power
                                                        systems. OIG found that these two entities
The OIG conducted an audit of these                     contributed to the initial success of the road
activities in South Waziristan, part of FATA.           activities.
Despite some difficulties OIG noted with
mission operations, auditors determined that            Despite early successes, however, OIG found
the road rebuilding efforts were on track.              room for improvement: The scope of work
Two sections of road totaling 215 kilometers            for the contractor to build the capacity of the
were completed to specifications and had met            FATA secretariat was too broad, and
all requirements for reimbursement by                   subsequent changes caused deliverables to be
USAID. Although security issues caused                  far behind schedule. Contract files were
some delays, work progressed on schedule.               missing critical documentation such as
                                                        branding and marking plans, site visit
Multiple site visits by officials from the local        reports, meeting notes, and correspondence
satellite office in Peshawar have strengthened          with contractors, including documentation
the management of the road activities, and              related to extensions and justifications.
the use of fixed-amount reimbursement                   Environmental assessments did not meet
agreements has reduced financial risk to the            regulations and caused delays of up to
program.                                                5 months. In addition, although no ethical
                                                        problems arose; neither the mission nor the
                                                        contractor had ethics procedures or policies


                                                   36
in place, as required, to ensure that                    the USAID’s ethical standards and its
employees working on projects were aware of              position on conflicts of interest.

Recommendations—Management Decisions

The audit report made nine recommendations:

1.     Designate one person in each technical office who has received training to oversee
       environmental compliance for projects and activities.

       The mission now has four individuals whose primary roles include environmental review
       responsibilities. The Mission Environmental Officer has also provided direct training to mission staff
       who manage programs to improve their monitoring environmental compliance for projects and
       activities. This recommendation is closed.

2.     Identify projects planned for the next three years to determine whether the mission has a
       sufficient level of support and technical expertise for environmental compliance.

       With a new re-focused sectoral strategy, the mission stated that it is ready to plan programs over the
       next three years. The mission stated that this, along with a management unit reduction exercise which
       was completed in March 2011, has increased its awareness of the environmental compliance issues
       related to its portfolio. This recommendation is closed.

3.     Revise the scope of work and reduce the contract amount for financial and management
       support for the Quick Impact Projects.

       The mission stated that the task of capacity building has been handed over to the Assessment and
       Strengthening Program (ASP). Associates in Development, a partner in the ASP Program, is
       reworking on the mapping report that was initially produced by Ernest & Young with a reduced scope
       of capacity building which has been agreed by the Director General-Directorate of Project, FATA
       Secretariat and USAID technical team at Peshawar. This recommendation is closed.

4.     Verify that the USAID contractor, Associates in Development, has a code of business
       ethics and conduct that meets USAID standards and regulations.

       The mission stated that the contract with Associates in Development was modified to incorporate the
       standard clause for code of business ethics and conduct that meets USAID standards and regulations.
       This recommendation is closed.

5.     Provide implementers with copies of USAID’s policies on ethics and conflicts of interest
       and with written explanations and examples of potential conflicts.

       A management decision was reached upon report issuance. The mission agreed with the
       recommendation. The mission plans to circulate USAID guidance on ethics and conflicts of interest
       related to USAID award recipients to its implementers. This recommendation remains open.

6.     Designate personnel to provide guidance on conflicts of interest and to monitor
       implementers’ compliance with ethics policies and procedures.


                                                   37
     The mission stated that the Offices of Acquisition and Assistance (OAA) Director in Pakistan, in
     cooperation with the Compliance and Oversight Division for Partner Performance in Washington,
     will be the designated person to provide guidance and monitor compliance of conflicts of interest and
     ethics policies and procedures with implementers. Similarly, Regional Legal Advisor (RLA) would be
     the focal person for all issues pertaining to monitoring and compliance of conflicts of interest and
     ethics in government-to-government arrangements. This recommendation is closed.

7.   Develop and implement a plan for periodic internal review of contract files for compliance.

     The mission has developed a plan for quarterly internal review of contract files. This plan provides
     guidelines for reviewing the Contracting Officer’s Technical Representative (COTR)/Agreement
     Officer’s Technical Representative (AOTR) files on a quarterly basis. The Acquisition and Assistance
     Specialist is responsible for reviewing the files in accordance with the responsibilities in the
     COTR/AOTR appointment letter. This recommendation is closed.

8.   Develop and implement a plan to monitor and document the status of contractors’
     branding and marking plans and provide training as necessary.

     A management decision was reached upon report issuance. The mission agreed with the
     recommendation and indicated that it would put a new monitoring & evaluation contract in place.
     This contract will monitor compliance of implementers with the full terms of their agreement with
     USAID. This is to include compliance with USAID branding and marking requirements as identified
     in their agreement and agency guidance. This recommendation remains open.

9.   Provide additional details to the FATA Secretariat concerning publicizing and marking
     USAID’s contribution to the Quick Impact Projects.

     The mission agreed with the recommendation. The mission will engage a media support contractor to
     ensure wider dissemination of information about the range and impact of our assistance programs.
     The mission will assist the FATA Secretariat in publicizing and marking USAID’s contribution to
     programs in FATA. This recommendation remains open.




                                                 38
                 Audit of USAID/Pakistan’s Management of
                           Preaward Assessments
                              (G-391-11-004-P)
                                                  
Date:                            May 6, 2011

Implementing Partner:            Pakistan’s Higher Education Commission; Health Services
                                 Academy; Ministry of Finance; Provincial Relief, Rehabilitation
                                 and Settlement Authority; United Bank Limited; Benazir Income
                                 Support; Rafi Peer Theater Workshop; Aga Khan University,
                                 Associates in Development; Children’s Global Network; Dosti
                                 Welfare Organization; Foreman Christian College; Rural Support
                                 Programmes Network; Sebcon Ltd; United States Educational
                                 Foundation; Habib Rafiq International Limited; Transparency
                                 International Pakistan; Anjum Asim Shahid Associates;
                                 Khushhali Bank; Pakistan Poverty Alleviation Fund; GreenStar
                                 Social Marketing; KPMG; Ages Consultants

Audit Period:                    November 8, 2010, to January 28, 2011

Funding:                         For fiscal years 2009 and 2010, USAID/Pakistan signed
                                 agreements with various Pakistani recipients, under which it
                                 obligated nearly $588 million and disbursed approximately $448
                                 million.

Background—Summary of Findings

The Enhanced Partnership with Pakistan Act           recognized the challenges and took proactive
of 2009 authorized $7.5 billion in U.S.              steps to address the risks. A key step taken by
government assistance over 5 years to                the mission was to contract with
promote an enhanced strategic partnership            international and local accounting firms to
with Pakistan and its people. In authorizing         conduct preaward assessments of potential
these funds, the act encourages the use of           first-time recipients. The intent of these
Pakistani firms and nongovernmental                  assessments is to determine whether the
organizations to work with local leaders to          recipients can effectively manage and account
build local capacity. To facilitate this             for these funds.
strategy, USAID estimated that
approximately 50 percent of fiscal year 2010         OIG’s audit on USAID/Pakistan’s
funding, or $750 million, would go through           management of pre-award assessments found
Pakistani federal and provincial agencies and        that mission’s preaward process provided a
local organizations.                                 reasonable basis for identifying significant
                                                     financial management vulnerabilities;
With the implementation of the strategy to           however, the audit noted weaknesses in the
build Pakistani capacity, concerns have been         mission’s management of the preaward
raised in the media and the U.S.                     process. The mission did not prioritize or
Government that providing too much money             follow up on significant vulnerabilities
to Pakistani recipients too quickly could            identified in assessments. Of the 28
jeopardize U.S. funds. USAID/Pakistan                assessment reports completed during fiscal


                                                39
year 2010, the 8 selected for testing noted                and determining which of the 250
over 250 weaknesses in the potential                       weaknesses should or should not be
recipients’ ability to properly manage funds.              prioritized.
The mission included 55 of the reported
weaknesses in the recipients’ agreements and               Many weaknesses resulted from the mission
stipulated that the weaknesses should be                   not including in the recipients’ agreements
adequately addressed before or after the                   information on the recipients’ payment
initial disbursement of funds. The mission                 mechanisms and systems for procurement,
did not include or otherwise address the                   accounting and overall monitoring and
remaining 195 weaknesses because it did not                assessment.
have a comprehensive plan for prioritizing

Recommendations—Management Decisions

The audit report made four recommendations:

1.      Develop and implement a risk-assessment model to use in determining which of the
        weaknesses identified in the preaward assessments should be addressed before or after the
        disbursement of funds.

        The mission concurred with this recommendation. The following corrective actions have been started
        to address the recommendation: The mission developed a Risk Mitigation Framework (RMF) to
        outline and determine actions to be taken based on the conditions/risks identified in the pre-award
        assessment report.

        An RMF template has been developed and implemented missionwide. The mission is in the process of
        formalizing a standard template of the memo requesting approval from the Deputy Mission Director
        for the implementation of RMF actions. Corrective actions on this recommendation have been taken,
        and this recommendation is closed.

2.      Develop and implement a comprehensive tracking system with benchmarks and time
        frames for measuring progress on resolving weaknesses that are identified in the pre-award
        assessment reports.

        The mission concurred with this recommendation. The RMF has benchmarks and time frames for
        measuring progress resolving weaknesses that are identified in the pre-award assessment reports. The
        technical officer is responsible for keeping track of progress on resolving weaknesses within agreed
        timeframe. Corrective actions on this recommendation have been taken and this recommendation is
        closed.

3.      Develop and implement written guidelines to follow when determining whether pre-
        disbursement recommendations have been adequately addressed.

        The mission concurred with this recommendation and its RMF provides for the deliverables along
        with timelines, and indicates the responsible person/office to address the pre-award recommendations
        that mission management considers important. The technical officer does actively follows-up on the
        status of open conditions and keeps the involved offices updated as to the status and the related action
        items. Corrective actions on this recommendation have been taken, and this recommendation is
        closed.


                                                     40
4.   Develop and implement written procedures for reviewing the pre-award assessments
     reports, including guidelines for testing the supporting documentation.

     USAID/Pakistan’s Office of Financial Management developed a plan and procedure for reviewing
     the preaward assessment reports and conducting tests of supporting documentation on a random
     sample of reports. This recommendation is closed.




                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               
                                               


                                             41
                                                    
 Audit of USAID/Pakistan’s Flood Relief Efforts as Administered by
                                 
             Local Nongovernmental    Organizations
                                 
                        (G-391-11-003-P)


Date:                             January 24, 2011

Implementing Partner:             Pakistan Poverty Alleviation Fund (PPAF) and Rural Support
                                  Programmes Network (RSPN)

Audit Period:                     August 13, 2010 to November 15, 2010

Funding:                          As of November 30, 2010, USAID had obligated approximately
                                  $5 million and expended $3.7 million.



Background—Summary of Findings

Heavy rainfall in multiple regions of Pakistan         implementation plans, implementing partner
led to devastating flooding in July 2010. The          agreements, performance measures, and
flooding affected 82 of Pakistan’s 122                 performance results.
districts and displaced 12 million people, half
of whom required humanitarian assistance.              Auditors found that USAID/Pakistan’s
                                                       implementing partners delivered food
USAID/Pakistan committed $10 million for               hampers, hygiene kits, and medical supplies
emergency flood relief efforts through                 to meet the immediate needs of the flood
cooperative agreements. Five million dollars           victims. As of November 15, 2010, the two
was awarded to two Pakistani                           implementers reported distributing food and
nongovernmental organizations (NGOs):                  hygiene kits to 80,098 households and
PPAF and RSPN.                                         administering medical supplies and
                                                       treatment to an affected population of
The two NGOs were to provide immediate                 159,620 people and 307,116 livestock.
relief in the provinces of Balochistan, Punjab,
Sindh, and Khyber Pakhtunkhwa in the form              Auditors observed that PPAF issued food
of food hampers and hygiene kits, and                  hampers and hygiene kit tokens to each
medical supplies to an affected population of          household. PPAF established separate teams
190,058 people.                                        for token registration, token distribution,
                                                       and distribution of the relief items. In
OIG conducted this audit to determine                  establishing a distribution policy, PPAF gave
whether USAID/Pakistan’s flood relief                  priority to households that had not received
efforts were meeting the immediate needs of            any aid from other donors.
the flood victims. To answer the audit
objective, we reviewed mission                         Auditors observed that PPAF teams followed
documentation related to managing and                  the organization’s distribution policy. First,
monitoring the program, including                      the team responsible for distribution of the


                                                  42
relief items matched recipients’ tokens and             counter where they exchanged their tokens
Pakistani national identity cards to recipients’        for food hampers and hygiene kits. Lastly,
names on the master token distribution list.            the team collected recipients’ signatures or
Second, the team directed recipients to a               thumb impressions to record the transaction.

Recommendations—Management Decisions

The audit report made no recommendations. Therefore, no additional action was required by
USAID/Pakistan to address the results of this audit report.
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     
                                                     

                                                   43
                                                  
  Audit of USAID/Pakistan’s Livelihood Development Program for
                                 
   the Upper Region of the Federally Administered Tribal Areas
                                 
                        (G-391-11-002-P)
                                                  

Date:                           December 10, 2010

Implementing Partner:           Academy for Educational Development

Audit Period:                   April 2008 to June 2010

Funding:                        As of June 2010, USAID had obligated approximately
                                $60 million and expended approximately $46.8 million.

Background—Summary of Findings

The Federally Administered Tribal Areas              growing influence of extremist and terrorist
(FATA) of Pakistan have high                         groups in upper FATA. The mission had no
unemployment, widespread poverty, and                baseline data to determine progress toward
separate legal structures. Located in                countering the influence of these groups. In
northwestern Pakistan, FATA shares its               addition, the program had executed only 53
rugged and mountainous border with                   percent of planned activities, and program
Afghanistan. Extremist and terrorist groups          outcomes were weak.
take advantage of the geographic and social
isolation and lack of governing systems to           Security issues were the main cause of the
exert their influence on the people of this          delays and poor performance. Specific
region. Development in FATA has become               incidents included the assassination of the
vital to Pakistan’s progress in fighting             chief of party for the lower FATA’s
insurgents.                                          implementer, the kidnapping of an aid
                                                     worker, and threats to monitoring teams.
The main goal of the Livelihood                      Allegations of wrongdoing also impeded
Development Program is to provide social             progress. The implementer stated that
and economic stabilization in FATA to                program activities were delayed because the
counter the growing influence of extremist           implementer had to counter these allegations
groups. The program has three components:            and because of additional tiers of oversight
1) creating jobs, increasing incomes, and            put in place to ensure greater accountability.
teaching employable skills with a focus on           Moreover, program activities stopped for six
unemployed youth, 2) revitalizing community          months until security measures were
infrastructure and essential services, and 3)        improved and a new chief of party was
supporting established businesses and                appointed.
developing new sustainable businesses.
                                                     Two additional factors contributed to
After a review of the first two years of             program delays. First, USAID/Pakistan used
activities, OIG found that the program has           program resources to provide humanitarian
not achieved its main goal of social and             and disaster assistance to flood victims and
economic stabilization to counter the                internally displaced persons fleeing conflict



                                                44
areas of FATA. The assistance began in                     not follow management controls. Technical
August 2008, only months after the upper                   staff in the mission addressed contractual
FATA program started, and continued until                  matters that should be handled only by the
the implementer’s termination. Mission                     agreement officer or took action without
officials acknowledged that the work diverted              proper approvals.
time and resources from Livelihood
Development Program (LDP) activities.                      Additionally, USAID/Pakistan relied on
Second, in September 2009 the U.S.                         contractors to perform services closely related
Department of State (State Department)                     to inherently governmental functions. A
initiated a shift in strategy toward using more            third-party contractor’s conflict of interest in
Pakistani institutions to implement USAID                  overseeing another contractor’s work created
programs. During this time, all                            risks when the mission did not address the
USAID/Pakistan incremental funding                         gap in services created by the conflict.
requests went through the State Department
for approval. The delays in incremental                    The auditors did not suggest terminating the
funding created more budgetary problems for                program. The audit shows that performance
the program.                                               deteriorated when USAID/Pakistan staff
                                                           overrode management controls and bypassed
Despite some successes, overall progress for               organizational structures. Much time and
program activities was slow, largely because of            funding went toward disaster response and
the intervening factors already mentioned.                 emergency relief efforts, draining resources
Although some factors were beyond the                      from the planned LDP activities. In
mission’s control, USAID/Pakistan needs to                 addition, allowing outside pressures to take
address the following problems that are                    precedence over important management
within its control. USAID/Pakistan staff did               controls led to poor results in work

Recommendations—Management Decisions

The audit report made five recommendations:

1.      Develop and implement a periodic training program for mission staff that clearly defines
        the authority, responsibility, and accountability of agreement officers, technical
        representatives, and program staff.

        Mission management concurred with this recommendation. OAA at USAID/Pakistan has already
        issued three Acquisition and Assistance Notices subsequent to issuance of this audit report that
        establish clear policies for mission staff on these matters. A notice regarding conflict of interest was
        issued, a notice on out of scope changes was issued, and finally a notice on Continuing Education for
        Contracting and Assistance Officer Technical Representatives (COTR/AOTR) was issued. This
        recommendation is closed.

2.      Develop a plan, in compliance with Federal Acquisition Regulation 37.114 and the OMB
        guidance to provide proper oversight and management of contractors that support contract
        and agreement administration.

        The mission planned to develop a matrix to assist with the mission’s oversight and management of
        contractors, including supervisors of technical representatives. The mission compiled the matrix and
        vetted it among mission offices. The matrix was implemented as a tool to determine whether or not
        each contractor has an acceptable level of adequate oversight. This recommendation is closed.


                                                     45
3.   Analyze the mission’s internal capability for control and management of contractors
     working on the Livelihood Development Program, taking into account the goals of the
     program, the complexity of the work, the need for specialized skills, and the effect of
     contactor default on the program performance.

     The mission agreed with the recommendation and planned to complete its analysis by June 30, 2011.
     This recommendation is closed.

4.   Develop and implement a mission workforce plan with guidelines for the consideration of
     using more U.S. federal personnel (known as U.S. direct hires) for positions involved in
     services closely associated with inherently governmental functions.

     The mission scheduled a review of the mission’s staffing levels in December 2010. This team planned
     to suggest changes as necessary to the mission director on staffing levels, with the goal of optimizing
     overall programmatic and support staff levels based on the current workload and other relevant issues.
     This recommendation is closed.

5.   Develop and implement definitive plans for the Livelihood Development Program
     regarding the shift toward more direct funding to Pakistani institutions, including
     incremental funding, budgets, transition plans, and any other information that requires
     modifications of relevant agreements and contracts.

     The mission concurred with this recommendation. Cooperative Agreement No. 391-A-00-08-01107
     for FATA Livelihood Development Programs was terminated on June 4, 2010. A Deputy Mission
     Director has since been assigned to the Peshawar Consulate to communicate changes to
     implementation plans as a representative of USAID/Pakistan. The recommendation was closed.




                                                  46
                                                   
   Audit of USAID/Pakistan’s Livelihood Development Program for
                                 
    the Lower Region of the Federally Administered Tribal Areas
                         (G-391-11-001-P)
                                 
                                                   
Date:                            December 10, 2010

Implementing Partner:            N/A

Audit Period:                    March 2008 to March 2010

Funding:                         As of March 31, 2010, USAID had obligated approximately
                                 $30 million and expended approximately $48 million.

Background—Summary of Findings

Pakistan’s mountains FATA is located on the           social and economic stabilization in the lower
border with Afghanistan. FATA is one of the           FATA region.
most underdeveloped regions in Pakistan,
where only 17 percent of the overall                  The audit found that USAID/Pakistan had
population is literate. FATA’s weak economy,          made little progress in reaching annual
widespread unemployment, lack of social               targets. It must be emphasized that the main
services, and ineffective government make it          cause for the program achieving so little was
susceptible to the spread of extremism.               the hostile environment in FATA. The
According to USAID/Pakistan, countering               implementing partner experienced
extremist influences in FATA will require a           kidnappings, harassments, and the tragic
robust economic development program. In               assassination of its chief of party in
response to this need, USAID/Pakistan                 November 2008; consequently, program
established the FATA Livelihood                       activities stopped for 6 months until security
Development Program.                                  measures were improved and a new chief of
                                                      party took office. During this time, the
The main goal of the program is to provide            implementing partner relocated its country
social and economic stabilization in FATA to          office from Peshawar to Islamabad.
counter the growing influence of extremist
groups. To measure progress in attaining this         Although the hostile situation contributed to
goal, the mission established outcome                 the program’s limited results, the mission did
measures and targets for each measure.                not ensure adequate monitoring and
Targets for the program include creating              oversight to achieve program goals. In
29,375 long-term jobs and reaching a goal of          addition, the program’s ability to achieve
55 percent of FATA citizens expressing                planned results was hindered by a strategic
satisfaction with the basic public services by        shift in U.S. Government strategy and the
March 2013.                                           mission’s request to provide humanitarian
                                                      assistance activities.
OIG audited the program to determine
whether it was achieving its main goal of             In September 2009, the U.S. Government’s
                                                      strategy shifted toward greater involvement of


                                                 47
Pakistani organizations in implementing U.S.              spent on direct program activities, $2.7
assistance programs. As a result, the mission             million of that going to humanitarian
began to rethink its strategy of providing the            assistance activities.
bulk of its program assistance through
U.S.-based implementers.                                  To improve program implementation, we
                                                          recommend that the mission revisit the
As a result of the setbacks and shifts in                 program’s measures and targets to ensure
implementation, program funds were not                    they are in line with overall program goals
used efficiently. For example, according to               and that progress can be measured; improve
the implementing partner, it expended                     monitoring of the program; and collaborate
$29.2 million in the first 2 years of the                 more closely with implementing partners
program; however, only $7.6 million was                   regarding security in FATA.


Recommendations—Management Decisions

The audit report made seven recommendations:

1.      Revise the implementer’s third-year implementation plan to establish ambitious, yet
        achievable, targets, outcomes, and goals, and modify the cooperative agreement to reflect
        these changes.

        A management decision was reached upon issuance of the audit report. USAID/Pakistan issued a
        modification to a cooperative agreement on December 23, 2010, approving a revised third-year
        implementation plan to establish ambitious yet achievable targets with a focus on new work activities
        in the areas of agriculture, agribusiness development, minerals and mining during year three
        implementation. This recommendation is closed.

2.      Develop and implement a plan to collect baseline data so that progress in achieving the
        program’s outcomes and goals can be measured throughout the remainder of the program.

        A management decision was reached upon issuance of the audit report. USAID/Pakistan signed a
        contract with Development Executives on July 29, 2011, to conduct a mid-term evaluation of the
        subject project. The cooperative agreement was also modified to include PakInfo tracking and
        reporting requirements for program monitoring and progress in achieving program outcomes which is
        to be measured throughout the life of the program. This recommendation is closed.

3.      Develop written procedures to document, track, and take corrective action on all
        deficiencies identified in reports by independent monitoring reviewers.

        A management decision was reached upon issuance of the audit report based on the RIG/Pakistan
        agreement to the USAID/Pakistan comments dated November 29, 2010. USAID/Pakistan in
        consultation with the implementing partner developed procedures for documenting and tracking third
        party observations for this program. The procedures require the implementing partner to submit a
        monthly report from third party monitors and rectify identified deficiencies. In addition, an
        independent review team revisits the implementer to verify the corrective measures were taken. This
        recommendation is closed.




                                                    48
4.   Verify that material internal control weaknesses identified in the financial review are
     corrected, and document the results.

     A management decision was reached upon issuance of the audit report based on the RIG/Pakistan
     agreement to the USAID/Pakistan comments dated November 29, 2010. USAID/ Pakistan’s
     Office of Acquisition and Assistance certified that all material internal control weaknesses identified
     in the financial review have been satisfactorily addressed. The recent annual audit report for FY2010
     does not identify any control weaknesses. This recommendation is closed.

5.   Make a management decision regarding the allowability of and recover, as appropriate,
     questioned costs of $767,841 ($432,482 ineligible and $335,359 unsupported) identified
     in the financial review and recover those costs determined to be unallowable.

     The Office of Acquisition and Assistance will work in collaboration with the Office of Financial
     management and technical offices to investigate the allowability of the questioned costs. This
     recommendation remains open.

6.   Issue a mission order that establishes security standards to be used when reviewing
     implementing partners’ security plans and when collaborating with these partners
     throughout implementation

     A management decision was reached upon issuance of the audit report. USAID/Pakistan issued a
     Mission Order entitled “Submission and Review of Security Plans of Implementing Partners”
     establishing security guidance procedures for implementing partners on February 7, 2011. This
     recommendation is closed.

7.   Revisit the implementing partner’s approved request for additional security funding,
     document any adjustment needed, and make a written determination regarding the
     provision of funding.

     A management decision was reached upon issuance of the audit report. USAID/Pakistan issued a
     memorandum to re-orient FATA Livelihood Development Program to bring new partners on board
     and allow the implementing partner to continue with their ongoing activities with funds already sub-
     obligated in the agreement. However, the requirement to revisit the additional security funding is not
     required as the cooperative agreement with the implementing partner will run out of funds and close
     out by the end of 2011. This recommendation is closed.




                                                  49
50
                 Pakistan Performance Audits
                                   Fiscal Year 2010
             Audit of USAID/Pakistan’s Family Advancement for
                 Life and Health Program (5-391-10-012-P)

Date:                            August 31, 2010

Implementing Partner:            The Population Council

Audit Period:                    June 1, 2007, through April 28, 2010

Funding:                         As of April 28, 2010, $48.4 million had been obligated and
                                 $26.8 million expended.

Background—Summary of Findings

In 2007, USAID/Pakistan signed a                           28,000 commercials were aired
cooperative agreement with the Population                  during November and December
Council, a U.S.-based nongovernmental                      2009 alone.
organization, to implement Family
Advancement for Life and Health (FALAH).               •   Improved family planning services in
FALAH is a 5-year, $60.4 million program                   the public sector. Program
intended to increase demand for and use of                 implementers have placed a team of
birth spacing and family planning services in              master trainers in each of the 26
26 districts in Pakistan. The country has a                program districts. The trainers are
relatively high rate of population growth, and             expected to support group meetings
in 2009 the estimated Pakistani population                 in the community and help public
was about 181 million—the sixth largest in the             health care providers better serve
world.                                                     their clients. Fifty-nine percent of all
                                                           public service delivery points in the
OIG’s audit found that FALAH was achieving                 FALAH districts have trained
its main goals. Among its accomplishments                  providers for family planning
were:                                                      counseling and services in their
                                                           facilities. Furthermore, FALAH plans
    •   An increased demand for family                     to equip 80 percent of public service
        planning services. Program                         delivery points in program districts to
        implementers provided family                       provide appropriate family planning
        planning information to more than 2                services by the end of the program.
        million men and women. In
        addition, program messages on birth            •   Improved family planning services in
        spacing and family planning services               the private sector. Improved family
        have blanketed the media. Almost                   planning services in the private sector



                                                 51
       were being led by Greenstar Social                         and completed training for more than
       Marketing, a Pakistani                                     4,000 health care providers overall.
       nongovernmental organization. The                          Greenstar also conducted meetings at
       program hopes to expand the number                         factories and other workplaces to
       of Greenstar health care providers to                      discuss the benefits of birth spacing
       1,000 in the program’s rural areas.                        and is operating a national hotline
       As of December 31, 2009, Greenstar                         serviced by its physicians.
       had established 557 new providers

Recommendations—Management Decisions

The audit report made one recommendation:

1. That USAID/Pakistan require the Population Council to prepare and implement a plan of
   action for completing all required financial audits for non-U.S. nonprofit organizations that
   received funding under the FATA Program.

   USAID asked Population Council to develop and implement the detailed plan of action for completing all
   the required financial audits for non-U.S. nonprofit organizations that received funding under the FALAH
   Program. This recommendation is closed.




                                                   52
     Audit of USAID/Pakistan’s Primary Healthcare Revitalization,
    Integration and Decentralization in Earthquake-Affected Areas
                      Project (5-391-10-010-P)

Date:                              June 28, 2010

Implementing Partner:              International Rescue Committee, Management Sciences for
                                   Health, Jhpiego (an affiliate of Johns Hopkins University),
                                   and the Population Council

Audit Period:                      October 2006 to October 2009

Funding:                           As of October 31, 2009, USAID had obligated approximately
                                   $19.7 million and expended approximately $15.5 million.

Background—Summary of Findings

On October 8, 2005, a magnitude 7.6                      performance, (2) increase access to primary
earthquake in northern Pakistan claimed                  health care services, and (3) promote healthier
more than 74,000 lives and left 3.5 million              behaviors and community participation in
people homeless. More than half of the                   health services.
deaths occurred in the Mansehra District in
the North-West Frontier Province and the                 The audit found that the project had
Bagh Districts of Azad Jammu and Kashmir.                contributed to improving the quality of
Thousands of teachers, health care providers,            primary health care services, but much work
and civil servants were among those killed or            needed to be done to improve access to these
badly injured. Public systems that had                   services—particularly with regard to referring
supported essential services, including logistics        patients to facilities that offer a higher level of
and administration for health care, no longer            health care when patients’ conditions could
existed. In response to this disaster,                   not be treated at primary health care facilities.
USAID/Pakistan designed the Primary
Healthcare Revitalization, Integration, and              To promote wider access to such services, the
Decentralization in Earthquake-Affected                  project had planned to strengthen the patient
Areas (PRIDE) Project and awarded a                      referral system. However, the preliminary
$28.5 million cooperative agreement to the               planning for improving the referral system was
International Rescue Committee (IRC), a                  completed a year later than anticipated, and—
U.S.-based nongovernmental organization, to              at the time of the audit—an improved system
provide technical support to the public sector           had not yet been implemented. Delays were
health system in the earthquake-affected                 attributed to the lack of availability of
districts of Mansehra and Bagh through a                 Government of Pakistan staff scheduled to
consortium of implementers including                     work with the project implementer.
Management Sciences for Health, Jhpiego,                 Moreover, other project activities took
and the Population Council. The project’s                precedence over revamping the patient
three main goals were to (1) improve public              referral system.
health service and management system


                                                    53
Recommendations—Management Decisions

The audit report made one recommendation:

   1. That USAID/Pakistan develop and implement an action plan to improve the patient referral
      system in both project districts. This plan should include provisions to establish proper
      communication procedures between primary health care centers and higher level facilities,
      disseminate improved procedures to participating facilities and provide training as necessary,
      and establish effective supervisory review of referral cases.

       Project managers prepared and implemented a plan to address the audit recommendation on improving
       the patient referral system in both project districts. The project established a communications system for
       all referrals including an initial phone call to the facility of referral and a followup call after the referral
       to record the outcome. Communications costs are funded by facility users’ fees and verified personally
       by the district health officer. Quarterly subdistrict meetings are held with the facility in charge of the
       referral to discuss referrals made during the month and challenges and improvements required. Referral
       registers have been printed and distributed to all facilities in the two districts. Referral registers are
       completed by health facility staff, and entries are reported monthly basis. Health workers are trained to
       refer clients through referrals forms from the community level to the health facility level, and referral
       cases are reviewed and monitored regularly. This recommendation is closed.




                                                        54
        Review of USAID’s Internally Displaced Persons Programs
                      in Pakistan (5-391-10-001-S)

Date:                             June 28, 2010

Implementing Partner:             Agency for Technical Cooperation and Development, American
                                  Refugee Committee, Concern, Catholic Relief Services, the
                                  Government of Pakistan, International Medical Corps,
                                  International Organization for Migration, International Rescue
                                  Committee, International Relief and Development, Internews,
                                  Merlin, Mercy Corps, Oxfam, Relief International, Save the
                                  Children, Samaritan’s Purse, United Nations (U.N.) Settlements
                                  Programme, U.N. Children’s Fund, U.N. Office for the
                                  Coordination of Humanitarian Affairs, U.N. World Food
                                  Programme, U.N. World Health Organization, World Vision.

Audit Period:                     October 2008 to December 2009

Funding:                          As of December 31, 2009, USAID had obligated $285.7 million
                                  and had disbursed $203.7 million.

Background—Summary of Findings

Between August 2008 and September 2009, conflict between the Government of Pakistan and
militant groups in the North-West Frontier Province (NWFP, recently renamed Khyber
Pakhtunkhwa) and the FATA displaced over 400,000 Pakistani households. While many displaced
persons took shelter with host families, the remaining families took shelter in official Pakistani
Government-run camps. As the internally displaced persons (IDP) crisis escalated in May 2009,
USAID and other U.S. Government agencies responded quickly by providing humanitarian
assistance to Pakistani IDPs. USAID obligated more than $285 million in humanitarian assistance
for the crisis, of which more than half was for food aid.

Despite the deteriorating security situation in Pakistan, USAID responded immediately to provide
rapid assistance through 21 nongovernmental organizations, 5 U.N. organizations, a contractor, and
the Government of Pakistan. USAID’s programs consisted of support for the immediate needs of
people who were displaced and for people returning to their areas of origin after the conflict in their
home areas had diminished.

Although USAID carried out numerous displaced persons programs in Pakistan, OIG found that
monitoring and evaluation methods needed improvement. Specifically, USAID’s “alternative
monitoring” methods—used to monitor activities in dangerous and insecure areas, such as NWFP
and FATA—needed to be strengthened. In addition, USAID had not implemented monitoring
controls that were meant to provide reasonable assurance that $44 million in cash-transfer funds had
actually reached 140,000 IDP families as intended.




                                                  55
Recommendations—Management Decisions

The audit report made four recommendations:

1.   That USAID/Pakistan develop and award a procurement instrument to provide third-party
     monitoring and evaluation services to assist mission technical offices in implementing
     internally displaced persons programs, other mission programs, and in-country Washington-
     based programs such as those carried out by the Offices of Foreign Disaster Assistance and
     Food for Peace.

     A Foreign Service National has been designated as a monitoring and evaluation adviser, and USAID has
     approved a new personal services contractor senior program advisor position for monitoring and evaluation,
     which it is in the process of advertising. USAID consulted with technical teams and drafted a statement
     of work for a missionwide monitoring and evaluation contract. A new mission strategy was developed in
     December 2009 and incorporated as the basis for the report to Congress on the implementation of the
     Kerry-Lugar-Berman legislation, and it will also serve as the basis for finalizing measures and performance
     indicators. USAID prepared a results framework to provide the basis for the development of performance
     management plans. This recommendation is closed.

2.   That USAID/Pakistan require the Government of Pakistan to provide quarterly expenditure
     reports for internally displaced persons disbursements and a list of payments totaling
     $44 million made to internally displaced persons.

     USAID required the Government of Pakistan in its assistance agreement to provide quarterly reports and a
     list of beneficiaries to the Agency. USAID hand-carried an implementation letter addressing these
     requirements to the Pakistani Government Economics Affairs Division on June 10, 2010, and sent e-mail
     reminders. USAID will continue to follow up on these issues until the required reports are provided. This
     recommendation is closed.

3.   That USAID/Pakistan verify the use of funds from the quarterly expenditure reports and the
     list of internally displaced persons and confirm that the Government of Pakistan provided
     funds to at least 140,000 families as a result of this cash-transfer program.

     The use of the funds were verified and confirmed with the receipt of the required reports from the
     Government of Pakistan. USAID received a completion report in the form of a list of approximately
     140,000 beneficiaries for USAID's full contribution and verified this completion report by performing
     checks on a sample of beneficiaries. USAID has also prepared a statement of work for the audit of the
     cash-transfer program to be done by the Supreme Audit Institution of Pakistan and has drafted the
     statement of work for the verification of the funds disbursed to IDPs using the existing blanket purchase
     agreement mechanism with OIG-approved certified public accounting firms. This recommendation is
     closed.

4.   That USAID/Pakistan conduct spot checks on and evaluations of the effectiveness of the cash-
     transfer program.

     USAID hired a consultant to examine the operations and impact of the cash-transfer program and to
     determine the extent to which the funds had reached the intended beneficiaries. The contractor examined
     how the Government of Pakistan used the USAID funds it had received, described the beneficiary



                                                     56
population, gathered information on how funds affected beneficiaries, profiled individuals who did not
benefit from the program, and examined overall public perceptions of the assistance effort. In June 2010,
the contractor delivered a report to USAID describing these and other features of the program and
evaluating its impact. This recommendation is closed.




                                                57
   USAID/Pakistan’s Capacity Building Program for the Federally
       Administered Tribal Areas Development Program
                        (5-391-10-005-P)
Date:                            January 28, 2010

Implementing Partner:            Development Alternatives, Inc.

Audit Period:                    January 2008 to October 2009

Funding:                         As of October 31, 2009, USAID had obligated approximately
                                 $19.7 million and expended approximately $15.5 million.

Background—Summary of Findings

This audit pointed to several implementation          program’s main goals: improving institutions’
difficulties in USAID’s capacity building             capacity to govern, and improving the capacity
programs in the FATA of Pakistan. The                 of NGOs to promote good governance.
FATA region, which is the most economically
depressed area of the country, has a                  Some of the problems could be attributed to
population with a literacy rate estimated at          the fact that the program had gotten off to a
only 17 percent, and 66 percent of people live        slow start. During the first year, the
below the national poverty line.                      contractor focused its resources on working
                                                      out best approaches to designing and
Local Pakistani institutions responsible for          implementing activities, building up
overall governance, health care, education,           relationships with FATA institutions, and
and public works projects lack the capacity to        developing work plans. Also, the
effectively manage services and development           deteriorating security situation in Peshawar
resources. In an attempt to remedy this               and the November 2008 assassination of the
problem, in 2008 USAID awarded a 3-year,              chief of party of another USAID program
$46 million contract to Development                   delayed progress in the FATA capacity
Alternatives, Inc. (DAI), to increase the             building program.
capacity of these institutions.
                                                      Moreover, although the program had
OIG’s audit found that, although the program          implemented a few activities to address FATA
had provided training, taken initial steps to         NGO weaknesses, the few FATA-based NGOs
automate FATA institutions, and completed             that existed lacked the human and financial
some media activities, little had yet been            resources to promote good governance
achieved to build the capacity of FATA                effectively. In most instances, FATA NGOs
governmental institutions and NGOs                    needed to strengthen their proposal
responsible for providing services. The               preparation skills, financial management
program had been in place for nearly 2 years          practices, and monitoring and evaluation
of its 3-year planned lifespan, and it had not        capabilities before they could start to promote
made significant progress with two of the             good governance.



                                                 58
                                                        terminated, what program implementation
Because of a high-level change of emphasis in           mechanisms would replace the U.S.-based
U.S. Government strategy toward greater                 contractor.
involvement of Pakistani organizations in
implementing assistance programs, the                   In addition to the difficulties associated with
mission began to rethink its strategy of                the transition to a new implementation
providing the bulk of its program assistance            strategy, the audit found that overall capacity
through U.S.-based implementers such as                 building in automation had achieved little
DAI. As a result, in June 2009 the mission              success, and most of the computer hardware
refrained from fully funding a DAI                      purchased for the program remained boxed
incremental funding request of $15.3 million            up and unused. Furthermore, monitoring
and, 4 months later, approved only                      and reporting systems for managing
$4.7 million in additional funds. In October            development projects—such as a geographic
2009, the mission asked DAI to consider                 information system that enables project
preparing a 90-day demobilization plan.                 information to be represented on maps and a
However, as of mid-November 2009, no final              database system to document the life cycle of
decision had been made as to whether the                development projects—have not been
DAI contract would undertake early                      completed, and they may not be completed
demobilization and termination or, if                   until June 2010.

Recommendations—Management Decisions

The audit report made four recommendations:

1.    That USAID/Pakistan provide immediate written guidance to the contractor and to the
      FATA governmental institutions to identify what contractual arrangements may be in force to
      implement the Capacity Building for the FATA Development Program as the mission
      transitions to USAID’s new implementation strategy.

      USAID received approval to proceed with DAI, as an international contractor, in early December and
      provided guidance to continue with implementation of certain activities through December 2010. This
      recommendation is closed.

2.    That USAID/Pakistan develop and issue implementation plans following best practices for (1)
      the 260 computers (and related equipment) to be assigned to the FATA governmental
      institutions and for (2) the 140 laptop computers to be transferred to the NWFP to ensure
      that the computer equipment will be used for intended purposes and that maximum benefits
      will be derived from this equipment.

      The contractor has prepared implementation plans for the computers assigned to FATA government
      agencies and has received FATA Secretariat and FATA Development Authority approval and
      acceptance of the implementation plan. USAID also planned to correct protocols and procedures for
      using the laptops for their intended purpose. This recommendation is closed.

3.    That USAID/Pakistan take immediate steps to confirm the existence of 72 laptop computers.
      If laptop computers cannot be produced, the mission should issue a bill of collection to the
      contractor for $1,400 for each laptop unaccounted for.




                                                  59
     All the computers were accounted for and physically verified by an independent accounting firm. One
     computer was stolen and an internal inquiry by the FATA Secretariat was conducted. DAI followed up
     to ensure that the inquiry is completed and appropriate action is taken. This recommendation is closed.

4.   That USAID/Pakistan require the contractor to develop and put into use detailed
     implementation plans for both the geographic information system and the planning
     commission database under development for use by the Federally Administered Tribal Areas
     Secretariat. The plans should identify roles and responsibilities to be carried out by the
     contractor and others and should contain best practices of systems development, such as
     obtaining approval by stakeholders, establishing target dates for completing user manuals,
     training users and administrators, and preparing for the final handover of day-to-day
     operations and maintenance to the Secretariat.

     The contractor completed the implementation plan for the Planning Commission Pro-Forma 1 (PC-1)
     database. A draft implementation plan for the geographic information system was prepared and received
     approval from the FATA Secretariat. This recommendation is closed.




                                                   60
                              Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                                 Department of
          Criminal Law                                                                 Program Integrity (PI)     Savings
 Case                                                                                                                               Justice
          Enforcement             Allegations                 Source         Status             or                  and                                               Results
Number                                                                                                                           Civil/Criminal
         Records System                                                                Employee Integrity (EI)   Recoveries
                                                                                                                                    Actions

L07059                         Procurement fraud          USAID employee     Closed              PI                                                                Audit recovery

                                                                                                                                                           Other administrative sanctions;
L07058                             Conspiracy             USAID employee     Closed              PI                                                      disqualified from future contract bid
                                                                                                                                                                   (not a debarment)
                                                                                                                                                            Administrative action: verbal
A06054                         Procurement fraud            Contractor       Closed              PI
                                                                                                                                                                  admonishment

A05080                             False claim            USAID employee     Closed              PI                             1 criminal referral                DOJ declination

         LA-H0-08-0172-R       Procurement fraud           Private citizen   Closed              PI

         LA-H0-08-0180-R    Conflict of interest/ethics    Private citizen   Closed              EI

         LA-H0-09-0064-G    Conflict of interest/ethics      OIG audit       Closed              PI

         LA-H0-09-0103-R    Conflict of interest/ethics    Private citizen   Closed              PI

         LA-HO-10-0084-G      Obstruction of justice       Private citizen   Closed              PI

         LA-HO-10-0180-R    Bribery/gratuity/kickback      Private citizen   Closed              PI

         LA-IS-09-0042-I           Conspiracy             USAID employee     Open                PI                                                    Bill for collection; Management advisory

                                                                                                                                                      Removal (4), retired, suspension, contract
         LA-IS-09-0119-I    Bribery/gratuity/kickback     USAID employee     Open                PI              $101,598,705   1 criminal referral
                                                                                                                                                              termination, debarment

         LA-IS-09-0133-I        Computer crimes            Private citizen   Closed              PI

         LA-IS-09-0146-I    Bribery/gratuity/kickback     USAID employee     Closed              PI

         LA-IS-09-0147-I    Bribery/gratuity/kickback     USAID employee     Closed              PI

         LA-IS-09-0148-I    Bribery/gratuity/kickback     USAID employee     Closed              PI

         LA-IS-10-0055-G   False claim/false statement    USAID employee     Closed              PI

         LA-IS-10-0081-G    Conflict of interest/ethics     Anonymous        Closed              EI




                                                                                  61
                             Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                              Department of
          Criminal Law                                                                 Program Integrity (PI)     Savings
 Case                                                                                                                            Justice
          Enforcement            Allegations                 Source          Status             or                  and                                        Results
Number                                                                                                                        Civil/Criminal
         Records System                                                                Employee Integrity (EI)   Recoveries
                                                                                                                                 Actions
                                   Conflict of
         LA-IS-10-0088-I                                 Former contractor   Closed              PI
                           interest/ethics/conspiracy

         LA-IS-10-0128-I   Bribery/gratuity/kickback      Private citizen    Open                PI

         LA-IS-10-0129-G       False statement             Anonymous         Closed              EI

         LA-IS-10-0147-G   Bribery/gratuity/kickback      Private citizen    Closed              EI
                           Conflict of interest/false
         LA-IS-10-0157-I                                   Anonymous         Open                PI
                            claim/false statement

         LA-IS-10-0199-G      Procurement fraud           Private citizen    Closed              PI

         LA-IS-10-0254-I   Bribery/gratuity/kickback       Anonymous         Open                PI

         LA-MA-08-0040-I       False statement           USAID employee      Closed              EI

         LA-MA-09-0105-G   Conflict of interest/ethics   USAID employee      Closed              EI

         LA-H0-10-0267-I        Program fraud             Private citizen    Open                PI
                                                                                                                                                Bill of collection; contractor employee
         LA-IS-11-0002-I        Program fraud             Private citizen    Open                PI               $36,719                       termination (2); contractor employee
                                                                                                                                                                reprimand

         LA-H0-11-0033-G        Program fraud             Private citizen    Closed              EI                                             Will be worked under LA-H0-11-0028-I


         LA-IS-11-0028-I   Bribery/gratuity/kickback      Private citizen    Closed              EI                                                Payments to contractor released

                                                                                                                                               Allegation submitted to the Transparency
         LA-IS-11-0060-G        Program fraud             Private citizen    Closed              PI
                                                                                                                                                          International Hotline
                                                                                                                                                    Consideration for debarment;
         LA-IS-11-0059-I          False claim            USAID employee      Open                PI
                                                                                                                                                       administrative referral
                                                                                                                                               Original plan against which the allegation
         LA-H0-11-0021-I   Bribery/gratuity/kickback     USAID employee      Closed              EI
                                                                                                                                                      was issued was cancelled
                                                                                                                                                Referral to U.N./Food and Agriculture
         LA-H0-11-0260-R        Program fraud              Anonymous         Closed              PI
                                                                                                                                                             Organization

         LA-IS-11-0037-I   Bribery/gratuity/kickback     USAID employee      Open                PI

         LA-IS-11-0041-G   Bribery/gratuity/kickback      Private citizen    Closed              PI




                                                                                  62
                             Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                           Department of
          Criminal Law                                                              Program Integrity (PI)     Savings
 Case                                                                                                                         Justice
          Enforcement            Allegations               Source         Status             or                  and                                        Results
Number                                                                                                                     Civil/Criminal
         Records System                                                             Employee Integrity (EI)   Recoveries
                                                                                                                              Actions
                                                                                                                                                Case will be combined with case
         LA-IS-11-0095-G        Program fraud           Private citizen   Closed              PI
                                                                                                                                                       LA-IS-10-0088-I

         LA-IS-11-0038-G        Program fraud           Private citizen   Closed              PI                                                 Entered as a hotline complaint

                                                                                                                                            Allegation was unsubstantiated. Pertinent
         LA-IS-11-0092-G            Theft               Private citizen   Closed              PI
                                                                                                                                                 program is not funded by USAID

                                                                                                                                            Requested proof of corruption activity not
         LA-IS-11-0123-G        Program fraud           Private citizen   Closed              PI
                                                                                                                                                   provided by complainant

         LA-IS-11-0136-I   Bribery/gratuity/kickback    Private citizen   Closed              PI

         LA-IS-11-0154-G            Theft                Anonymous        Closed              PI


         LA-IS-11-0158-R        Program fraud           Private citizen   Open                PI



         LA-IS-11-0162-R        Program fraud           Private citizen   Open                PI

         LA-IS-11-0168-I      Collusive bidding          Anonymous        Open                PI

         LA-IS-11-0145-G        Program fraud           Private citizen   Closed              PI

         LA-IS-11-0155-I            Theft              USAID employee     Closed              PI

                                                                                                                                             Administrative referral to Rural Support
         LA-IS-11-0157-I            Theft               Private citizen   Open                PI
                                                                                                                                             Programmes Network; 9 suspensions




                                                                               63
                              Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                             Department of
          Criminal Law                                                                Program Integrity (PI)     Savings
 Case                                                                                                                           Justice
          Enforcement             Allegations                Source         Status             or                  and                                      Results
Number                                                                                                                       Civil/Criminal
         Records System                                                               Employee Integrity (EI)   Recoveries
                                                                                                                                Actions

         LA-IS-11-0186-G    Conflict of interest/ethics   Private citizen   Closed              EI

         LA-IS-11-0188-G         Program fraud            Private citizen   Closed              PI

         LA-IS-11-0202-G    Bribery/gratuity/kickback     Private citizen   Closed              EI

         LA-IS-11-0203-G         Program fraud            Private citizen   Closed              PI

          LA-IS-11-0206-I        Program fraud             Contractor       Open                PI

                                                                                                                                              Referral to United Nations'/World Food
         LA-IS-11-0207-R         Program fraud            Private citizen   Open                EI
                                                                                                                                                              Program

          LA-IS-11-0208-I        Program fraud            Private citizen   Open                PI

          LA-IS-11-0198-I   Bribery/gratuity/kickback      Anonymous        Open                EI

          LA-IS-11-0178-I   Bribery/gratuity/kickback     Private citizen   Open                PI

         HQ-HQ-11-0213-G         Program fraud             Contractor       Closed              PI

         LA-IS-11-0214-G         Program fraud            Private citizen   Closed              PI

         LA-IS-11-0222-G         Program fraud            Private citizen   Closed              PI

         LA-IS-11-0226-G         Program fraud            Private citizen   Closed              PI

         LA-IS-11-0229-G         Program fraud            Private citizen   Closed              PI

         LA-IS-11-0248-G         Program fraud            Private citizen   Closed              PI

          LA-IS-11-0265-I   Bribery/gratuity/kickback     Private citizen   Open                PI

         LA-IS-11-0268-G    Bribery/gratuity/kickback     Private citizen   Closed              EI




                                                                                 64
                               Pakistan Investigative Case Work and Fraud Prevention Briefings
                                                                                                                                                     Department of
          Criminal Law                                                                                   Program Integrity (PI)     Savings
 Case                                                                                                                                                   Justice
          Enforcement              Allegations                        Source                  Status              or                  and                                                  Results
Number                                                                                                                                               Civil/Criminal
         Records System                                                                                  Employee Integrity (EI)   Recoveries
                                                                                                                                                        Actions

         LA-IS-11-0272-G               Theft                        Anonymous                 Closed               PI

          LA-IS-11-0310-I        Collusive bidding               USAID employee               Open                 EI

         HQ-HQ-11-0313-G     Conflict of Interest/ethics           Private citizen            Closed               PI

         LA-IS-11-0320-G     Conflict of Interest/ethics           Private citizen            Closed               PI

         LA-IS-11-0329-G          Program fraud                    Private citizen            Closed               PI

          LA-IS-11-0333-I   False claim/false statement             Anonymous                 Open                 EI

         LA-IS-11-0335-P     Bribery/gratuity/kickback           USAID employee               Open                 EI

         LA-IS-11-0336-G     Bribery/gratuity/kickback           USAID employee               Closed               PI

          LA-IS-11-0344-I    Bribery/gratuity/kickback            Agency Referral             Open                 EI

          LA-IS-12-0085-I         Program fraud                     Anonymous                 Open                 PI

                                                                                                                                   $101,635,424

                                                           FY 2012 First Quarter Results                  Cumulative Results*
                                                                            Cases opened        2                  76
                                                                            Cases closed        2                  52
                                                                           Cases pending       24                  24

                                                           Department of Justice referrals      0                  2
                                                                                    Arrests     0                  0
                                                                               Indictments      0                  0
                                                                              Convictions      0                   0
                                                                  Administrative actions**     0                   18                             * 2003 through December 2011
                                                               Fraud awareness briefings       1                   32
                                                   Attendees at fraud awareness briefings      20                 780                             ** Terminations, suspensions, bills for collection, etc.




                                                                                                    65
 


 




    66
 
                             Pakistan
                     Investigative Summaries
                            Fiscal Years 2005–12
      Contract Employees Terminated in USAID Project in the
                Federally Administered Tribal Areas

Allegation
During the fall of 2010 and the spring of 2011, the OIG Hotline and the Pakistan Anti-Fraud
Hotline received an allegation of construction fraud relative to a USAID project in the Federally
Administered Tribal Areas (FATA). An investigation by USAID OIG determined that three
employees of a USAID contractor submitted false documentation on the construction of two flood
protection walls. This caused USAID to pay $33,228 for a wall that was not built to specifications
and $36,719 for a separate 427-meter wall of which only 30 meters were built. In addition to
falsifying documentation regarding the actual specification of the walls, all three employees lied
about the matter when questioned by OIG.

Status
The contractor’s team leader in charge of the FATA project has since been terminated as well as the
contractor site engineer that certified that the 30-meter wall was built to specifications. The head
engineer that certified completion to specification of the first wall was disciplined and is still
employed on the project. The USAID contracting officer decided that USAID should pay the full
amount for the first wall and the contractor should credit USAID $36,719 for the cost of the 30-
meter wall.



          Theft or Division of Commodities from Food Program
                     in Sindh Results in 9 Suspensions
Allegation
During 2011, the OIG Pakistan Anti-Fraud Hotline received 11 complaints regarding alleged theft
or diversion of fortified edible oil which was supposed to have been distributed to students at
primary schools in Sindh as part of the Food for Education (FFE) program being implemented by
the United Nations’ World Food Program (WFP). The purpose of FFE is to provide parents with
an incentive to allow their children (especially girls) to attend school by providing one can of
fortified cooking oil to each student after they meet monthly attendance requirements. In each
case, after coordinating with USAID OIG, the WFP dispatched a monitoring team to the location,
reviewed documentation, conducted interviews with the students and community members and
then took appropriate action. In four cases, community complaints were generated when the school
received less oil than needed due to an increase in the number of students from the time the school
had originally registered in the program. School officials either withheld the oil from all students or
attempted to share the oil in order to ensure everyone received their share. Six additional
complaints were received alleging school officials had stolen cooking oil meant for students, either
at the school level or from warehouses maintained by district education officials. WFP field
monitoring visits revealed numerous instances of falsified documentation on the part of schools


                                                  67
participating in the program and district warehouses as well as instances in which students who
should have received cooking oil but did not.

Status
As a result of these findings, a total of nine individuals were suspended including teachers,
headmasters, and warehouse personnel. As a result of follow-up on an allegation received by the
OIG Pakistan Anti-Fraud Hotline, WFP field monitoring personnel also discovered that one school
participating in the program was actually a private residence. The WFP was able to recover the
amount spent on cooking oil for this location from a sub-implementer.



           Civil Settlement Related to Fraud in USAID-Funded
                   Programs in Afghanistan and Pakistan

Allegation
In June 2011, the Academy for Educational Development (AED)1 agreed to settle allegations that
the company submitted false claims to USAID in connection with two cooperative agreements
under which AED provided foreign assistance in Afghanistan and Pakistan.

Status
Although certain terms of the settlement with the Department of Justice are contingent on future
events, AED has already paid $5,635,000 towards these claims and potentially could pay a total of
more than $15 million over the next three years. In the settlement agreement, the government
alleged that AED failed to ensure that its actions under these two cooperative agreements complied
with applicable regulations concerning competition in procurements, adherence to contract
specifications, and supervision of its subcontractors. The government further alleged that AED
failed to inform USAID that it had discovered defects in its internal control systems and that certain
AED subcontractors may have been involved in corruption and wrongful activities.


               Personnel Terminations Related to Corruption
                    in Pakistan Disaster Relief Projects

Allegation
During spring and summer 2011, the USAID OIG Pakistan Anti-Fraud Hotline received over 200
complaints regarding problems with service delivery or criminal misconduct by employees of the
Sindh Rural Support Organization (SRSO). SRSO is a recipient of subcontracts from USAID
implementing partners executing flood relief efforts for USAID’s mission in Pakistan, Office of
Foreign Disaster Assistance, and Office of Food for Peace.

Status
To date, the OIG investigation has revealed significant issues with internal controls for the
distribution of cash and relief goods as well as the distribution of food and non-food items to

3
 AED no longer effectively exists after FHI 360, a newly formed government contractor, took over virtually all
of AED’s programs in June 2011.


                                                     68
undesignated areas. As a result of the investigation, the NGO has terminated 21 employees to date.
Forensic audits of the NGO are now underway.

    4 Pakistani Nationals Enter Guilty Pleas in Bid-Rigging Case
Allegation
On July 13, 2011, the Director General of the Pakistan National Accountability Bureau (NAB),
Khyber Pakhtunkhwa office, announced that four men had entered voluntary pleas for their roles in
a bid-rigging scheme related to the USAID-funded Federally Administered Tribal Areas Livelihood
Development Program (FATA-LDP). The goal of the FATA-LDP was to provide social and economic
stabilization in FATA.

The $150 million FATA-LDP cooperative agreement with AED was terminated for cause by USAID
in June 2010 after an ongoing investigation by the Office of the Inspector General (OIG) and the
Federal Bureau of Investigation revealed indications of widespread fraud.

Status
Under Article 25(A) of NAB’s Ordinance (1999), the four men returned approximately $140,000 as
part of their agreement. The recovered funds were returned to USAID. The NAB will ask USAID
to use these funds for education and health projects in Khyber Pakhtunkhwa.

This latest development is a continuation of USAID/OIG’s investigation of AED. In
December 2010, USAID suspended AED from doing additional business with the federal
government    based  on    information  that was  shared   by    the   USAID/OIG.


         OIG Cohosts Fraud Awareness Conference in Pakistan
On February 17, 2011, OIG—along with USAID Pakistan, Transparency International—Pakistan,
the Auditor General of Pakistan, the Pakistan Public Procurement Regulatory Authority, and the
National Accountability Bureau—cosponsored a fraud awareness conference for USAID
implementing partners in Islamabad, Pakistan. The event was attended by 118 participants,
including representatives of American and Pakistani NGOs, international public organizations, and
representatives of both USAID and Pakistani Government ministries. The OIG Pakistan Hotline
was formally launched during the conference.


                  USAID Suspends Contractor for Serious
                         Corporate Misconduct

Allegation
USAID suspended the Academy for Educational Development (AED) from receiving new
government awards after initial findings by OIG revealed evidence of serious corporate misconduct,
mismanagement, and a lack of internal controls. As reported in our previous semiannual report in
March 2011, OIG found evidence of fraud related to various aspects of a $150 million cooperative
agreement, which was subsequently terminated by USAID Pakistan. The OIG investigation later
uncovered evidence that certain members of AED’s senior headquarters staff became aware of



                                               69
potentially millions of dollars of disallowable costs because of collusion and overcharging by vendors
on the Pakistan project but repeatedly failed to disclose this information to USAID. AED
announced the retirement of its chief executive officer and required the departure of four other
senior executives to address the inadequate reporting and management deficiencies uncovered by
the investigation. In addition to issues related to collusion and overcharging by vendors, the OIG
investigation revealed several infrastructure projects managed by AED in Pakistan that failed to meet
required USAID specifications. An OIG investigation of another AED project in Afghanistan
revealed significant internal control issues resulting in the use of a purchasing process that violated
both AED and USAID competitive procurement standards. While some of these issues were
identified during a 2008 internal audit conducted by AED, they persisted until the end of the
project in late 2010.

Status
As the result of the ongoing investigation, USAID Afghanistan cancelled a planned $9,900,000
extension of a project with AED in December 2010. Subsequently in June, FHI, a global health and
development organization, purchased the programs and assets of AED.


                    USAID Personal Services Contractor
                  Terminated for Misuse of Official Position

Allegation
USAID OIG received information that staff of a USAID implementing partner in the FATA in
Pakistan may have been involved in false claims, fraud, kickback schemes, and mismanagement
regarding the awarding and oversight of construction contracts for rehabilitation of homes and
buildings following the recent floods. The matter had been brought to the attention of the FATA
Secretariat.


Status
Investigations by USAID OIG, with the assistance of Pakistan’s National Accountability Bureau
(NAB), revealed that a USAID personal services contractor who was serving as the agreement
officer’s technical representative for a livelihoods program misused his official position for the
personal gain of relatives and solicited favors from a prohibited source. The subject took advantage
of his official position to obtain employment for two of his relatives, including requesting that a
USAID implementing partner create a new position for one of them. The subject was terminated
and was subsequently debarred from government contracts based on an OIG referral.


      USAID Terminates $150 Million Livelihood Development
        Program Contract Because of Allegations of Fraud

Allegation
OIG received allegations of false claims, fraud, kickback schemes, and mismanagement related to an
implementing partner of one of its multimillion-dollar cooperative agreements for a livelihood
development program in FATA.



                                                  70
Status
A joint investigation between USAID OIG and the Pakistan NAB revealed evidence of collusion
between vendors and staff of the implementing partner that resulted in overpayment for certain
goods. Because of the investigation, USAID/Pakistan terminated a 5-year, $150 million
procurement of household kits for internally displaced persons. To date, the implementing partner
has returned $992,206 to USAID related to this investigation. Additionally, USAID/Pakistan
terminated a personal services contractor on which the mission relied to perform important contract
management functions for the $300 million program.




                                                71
72
                                     Afghanistan
                                      Introduction
Background. When the Taliban was forced              USAID obligations in Afghanistan for FY
out of power in 2001, half of Afghanistan’s          2002 through the first quarter of FY 2012
31 million people were left in absolute              totaled more than $13.2 billion, and OIG has
poverty. To rebuild the country and combat           spent approximately $15.5 million in
terrorism, USAID is working to create                supplemental funding to oversee USAID’s
economic growth, effective and representative        activities in Afghanistan through the first
governance, and the human capital base               quarter of FY 2012.
needed to eliminate the conditions that breed
extremism.




               Results—Fiscal Year 2003 Through Fiscal Year 2012
                        Activities                           Afghanistan
                       Performance                                49
                      audits/reviews
                 Recommendations made                             248
                    Recommendations closed                        189
                  Recommendations open                            59
                  Financial audits conducted                      45
                      Questioned costs                      $148.7 million
                      Sustained costs                        $3.9 million
                   Investigations opened                         169
                    Investigations closed                        108
                  Investigations pending                          61
                 Referrals for prosecution                        38
                        Indictments                               13
                        Convictions                               11
                        Arrests                                    13
                  Administrative actions                          119
                  Recoveries and savings                     $163 million
                  Fraud awareness briefings                       96
                   Attendees at briefings                        1,879




                                                73
Performance Audits. OIG’s performance                   USAID requires nonprofit organizations not
audit work in Afghanistan has shown that                based in the United States who expend
security conditions have been a primary                 $300,000 or more in federal funds per year to
concern and have hindered program                       undergo an annual financial audit. These
implementation. Of the 49 audits conducted              audits follow the rules and procedures
to date, 49 percent cited security conditions           contained in the USAID-produced Guidelines
as a concern. Our performance audit                     for Financial Audits Contracted by Foreign
recommendations have also identified                    Recipients. These audits are generally called
inadequacies in the following areas:                    recipient-contracted audits.

    • Contract oversight or activities                  Firms selected to perform nonfederal audits
      management (62 percent)                           and recipient-contracted audits must be
    • Data integrity or quality                         approved by OIG, which then reviews the
       (27 percent)                                     audits, summarizes the findings and
    • Contractor performance                            recommendations, and performs quality-
       (13 percent)                                     control reviews on a limited basis.

In several instances, USAID/Afghanistan’s               The agency-contracted audit (ACA) program
agricultural programs have demonstrated                 is implemented by USAID on its for-profit
positive results. In its first year of                  implementing partners. Financial audits
implementation, the Agriculture, Rural                  conducted under this program accomplish
Investment and Enterprise Strengthening                 many goals, such as improving accountability
Program met or exceeded most of its goals. In           and internal control over funds and
addition, USAID/Afghanistan’s Alternative               commodities and ensuring compliance with
Livelihoods Program in the Eastern Region               agreements and applicable laws and
achieved significant results for the majority of        regulations. USAID normally requests an
its performance indicators.                             ACA to provide needed audit coverage or to
                                                        address real or perceived problems in financial
See page 77 for a chart listing each of our 49          management.
Afghanistan performance audits’ findings
and recommendations. This chart shows the               ACAs are usually performed by independent
status of all of our 248 recommendations.               public accounting firms located in the United
Narrative summaries of the audits, arranged             States but which have overseas affiliates.
by fiscal year, are provided beginning on page          USAID contracts to have ACAs conducted,
109.                                                    but OIG approves the statement of work used
                                                        to procure the audit services, monitors the
Financial Audits. By federal law (31 U.S.C.             audits, reviews the audit reports, summarizes
Chapter 75), nonfederal entities that expend            the findings and recommendations, and
$500,000 or more in federal awards annually             performs quality-control reviews on a limited
are required to have audits conducted in                basis. OIG may also initiate an ACA to
accordance with Office of Management and                address problems concerning a contract,
Budget (OMB) Circular A-133. OMB’s                      grant, or cooperative agreement, and it may
requirement applies to audits of states, local          enlist the services of the Defense Contract
governments, and nonprofit organizations                Audit Agency (DCAA) to conduct incurred
based in the United States. Audits conducted            audits on for-profit entities that are not based
pursuant to Circular A-133 are sometimes                in the United States. However, DCAA
referred to as “nonfederal audits.”




                                                   74
performs all financial audits on for-profit             In a number of criminal and civil case
entities based in the United States. 4 1                matters, OIG has worked closely with local
                                                        authorities. When our investigators uncover
Financial audits performed on USAID’s                   probable cause to believe a criminal or civil
implementing partners in Afghanistan are                crime has occurred, they consult with the
reflected in the chart beginning on page 97.            Department of Justice to determine its
Questioned costs are costs determined by an             interest in pursuing the matter. Investigative
audit to be not allowable (e.g., liquor charges         findings on administrative matters are
billed to USAID), allocable (e.g., charges that         referred to Agency management for action.
cannot be tied to a specific contract, grant, or        OIG investigators also conduct fraud
cooperative agreement), or reasonable (e.g.,            awareness briefings to alert participants
charges for 25 computers for a staff of 10).            (employees, contractors, and grantees) to
USAID and the implementer work to resolve               fraudulent practices and schemes and to
questioned costs, but when resolutions are              provide guidance on how to report fraud if it
unattainable the costs become sustained (by             is encountered. See page 181 for data on
the audit), and USAID seeks reimbursement               investigative case work and fraud prevention
from the implementer.                                   briefings and page 189 for summaries of
                                                        investigations.
Investigations. OIG’s investigative
activities seek to eliminate fraud in contracts,
grants, and cooperative agreements and to
prevent serious misconduct by USAID
employees. To accomplish these goals, special
agents conduct investigations into possible
violations of federal laws, rules, and
regulations.




41
  DCAA may also be called upon to conduct
audits on nonprofit entities to address concerns
over noncompliance or problems with financial
management.

                                                   75
76
                                                                Afghanistan Performance Audit Findings and Recommendations
                                                               Report                                                                                   Total # of    Total #
          No.                  Report Title                                                      Summary of Findings                                                            Open Recommendations   USAID Response
                                                                Date                                                                                Recommendations   Closed
FY 2003




                   Risk Assessment of Major Activities                 The report identified the need for concurrent financial audits of the
           1         Managed by USAID/Afghanistan            11-Mar-03 infrastructure rehabilitation project and a performance audit of the                0            0               None
                            (5-306-03-001-S)                           economic governance project.

                                                                       As of November 1, 2003, 222 km of the 389 km Kabul–Kandahar
                Review of the Road Project Financed by
FY 2004




                                                                       Highway had been paved. USAID believed it was on schedule to lay
                 USAID/Afghanistan's Rehabilitation of
           2                                                 13-Nov-03 321 km of new asphalt and repair 68 km of existing road by December                 1            1               None
                Economic Facilities and Services (REFS)
                                                                       31, 2003. However, the mission needed to have the contractor
                     Program (RIG Memo 04-002)
                                                                       prepare an implementation plan as required by the contract.
                  Second Review of the Road Project                    The contractor had paved or patched 389 km of the Kabul-Kandahar
                   Financed by USAID/Afghanistan's                     Highway. USAID believed it was on schedule to lay 321 km of new
           3    Rehabilitation of Economic Facilities and    31-Mar-04 asphalt and repair 68 km of existing road by December 31, 2003.                     0            0               None
                       Services (REFS) Program                         However, the mission needed to have the contract prepare an
                           (RIG Memo 04-003)                           implementation plan as required by the contract.
                                                                         The report noted (1) progress was made in addressing vulnerabilities
                   Risk Assessment of Major Activities
                                                                         identified in the mission’s Federal Managers' Financial Management
           4         Managed by USAID/Afghanistan            15-Apr-04                                                                                     0            0               None
                                                                         Integrity Act report and (2) certain high-profile, high-risk projects
                            (5-306-04-002-S)
                                                                         needed to be audited in fiscal year (FY) 2005.

                                                                         The audit concluded that the mission had managed its cashiering
                Audit of USAID/Afghanistan’s Cashiering
                                                                         operations efficiently, economically, and in accordance with Agency
           5                  Operations                     11-May-04                                                                                     3            3               None
                                                                         policies and procedures except that certain internal controls needed to
                           (5-306-04-001-F)
                                                                         be improved.
                                                                    The mission had not approved a work plan for the contractor, and
                Audit of the Sustainable Economic Policy            quarterly work plans with expected accomplishments and milestones
                and Institutional Reform Support (SEPIRS)           (required by the contract) had not been done. Without such work
           6                                              17-Aug-04                                                                                        1            1               None
                      Program at USAID/Afghanistan                  plans, OIG could not assess whether the program was on schedule to
                              (5-306-04-005-P)                      achieve planned outputs. As a result, the report disclaimed an opinion
                                                                    but acknowledged that some progress had been made.
                 Audit of the Kabul to Kandahar Highway
                                                                   The mission (1) generally checked the timeliness of reconstruction
                  Reconstruction Activities Financed by
                                                                   activities but did not fully monitor the quality of the road
           7      USAID/Afghanistan’s Rehabilitation of  21-Sep-04                                                                                         2            2               None
                                                                   reconstruction, in part because of security restrictions, and (2) did not
                Economic Facilities and Services Program
                                                                   verify whether the contractor’s performance conformed to its contract.
                             (5-306-04-006-P)
                                                                       The audit concluded that the school and clinic reconstruction program
FY 2005




                Audit of USAID/Afghanistan’s School and                was not on schedule for a number of reasons, including insufficient
           8         Clinic Reconstruction Program           14-Mar-05 oversight and monitoring. Specifically, no more than 328 (62 percent)               3            3               None
                             (5-306-05-003-P)                          of the 533 buildings planned to be completed by December 2004 were
                                                                       completed or on schedule to be completed.
                                                                       The audit found that (1) the Primary Education Program activities had
                                                                       achieved key planned outputs in all but three activities and that (2) the
                                                                       mission had not done contractor performance evaluations.
                  Audit of USAID/Afghanistan’s Primary                 Specifically, textbook distribution was delayed, grade equivalents for
           9                                                 14-Apr-05                                                                                     4            4               None
                  Education Program (5-306-05-005-P)                   accelerated learning students were also delayed, and the female
                                                                       student enrollment target was not achieved. These three activities did
                                                                       not achieve their planned outputs for a number of reasons, including a
                                                                       delay in receiving funding for the program.
                                                                   As of September 30, 2005, only $600,000 of the $10 million
                                                                   appropriated for FY 2004 had been used to provide shelter materials
                                                                   and basic necessities for displaced persons in Kabul. Additionally, as
                                                                   of September 30, 2005, although Congress had been notified that the
FY 2006




                Audit of Funds Earmarked by Congress to
                                                                   funds would be transferred to the Department of State’s Bureau of
          10    Provide Assistance for Displaced Persons 21-Dec-05                                                                                         3            3               None
                                                                   Population, Refugees, and Migration, none of the $5 million
                     in Afghanistan (9-306-06-004-P)
                                                                   appropriated for FY 2005 had been transferred or spent by the
                                                                   mission. The report included three recommendations to ensure that
                                                                   the remaining balance of approximately $14.4 million in unspent
                                                                   earmarked funds is used for its intended purpose.

                Audit of USAID/Afghanistan’s Cashiering
          11                                                 10-Jan-06 The cashiers properly accounted for their imprest funds.                            0            0               None
                      Operations (5-306-06-001-P)




                                                                                                                                               77
                                                              Report                                                                                  Total # of    Total #
          No.                  Report Title                                                     Summary of Findings                                                           Open Recommendations   USAID Response
                                                               Date                                                                               Recommendations   Closed
                                                                       The audit found that five of six activities were on schedule to achieve
                                                                       planned outputs. The sixth activity’s planned output—rehabilitating
                Audit of USAID/Afghanistan’s Rebuilding
                                                                       555 km of farm-to-market roads—was not achieved for a number of
          12         Agricultural Markets Program            28-Mar-06                                                                                   3            3               None
                                                                       reasons, including poor security and poor subcontractor performance.
                           (5-306-06-002-P)
                                                                       Additionally, USAID/Afghanistan did not properly administer its
                                                                       Rebuilding Agricultural Markets Program (RAMP) contract.

                     Audit of USAID/Afghanistan’s                      Kandahar–Herat Highway reconstruction activities were on schedule
                 Reconstruction of the Kandahar–Herat                  to achieve planned outputs, except for 24 km of roadwork. The
          13      Highway Under the Rehabilitation of        18-May-06 remaining 24 km were not completed by December 31, 2005, because                  1            1               None
                Economic Facilities and Services (REFS)                of funding shortages, which the mission could have addressed
                      Program (5-306-06-005-P)                         sooner.
                                                                       Nineteen of twenty selected activities achieved planned outputs.
                   Audit of USAID/Afghanistan's Rural                  REACH awarded $56.2 million to 28 grantees who were providing
                      Expansion of Afghanistan's                       basic health care in 14 provinces. The program distributed $4.7 million
          14                                                 16-Aug-06                                                                                   0            0               None
                 Community–Based Healthcare (REACH)                    of essential drugs and trained 568 midwives and completed a number
                       Program (5-306-06-007-P)                        of activities to help improve capacity in the Afghan Public Health
                                                                       Ministry.
                                                                       The mission and its implementing partners were on schedule to
                                                                       complete 705 of 776 school and clinics to be constructed or
                Audit of USAID/Afghanistan's School and                refurbished under the Schools and Clinics Construction and
          15     Health Clinic Reconstruction Activities     18-Aug-06 Refurbishment Program, and 511 of the 705 buildings had been                      2            2               None
                            (5-306-06-008-P)                           turned over to the Afghan Government. However, completion has
                                                                       taken longer than anticipated because the mission did not take timely
                                                                       action to resolve issues on program implementation.

                                                                       In fiscal year 2006, the Alternative Livelihoods Program–Eastern
                                                                       Region (ALP/E) achieved significant results for 13 of 15 performance
                                                                       indicators used by USAID/Afghanistan to measure whether the
                                                                       program was achieving planned results. Achievements that supported
                                                                       ALP/E’s objective of accelerating licit economic growth and business
FY 2007




                Audit of USAID/Afghanistan’s Alternative               activity included 27,534 ha devoted to licit agricultural production and
          16     Livelihoods Program–Eastern Region          13-Feb-07 98,154 farmers trained in agricultural practices. Achievements that               4            4               None
                           (5-306-07-002-P)                            supported ALP/E’s objective of providing an immediate alternative
                                                                       source of income to those who depend on the opium economy
                                                                       included 19,698 Afghans paid $4,209,670 through cash-for-work
                                                                       projects. Two performance indicators could not be evaluated because
                                                                       sufficient information on actual accomplishments was not available or
                                                                       the related program activities were not fully implemented.

                                                                     Under the REFS Program, one critical activity had been achieved,
                                                                     whereas two similar activities were significantly behind schedule
                 Audit of Critical Power Sector Activities
                                                                     because of security problems. Although the activity that was achieved
                Under USAID/Afghanistan's Rehabilitation
          17                                               21-May-07 delivered 16.5 megawatts of reliable hydroelectric power, delays in the             0            0               None
                  of Economic Facilities and Services
                                                                     other two activities have delayed the delivery of 35 MW of reliable
                    (REFS) Program (5-306-07-004-P)
                                                                     hydroelectric power to about 2 million Afghan people in southern
                                                                     Afghanistan.
                                                                     Planned contract deliverables were generally being achieved under
                                                                     USAID/Afghanistan's Urban Water and Sanitation Project. However,
                Audit of USAID/Afghanistan's Urban Water             long-term sustainability of the overall project was questionable and
          18                                                7-Jun-07                                                                                     5            5               None
                and Sanitation Program (5-306-07-006-P)              contract administration problems were found between the mission and
                                                                     Camp Dresser Mckee, Inc., the contractor hired to implement the
                                                                     project.
                                                                       Selected follow-on activities, agreed to between USAID and the
                                                                       Government of Afghanistan under USAID/Afghanistan's economic
                  Audit of Selected Follow-on Activities
                                                                       program, were achieving results. However, USAID/Afghanistan had
          19      under USAID/Afghanistan's Economic         31-Aug-07                                                                                   2            2               None
                                                                       not established approved indicators or targets to measure its progress
                       Program (5-306-07-009-P)
                                                                       against. Therefore, the audit could not measure the activity
                                                                       accomplishments against planned interim goals or targets.
                                                                       In its first year, the Agriculture, Rural Investment and Enterprise
                                                                       Strengthening (ARIES) program achieved or exceeded most of its
                                                                       goals and helped make a significant impact in expanding
FY 2008




                Audit of USAID/Afghanistan's Agriculture,              Afghanistan's licit rural economy by creating 62,674 jobs. Despite its
          20        Rural Investment and Enterprise          22-Jan-08 achievements, ARIES could have been more successful with                          6            6               None
                Strengthening Program (5-306-08-001-P)                 implementing small and medium enterprise loan segment activities
                                                                       and investment and finance cooperatives. Additionally, the mission
                                                                       could improve the implementation and management of the ARIES
                                                                       program in four areas.




                                                                                                                                             78
                                                             Report                                                                                     Total # of    Total #
          No.                 Report Title                                                      Summary of Findings                                                             Open Recommendations   USAID Response
                                                              Date                                                                                  Recommendations   Closed
                                                                      USAID/Afghanistan's Alternative Development Program/South
                                                                      (ADP/S) achieved some, but not all, of its planned results. However,
                                                                      despite its progress, opium production in the southern provinces
                Audit of USAID/Afghanistan's Alternative              continued to rise, diminishing the intended overall impact of the
          21    Development Program--Southern Region        17-Mar-08 ADP/S program. This increase resulted from a rise in insurgency                      1            1               None
                           (5-306-08-003-P)                           activities preventing the mission from delivering alternative livelihoods
                                                                      to key poppy-growing areas, the ineffectiveness and corruption in the
                                                                      eradication process, and the lack of rule of law and criminal penalties
                                                                      for growing poppies.
                                                                      It could not be determined whether 11 of the 18 performance
                                                                      indicators used to measure the progress of the project met planned
                                                                      results during the first year of implementation. The audit determined
                Audit of USAID/Afghanistan's Small and                that the contractor's performance data for these 11 performance
          22    Medium Enterprise Development Activity      23-Jun-08 indicators were not reliable and therefore not useful in managing for                4            4               None
                           (5-306-08-006-P)                           results or credible for reporting. For the remaining seven indicators,
                                                                      the audit determined that the project partially met five indicators'
                                                                      regional performance targets, exceeded one indicator's nationwide
                                                                      target, and partially met one indicator's nationwide target.
                                                                        Chemonics International, Inc., reported results for all eight indicators
                                                                        for the first year of the program. However, the audit identified that for
                                                                        two of the eight indicators, reported results fell considerably short of
                                                                        intended results. Targets had not been established for the other six
                                                                        indicators, making it difficult to tell how well the project was
                                                                        proceeding. In addition, Chemonics did not have documentation to
                                                                        adequately support reported results for six indicators. In two of the six
                Audit of USAID/Afghanistan's Accelerating
                                                                        cases, the support was inadequate, while in four cases there was no
          23        Sustainable Agriculture Program         8-Aug-08                                                                                      15            15              None
                                                                        support at all. For example, Chemonics had inadequate support for
                            (5-306-08-009-P)
                                                                        the reported result that more than 1,700 individuals had received short-
                                                                        term agricultural training, and no support for the reported result that
                                                                        project activities had generated an economic value in excess of $59
                                                                        million. In addition, the audit found that a major program activity—the
                                                                        Mazar foods initiative—was behind schedule. This $40 million initiative
                                                                        to cultivate 10,000 hectares for a commercial farm was not finalized in
                                                                        time to take advantage of the summer planting season as planned.
                                                                      There was a lack of evidence to demonstrate that this program was on
                                                                      track to achieve planned results. The program lacked key deliverables
                                                                      necessary for effective implementation, monitoring, and reporting of
                                                                      program activities and results. Detailed work plans outlining what the
                 Audit of USAID/Afghanistan's Capacity                contractor planned to accomplish and results monitoring plans with
          24                                                30-Sep-08                                                                                      4            4               None
                Development Program (5-306-08-012-P)                  performance indicators, targets, and periodic reporting against these
                                                                      targets were not in place. Given these shortcomings and considering
                                                                      that the contract with BearingPoint, Inc. (contractor), was signed only
                                                                      in February 2007, the audit found that it was too early to assess the
                                                                      overall impact of this program.

                                                                        The project partially achieved planned results toward (1) transforming
                                                                        the instruction of teaching and learning in faculties and departments
                                                                        of education and (2) institutionalizing structures and systems to
                                                                        support and sustain high quality instruction and professionalism. The
                                                                        implementer measured its progress against nine objectives for which it
FY 2009




                                                                        met its target objectives for three, partially met the targets for four,
                   Audit of USAID/Afghanistan's Higher
          25                                                4-Dec-08    and did not meet the targets for two. From an impact standpoint,                   4            4               None
                   Education Project (5-306-09-002-P)
                                                                        faculty members who participated in the project’s different activities
                                                                        were exposed to new and more effective teaching methodologies
                                                                        being used in their classes. Also, faculty members advanced their
                                                                        English-language skills through the English courses provided and had
                                                                        greater opportunities to access training and educational materials not
                                                                        available in their local language.

                                                                  The audit disclosed that the project suffered from severe delays. In
                                                                  addition, the project was hindered by a need for improvements in the
                   Audit of USAID/Afghanistan’s Local
                                                                  contractor’s monitoring and evaluation system, refinements in the
                Governance and Community Development
          26                                            11-May-09 mission’s operational plan indicators, and timely approval of annual                    12            12              None
                Project in Southern and Eastern Regions
                                                                  contractor work plans. Furthermore, the contractor did not properly
                    of Afghanistan (5-306-09-003-P)
                                                                  establish performance targets for the 14 key indicators in its
                                                                  performance monitoring plan for fiscal year 2008.




                                                                                                                                              79
                                                             Report                                                                                   Total # of    Total #
          No.                 Report Title                                                      Summary of Findings                                                           Open Recommendations   USAID Response
                                                              Date                                                                                Recommendations   Closed

                                                                        The audit found that, as a whole, the project achieved positive results
                                                                        under both components. Under the first component, the project laid a
                                                                        foundation that could benefit the Government of Afghanistan’s land
                                                                        administration system. Under the second component, in the first 3
                                                                        years the project provided technical assistance toward liquidating 23
                Audit of USAID/Afghanistan’s Land Titling               state-owned enterprises, 3 state-owned banks, and 1 state-owned
          27         and Economic Restructuring in          8-Jun-09    corporation. As a result, state-owned assets valued at $10.6 million             4            4               None
                 Afghanistan Project (5-306-09-004-P)                   have been auctioned to successful bidders. The audit did find that the
                                                                        liquidation process took longer than expected and that the State-
                                                                        Owned Enterprise Department lacked the capacity to manage the
                                                                        liquidation process. Furthermore, USAID investment in privatization
                                                                        was not always successful, more collaboration could strengthen the
                                                                        project’s impact, and there were problems in reductions of scope.


                                                                      The audit concluded that, because of construction delays, USAID had
                                                                      not provided increased reliable power to these two areas within the
                                                                      planned timeframes. For the Kabul power plant, the delays were
                  Audit of USAID/Afghanistan's Power                  caused by an initial inability to obtain adequate title to land for the
FY 2010




                 Sector Activities Under Its Afghanistan              power plant, an ambiguous statement of work resulting in poor
          28                                                10-Nov-09                                                                                    8            8               None
                 Infrastructure Rehabilitation Program                planning and implementation, subcontractor performance problems,
                            (5-306-10-002-P)                          lack of onsite quality assurance, and problems in clearing equipment
                                                                      and material through customs. For the Kajakai Dam project,
                                                                      deteriorating security in southern Afghanistan and inconsistent
                                                                      contractor performance contributed to the delay.

                                                                      USAID/Afghanistan’s Afghan Civilian Assistance Program (the
                                                                      program) is not on target to achieve its main goal of assisting families
                                                                      and communities that have suffered losses as a result of military
                                                                      operations against insurgents and the Taliban. The International
                                                                      Organization for Migration (the implementer) reported that as of
                  Audit of USAID/Afghanistan's Afghan                 September 1, 2008, close to the midpoint of the program, only 803 of
          29         Civilian Assistance Program            15-Dec-09 the more than 6,000 eligible families under the program--about 13                  7            7               None
                            (5-306-10-004-P)                          percent--were receiving assistance. Under an October 2008 recovery
                                                                      plan to get the program back on track, the implementer hoped to
                                                                      assist 5,102 of the estimated 6,378 eligible families by April 30, 2009.
                                                                      However, as of January 22, 2009, the implementer reported that it had
                                                                      actually serviced about 40 percent of the intended families, or 2,025
                                                                      of the estimated target number of 5,102.
                                                                      OIG's audit of a $94 million, 5-year contract with Creative Associates
                                                                      International, Inc. to implement USAID’s Building Education Support
                                                                      Systems for Teachers (BESST) project found that the project is
                                                                      making progress in helping to improve the quality of education in
                                                                      Afghanistan but has not achieved its two main goals: improving
                USAID/Afghanistan's Building Education                teaching through teacher training and institutionalizing ministry
          30     Support Systems for Teachers Project       29-Jan-10 structures and systems that support high-quality teaching. The audit               4            4               None
                           (5-306-10-006-P)                           found that much of the training of teachers had been completed and
                                                                      that district teacher training teams had been established to help
                                                                      conduct training in all 11 provinces. However, notwithstanding these
                                                                      accomplishments, the audit found that, almost 4 years into the 5-year
                                                                      project, some significant tasks and activities included in the project’s
                                                                      contract and work plan had not been completed.




                                                                                                                                             80
                                                   Report                                                                                    Total # of    Total #
No.                 Report Title                                                      Summary of Findings                                                            Open Recommendations   USAID Response
                                                    Date                                                                                 Recommendations   Closed
                                                            OIG found that the program had made progress in capacity building
                                                            within selected Afghan ministries, identified defective USAID-built
                                                            structures, and provided engineering oversight for mission
                                                            construction projects. The audit also pointed to several areas that
                                                            were problematic. The most critical issue is to identify the many
                                                            defective structures that likely remain among the estimated 1,474
        Audit of USAID/Afghanistan's Human
                                                            mission-built structures. The total number of defective structures will
         Resources and Logistical Support
31                                                31-Mar-10 be determined when the remainder of the preliminary assessments                    12            12              None
                      Program
                                                            and any subsequent detailed seismic evaluations are completed. The
                  (5-306-10-007-P)
                                                            mission anticipates that the contractor will complete 200 seismic
                                                            evaluations by the end of the contract. In addition, significant defects
                                                            in five buildings reported in a prior Office of Inspector General audit
                                                            report (Audit of USAID/Afghanistan’s Accelerating Sustainable
                                                            Agriculture Program,” Audit Report No. 5-306-08-009-P, August 8,
                                                            2008) have yet to be corrected.

                                                              The AVIPA program was designed to provide wheat seed and
                                                              fertilizer to drought-affected subsistence farmers to help them
                                                              increase wheat production. The audit found that the program had
                                                              contributed to the country’s increase in wheat production; however,
                                                              the extent of the program’s role in this increase was unclear, since the
                                                              audit determined some reported results were not reliable. In addition,
                                                              the program’s stabilization activities in the country’s southern region
      Audit of USAID/Afghanistan's Afghanistan
                                                              were not being implemented as widely as planned. The audit
        Vouchers for Increased Productive
32                                             20-Apr-10      identified several other problems: In addition to the lack of reliable            3            3               None
            Agriculture (AVIPA) Program
                                                              data to measure program results, the program suffered from
                  (5-306-10-008-P)
                                                              insufficient oversight. The implementer, International Relief and
                                                              Development (IRD) could not retain staff, in part because of death
                                                              threats, and project staff members were overburdened by requests for
                                                              information and briefings from non-USAID Government officials. In
                                                              some cases, materials did not reach beneficiaries. Moreover, the audit
                                                              noted that up to $50 million in unspent program funds could be
                                                              reprogrammed for other activities.

                                                          OIG’s audit, which reviewed private security contractor (PSC)
                                                          operations between October 2006 and June 2009, examined the
                                                          reporting of serious security incidents, whether USAID implementing
                                                          partners had subcontracted with responsible firms, the costs of these
                                                          services, and the oversight of those costs. We found that detailed
                                                          statutory oversight requirements intended to cover both non-DOD and
                                                          DOD PSCs in Afghanistan had not been implemented by USAID,
      Audit of USAID/Afghanistan's Oversight of
                                                          because the Chief of Mission had not issued Mission-wide instructions
33           Private Security Contractors       21-May-10                                                                                       8            8               None
                                                          in accordance with DOD implementing regulation. As a result, USAID
                   (5-306-10-009-P)
                                                          PSCs did not report certain serious security incidents—in particular
                                                          persons killed or injured as a result of their conduct—that they
                                                          otherwise would have been required to report had Mission-wide
                                                          instructions implementing the statutory requirements been issued. The
                                                          Mission-wide instructions would have also incorporated statutorily-
                                                          mandated procedures to ensure PSCs in Afghanistan are qualified
                                                          and responsible. The report found such procedures were not in place.

                                                            In October 2004, OIG audited USAID's the school and health clinic
                                                            reconstruction activities. The audit found that the program was behind
                                                            schedule, and it recommended that the mission develop a new
                                                            implementation plan. This review was prompted by OIG's inability to
        Review of School and Health Clinic                  visit program sites due to the precarious security situation where many
      Buildings Completed Under the Schools                 schools and clinics are located. OIG contracted with KPMG
34         and Clinics Construction and           24-Jun-10 Afghanistan, whose staff could travel more easily within Afghanistan.               2            2               None
              Refurbishment Program                         To conduct site visits, OIG provided KPMG a statistical sample of 50
                 (5-306-10-002-O)                           buildings from the 776 schools and clinics completed across
                                                            Afghanistan under the program. KPMG noted numerous deficiencies
                                                            with regard to the physical condition of the school and health clinic
                                                            buildings. These deficiencies included physical problems, poor
                                                            hardware, lack of electrical supply, and deficient water service.




                                                                                                                                   81
                                                            Report                                                                                       Total # of    Total #
          No.                Report Title                                                       Summary of Findings                                                                      Open Recommendations                                 USAID Response
                                                             Date                                                                                    Recommendations   Closed
                                                                       OIG's audit found that a 32-percent decrease in poppy production
                                                                       between 2008 and 2009 is attributable to strong antipoppy messages
                                                                       from provincial governors, increased interdiction activities, an
                                                                       overproduction of poppy in prior years that suppressed market prices,
                                                                       and provision of alternative economic opportunities in targeted
                                                                       districts within each province. However , continued reductions in
                Audit of USAID/Afghanistan’s Alternative               poppy cultivation may not be sustainable because no follow-on
          35    Development Program Expansion, South       29-Jul-10   alternative development program has been approved beyond March                       3            3                          None
                       West     (5-306-10-011-P)                       2011, and a critical southern province is not included in the current
                                                                       program. Second, the program has experienced delays in
                                                                       implementation partially because of security issues. Also, a new,
                                                                       Embassy-led annual program review process, the restructuring of the
                                                                       regional commands, and the mission’s plan to implement regional
                                                                       platforms present future challenges that could hamper program
                                                                       implementation if not properly managed.
                                                                     This review of Edinburgh International's security costs charged to the
                                                                     following three USAID-funded projects in Afghanistan implemented by
                                                                     Development Alternatives, Inc.: Afghanistan Small and Medium
                                                                     Enterprises Development; Incentives Driving Economic Alternatives
                                                                     for the North, East, and West; Local Governance and Community
                                                                     Development (LGCD). The review found no indication that Edinburgh
                                                                     International had misused USAID funds to pay the Taliban or others in
                  Review of Security Costs Charged to                exchange for protection. However, there were indications that Afghan
          36        USAID Projects in Afghanistan          29-Sep-10 subcontractors working on the LGCD project had paid insurgents for                     4            4                          None
                            (5-306-10-002-S)                         protection in remote and insecure areas of Afghanistan. The
                                                                     payments were allegedly made as part of a security arrangement with
                                                                     local communities that very likely included the Taliban or groups that
                                                                     support them. The auditors found also indications of pervasive fraud
                                                                     in DAI's LGCD office in Jalalabad and indications of endemic
                                                                     corruption in Nangarhar Province, where Jalalabad is located. The
                                                                     auditors referred these findings to OIG/Investigations for further
                                                                     investigation.


                                                                       OIG Audit found that PACE-A has not been fully achieving all of its
                                                                       core objectives. One area in which program efforts have fallen short
                                                                       has been teacher training, which is the primary means of ensuring that
                                                                       PACE-A supported students receive a quality education. A review of
                Audit of USAID/Afghanistan’s Partnership               the training records maintained by each of the four PACE-A partners
                   for Advancing Community-Based                       revealed that, in most cases, teachers had not received the minimum
          37                                               28-Oct-10                                                                                        4            4                          None                                             None
                  Education in Afghanistan (PACE-A)                    basic training required to teach their classes. Specifically, the results
                            (5-306-11-001-P)                           of this review disclosed that, of the total primary education teachers
                                                                       supported (3,052), only 3 percent had received the full range of basic
                                                                       training―consisting of five workshops―that all newly hired teachers
                                                                       were expected to receive, and 21 percent had received none of the
                                                                       requisite training.


                                                                       The university is behind schedule in reforming its undergraduate
FY 2011




                                                                       program. While the university has developed additional courses and a
                                                                       bachelor’s degree with concentrations in business, information                                                                                        The mission’s Office of Acquisition and Assistance
                                                                       technology, and social sciences, it has not developed the curricula for                                                                               has prepared a plan regarding the steps it will take in
                                                                                                                                                                                 (14) Review the university’s procurement
                                                                       three individual bachelor’s degrees, as required under the agreement.                                                                                 performing the review of the university’s
                                                                                                                                                                                 system, as required by the agreement.
                                                                       The audit found other problems as well. The university was not in                                                                                     procurement system. This recommendation remains
                                                                       compliance with agreement terms—as it had not submitted its                                                                                           open.
                                                                       required Year 2 budget, Year 2 work plan, and performance
                Audit of USAID/Afghanistan’s Support to                management plan—and as a result, the mission was withholding
          38    the American University of Afghanistan     5-Nov-10    incremental funding. The university’s Professional Development                      18            16
                           (5-306-11-002-P)                            Institute will not meet its financial contribution goal. The university may
                                                                                                                                                                                                                             The mission has proposed a process by which all
                                                                       not meet its goal of increasing enrollment of women to 30 percent.
                                                                                                                                                                                                                             subcontractor construction procurements will be
                                                                       The undergraduate preparatory program was not preparing students
                                                                                                                                                                                 (15) Review procurement files before        reviewed and approved by the mission prior to the
                                                                       adequately to become undergraduates. University contracting was
                                                                                                                                                                                 approving construction subcontracts in      commencement of work. This plan includes the
                                                                       deficient and did not consistently document its competitive bidding
                                                                                                                                                                                 order to verify that adequate competition   review of any procurements that are funded in whole
                                                                       process. Items funded by USAID were not marked as having been
                                                                                                                                                                                 existed during the bidding process.         or part with USAID funds totaling more than
                                                                       provided by the U.S. taxpayer. Finally, environmental procedures were
                                                                                                                                                                                                                             $100,000 as well as all cost-reimbursement
                                                                       not followed construction of the new campus or in renovations of
                                                                                                                                                                                                                             contracts. This recommendation remains open.
                                                                       existing facilities.




                                                                                                                                               82
                                                    Report                                                                                  Total # of    Total #
No.                  Report Title                                                    Summary of Findings                                                            Open Recommendations   USAID Response
                                                     Date                                                                               Recommendations   Closed
                                                              The U.S. Government expects to deliver 50 percent of its
                                                              development aid to Afghanistan through the Government of the
                                                              Islamic Republic of Afghanistan’s (GIRoA’s) core budget by the end of
                                                              calendar year 2011. With this expectation, USAID/Afghanistan is
                                                              conducting a series of pre-award assessments of GIRoA ministries to
                                                              see whether the ministries can responsibly manage U.S. Government
                                                              resources. In a pre-award assessment (sometimes called a pre-award
                                                              survey or pre-award audit) the assessment team normally conducts
                                                              inquiries, observations, and tests to see whether the assessed entity
                                                              has the requisite procedures, internal controls, experienced
                                                              personnel, and other resources needed to responsibly manage U.S.
      Review of USAID/Afghanistan’s Ministerial
                                                              Government funds. The review focused on assessments already
39    Assessment Process           (F-306-11-      6-Nov-10                                                                                    3            3               None
                                                              performed by USAID/Afghanistan as well as on draft scopes of work
                      001-S)
                                                              for future assessments. Most of the assessments completed to date
                                                              were based mainly on reviews of written procedures, inquiries of
                                                              ministry officials, and inspection of a limited number of transactions.
                                                              More testing of controls would have provided greater assurance of
                                                              detecting vulnerabilities that could result in waste or misuse of U.S.
                                                              Government funds. The draft scopes of work for future assessments
                                                              can be strengthened by telling reviewers what program(s) ministries
                                                              may be asked to manage, assessing the control environment,
                                                              expanding coverage of controls over human resources and fixed
                                                              assets, and providing more detailed guidance to reviewers on how to
                                                              assess compliance with applicable laws.
                                                         The objective of this audit was to determine whether the program was
                                                         achieving its main goals, which dealt with irrigation water
                                                         management, agricultural technology transfer, and institution building.
                                                         Two and one-half years into the 3-year program, New Mexico State
                                                         University (NMSU) had achieved a number of successes in
                                                         introducing new agricultural and water technologies, and many
                                                         farmers were participating in on-farm demonstrations of these
                                                         technologies. Auditors found some evidence of demand for these new
                                                         technologies—laser land leveling being the clearest example—but
      Audit of USAID/Afghanistan’s Agriculture,
                                                         adoption of the technologies lies in the future. However, the audit
40    Water, and Technology Transfer Program 13-Feb-11                                                                                         6            6               None
                                                         noted several implementation issues. Moreover, financial records for
                  (F-306-11-001-P)
                                                         the program showed that about 61 percent of spending was in
                                                         Afghanistan, while the other 39 percent was in the United States.
                                                         Officials connected with the program raised concerns that the high
                                                         proportion of expenditures in the United States left fewer resources
                                                         available for activities in Afghanistan and raised other questions about
                                                         the financial management of the program. To address these issues,
                                                         the OIG contracted with an audit firm to conduct financial audits of
                                                         NMSU and its partner universities in the United States. OIG will issue
                                                         a separate report on the results of that audit.
                                                         The review found that the cash disbursement practices of the ten
                                                         selected USAID/Afghanistan implementing partners reasonably
                                                         ensured that their cash expenditures were reasonable, allocable, and
                                                         allowable. The OIG recommended that the mission disseminate the
       Review of Cash Disbursement Practices
                                                         best practices described in this report to its implementing partners to
      Employed by Selected USAID/Afghanistan
41                                              7-Mar-11 minimize cash transactions. The mission agreed with the                               1            1               None
              Contractors and Grantees
                                                         recommendation and issued a letter making all implementing partners
                  (F-306-11-002-S)
                                                         aware of the best practices described in this report. The mission
                                                         stated that by implementing these best practices, partners would be
                                                         adequately safeguarding USAID-funded resources.




                                                                                                                                   83
                                                   Report                                                                                Total # of    Total #
No.                 Report Title                                                    Summary of Findings                                                                  Open Recommendations                                   USAID Response
                                                    Date                                                                             Recommendations   Closed
                                                             OIG/Afghanistan conducted this review to determine what                                                                                           The mission accepted the recommendation to work
                                                            opportunities USAID and contractor staff had to learn of fraudulent                                                                                on providing a written policy clarifying the
                                                                                                                                                                 (3) Implement a written policy clarifying the
                                                            activities at Kabul Bank through USAID’s Economic Growth and                                                                                       responsibilities of USAID contractors and grantees to
        Review of USAID/Afghanistan’s Bank                                                                                                                       responsibilities of USAID contractors and
                                                            Governance Initiative and its predecessor, the Economic Growth and                                                                                 report on indications of fraud in host-country
      Supervision Assistance Activities and the                                                                                                                  grantees to report on indications of fraud in
                                                            Private Sector Strengthening Activity. Among other audit findings,                                                                                 institutions as well as on other matters that could
42               Kabul Bank Crisis                16-Mar-11                                                                                 4            3       host-country institutions or other matters
                                                            BearingPoint and Deloitte advisers who were embedded at DAB                                                                                        reasonably expected to be of foreign policy interest
                  (F-306-11-003-S)                                                                                                                               that could reasonably be expected to be of
                                                            encountered fraud indications at Kabul Bank on a number of                                                                                         to the U.S. Government as it applies to Afghanistan.
                                                                                                                                                                 foreign policy interest to the U.S.
                                                            occasions over a span of 2 years before depositors' run on Kabul                                                                                   This effort is being led by the Regional Legal Advisor
                                                                                                                                                                 Government.
                                                            Bank in early September 2010. However, they did not aggressively                                                                                   and other concerned offices in USAID. This
                                                            follow up on indications of serious problems at Kabul Bank.                                                                                        recommendation remains open.



                                                                                                                                                                                                               The mission determined that $258,982 in costs were
                                                                                                                                                                                                               ineligible and required IOM to redesign the women’s
                                                                                                                                                                 (3) Review the eligibility of the cost of the prayer room into two rooms including a visiting room
                                                                                                                                                                 prayer buildings and prayer rooms included and living room which is similar to the layout at the
                                                                                                                                                                 in the provincial teacher training centers    men’s dormitory. The mission has also halted
                                                                                                                                                                 and recover any costs found to be             construction on the mosque structures and advised
                                                                                                                                                                 unallowable.                                  that it plans to document the recovery of USAID
                                                                                                                                                                                                               funds disbursed to date for this structure. The
                                                                                                                                                                                                               recommendation remains open.

                                                             The objective of the audit was to determine whether
                                                             USAID/Afghanistan’s program was achieving its main goals of
                                                             strengthening the Government of Afghanistan’s ability to provide
   Audit of USAID/Afghanistan's Construction                 health services to its citizens and train competent teachers by                                                                                   The Mission agrees with this recommendation. The
43 of Health and Education Facilities Program      27-Mar-11 constructing provincial hospitals, midwife training centers, and              15            13                                                    CHEF projects require IOM to provide the relevant
                (F-306-11-002-P)                             provincial teacher training colleges. While the mission has realized                                                                              ministries with an Operations and Maintenance
                                                             some successes—for example, in strengthening the capacity of local                                  (9) USAID/Afghanistan, after preparing an (O&M) Plan for each CHEF project prior to
                                                             construction companies and adhering to the international building                                   analysis of the Government of                 completing and handing over the facility. The O&M
                                                             code—the program was not on schedule to achieve its main goals.                                     Afghanistan's ability to fund maintenance     Plan for each CHEF project includes: 1) O&M
                                                                                                                                                                 for the structures turned over under the      Manuals for equipment installed. 2) O&M training of
                                                                                                                                                                 program, (1) determine the need for a         ministry representatives for equipment installed. 3)
                                                                                                                                                                 separate operation and maintenance            An Annual O&M Budget, detailing the cost for the
                                                                                                                                                                 program and (2) revise as appropriate the     operation and maintenance of the facility. The
                                                                                                                                                                 611 (e) certification previously prepared for Mission will obtain the Annual O&M Budgets for all
                                                                                                                                                                 the Construction of Health and Education      CHEF projects from IOM, submit them to the relevant
                                                                                                                                                                 Facilities Program.                           ministries, and verify that the ministries have
                                                                                                                                                                                                               adequate funding to operate and maintain the
                                                                                                                                                                                                               facilities. The Mission will then revise the 611(e) if
                                                                                                                                                                                                               necessary. This recommendation remains open.




                                                                                                                                84
                                                    Report                                                                                Total # of    Total #
No.                  Report Title                                                     Summary of Findings                                                                 Open Recommendations                                     USAID Response
                                                     Date                                                                             Recommendations   Closed
                                                                                                                                                                                                                 USAID/Afghanistan did not agree with
                                                                                                                                                                                                                 Recommendation 1 for two reasons: The mission
                                                                                                                                                                                                                 estimated that up to 50 percent of no-shows were
                                                                                                                                                                                                                 due to security restrictions and were largely beyond
                                                                                                                                                                                                                 the control of individual travelers. The mission
                                                                                                                                                                                                                 believed that imposing nominal charges on no-show
                                                                                                                                                                                                                 passengers would not be feasible, although the
                                                                                                                                                                                                                 mission did not identify any specific feasibility issues.
                                                                                                                                                                                                                 The mission also disagreed with our estimate of
                                                                                                                                                                  (1) USAID/Afghanistan implement a
                                                                                                                                                                                                                 funds that could be put to better use by reducing the
                                                                                                                                                                  nominal charge for no-show passengers.
                                                                                                                                                                                                                 number of no-show passengers. The mission noted
                                                                                                                                                                                                                 that there may be no significant difference in cost
                                                                                                                                                                                                                 between flying a plane that is fully loaded with
                                                                                                                                                                                                                 passengers and one with a number of empty seats.
                                                                                                                                                                                                                 A management decision for Recommendation 1 can
                                                                                                                                                                                                                 be recorded when USAID/Afghanistan and our office
                                                                                                                                                                                                                 agree on a firm plan of action, with time frames, for
                                                                                                                                                                                                                 implementing the recommendation. This
                                                                                                                                                                                                                 recommendation remains open.

                                                                                                                                                                                                               USAID/Afghanistan agreed with the
                                                                                                                                                                                                               recommendation. The contracting officer, in
                                                                                                                                                                                                               collaboration with the USAID/Afghanistan's
                                                                                                                                                                                                               environmental officer, will review the contract's
                                                                                                                                                                  (2) USAID/Afghanistan clarify the contract's environmental provisions to determine how they
                                                                                                                                                                  environmental requirements and obtain        should be revised. In addition, the mission will
                                                                                                                                                                  evidence that the contractor is complying    ensure compliance with these provisions through
                                                                                                                                                                  with them.                                   enhanced monitoring and evaluation of the
                                                                                                                                                                                                               contractor's compliance with any environmental
                                                          The review found that USAID/Afghanistan's portion of the Embassy                                                                                     requirements set forth in the revised contract
                                                          Air program was providing safe and reliable air service in support of                                                                                provisions or modification. This recommendation
                                                          provincial reconstruction teams and other U.S. development                                                                                           remains open.
                                                          assistance programs in Afghanistan. The review also found areas in
                                                          which the Embassy Air program could be improved: no-show                                                (3) USAID/Afghanistan determine the
      Review of USAID/Afghanistan's Portion of
                                                          passengers increased costs to the government. The environmental                                         allowability of and recover, as appropriate,
44           the Embassy Air Program           9-Jun-2011                                                                                    8            3                                                      A management decision can be recorded when the
                                                          requirements in the contract with Aircraft Charter Solutions Inc. are                                   unsupported questioned costs of $525,467
                  (F-306-11-004-S)                                                                                                                                                                               allowability of the $525,467 in questioned costs is
                                                          ambiguous. Unapproved international travel led to questioned costs.                                     representing international travel (including
                                                          The contractor did not meet branding and marking requirements. The                                                                                     determined by the contracting officer. This
                                                                                                                                                                  premium-class travel of $31,902) by
                                                          contractor did not provide required terminal-to-aircraft transportation.                                                                               recommendation remains open.
                                                                                                                                                                  contractor officials that was not approved
                                                          The contractor did not report required performance information to                                       by USAID as required.
                                                          USAID.
                                                                                                                                                                                                                 The mission agreed and instructed the contractor to
                                                                                                                                                                                                                 submit a branding and marking plan for approval. In
                                                                                                                                                                                                                 addition, The mission provided the contractor with
                                                                                                                                                                  (4) USAID/Afghanistan verify that Aircraft     appropriate branding and marking materials to
                                                                                                                                                                  Charter Solutions Inc. has implemented a       initiate compliance with the requirements. Aircraft
                                                                                                                                                                  branding and marking plan.                     Charter Solutions Inc. installed tags on various
                                                                                                                                                                                                                 sections of the aircrafts and on furniture and
                                                                                                                                                                                                                 equipment inside the terminal buildings. This
                                                                                                                                                                                                                 recommendation remains open.
                                                                                                                                                                                                                USAID/Afghanistan did not agree with the
                                                                                                                                                                                                                recommendation. USAID/Afghanistan and the
                                                                                                                                                                                                                contractor both understood the performance
                                                                                                                                                                                                                standard "93% of missions completed as scheduled"
                                                                                                                                                                                                                to mean that the contractor was obligated to
                                                                                                                                                                                                                maintain a 93 percent on-time mission capability
                                                                                                                                                                                                                rate, excluding factors outside the contractor's
                                                                                                                                                                                                                control such as weather, security, and other
                                                                                                                                                                  (8) USAID/Afghanistan clarify its
                                                                                                                                                                                                                extenuating circumstances. However, this
                                                                                                                                                                  performance standards to Aircraft Charter
                                                                                                                                                                                                                understanding is contradicted by the wording of the
                                                                                                                                                                  Solutions Inc. so that realistic expectations
                                                                                                                                                                                                                performance standard itself (Appendix III).
                                                                                                                                                                  and proper reporting and accountability can
                                                                                                                                                                                                                USAID/Afghanistan did require the contractor to
                                                                                                                                                                  be obtained.
                                                                                                                                                                                                                develop and submit a performance management
                                                                                                                                                                                                                plan for approval. The mission planned to monitor
                                                                                                                                                                                                                compliance with the performance standards and
                                                                                                                                                                                                                indicators. A management decision can be recorded
                                                                                                                                                                                                                for Recommendation 8 when we and the mission
                                                                                                                                                                                                                agree on a firm plan of action, with time frames, for
                                                                                                                                                                                                                implementing the recommendation. This
                                                                                                                                                                                                                recommendation remains open.




                                                                                                                                 85
                                                    Report                                                                                 Total # of    Total #
No.                  Report Title                                                     Summary of Findings                                                                  Open Recommendations                                    USAID Response
                                                     Date                                                                              Recommendations   Closed

                                                                                                                                                                                                                  USAID/Afghanistan undertake a technical evaluation
                                                                                                                                                                                                                  of the effectiveness of voter education and civic
                                                                                                                                                                                                                  education efforts it has supported, the mission
                                                                                                                                                                                                                  agreed and is working with implementing partners to
                                                                                                                                                                                                                  develop a national survey that includes questions
                                                                                                                                                                   (1) USAID/Afghanistan undertake a
                                                                                                                                                                                                                  that focus on voter awareness and participation.
                                                                                                                                                                   technical evaluation of the effectiveness of
                                                                                                                                                                                                                  These questions will gauge the effectiveness of
                                                                                                                                                                   voter education and civic education efforts
                                                                                                                                                                                                                  USAID-supported voter and civic education. In
                                                                                                                                                                   it has supported.
                                                                                                                                                                                                                  addition to the survey instrument, the mission will
                                                                                                                                                                                                                  conduct an election program evaluation in June and
                                                                                                                                                                                                                  July 2011. This evaluation will examine the
                                                                                                                                                                                                                  effectiveness of USAID's support. This
                                                                                                                                                                                                                  recommendation remains open.



                                                                                                                                                                                                                  The mission will prepare a more formal project
                                                                                                                                                                                                                  design document for the follow-on program after the
                                                                                                                                                                                                                  Support to the Electoral Process Program ends in
                                                                                                                                                                   (2) USAID/Afghanistan prepare a more
                                                                                                                                                                                                                  June 2011 that explicitly identifies the critical
                                                                                                                                                                   formal project design document for the
                                                                                                                                                                                                                  assumptions underlying the program design, the
                                                                                                                                                                   follow-on program after the Support to the
                                                                                                                                                                                                                  mission concurred. It will incorporate national
                                                                                                                                                                   Electoral Process Program ends in June
                                                                                                                                                                                                                  perspectives into the design of its future elections
                                                                                                                                                                   2011 that explicitly identifies the critical
                                                                                                                                                                                                                  support programs by engaging with the GIRoA and
                                                                                                                                                                   assumptions underlying the program
                                                                                                                                                                                                                  IEC counterparts. The mission also plans to invite
                                                             To help strengthen Afghanistan’s electoral system,                                                    design.
                                                                                                                                                                                                                  independent technical elections specialists to
                                                             USAID/Afghanistan has provided assistance mainly through the                                                                                         conduct strategic reviews of the elections portfolio.
                                                             Support to the Electoral Process (STEP) Program implemented under                                                                                    This recommendation remains open.
                                                             a contract with the International Foundation for Electoral Systems
                                                             (IFES), the Increased Electoral Participation in Afghanistan (IEP)
       Audit of USAID/Afghanistan's Support to
                                                             Program implemented through a cooperative agreement with the
      The Electoral Process (STEP) and Support                                                                                                                                                                   The mission develop detailed plans for addressing
                                                             Consortium for Election and Political Process Strengthening (CEPPS),
45      for Increased Electoral Participation In   19-Jun-11                                                                                  9            1                                                     the legal reforms, financial and constitutional
                                                             As of December 31, 2010, USAID had obligated approximately $124.5
              Afghanistan (IEP) Programs                                                                                                                                                                         arrangements for elections, and voter registration
                                                             million and expended approximately $98.9 million. Despite
                   (F-306-11-003-P)                                                                                                                                                                              issues discussed in this finding in conjunction with
                                                             accomplishments in the areas of civic and voter education and
                                                                                                                                                                                                                 the Government of Afghanistan, other local
                                                             support in the operation of local electoral institutions, no persuasive
                                                                                                                                                                                                                 stakeholders, and international donors, the mission
                                                             evidence exists that these short-term results have produced increased
                                                                                                                                                                   (3) USAID/Afghanistan develop detailed        concurred. The mission has outlined a series of
                                                             citizen awareness of the electoral process or a stronger democratic
                                                                                                                                                                   plans for addressing the legal reforms,       activities undertaken and others planned to address
                                                             political party system.
                                                                                                                                                                   financial and constitutional arrangements     the legal reform, financial and constitutional
                                                                                                                                                                   for elections, and voter registration issues  arrangements for elections and voter registration.
                                                                                                                                                                   discussed in this finding in conjunction with However, the mission did not provide a date to
                                                                                                                                                                   the Government of Afghanistan, other local complete plans for addressing needed legal reforms,
                                                                                                                                                                   stakeholders, and international donors.       financial and constitutional arrangements for
                                                                                                                                                                                                                 elections, and voter registration issues discussed in
                                                                                                                                                                                                                 the finding because discussions on these issues are
                                                                                                                                                                                                                 on-going. While we agree that activities are on-going
                                                                                                                                                                                                                 plans need to be established to address the larger-
                                                                                                                                                                                                                 team issues discussed in the report. This
                                                                                                                                                                                                                 recommendation remains open.


                                                                                                                                                                                                                  The mission complete all required contractor
                                                                                                                                                                                                                  performance reviews under the Support to the
                                                                                                                                                                                                                  Electoral Process contract, the mission agreed. The
                                                                                                                                                                   (4) USAID/Afghanistan complete all
                                                                                                                                                                                                                  COTR and Alternate COTR will complete the
                                                                                                                                                                   required contractor performance reviews
                                                                                                                                                                                                                  contractor performance reviews in collaboration with
                                                                                                                                                                   under the Support to the Electoral Process
                                                                                                                                                                                                                  the Contracting Officer using the Contractor
                                                                                                                                                                   contract in accordance with Federal
                                                                                                                                                                                                                  Performance Assessment Reporting system. The
                                                                                                                                                                   Acquisitions Regulation and Agency for
                                                                                                                                                                                                                  contractor performance reviews for the first two
                                                                                                                                                                   International Development Acquisitions
                                                                                                                                                                                                                  project years will be completed by August 31, 2011.
                                                                                                                                                                   Regulation requirements.
                                                                                                                                                                                                                  Year 3 reviews will be conducted after the end of the
                                                                                                                                                                                                                  period of performance on September 30, 2011. This
                                                                                                                                                                                                                  recommendation remains open.




                                                                                                                                 86
                     Report                                  Total # of    Total #
No.   Report Title            Summary of Findings                                            Open Recommendations                                    USAID Response
                      Date                               Recommendations   Closed
                                                                                                                                  The mission prepare an implementation plan for use
                                                                                                                                  of the $1.4 million rural radio supplemental funding
                                                                                                                                  consistent with the goals of the program, or
                                                                                                                                  reprogram these funds for other mission programs,
                                                                                     (5) USAID/Afghanistan prepare an
                                                                                                                                  the mission concurred. The mission has directed the
                                                                                     implementation plan for use of the $1.4
                                                                                                                                  International Republican Institute to prepare an
                                                                                     million rural radio supplemental funding
                                                                                                                                  implementation plan for using the funds, and IRI has
                                                                                     consistent with the goals of the program, or
                                                                                                                                  submitted a concept paper that envisions using the
                                                                                     reprogram these funds for other mission
                                                                                                                                  funds—originally for pre-election voter education
                                                                                     programs.
                                                                                                                                  programs—for radio programs focusing on the
                                                                                                                                  performance of elected officials and discussion of
                                                                                                                                  political and social issues. This recommendation
                                                                                                                                  remains open.
                                                                                                                                  The mission establish procedures and criteria for
                                                                                                                                  determining reasonableness of security costs, the
                                                                                                                                  mission asked the Office of Inspector General to
                                                                                                                                  reconsider its recommendation. The mission
                                                                                                                                  interpreted the recommendation as requiring a
                                                                                                                                  market price survey that could take 12 to 15 months,
                                                                                     (7) USAID/Afghanistan establish
                                                                                                                                  and it wondered whether this would be worthwhile in
                                                                                     procedures and criteria for determining the
                                                                                                                                  light of recent developments affecting private
                                                                                     reasonableness of security costs charged
                                                                                                                                  security firms in Afghanistan. The mission noted that,
                                                                                     by implementing partners.
                                                                                                                                  once the Afghan Public Protection Force assumes
                                                                                                                                  responsibility for the security of USAID's partners,
                                                                                                                                  the partners will be expected to pay fixed prices for
45                                                                                                                                security services. Therefore, the mission considered
                                                                                                                                  that our recommendation was overtaken by events.
                                                                                                                                  This recommendation remains open.



                                                                                                                                    The mission follow-on program requires members of
                                                                                                                                    the Consortium for Election and Political Process
                                                                                     (8) USAID/Afghanistan's follow-on program
                                                                                                                                    Strengthening to consolidate functions and facilities
                                                                                     require members of the Consortium for
                                                                                                                                    to the extent possible to reduce expenses, the
                                                                                     Election and Political Process
                                                                                                                                    mission partially concurred. The mission noted that a
                                                                                     Strengthening to consolidate functions and
                                                                                                                                    consolidation of functions and facilities of
                                                                                     facilities to the extent possible to reduce
                                                                                                                                    implementing partners' at the national level may
                                                                                     expenses.
                                                                                                                                    prove less advisable. This recommendation remains
                                                                                                                                    open.



                                                                                                                                    On April 18, 2011, the mission requested CEPPS to
                                                                                     (9) USAID/Afghanistan require the
                                                                                                                                    deliver a collective branding and marking plan. All
                                                                                     International Republican Institute, as the
                                                                                                                                    CEPPS partners have individually submitted
                                                                                     lead partner in the Consortium for Elections
                                                                                                                                    branding and marking plans as of May 4, 2011. The
                                                                                     and Political Process Strengthening, to
                                                                                                                                    mission will review the plans and verify
                                                                                     submit a Consortium marking and branding
                                                                                                                                    implementation through field visits during the
                                                                                     plan and verify that the plan has been
                                                                                                                                    remainder of the activity. This recommendation
                                                                                     implemented.
                                                                                                                                    remains open.




                                                    87
                                              Report                                                                                 Total # of    Total #
No.               Report Title                                                  Summary of Findings                                                                  Open Recommendations                                    USAID Response
                                               Date                                                                              Recommendations   Closed
                                                                                                                                                                                                          The mission intends to issue a bill of collection to
                                                                                                                                                             (2) USAID/Afghanistan determine the          recoup the costs. Its review of the list revealed items
                                                                                                                                                             allowability of and recover as appropriate   purchased from a prohibited source. The mission
                                                                                                                                                             from the International Organization for      intends to perform a financial audit of the program,
                                                                                                                                                             Migration the cost of stored food that is no which will include a review of items purchased from
                                                                                                                                                             longer fit for human consumption, which we prohibited sources. This recommendation remains
                                                                                                                                                             estimate at up to $2,660,924.                open until a bill to collect the money has been
                                                                                                                                                                                                          issued. This recommendation is open.
                                                                                                                                                                                                          According to the mission, the program was
                                                                                                                                                                                                          distributing assistance kits aggressively from
                                                                                                                                                                                                          February through July 2011 and, without the
                                                                                                                                                                                                          additional inventory on hand; the program might not
                                                                                                                                                                                                          have been able to assist all beneficiaries without
                                                                                                                                                                                                          interruption. The mission indicated that all the kits
                                                                                                                                                                                                          from Uranus Trading and Logistics Company
                                                                                                                                                             (3) USAID/Afghanistan determine the          ultimately were distributed to beneficiaries. We
                                                                                                                                                             allowability of and recover as appropriate   disagree with the mission’s analysis. As detailed in
                                                                                                                                                             from the International Organization for      the audit finding, IOM had inventory records
                                                                                                                                                             Migration the $740,331 cost of Purchase      supporting 4,821 kits stored at Uranus Trading and
                                                                                                                                                             Order 12, which was not needed to carry      Logistics Company, and that total did not include kits
                                                                                                                                                             out program operations.                      stored in IOM warehouses, for which no inventory
                                                                                                                                                                                                          records were available. This order added 3,000 kits,
                                                                                                                                                                                                          which Uranus Trading and Logistics Company had to
                                                                                                                                                                                                          have stored. We recommended that the agreement
                                                       The Afghan Civilian Assistance Program was designed to assist                                                                                      officer determine the allowability of the kits
                                                       Afghan civilian families and communities that have suffered losses as                                                                              purchased under Purchase Order 12. This
                                                       a result of military operations against insurgents and the Taliban. The                                                                            recommendation remains open and is pending a
                                                       program is implemented through a $76 million, 4½-year cooperative                                                                                  management decision
                                                       agreement with the International Organization for Migration (IOM) that
                                                       runs from April 1, 2007, to September 30, 2011. As of March 2, 2011,
                                                       according to USAID/Afghanistan records, $54 million had been                                                                                       The mission asked IOM for a summary of the
                                                       obligated and $52 million spent under the program. Beneficiaries                                                                                   assessment done by SHAL, a nongovernmental
                                                       under the program are generally given in-kind or noncash assistance,                                                                               organization contracted by IOM, which will identify
                                                                                                                                                             (4) USAID/Afghanistan determine the
                                                       often in the form of kits that include food, household items, school                                                                               which individuals not entitled to assistance received
      Review of USAID/Afghanistan's Afghan                                                                                                                   allowability of and recover, as appropriate,
                                                       supplies, or tools and equipment for agriculture or small business                                                                                 commodities or cash. The mission will then review
46         Civilian Assistance Program       31-Aug-11                                                                                  7            1       the $1,360,800 in shelter assistance grants
                                                       activities. IOM did not adopt any specific criteria or guidelines for                                                                              the report, and the agreement officer will make a
                  (F-306-11-005-S)                                                                                                                           in Helmand Province that could not be
                                                       commodity management under the program. In the absence of                                                                                          final determination on the allowability of the
                                                                                                                                                             verified.
                                                       specific criteria, we used Generally Accepted Commodity                                                                                            questioned costs and initiate recoupment of funds,
                                                       Accountability Principles2 and the USAID Commodities Reference                                                                                     as appropriate and is pending a management
                                                       Guide (www.usaid.gov/our_work/humanitarian_assistance/ffp/crg as                                                                                   decision. This recommendation remains open.
                                                       criteria. Our inspections of four warehouses—three IOM warehouses
                                                       and one warehouse belonging to Uranus Trading and
                                                       Logistics—disclosed rat and mouse infestation, poor storage                                           (5) USAID/Afghanistan arrange for a            A management decision was reached upon report
                                                       practices, expired commodities, and a lack of inventory records.                                      financial audit of the Afghan Civilian         issuance. The mission's target completion date for
                                                       Further, the inspections led us to question the purchase of additional                                Assistance Program to help ensure that the     the audit is January 31, 2012. On the basis of this
                                                       kits, space for which was lacking in IOM’s warehouse.                                                 costs charged to USAID are reasonable,         information, a management decision has been
                                                                                                                                                             allowable, and allocable.                      reached. This recommendation remains open.


                                                                                                                                                                                                            The mission partially agreed with the
                                                                                                                                                                                                            recommendation. The mission agreed to recover the
                                                                                                                                                                                                            funds that were reportedly embezzled, but did not
                                                                                                                                                                                                            agree with the amount embezzled. The mission is
                                                                                                                                                             (6) USAID/Afghanistan determine the
                                                                                                                                                                                                            currently reviewing documentation provided by IOM
                                                                                                                                                             allowability of and recover, as appropriate,
                                                                                                                                                                                                            to determine the actual amount of funds
                                                                                                                                                             $180,000 that was reportedly embezzled
                                                                                                                                                                                                            misappropriated and will make a final determination
                                                                                                                                                             from the program.
                                                                                                                                                                                                            on the allowability of the questioned costs and
                                                                                                                                                                                                            initiate recoupment of funds, as appropriate. This
                                                                                                                                                                                                            recommendation remains open and is pending a
                                                                                                                                                                                                            management decision.


                                                                                                                                                                                                            The agreement officer is reviewing the
                                                                                                                                                             (7) USAID/Afghanistan determine the            documentation provided by IOM to determine the
                                                                                                                                                             allowability of and recover, as appropriate,   allowability of this cost. USAID/Afghanistan will
                                                                                                                                                             the $3,437,000 that the International          initiate recovery action, as appropriate, through the
                                                                                                                                                             Organization for Migration spent to buy        issuance of a bill for collection. This recommendation
                                                                                                                                                             used vehicles without USAID approval.          remains open and is pending a management
                                                                                                                                                                                                            decision.




                                                                                                                            88
                                                    Report                                                                                   Total # of    Total #
No.                  Report Title                                                      Summary of Findings                                                                   Open Recommendations                                     USAID Response
                                                     Date                                                                                Recommendations   Closed
                                                                                                                                                                                                                      USAID plans to work with Ministry of Public Health to
                                                                                                                                                                     (1) USAID/Afghanistan, in collaboration          develop and implement a plan that identifies which
                                                                                                                                                                     with the Ministry of Public Health, develop elements the nongovernmental organization
                                                                                                                                                                     and implement a plan that improves the           contractors should address. USAID/Afghanistan will
                                                                                                                                                                     nongovernmental organization contractors' also work with the Ministry of Public Health to ensure
                                                                                                                                                                     supervision, monitoring, and problem             that nongovernmental organizations’ roles and
                                                                                                                                                                     solving at their health facilities; and verifies responsibilities related to quality assurance are
                                                                                                                                                                     the successful implementation of a reliable clearly defined and articulated and are in line with
                                                                                                                                                                     quality assurance mechanism by the               established guidance on quality assurance. The
                                                                                                                                                                     nongovernmental organization contractors, mission will also work to ensure that the Ministry of
                                                                                                                                                                     including the establishment of quality           Public Health’s monitoring plans cover quality
                                                                                                                                                                     assurance committees at each of he health assurance issues. The mission intends to implement
                                                                                                                                                                     facilities.                                      this plan by February 29, 2012. This
                                                                                                                                                                                                                      recommendation is open.

                                                                                                                                                                                                                    The mission will work with the Ministry of Public
                                                                                                                                                                                                                    Health to develop a plan to reinforce verification
                                                                                                                                                                     (2) USAID/Afghanistan assist the Ministry of
                                                                                                                                                                                                                    guidelines and to incorporate monitoring of
                                                                                                                                                                     Public Health in establishing and
                                                                                                                                                                                                                    implementation of the verification guidelines into the
                                                                                                                                                                     implementing a plan to ensure that
                                                              The Partnership Contracts for Health Services (PCH) program has                                                                                       Ministry of Public Health’s facility monitoring plan.
                                                                                                                                                                     nongovernmental organization contractors
                                                              contributed to the achievement of the Ministry of Public Health's                                                                                     The mission anticipates completion and
                                                                                                                                                                     are verifying that the requirement of second-
                                                              health objectives. The majority of PCH health facilities visited were                                                                                 implementation of the plan by March 31, 2012.
                                                                                                                                                                     person verification is being effectively
                                                              exceeding their patient capacity, demonstrating that communities,                                                                                     Based on the proposed action, the mission has
                                                                                                                                                                     implemented at health facilities.
                                                              especially women and their children, were increasingly seeking out                                                                                    reached a management decision. This
                                                              health services. PCH-funded physicians interviewed attributed                                                                                         recommendation remains open.
                                                              accomplishments in the reduction of maternal and infant mortality in                                                                                  The mission anticipates working with the Ministry of
                                                              part to the PCH program’s community outreach program. The health                                       (3) USAID/Afghanistan, in collaboration
                                                                                                                                                                                                                    Public Health to develop a plan to identify and
                                                              education provided by the outreach program in remote areas has                                         with the Ministry of Public Health, develop a
                                                                                                                                                                                                                    assign civil-service counterparts for training by PCH
                                                              been emphasizing the benefits of delivering babies at health facilities                                plan to (1) identify a pool of qualified civil
                                                                                                                                                                                                                    long-term external advisers. The mission anticipates
                                                              rather than at home, and as a result, physicians stated that the                                       service employees who would benefit from
                                                                                                                                                                                                                    completing action on this recommendation by March
                                                              majority of women in their service areas are now delivering at the                                     capacity building training in order to sustain
                                                                                                                                                                                                                    31, 2012. Based on the proposed action, a
                                                              health clinics and hospitals. Auditors found that the process for                                      the ministry's capacity for managing the
       Audit of USAID/Afghanistan's On-Budget                                                                                                                                                                       management decision has been reached. This
                                                              completing the required Health Management Information System                                           PCH program and (2) provide the training.
        Funding Assistance to the Ministry of                                                                                                                                                                       recommendation remains open.
                                                              reports was inherently prone to errors because information was
47    Public Health in Support of the Partnership   29-Sep-11                                                                                  13            0                                                       Specifically, the mission will conduct an assessment
                                                              compiled manually on paper. Health facilities located in remote rural
        Contracts for Health Services Program                                                                                                                        (4) USAID/Afghanistan work with the             of Ministry of Public Health systems, policies, and
                                                              areas had no electricity and no computers. Workers at most (73
                   (F-306-11-004-P)                                                                                                                                  Ministry of Public Health and the Ministry of   procedures and use the results of the assessment to
                                                              percent) of the health facilities visited did not double-check their
                                                              figures before submitting the reports to MoPH. Having a second                                         Finance to streamline the payment process       streamline the payment process. The mission
                                                              person double-check data is considered a best practice to minimize                                     to accelerate payments to                       intends to complete this task by February 29, 2012.
                                                              errors. According to USAID officials, these error and submission rates                                 nongovernmental organization contractors        Based on the proposed actions, a management
                                                              were comparable to world benchmarks in developing counties, where                                      and health workers.                             decision has been reached. This recommendation
                                                              data quality is usually below 50 percent. Despite the limitations in                                                                                   remains open.
                                                              data, HMIS provides useful data for monitoring trends and identifying
                                                              gaps and improvements in service. Because MoPH’s Afghanistan                                           (5) USAID/Afghanistan work with the
                                                              Mortality Survey 2010 is expected to provide current demographic                                       Ministry of Public Health and the Ministry of
                                                              health information, we did not make a recommendation regarding the                                     Finance to (1) implement written policies       The mission agreed with these 2 points and
                                                              lack of current population statistics, demographic information, or other                               and procedures that clearly define the          anticipates completing this work by February 29,
                                                              national data to measure outcomes from the ministry’s health-care                                      roles, responsibilities, and approval           2012. Based on the proposed actions, a
                                                              activities.                                                                                            authorities for the payment process and (2)     management decision has been reached. This
                                                                                                                                                                     provide further training on the                 recommendation remains open.
                                                                                                                                                                     advance/liquidation mode of payment
                                                                                                                                                                     process.

                                                                                                                                                                                                                     The mission will draw on the results of the
                                                                                                                                                                     (6) USAID/Afghanistan work with the
                                                                                                                                                                                                                     assessment in working with Ministry of Public Health
                                                                                                                                                                     Ministry of Public Health and the Ministry of
                                                                                                                                                                                                                     and Ministry of Finance to implement policies and
                                                                                                                                                                     Finance to implement procedures limiting
                                                                                                                                                                                                                     procedures regarding changes in the payment
                                                                                                                                                                     the frequency of changes made to the
                                                                                                                                                                                                                     process and issuance of instructions on such
                                                                                                                                                                     payment process and providing sufficient
                                                                                                                                                                                                                     changes. The mission intends to complete these
                                                                                                                                                                     notification and clear instructions to
                                                                                                                                                                                                                     tasks by February 29, 2012. Based on the proposed
                                                                                                                                                                     nongovernmental organization contractors
                                                                                                                                                                                                                     actions, a management decision has been reached.
                                                                                                                                                                     on any changes.
                                                                                                                                                                                                                     This recommendation remains open.

                                                                                                                                                                     (7) USAID/Afghanistan review its internal
                                                                                                                                                                                                                     The mission anticipates completing this review and
                                                                                                                                                                     administrative procedures, such as the
                                                                                                                                                                                                                     modifying its procedures by February 29, 2012.
                                                                                                                                                                     processing of implementation letters, to
                                                                                                                                                                                                                     Based on these proposed actions, a management
                                                                                                                                                                     ensure the smooth and timely flow of the
                                                                                                                                                                                                                     decision has been reached. This recommendation
                                                                                                                                                                     payment process for on-budget assistance
                                                                                                                                                                                                                     remains open.
                                                                                                                                                                     agreements.




                                                                                                                                    89
                     Report                                  Total # of    Total #
No.   Report Title            Summary of Findings                                            Open Recommendations                                       USAID Response
                      Date                               Recommendations   Closed
                                                                                     (8) USAID/Afghanistan issue a mission
                                                                                     order to provide an organizational               The mission intends to complete this task by
                                                                                     framework with clearly defined roles and         February 29, 2012. Based on the proposed actions,
                                                                                     responsibilities of all mission offices          a management decision has been reached. This
                                                                                     responsible for managing on-budget               recommendation remains open.
                                                                                     assistance activities.
                                                                                                                                      The mission will include a provision related to the
                                                                                                                                      designation of activity or project managers for
                                                                                     (9) USAID/Afghanistan provide a formal
                                                                                                                                      government-to-government assistance mechanisms
                                                                                     designation letter similar to an officer's
                                                                                                                                      in its revised mission order referred to in
                                                                                     technical representative designation letter
                                                                                                                                      Recommendation 8. The mission anticipates
                                                                                     to staff members monitoring
                                                                                                                                      completing this mission order by February 29, 2012.
                                                                                     implementation of on-budget assistance
                                                                                                                                      Based on the proposed action, a management
                                                                                     agreements.
                                                                                                                                      decision has been reached. This recommendation
                                                                                                                                      remains open.
                                                                                     (10) USAID/Afghanistan work with the
                                                                                                                                      Work is under way, with a target completion date of
                                                                                     Ministry of Public Health to prepare a
                                                                                                                                      March 31, 2012. Based on the proposed action, a
                                                                                     performance management plan for the
                                                                                                                                      management decision has been reached. This
                                                                                     Partnership Contracts for Health Services
                                                                                                                                      recommendation remains open.
                                                                                     program.

                                                                                                                                      The mission will provide the Ministry of Public Health
47                                                                                   (11) USAID/Afghanistan provide the               with a list of Afghan Info performance indicators and
                                                                                     Ministry of Public Health with clearly written   their associated definitions by February 29, 2012. A
                                                                                     definitions of Afghan Info performance           management decision has been reached based on
                                                                                     indicators.                                      this proposed action. This recommendation remains
                                                                                                                                      open.
                                                                                                                                      The mission plans to provide PCH consultants with
                                                                                                                                      orientation to and training in utilizing the Afghan Info
                                                                                     (12) USAID/Afghanistan implement                 database, with a target completion date of February
                                                                                     procedures to review and verify the              29, 2012. However, while the training will address
                                                                                     accuracy of data entered into Afghan Info        the needs of PCH, the mission’s actions do not
                                                                                     and provide timely feedback to users.            address the verification aspect of the
                                                                                                                                      recommendation. This recommendation remains
                                                                                                                                      open.
                                                                                                                                      The mission plans to request implementing partner
                                                                                                                                      assistance in updating GPS coordinates for health
                                                                                     (13) USAID/Afghanistan, in collaboration
                                                                                                                                      facilities and in developing a plan for completion of
                                                                                     with the Ministry of Public Health,
                                                                                                                                      all GPS requirements. The plan is to be completed
                                                                                     implement a plan to confirm and document
                                                                                                                                      by February 29, 2012, and the updated GPS
                                                                                     accurate GPS coordinates for the ministry's
                                                                                                                                      coordinates by March 31, 2012. Based on the
                                                                                     health facilities.
                                                                                                                                      proposed actions, a management decision has been
                                                                                                                                      reached. This recommendation remains open.




                                                    90
                                                     Report                                                                                    Total # of    Total #
No.                  Report Title                                                       Summary of Findings                                                                    Open Recommendations                                     USAID Response
                                                      Date                                                                                 Recommendations   Closed
                                                                                                                                                                                                                  USAID/OTI concurred with the recommendation that
                                                                                                                                                                                                                  it direct Chemonics to develop work plans based on
                                                                                                                                                                                                                  the district stability framework. Further, USAID/OTI
                                                                                                                                                                                                                  stated that 1) district strategies have been written
                                                                                                                                                                                                                  and approved by OTI for all active program districts
                                                                                                                                                                                                                  (or sub-districts in the case of Kandahar City); 2) all
                                                                                                                                                                       (1) USAID/Office of Transition Initiatives
                                                                                                                                                                                                                  USAID/OTI staff and all but the newest Chemonics
                                                                                                                                                                       direct Chemonics to develop detailed work
                                                                                                                                                                                                                  staff have received District Stability Framework
                                                                                                                                                                       plans for program implementation based on
                                                                                                                                                                                                                  training; and 3) the District Stability Framework is in
                                                                                                                                                                       the district stability framework and
                                                                                                                                                                                                                  use in all active USAID/OTI programming districts
                                                                                                                                                                       determine the adequacy of these plans.
                                                                                                                                                                                                                  and Kandahar City. Nevertheless, USAID/OTI did not
                                                                                                                                                                                                                  provide documentation of its direction to Chemonics
                                                                                                                                                                                                                  concerning the development of work plans.
                                                                                                                                                                                                                  USAID/OTI has reached a management decision on
                                                                                                                                                                                                                  this recommendation. This recommendation remains
                                                                                                                                                                                                                  open.

                                                                                                                                                                                                                      USAID/OTI agreed to develop objective measures
                                                                                                                                                                                                                      for evaluating Chemonics’ performance. USAID/OTI
                                                                                                                                                                                                                      also noted that 1) Chemonics received general
                                                                                                                                                                                                                      guidance to design grants that can be implemented
                                                                                                                                                                                                                      in the three to five month range; 2) USAID/OTI and
                                                                                                                                                                                                                      Chemonics now hold weekly (or bi-weekly in Districts
                                                               Program implementation was delayed. Program implementation was                                                                                         with less grant volume) implementation meetings to
                                                               delayed by a lack of timeliness standards for evaluating Chemonics’                                                                                    review performance of each ongoing grant; and at
                                                               performance, adverse security conditions, a lack of formal work plans,                                  (2) USAID/Office of Transition Initiatives
                                                                                                                                                                                                                      the end of grant implementation, Chemonics is
                                                               inadequate USAID/Office of Transition Initiative oversight, staffing                                    develop objective standards for evaluating
                                                                                                                                                                                                                      required to write a final evaluation report. While
                                                               difficulties, and poor-quality subcontractors. Program budget was not                                   Chemonics' performance, including
                                                                                                                                                                                                                      these may be elements that provide information
                                                               properly managed. Afghanistan Stabilization Initiative-Southern                                         standards for timeliness of program
                                                                                                                                                                                                                      concerning grants, they do not necessarily constitute
                                                               Region did not properly manage its budget and began running out of                                      implementation.
                                                                                                                                                                                                                      objective measures to evaluate Chemonics
                                                               funds in the first quarter of fiscal year (FY) 2011. This happened                                                                                     performance (e.g. the timeliness of Chemonics
                                                               because ASI-SR accepted more grants than it could fund and                                                                                             processing of grant applications and approvals, its
                                                               because of unanticipated operating expenses. Projects were not                                                                                         timely completion of grants, the achievement of
      Audit of USAID/Afghanistan's Afghanistan
                                                               perceived as Afghan Government efforts. According to an                                                                                                grant objectives, the impact of the grant program,
48    Stabilization Initiative for Southern Region   13-Nov-11                                                                                   18            3
                                                               independent third-party monitoring and evaluation report of ASI-SR                                                                                     and etcetera). USAID/OTI has reached a
                    (F-306-12-001-P)
                                                               activities, for 9 of 15 projects reviewed, intended beneficiaries did not                                                                              management decision on this recommendation. This
                                                               believe that the Afghan Government was involved in the projects.                                                                                       recommendation remains open.
                                                               Rather, beneficiaries credited “foreigners” or provincial reconstruction
                                                               teams (PRTs) with implementing the projects. Afghan Government
                                                               branding of project sites could help create stronger perceptions of                                                                                  USAID/OTI agreed that it should prepare activity
                                                               Afghan Government involvement in ASI-SR projects. Mission lacked a                                                                                   manager designation letters describing field program
                                                               transition plan. Although USAID/OTI, USAID/Afghanistan, Chemonics,                                      (4) USAID/Office of Transition Initiatives   managers' responsibilities. USAID/OTI noted that it
                                                               and Afghan Government officials all agree that some key districts are                                   prepare activity manager designation letters has drafted designation letters for its field program
                                                               ready for longer-term development projects, no comprehensive                                            describing field program manager             managers and is coordinating final approval of those
                                                               transition plans are in place.                                                                          responsibilities.                            letters. USAID/OTI has reached management
                                                                                                                                                                                                                    decision on this recommendation. This
                                                                                                                                                                                                                    recommendation remains open.

                                                                                                                                                                                                                      USAID/OTI agreed that it should provide its field
                                                                                                                                                                                                                      program managers training on their roles and
                                                                                                                                                                       (5) USAID/Office of Transition Initiatives     responsibilities and on program implementation
                                                                                                                                                                       provide training for its field program         practices. USAID/OTI stated that it has provided
                                                                                                                                                                       managers on their roles and responsibilities   training in these areas to its staff, although it did not
                                                                                                                                                                       and program implementation practices and       provide documentation evidencing such training.
                                                                                                                                                                       procedures.                                    USAID/OTI has reached a management decision on
                                                                                                                                                                                                                      this recommendation. This recommendation remains
                                                                                                                                                                                                                      open.
                                                                                                                                                                                                                    USAID/OTI agreed to instruct Chemonics to balance
                                                                                                                                                                                                                    its program grants portfolio with more small-scale
                                                                                                                                                                                                                    activities. USAID/OTI also indicated that, among
                                                                                                                                                                       (6) USAID/Office of Transition Initiatives   other things, it had provided guidance that the
                                                                                                                                                                       instruct Chemonics to adjust its program     program should refrain from implementing large
                                                                                                                                                                       grants portfolio to include more small-scale infrastructure projects with complex subcontracts
                                                                                                                                                                       activities.                                  and that the program is now only approving grants of
                                                                                                                                                                                                                    $100,000 or less. USAID/OTI has reached a
                                                                                                                                                                                                                    management decision on this recommendation. This
                                                                                                                                                                                                                    recommendation remains open.




                                                                                                                                     91
                     Report                                  Total # of    Total #
No.   Report Title            Summary of Findings                                            Open Recommendations                                      USAID Response
                      Date                               Recommendations   Closed

                                                                                     (7) USAID/OTI formally delegate
                                                                                                                                     USAID/OTI agreed to delegate COTR responsibilities
                                                                                     contracting officer's technical
                                                                                                                                     for directing Chemonics to the USAID/OTI regional
                                                                                     representative responsibilities for directing
                                                                                                                                     representative in Kandahar. According to
                                                                                     Chemonics to the USAID/Office of
                                                                                                                                     USAID/OTI, the designation memo is awaiting final
                                                                                     Transition Initiatives Regional
                                                                                                                                     approval. This recommendation remains open.
                                                                                     Representative in Kandahar.


                                                                                                                                     USAID/OTI and the mission are currently reviewing
                                                                                     (9) USAID/OTIrecover as appropriate the         the recommendation to recover as appropriate the
                                                                                     $12,200 spent for supporting other              $12,200 spent for supporting other agencies under
                                                                                     agencies under the ASI-SR program.              the program. Consequently, a management decision
                                                                                                                                     is pending. This recommendation remains open.

                                                                                                                                     USAID/OTI concurred with the recommendation to
                                                                                                                                     develop and implement benchmarks to assess
                                                                                                                                     Chemonics' progress in closing out completed
                                                                                                                                     grants. USAID/OTI indicated that it uses its Activity
                                                                                                                                     Database to monitor grants through the activity cycle
                                                                                                                                     from concept to closure. It further stated that it meets
                                                                                     (10) USAID/OTI develop and implement            with Chemonics on a weekly and bi-weekly basis to
                                                                                     benchmarks to assess Chemonics'                 confirm project implementation progress and that an
                                                                                     progress in closing out completed grants.       official modification is required if a grant is nearing
                                                                                                                                     its end date. Nevertheless, these mechanisms do
48
                                                                                                                                     not constitute benchmarks for assessing Chemonics'
                                                                                                                                     progress in closing out grants. Based on its
                                                                                                                                     agreement with the recommendation, USAID/OTI
                                                                                                                                     has made a management decision. This
                                                                                                                                     recommendation remains open.


                                                                                                                                     USAID/OTI concurred with this recommendation.
                                                                                                                                     While USAID/OTI did provide a document titled New
                                                                                     (11) USAID/OTI issue written guidance to        Guidance on Activity Modification and Grant Closure
                                                                                     Chemonics describing time frames for            Procedures, there is no indication that this document
                                                                                     project closeout.                               was issued to Chemonics. A management decision
                                                                                                                                     had been reached on this recommendation. This
                                                                                                                                     recommendation remains open.


                                                                                                                               USAID/OTI concurred with the recommendation and
                                                                                                                               agreed to direct Chemonics to assist Afghan
                                                                                                                               Government officials in developing a local branding
                                                                                     (12) USAID/OTI direct Chemonics to assist plan. USAID/OTI intends to issue specific guidance
                                                                                     Afghan Government officials in developing to its field program managers to work with
                                                                                     a local branding plan.                    Chemonics and government officials on district
                                                                                                                               branding plans. USAID/OTI has reached a
                                                                                                                               management decision on this recommendation. This
                                                                                                                               recommendation remains open.




                                                    92
                     Report                                  Total # of    Total #
No.   Report Title            Summary of Findings                                            Open Recommendations                                      USAID Response
                      Date                               Recommendations   Closed
                                                                                                                                   USAID/Afghanistan did not agree to dedicate
                                                                                                                                   resources to develop district transition plans
                                                                                                                                   because it has not determined whether it is
                                                                                     (13) USAID/Afghanistan 1) identify the
                                                                                                                                   necessary to implement near- and longer-term
                                                                                     districts in which it intends to implement
                                                                                                                                   development programs in each of the districts in
                                                                                     post-transition development projects, 2)
                                                                                                                                   which OTI projects have been implemented.
                                                                                     develop transition plans for districts in
                                                                                                                                   Accordingly, we modified our recommendation to
                                                                                     which it plans to implement future projects,
                                                                                                                                   focus on that determination and subsequent
                                                                                     and 3) closeout plans for districts where it
                                                                                                                                   necessary action. USAID/Afghanistan has not
                                                                                     will not implement new projects.
                                                                                                                                   reached a management decision on this
                                                                                                                                   recommendation. This recommendation remains
                                                                                                                                   open.
                                                                                                                                   USAID/OTI agreed to review and determine the
                                                                                                                                   allowability of the questioned security costs, in
                                                                                     (14) USAID/OTI determine the allowability coordination with the contracting officer. A
                                                                                     of $6.5 million in security costs and recover management decision may be recorded when the
                                                                                     costs determined to be unallowable.           contracting officer determines whether the
                                                                                                                                   questioned costs are allowable. This
                                                                                                                                   recommendation remains open.
                                                                                                                                    USAID/OTI concurred with the recommendation and
                                                                                                                                    agreed to direct Chemonics to develop
                                                                                                                                    compensating controls for use in conjunction with
                                                                                     (15) USAID/Office of Transition Initiatives    cash payments. However, although USAID/OTI
                                                                                     instruct Chemonics to develop                  indicated that it had directed Chemonics to develop
                                                                                     compensating controls for use in               such controls, it did not provide a copy of that
                                                                                     conjunction with cash payments.                direction with its management comments.
                                                                                                                                    USAID/OTI has reached a management on this
                                                                                                                                    recommendation. This recommendation remains
48                                                                                                                                  open.

                                                                                                                                    In response to the recommendation that it develop
                                                                                                                                    procedures for periodically validating reported
                                                                                                                                    results, USAID/OTI indicated that it is verifying
                                                                                                                                    “actuals” as part of its review prior to closing out
                                                                                                                                    activities. USAID/OTI also stated that it works with
                                                                                                                                    Chemonics to implement a robust monitoring plan to
                                                                                                                                    track activity progress and verify completion. In
                                                                                                                                    addition, USAID/OTI distributed to OTI and
                                                                                     (17) USAID/OTI develop procedures for
                                                                                                                                    Chemonics staff a revised final evaluation template
                                                                                     validating reported results on a periodic
                                                                                                                                    for activities, the instructions for which indicate that it
                                                                                     basis.
                                                                                                                                    should include an explanation describing how output
                                                                                                                                    information was verified. While USAID/OTI’s
                                                                                                                                    comments indicate agreement with this
                                                                                                                                    recommendation, they do not specifically identify the
                                                                                                                                    procedures that it will apply to validate results
                                                                                                                                    reported by Chemonics. USAID/OTI has reached a
                                                                                                                                    management decision on this recommendation. This
                                                                                                                                    recommendation remains open.
                                                                                                                                    USAID/OTI concurred with the recommendation to
                                                                                                                                    complete all required contractor performance
                                                                                                                                    reviews under the contract. It also stated that the first
                                                                                     (18) USAID/OTI complete all required
                                                                                                                                    annual contractor performance review had been
                                                                                     contractor performance reviews under the
                                                                                                                                    completed and that it expected to finalize the second
                                                                                     Afghanistan Stabilization Initiative for the
                                                                                                                                    annual contractor performance report. USAID/OTI
                                                                                     Southern Region contract.
                                                                                                                                    has reached a management decision on this
                                                                                                                                    recommendation. This recommendation remains
                                                                                                                                    open.




                                                    93
                                              Report                                                                               Total # of    Total #
No.               Report Title                                                Summary of Findings                                                                  Open Recommendations                                    USAID Response
                                               Date                                                                            Recommendations   Closed
                                                                                                                                                                                                          The mission agreed to determine the allowability of
                                                                                                                                                                                                          $748,683 in questioned costs related to vehicles
                                                                                                                                                                                                          leased without proper approvals and without full and
                                                                                                                                                           (1) USAID/Afghanistan determine the
                                                                                                                                                                                                          open competition and recover from DAI any amounts
                                                                                                                                                           allowability of $748,683 in questioned costs
                                                                                                                                                                                                          determined to be unallowable. The mission‘s
                                                                                                                                                           related to vehicles leased without proper
                                                                                                                                                                                                          cognizant contracting officer will determine the
                                                                                                                                                           approvals and without full and open
                                                                                                                                                                                                          allowability of those questioned costs and initiate
                                                                                                                                                           competition and recover from Development
                                                                                                                                                                                                          recovery of any unallowable costs through the
                                                                                                                                                           Alternatives Inc. any amounts determined
                                                                                                                                                                                                          issuance of a bill for collection. The target date for
                                                                                                                                                           to be unallowable.
                                                                                                                                                                                                          final action is February 28, 2012. This
                                                                                                                                                                                                          recommendation remains open and a management
                                                                                                                                                                                                          decision is pending.
                                                                                                                                                                                                          The mission agreed to determine the allowability of
                                                                                                                                                                                                          $352,500 in questioned costs associated with lease
                                                                                                                                                           (2) USAID/Afghanistan determine the
                                                                                                                                                                                                          payments for the Local Governance and Community
                                                        USAID OIG conducted this review to assess selected problems raised                                 allowability of $352,500 in questioned costs
                                                                                                                                                                                                          Development Project office space and guesthouses
                                                        in the internal audit report and to determine whether Development                                  associated with lease payments for the
                                                                                                                                                                                                          disclosed in the DAI internal audit report and to
                                                        Alternatives Inc. (DAI) incurred questionable costs on the project.                                Local Governance and Community
                                                                                                                                                                                                          recover from DAI any amounts determined to be
                                                        Launched in October 2006, the Local Governance and Community                                       Development Project office space and
                                                                                                                                                                                                          unallowable. The mission‘s cognizant contracting
                                                        Development Project sought to promote stability by (1) helping the                                 guesthouses disclosed in the Development
                                                                                                                                                                                                          officer will determine the allowability of those
                                                        Government of the Islamic Republic of Afghanistan extend its reach                                 Alternatives Inc. internal audit report, and
                                                                                                                                                                                                          questioned costs and initiate recovery of any
                                                        into unstable areas and engage populations most likely to support                                  recover from Development Alternatives Inc.
                                                                                                                                                                                                          unallowable costs through the issuance of a bill for
      Review of Responses to Internal Audit             insurgents, (2) creating an environment that encourages local                                      any amounts determined to be unallowable.
                                                                                                                                                                                                          collection. This recommendation remains open and
      Findings on the Local Governance and              communities to take an active role in their own stability and
49                                            26-Dec-11                                                                               7            0                                                      a management decision is pending.
         Community Development Project                  development, and (3) addressing the underlying causes of instability
                (F-306-12-001-S)                        and support for the insurgency through integrated community                                                                                   The mission agreed to determine the allowability of
                                                        development activities. The project focused on Kandahar City and                                                                              $2,019,036 in questioned costs related to services
                                                        Maywand District. DAI implemented the project through a $349 million                                                                          procured without full and open competition and
                                                                                                                                                           (3) USAID/Afghanistan determine the
                                                        contract that ended on August 31, 2011. According to mission                                                                                  recover from DAI the amounts determined to be
                                                                                                                                                           allowability of $2,019,036 in questioned
                                                        records dated October 2011, USAID/Afghanistan obligated $328                                                                                  unallowable. The mission's cognizant contracting
                                                                                                                                                           costs related to services procured without
                                                        million and disbursed $317 million for project activities. The final                                                                          officer will determine the allowability of those
                                                                                                                                                           full and open competition and recover from
                                                        report identified $6.6 million in questioned costs.                                                                                           questioned costs and initiate recovery of any
                                                                                                                                                           Development Alternatives Inc. any amounts
                                                                                                                                                                                                      unallowable costs through the issuance of a bill for
                                                                                                                                                           determined to be unallowable.
                                                                                                                                                                                                      collection. The target date for final action is February
                                                                                                                                                                                                      28, 2012. This recommendation remains open and a
                                                                                                                                                                                                      management decision is pending.



                                                                                                                                                                                                          The mission agreed with this recommendation. The
                                                                                                                                                           (4) Determine the allowability of and
                                                                                                                                                                                                          mission’s cognizant contracting officer will determine
                                                                                                                                                           recover from Development Alternatives Inc.,
                                                                                                                                                                                                          the allowability of those questioned costs and initiate
                                                                                                                                                           as appropriate, $3,424,400 in inadequately
                                                                                                                                                                                                          recovery of any unallowable costs through the
                                                                                                                                                           supported fuel purchases for the Local
                                                                                                                                                                                                          issuance of a bill for collection. The target date for
                                                                                                                                                           Governance and Community Development
                                                                                                                                                                                                          final action is February 28, 2012. This
                                                                                                                                                           Project.
                                                                                                                                                                                                          recommendation remains open.




                                                                                                                         94
                                  Report                                  Total # of    Total #
No.         Report Title                   Summary of Findings                                            Open Recommendations                                   USAID Response
                                   Date                               Recommendations   Closed
                                                                                                                                             The mission agreed with Recommendation 5
                                                                                                                                             (Recommendation 6 in our draft report) to determine
                                                                                                                                             whether DAI billed USAID for $48,530 in
                                                                                                  (5) USAID/Afghanistan determine whether
                                                                                                                                             unliquidated and uncollectible project advances and,
                                                                                                  Development Alternatives Inc. billed USAID
                                                                                                                                             if so, determine the allowability of these costs and
                                                                                                  for $48,530 in unliquidated and
                                                                                                                                             recover from DAI any amounts determined to be
                                                                                                  uncollectible project advances and, if so,
                                                                                                                                             unallowable. The mission's cognizant contracting
                                                                                                  determine the allowability of these costs
                                                                                                                                             officer will determine the allowability of those
                                                                                                  and recover from Development Alternatives
                                                                                                                                             questioned costs and initiate recovery of any
                                                                                                  Inc. any amounts determined to be
                                                                                                                                             unallowable costs through the issuance of a bill for
                                                                                                  unallowable.
                                                                                                                                             collection. The target date for final action is February
                                                                                                                                             28, 2012. This recommendation remains open and a
                                                                                                                                             management decision is pending.

                                                                                                                                             The mission disagreed with the amount and
                                                                                                                                             description provided in Recommendation 6
                                                                                                                                             (Recommendation 7 in our draft report), which
                                                                                                                                             recommended that the mission determine the
                                                                                                                                             allowability of $4,257,722 in questioned costs related
                                                                                                                                             to fees for unapproved seating upgrades charged to
                                                                                                                                             the Local Governance and Community Development
                                                                                                                                             Project, and recover from DAI any amounts
                                                                                                                                             determined to be unallowable. The amount of
                                                                                                  (6) USAID/Afghanistan determine the        unapproved seating upgrades included in the draft
                                                                                                  allowability of $4,782 in questioned costs recommendation was the total amount of
                                                                                                  related to fees for unapproved seating     international travel costs, because DAI was unable
                                                                                                  upgrades charged to the Local Governance to provide OIG with a complete, comprehensive
                                                                                                  and Community Development Project and listing of those upgrades. Subsequently, DAI
                                                                                                  recover from Development Alternatives Inc. provided an analysis of its upgraded international
                                                                                                  any amounts determined to be unallowable. travel costs to USAID/Afghanistan, which determined
                                                                                                                                             that the actual unallowable travel cost related to
                                                                                                                                             seating upgrades was $4,781.87 of which $4,483.87
                                                                                                                                             had already been recovered. The balance of
49                                                                                                                                           $298.00 is to be credited against future Invoices
                                                                                                                                             submitted by DAI. In response to the mission's
                                                                                                                                             comments, we modified the questioned cost of
                                                                                                                                             unapproved seating upgrades in the
                                                                                                                                             recommendation. This recommendation remains
                                                                                                                                             open.

                                                                                                                                                The mission agreed with Recommendation 7
                                                                                                                                                (Recommendation 4 in our draft report) to contract
                                                                                                                                                for a financial audit of DAI's Local Governance and
                                                                                                                                                Community Development Project to determine
                                                                                                  (7) USAID/Afghanistan contract for a
                                                                                                                                                whether all the costs charged to USAID were
                                                                                                  financial audit of Development Alternatives
                                                                                                                                                reasonable, allowable, and allocable. In addition,
                                                                                                  Inc.'s Local Governance and Community
                                                                                                                                                USAID/Afghanistan indicated that it would include a
                                                                                                  Development Project to determine whether
                                                                                                                                                closeout financial audit of the Local Governance and
                                                                                                  all the costs charged to USAID were
                                                                                                                                                Community Development Project in its fiscal year
                                                                                                  reasonable, allowable, and allocable.
                                                                                                                                                2012 audit management plan. The target date for
                                                                                                                                                final action is May 31, 2012. Based on the mission's
                                                                                                                                                comments, a management decision has been
                                                                                                                                                reached but the recommendation remains open.
                                                                                                            Total Recommendations
                                                                                                                                                                        248
      Performance Audits Issued    49
                                                                                                        Total Closed Recommendations                                    189




                                                                 95
 


 




    96
 
                                                        Afghanistan Financial Audit Findings
                                                                                                                                            Details for
                                                                                      Total Costs   Questioned Costs   Sustained Costs
No.                 Audit Title                      Report Number     Report Date                                                       Questioned Costs
                                                                                      Audited ($)          ($)                ($)
                                                                                                                                          over $1 Million

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 1    Facilities and Services Program,                5-306-04-001-N    23-Jan-2004    1,227,901         29,449             3,882
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from
      September 30, 2002, to June 30, 2003

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 2    Facilities and Services Program,                5-306-04-003-N   26-Mar-2004      666,841          114,020            13,001
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2003, to September 30, 2003

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 3    Facilities and Services Program,                5-306-04-004-N   17-May-2004      863,610          115,136            44,738
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October
      1, 2003, to December 31, 2003


      Application of Agreed-Upon Procedures on
      Costs Incurred in the United States by the
      Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 4                                                    5-306-04-002-D   17-May-2004     23,096,297        92,983             90,022
      Facilities and Services Program,
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from
      September 30 2002, to June 30, 2003


      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 5    Facilities and Services Program,                5-306-04-005-N    9-Jul-2004     1,578,442         137,596            9,127
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January
      1, 2004, to March 31, 2004


      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 6    Facilities and Services Program,                5-306-04-006-N   23-Aug-2004     2,039,979         14,112               0
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2004, to June 30, 2004


      Audit of Costs Incurred in the United States
      by The Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 7    Facilities and Services Program,                5-306-04-003-D   16-Sep-2004     40,486,450        109,186            91,678
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2003, to September 30, 2003

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 8    Facilities and Services Program,                5-306-05-002-N    9-Dec-2004     1,539,697          3,056              779
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2004, to September 30, 2004

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
 9    Facilities and Services Program,                5-306-05-006-N   14-Mar-2005     1,525,711
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October
      1, 2004, to December 31, 2004




                                                                                      97
                                                                                                                                              Details for
                                                                                      Total Costs   Questioned Costs   Sustained Costs
No.                 Audit Title                      Report Number     Report Date                                                         Questioned Costs
                                                                                      Audited ($)          ($)                ($)
                                                                                                                                            over $1 Million
                                                                                                                                         OIG questioned $785,716
                                                                                                                                         in costs that were claimed
                                                                                                                                         by Louis Berger but were
                                                                                                                                         ineligible on the basis of its
      Audit of Costs Incurred in the United States
                                                                                                                                         contract with USAID.
      by the Louis Berger Group, Inc. to                                                                                                 These costs related to
      Implement the Rehabilitation of Economic
                                                                                                                                         direct labor,
10    Facilities and Services Program,                5-306-05-006-D    19-Apr-2005   185,440,813       1,049,881           98,146
                                                                                                                                         subcontractors, equipment
      USAID/Afghanistan Contract No. 306-C-00-
                                                                                                                                         and furniture, and
      02-00500-00, for the Period from October
      1, 2003, to June 30, 2004                                                                                                          consultants. Additionally,
                                                                                                                                         OIG questioned $264,165
                                                                                                                                         in costs that could not be
                                                                                                                                         supported by
                                                                                                                                         documentation.

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
      Facilities and Services Program,
11    USAID/Afghanistan Contract No. 306-C-00-        5-306-05-008-N    30-Jun-2005    1,606,343
      02-00500-00, for the Period from January
      1, 2005, to March 31, 2005, including
      Contract Line Item No. 2 costs for the
      period from April 1, 2004, to June 30, 2004



      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
      Facilities and Services Program,
12    USAID/Afghanistan Contract No. 306-C-00-        5-306-05-009-N   29-Aug-2005     2,944,192
      02-00500-00, for the Period from April 1,
      2005 to June 30, 2005, including Contract
      Line Item No. 2 costs for the period from
      July 1, 2004 to June 30, 2005


      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
13    Facilities and Services Program,                5-306-06-002-N    8-Dec-2005     2,114,250
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2005, to September 30, 2005

      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
14    Facilities and Services Program,                5-306-06-002-D   19-Dec-2005    125,286,559        348,122            3,399
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2004, to March 31, 2005

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
15    Facilities and Services Program,                5-306-06-004-N   21-Mar-2006     2,144,967
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October
      1, 2005, to December 31, 2005

      Financial Audit of Local Costs Incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
16    Facilities and Services Program,                5-306-06-005-N    28-Jun-2006    3,097,361
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January
      1, 2006 to March 31, 2006


      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
17    Facilities and Services Program,                5-306-06-003-D    2-Aug-2006    181,086,841        528,239            36,248
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2005, to December 31, 2005




                                                                                      98
                                                                                                                                            Details for
                                                                                      Total Costs   Questioned Costs   Sustained Costs
No.                 Audit Title                      Report Number     Report Date                                                       Questioned Costs
                                                                                      Audited ($)          ($)                ($)
                                                                                                                                          over $1 Million

      Audit of Treatment of Specified Costs
      Incurred by Camp, Dresser & McKee
      Constructors, Inc. Under the
18    Afghanistan Water and Sanitation                5-306-06-004-D   10-Aug-2006      261,390          221,509            31,509
      Program, USAID/Afghanistan Contract No.
      306-C-00-04-00568-00 for the Period from
      September 30, 2004, to February 25, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
19    Facilities and Services Program,                5-306-07-001-N    16-Oct-2006    2,121,214
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2006, to June 30, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
20    Facilities and Services Program,                5-306-07-004-N   11-Dec-2006     1,740,855
      USAID/Afghanistan Contract No. 306-C-00-
      00500-00, for the Period from July 1, 2006,
      to September 30, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
21    Facilities and Services Program,                5-306-07-006-N    18-Apr-2007    1,488,612
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from October
      1, 2006, to December 31, 2006


      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
22    Facilities and Services Program,                5-306-07-002-D   25-May-2007     53,702,753        581,418           124,108
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January
      1, 2006, to June 30, 2006


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
23    Facilities and Services Program,                5-306-07-008-N    27-Jun-2007    1,299,053
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from January
      1, 2007, to March 31, 2007


      Financial Audit of Local Costs incurred by
      the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
24    Facilities and Services Program,                5-306-08-001-N   27-Nov-2007     1,262,209
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from April 1,
      2007, to June 30, 2007

      Closeout Audit of the Project Titled
      "Business Advisory Services to Small and
      Medium-Sized Enterprises (SMEs) in
      Afghanistan," USAID/Afghanistan
25    Cooperative Agreement No. 306-A-00-04-          5-306-08-019-R    25-Apr-2008     925,459          695,374           695,374
      00570-00, Managed by Acap
      Management Limited, for the Period
      from September 30, 2004, to March 29,
      2007




                                                                                      99
                                                                                                                                              Details for
                                                                                      Total Costs   Questioned Costs   Sustained Costs
No.                 Audit Title                      Report Number     Report Date                                                         Questioned Costs
                                                                                      Audited ($)          ($)                ($)
                                                                                                                                            over $1 Million


      Audit of Costs Incurred in the United States
      by the Louis Berger Group, Inc. to
      Implement the Rehabilitation of Economic
26    Facilities and Services Program,                5-306-08-003-D   16-May-2008     39,274,703        846,872            51,014
      USAID/Afghanistan Contract No. 306-C-00-
      02-00500-00, for the Period from July 1,
      2006, to December 31, 2006


                                                                                                                                         Questioned costs related
      Audit of Costs Incurred in the United States                                                                                       to overcharges on the
      by The Louis Berger Group, Inc. to                                                                                                 contract, charges incurred
      Implement the Rehabilitation of Economic                                                                                           that were inconsistent with
      Facilities and Services Program,
27                                                    5-306-09-001-D    18-Jun-2009    18,579,476       3,142,521          264,651       the dates of activity in the
      USAID/Afghanistan Contract No. 306-C-00-
                                                                                                                                         contract, charges not
      02-00500-00, for the Period from January
      1, 2007, to May 31, 2008; Audit Report No.
                                                                                                                                         approved by USAID, and a
      5-306-09-001-D                                                                                                                     lack of purchase orders
                                                                                                                                         and invoices.
      Financial Audit of Local Costs Incurred
      by the Louis Berger Group,
      Inc./Black & Veatch Special
      Projects Joint Venture to Implement
28    the Afghanistan Infrastructure                  5-306-09-005-N    25-Jun-2009    2,268,126         267,556           254,526
      Rehabilitation Program,
      USAID/Afghanistan Contract No. 306-I-
      00-06-00517-00, for the Period from
      August 25, 2006, to September 30,
      2007

                                                                                                                                         DCAA reported that it had
                                                                                                                                         continuous problems in
                                                                                                                                         obtaining the required
                                                                                                                                         information from
                                                                                                                                         BearingPoint in order to
      Audit of Costs Incurred and Billed by
                                                                                                                                         render an opinion on the
      BearingPoint, Inc.,
                                                                                                                                         reliability of BearingPoint's
      USAID/Afghanistan Contract No. 306-C-
29                                                    5-306-09-002-D   19-Aug-2009     95,817,000       95,817,000                       accounting systems.
      00-03-00001-00, for the Period from
                                                                                                                                         BearingPoint had made
      November 1, 2002 to December 15,
                                                                                                                                         several manual
      2005
                                                                                                                                         adjustments that could not
                                                                                                                                         be explained and billed
                                                                                                                                         USAID for costs that did
                                                                                                                                         not reconcile with its
                                                                                                                                         computerized systems.
      Financial Audit of the Program
      “Regenerating Murad Khane,
      Restoring, Refurbishing and
      Revitalizing the Old City,”
      USAID/Afghanistan Cooperative
30                                                    5-306-09-021-R   29-Sep-2009      421,310          17,781             17,781
      Agreement No. 306-A-00-09-00503-00,
      Managed by the Turquoise Mountain
      Trust, for the Period from November 2,
      2008 to December 31, 2008

      Financial Audit of Local Costs Incurred
      by the Louis Berger Group,
      Inc./Black & Veatch Special
      Projects Joint Venture to Implement
31    the Afghanistan Infrastructure                  5-306-10-002-N   25-Feb-2010     5,594,190         46,912             4,200
      Rehabilitation Program,
      USAID/Afghanistan Contract No. 306-I-
      00-06-00517-00, for the Period from
      October 1, 2007 to September 30,
      2008




                                                                                      100
                                                                                                                                        Details for
                                                                                  Total Costs   Questioned Costs   Sustained Costs
No.                Audit Title                   Report Number     Report Date                                                       Questioned Costs
                                                                                  Audited ($)          ($)                ($)
                                                                                                                                      over $1 Million

      Financial Audit of the Afghanistan First
      Loss Reserve Fund,
      USAID/Afghanistan Cooperative
      Agreement No. 306-A-00-05-00512-00,
32    Managed by the Deutsche                     5-306-10-001-D   30-Mar-2010     1,281,561         56,974             1,952
      Investitions- und
      Entwicklungsgesellschaft mbh , for
      the Period from February 4, 2005 to
      December 31, 2008


      Quality Control Review of the Financial
      Audit Conducted by KPMG Afghanistan
      Limited of the Local Costs Incurred by
   Louis Berger Group, Inc./Black &
   Veatch Special Projects Joint
33 Venture to Implement the Afghanistan           5-306-10-001-Q   18-May-2010          0
      Infrastructure Rehabilitation Program
      (AIRP), USAID/Afghanistan Contract
      No. 306-I-00-06-00517-00, for the
      Period from October 1, 2007 to
      September 30, 2008

      Financial Audit of Cost Incurred and
      Billed for the Project "Human and
      Institutional Capacity Building for
      Afghanistan Energy and Natural
      Resources Sector" (Task Order No.
      DOT-I-04-04-00022-00),
34    USAID/Afghanistan Cooperative               5-306-10-002-D   28-Sep-2010     3,523,452         12,115             12,115
      Agreement No. 306-P-00-10-00514-00,
      Managed by the Advanced
      Engineering Associates
      International, for the Period from July
      3, 2008 to June 30, 2009

      Financial Audit of the Program "
      Regenerating Murad Khane, Restoring
      Refurbishing and Revitalizing the Old
      City, " USAID/Afghanistan Cooperative
35                                                F-306-11-001-R    26-Oct-2010    2,501,824
      Agreement No. 306-A-09-00503-00,
      Managed by the Turquoise Mountain
      Trust, for the Period from January 1,
      2009 to December 31, 2009


      Financial Audit of Local Costs Incurred
      by the Joint Venture Louis Berger
      Group, Inc./Black & Veatch Special
      Projects Corp. to Implement the
36    Afghanistan Infrastructure                  5-306-11-002-N   16-Nov-2010     10,773,130        258,232           1,915,451
      Rehabilitation Program,
      USAID/Afghanistan Contract No. 306-I-
      00-06-00517-00, for the Period from
      October 1, 2008 to September 30,
      2009

      Financial Audit of Program "Fiduciary
      Support to the American University
      of Afghanistan " Subgrant Under the
      Asia Foundation Award No. 306-G-00-
      05-00525-00 and " The USAID Direct
37                                                F-306-11-002-R   20-Dec-2010     9,539,090         685,643           116,273
      Support to AUAF " Cooperative
      Agreement No. 306-A-00-08-00525-00
      for the period from July 1, 2008 to June
      30, 2009




                                                                                  101
                                                                                                                                            Details for
                                                                                   Total Costs     Questioned Costs   Sustained Costs
No.                Audit Title                   Report Number     Report Date                                                           Questioned Costs
                                                                                   Audited ($)            ($)                ($)
                                                                                                                                          over $1 Million


      Financial Audit of the Program "Civilian
      Technical Assistance Program (CTAP)"
      USAID/Afghanistan Grant Agreement
38    No. 306-09-CTAP-0001, Managed by            F-306-11-001-N    21-Jul-2011      5,500,000           2,045              77
      the Ministry of Finance, for the
      Period from September 30, 2009, to
      September 30, 2010

                                                                                                                                        Questioned costs related
      Audit Report of Technologist Inc. Costs                                                                                           to not reconciling to the
      Incurred/Billed under USAID Task                                                                                                  contractor’s underlying
      Order No. 306-O-00-04-00539-00, for                                                                                               lower level supporting
39    Afghanistan Industrial Estate               F-306-11-001-D   23-Aug-2011      21,463,590         6,563,050                        schedule; the contractor
      Development Program for the Period                                                                                                didn’t follow terms of the
      from May 24, 2004, through December                                                                                               contract, the contractor not
      31, 2007                                                                                                                          obtaining a consent letter
                                                                                                                                        for subcontracts.
      Financial Audit of the Project " Policy
      Capacity Initiative Activity (PCIA) "
      USAID/Afghanistan Grant Agreement
40    No. 306-IL-09-12-0004.00, Managed by        F-306-11-003-N   29-Sep-2011        450,138           118,478
      the Ministry of Communication and
      Information Technology, for the
      Period from Program Inception April 09,
                                                                                                                                        Questioned costs include
      Financial Audit of the Program
                                                                                                                                        $1,166,851 charged on
      "Partnership Contracts for Health
                                                                                                                                        account of currency
      Services (PCH)" USAID/Afghanistan
                                                                                                                                        exchange loss; $123,855
      Grant Agreement No. 306-08-IL-06-00,
41                                                F-306-12-001-N    3-Oct-2011      32,812,937         1,328,310                        charged on unallowable
      Managed by the Ministry of Public
                                                                                                                                        budget provision; $4,552
      Health, for the Period from Program                                                                                               on account of insufficient
      Inception July 20, 2008, Through
                                                                                                                                        supporting documentation;
      September 22, 2010
                                                                                                                                        unsupported costs.
      Local Costs' Financial Audit of the
      Small and Medium Sized Enterprise
      Development Activity (ASMED) by
42    Development Alternatives Inc. (DA),         F-306-12-002-N    10-Oct-2011     18,631,159          88,650
      Contract No. 306-C-00-07-00503-00,
      for the Period October 1, 2009, to
      September 30, 2010
      Financial Audit of the Program "MoF-
      Salary Support Program"
      USAID/Afghanistan Project
43    Implementation Number (PIL). 306-IL-        F-306-12-003-N    13-Oct-2011      1,000,000          356,469
      10-01, Managed by the Ministry of
      Finance, for the Period from June 6,
      2010, to September 30, 2010
      Financial Audit on the Local (non-U.S.)
      Costs (Costs Incurred and Paid in
      Afghanistan) Under USAID Contract                                                                                                 The audit firm identified
      No. 306-I-00-06-00517-00 With the                                                                                                 $417,117 in ineligible costs
44                                                F-306-12-004-N   19-Dec-2011      10,779,108         2,499,031
      Louis Berger Group, Inc./Black &                                                                                                  and unsupported costs of
      Veatch Corp. Joint Venture for the                                                                                                $2,081,914.
      Period from October 1, 2009, to
      September 30 2010
                                                                                                                                        DCAA questioned the
                                                                                                                                        billed costs based on a
                                                                                                                                        variety of reasons such as
      Independent Audit of Black & Veatch
                                                                                                                                        costs unallowable due to a
      Special Projects Corporation Direct                                                                                               lack of documentation
45    Costs Incurred and Billed on Contract       F-306-12-001-D   20-Dec-2011      136,000,000        32,198,382
                                                                                                                                        detailing the delivery,
      No. 306-I-00-06-00517-00 from August
                                                                                                                                        receipt, and acceptance of
      25, 2006, to September 30, 2008
                                                                                                                                        the subcontracted products
                                                                                                                                        or services, excess travel
                                                                                                                                        costs.
45           Financial Audits Issued                                              $1,055,758,593     $148,346,102       $3,880,051
          Percentage of Costs Audited                                                                  14.05%             0.37%

      Alpha designation in report number

      N = Nonfederal audit
      D = Defense Contract Audit Agency Audit
      R = Recipient-contracted Audit
      Q= Quality control review




                                                                                   102
         Planned Performance
                      .
                             Audits of
       USAID/Afghanistan-Funded Activities
                                   Fiscal Year 2012
            Audit of USAID/Afghanistan Design for Sustainability
                         in the Education Program
Improving access to quality education within Afghanistan remains a priority for
USAID/Afghanistan. Since 2002, USAID/Afghanistan has disbursed approximately $414 million
to expand access to basic education—primarily in grades one through six—by training teachers,
constructing and rehabilitating schools, supporting community-based education, and implementing
accelerated learning programs to those who missed the opportunity to attend school due to decades
of war and to girls and women who were denied education under Taliban rule.

The concept of sustainability or the continued benefits of foreign development assistance is embodied
in the Foreign Assistance Act and in USAID policy. This audit will determine whether
USAID/Afghanistan has built sustainability into selected education programs.

Status: Planned.


               Audit of USAID/Afghanistan’s Performance-Based
                              Governors’ Fund
The performance of provincial governments’ in delivering services and responding to the needs of
its constituencies is a critical factor in public perception of the legitimacy of the state and public
confidence in the Afghan Government's reform process. In October 2009, USAID/Afghanistan
awarded The Asia Foundation a $13 million cooperative agreement, subsequently increased to
$16 million, to implement the Performance-Based Governors’ Fund through May 2011.
USAID/Afghanistan intends to add an additional $75 million and extend the period of
performance an additional 18 months. As of March 31, 2011, USAID/Afghanistan has obligated
$16 million and disbursed $13 million for program activities.

This audit will determine if the Performance-Based Governors’ Fund is meeting its primary goal of
providing financial and technical assistance to Governors and their teams so that they are better
able to meet community outreach needs, enhance their relationships with citizens, and improve
their overall management capacity.

Status: Planned.

                   Audit of Gender-Related Activities in Selected
                           USAID/Afghanistan Programs
Afghanistan is a diverse but traditional society where opportunities for women are limited by
poverty, low levels of literacy and education, conservative ideologies, and traditional forms of social
and political organization. USAID/Afghanistan plays a leading role in implementing the U.S.
Government’s civilian strategy for assistance to women in Afghanistan in the areas of (1) health, (2)


                                                 103
education, and (3) economic development, and it plays a supporting role in implementing the
strategy in the areas of (4) security and access to justice and (5) political empowerment.

This audit will determine:

•   How gender issues have been considered in designing, implementing, and measuring the
    performance of selected USAID/Afghanistan programs.

•   What impacts these programs have had on the health and educational status, economic
    development, and political empowerment of Afghan women and girls.

Status: Planned.



             Audit of USAID/Afghanistan’s Management Controls
                for Efficiently Managing Program Operations
Efficiency is an important U.S. Government objective, as reflected in the Government Performance
and Results Act, OMB Circular A-11, and the Federal Acquisition Regulation.

This audit will determine whether (1) USAID/Afghanistan has established performance indicators
for efficiency of program operations and used these indicators to manage its programs and (2)
USAID/Afghanistan’s monitoring of its cost-reimbursement contracts provides reasonable
assurance that efficient methods and effective cost controls are used.

Status: Planned.

         Review of USAID/Afghanistan Payroll Internal Controls
USAID/Afghanistan has 433 employees, and its estimated annual payroll is $76 million. There are
concerns over the approval and certification of overtime charges and timeliness over the payment
of certain benefits. This review will determine if USAID/Afghanistan has sufficient internal
controls in place to properly approve time charges and pay employees on time.

Status: Planned.


                   Audit of USAID/Afghanistan’s Transition Plans
The Government of Afghanistan depends on international forces to provide security and other
basic services to its citizens. However, fiscal pressures in the United States and other NATO
countries have helped focus attention on the need for the Government of Afghanistan to assume
responsibility for provision of basic services within the next 3 years.

NATO plans to transfer lead security responsibility for all provinces to the Government of
Afghanistan by the end of 2014. At that time, assistance levels are expected to fall significantly.




                                               104
This audit will determine if USAID/Afghanistan (1) has developed measurable performance targets
to be achieved by USAID programs by 2014 and (2) assessed the capability of the Government of
Afghanistan to sustain program accomplishments after 2014.

Status: Planned.

     Audit of USAID/Afghanistan’s Regional Afghan Municipalities
          Program for Urban Population (RAMP UP) – East
The governance structure in Afghanistan is highly centralized and sub-national governance
institutions, particularly at the municipal level, lack clarity on their roles and functions and are
often nonresponsive to community needs. Development Alternatives Inc. implements the Regional
Afghan Municipalities Program for Urban Population—East through a $52 million contract.

This audit will determine whether the Regional Afghan Municipalities Program for Urban
Population—East program is achieving its main goal of creating effective, responsive, democratic,
transparent, accountable, municipal governance in the eastern provinces by increasing the capacity
of the Afghanistan municipal officials to enable, support, and sustain economic growth.

Status: Planned.

      Audit of USAID/Afghanistan’s Region Afghan Municipalities
        Program for Urban Populations for Regional Platform
                   (RAMP UP) – Southern Region

Chemonics International Inc. implements the Regional Afghan Municipalities Program for
Urban Population—Southern Region through a $100 million contract. This audit will
determine whether the regional Afghan Municipalities Program for Urban Population—
Southern Region is achieving its main goal of creating effective, responsive, democratic,
transparent, accountable, and gender-sensitive municipal governance in select
municipalities in Afghanistan.

Status: Planned.


      Audit of the Sustainability of USAID/Afghanistan’s Office of
          Infrastructure, Engineering, and Energy Programs
Afghanistan’s physical infrastructure reflects the effects of 30 years of war and the country’s poverty.
Since February 2004, USAID/Afghanistan has committed $2.6 billion to infrastructure programs.
USAID/Afghanistan has 21 active infrastructure awards totaling $1.2 billion and has completed
another 28 programs totaling $1.4 billion. Sustainability of these infrastructure programs is of great
concern because the Afghan government is heavily dependent on foreign donors: 41 percent of the
Afghan Government’s operating budget and 100 percent of the development budget comes from
foreign donors.




                                                 105
The audit will determine if roads, vertical structures, and water projects turned over to the
Government of Afghanistan are being maintained and used for their intended purposes and if the
Afghan Government earns enough revenue to maintain this infrastructure.

Status: Planned.


                   Review of USAID/Afghanistan’s Contracts
                        and Cooperative Agreements
USAID/Afghanistan manages the largest program in USAID’s 50-year history, with an FY 2011
budget of $2.1 billion. The mission manages one of the most complex development portfolios in
one of the most demanding environments in the world; a portfolio which includes a broad range of
programs in infrastructure, education, health, capacity building, agriculture, economic growth,
democracy and governance, and the empowerment of women. Since USAID/Afghanistan opened,
it has issued approximately 291 awards totaling approximately $11.7 billion.

This review will determine if USAID/Afghanistan’s open contracts and cooperative agreements
contain required clauses and if waivers were obtained for non-competitive awards.

Status: Planned.

        Audit of USAID/Afghanistan’s Kandahar Power Initiative

USAID/Afghanistan awarded Black & Veatch Special Projects Corporation a $266 million
contract to implement the Kandahar Power Initiative from December 4, 2010 to September 30,
2013. As of March 31, 2011 USAID/Afghanistan has obligated $20 million and disbursed $1
million. The program contains components for upgrading transmission systems, rebuilding
electrical substations, providing additional diesel generators, and installation of a third turbine at
the Kajaki Hydro Power Plant.

This audit will determine if the Kandahar Power Initiative is meeting its main goal of increasing the
supply and distribution of electrical power from Afghanistan's South East Power System with
particular emphasis given to the City of Kandahar in support of the U.S. Government’s
counterinsurgency strategy.

Status: Planned.

      Audit of the Financial Sustainability of USAID/Afghanistan’s
                       Energy Sector Programs
Since 2004, the mission has committed approximately $1 billion to help reconstruct Afghanistan’s
energy sector. USAID/Afghanistan has 12 active energy sector awards totaling $489 million and
has completed another 17 programs totaling $569 million. Programs implemented by
USAID/Afghanistan cover construction of new power plants and substations; refurbishment of
existing hydro electric power plants; upgrading or installing new transmission lines; providing
operations and maintenance support of diesel generators; installation of alternative sources of
power such as solar, wind and micro hydro; and assistance in commercializing the energy sector. In
addition, USAID/Afghanistan has purchased $121 million in fuel to operate diesel generators.


                                                 106
Last year, 41 percent of the Afghan Government’s operating budget came from foreign donors,
indicating a potential that facilities turned over to the Afghan Government may not be sustainable.

The audit will determine if the Government of Afghanistan earns enough revenue to operate and
maintain its electrical infrastructure, including the infrastructure financed by USAID/Afghanistan.

Status: Planned.


         Audit of USAID/Afghanistan’s Approaches to Providing
         Technical Assistance to the Government of Afghanistan

USAID/Afghanistan provides technical assistance to the Government of Afghanistan through at
least four different mechanisms: advisors embedded in host government ministries, institutional
contractors, grants, and the Civilian Technical Assistance Program administered by the World
Bank.

This audit will determine (1) the advantages and disadvantages of the different approaches that
USAID/Afghanistan uses to provide technical assistance to the Government of Afghanistan and
examine (2) how USAID/Afghanistan decides which technical assistance approach to use.

Status: Planned.

                      Review of USAID/Afghanistan’s Use of
                       Third Country National Employees

Third-country national employees are normally used when qualified persons are not available in the
host country; limitation of time or other conditions prevent the training of persons in the host
country for the job; or it is determined that program efficiency and policy objectives can be
achieved only by using third-country nationals as a temporary substitute for available, eligible and
qualified U.S. citizens and persons from the host country. In all cases, the establishment of a third-
country national position should be temporary in nature. In FY 2011 the mission had 14 third-
country national employees with an estimated annual payroll of $1.7 million.

This audit will determine if USAID/Afghanistan is efficiently using third-country national
employees appropriately while training Afghan staff to assume their responsibilities.

Status: Planned.

 Audit of Field Staff Monitoring of USAID/Afghanistan Programs
As of October 16, 2010, USAID/Afghanistan had 120 field-based staff. USAID/Afghanistan
issued Mission Order 103.2 on September 22, 2010, to formalize the responsibilities of its field
staff.

This review will determine if (1) USAID/Afghanistan is hiring qualified and experienced
individuals to serve in the field in support of its mission in Afghanistan and (2) field staff are


                                                 107
monitoring USAID programs in accordance with Mission Order 103.2 and other applicable
criteria.

Status: Planned.

                      Follow-up Audit on Selected OIG
                   Recommendations to USAID/Afghanistan

In USAID, recommendation follow-up is a shared responsibility between the OIG and other
agency components. In particular, per Automated Directives System 595.3.1.6, audit action
officers request determinations of final action from the Bureau of Management/Chief Financial
Officer/Audit, Performance, & Compliance, and the bureau decides if final action has been taken
on audit recommendations. As of the end of the third quarter of fiscal year 2011, the OIG had
made 203 audit recommendations concerning programs in Afghanistan, and the majority of them
have determinations of final action. The recommendations included $105.2 million in questioned
costs.

This audit will determine if USAID/Afghanistan’s actions on selected OIG recommendations
corrected the problems that led to the original recommendations.

Status: Planned.

 Review of USAID/Afghanistan’s Monitoring & Evaluation System
Adequately monitoring USAID projects and programs in a high threat environment is a
challenging task. Nevertheless, USAID/Afghanistan appears to be lacking some of the basic
monitoring systems and infrastructure present in most USAID overseas missions. These systems
and infrastructure are that much more vital in an environment like Afghanistan, where the mission
experiences constant turnover because of the prevalence of one-year tours. This review will
determine whether the mission had established an appropriate monitoring and evaluation system,
whether that system is operating effectively, and if not, what steps must be taken to strengthen that
system.

The review will cover all levels of USAID/Afghanistan’s monitoring and evaluation system. It will
include assessing the mission’s PMP and a sample of active projects that represent various mission
program sectors.

Status: Ongoing.




                                                108
          Afghanistan Performance
                           
                                  Audits
                                Fiscal Year
                                            2012

  Review of Responses to Internal Audit Findings on the Local
      Governance and Community Development Project
                       (F-306-12-001-S)

Date:                             December 26, 2011

Implementing Partner:             Development Alternatives Inc.

Audit Period:                     June 19 through August 14, 2011

Funding:                          As of October 2011, USAID/Afghanistan obligated $328 million
                                  and disbursed $317 million.


Background—Summary of Findings

Launched in October 2006, the Local                     Procurements for the project, including
Governance and Community Development                    service contracts, fuel supply, and building
Project sought to promote stability in                  and vehicle leasing had several deficiencies.
Afghanistan. Focused in Kandahar City and               For instance, analysis of payment vouchers
the Maywand District, Development                       and the associated procurement documents
Alternatives Inc. (DAI) implemented the                 revealed $2,019,036 in noncompetitive
project through a contract that ended in                procurements. In addition, OIG’s review of
August 2011.                                            leases for office space and guesthouses, at an
                                                        amount of $6.7 million over 4½ years,
The project had many successes, including               revealed that project personnel had entered
the completion of more than 2,500                       into several leases without the required
community stabilization projects; generation            competition, and without required approvals.
of immediate short–term employment                      In addition, some rental payments were
totaling 1.5 million employment days                    apparently made to the project cashier,
through cash–for–work activities; and                   instead of to the lessors identified in the lease
completion of significant and lasting                   agreements. DAI staff explained that because
improvements in rural infrastructure,                   many of the property owners did not have
including gravel roads, footbridges, and                bank accounts, lease payments needed to be
irrigation systems. However, in March 2011,             in cash. OIG found no documentation
OIG received a copy of a DAI internal audit             showing that the lessors had signed for
report detailing financial and internal control         receipt of their monthly rents.
problems occurring from August 2008
through August 2009. DAI had not                        Furthermore, OIG determined the contract
provided this report to USAID or returned               files for three vehicle leasing companies
any funds related to questioned expenditures            lacked preaward documents, bid solicitations,
identified in the report.                               other vendors’ quotations, and approvals


                                                  109
from DAI procurement managers. In one                    staff members were also unable to locate the
incident, a bid submitted for one                        contract file, payment vouchers, or project
procurement (to provide armored and                      receipts for fuel purchases totaling
unarmored vehicles) was copied and included              $3,424,400 from Khyber Afghan Petroleum,
as proof of competitive bidding in another               one of DAI’s suppliers. DAI staff had no
procurement, and correction fluid had been               explanation for this lack of documentation.
used to obscure relevant information. DAI


Recommendations—Management Decisions

The audit report made seven recommendations:

1.     Determine the allowability of and recover as appropriate from Development Alternatives
       Inc. the $748,683 in costs related to vehicles leased without proper approvals and without
       full and open competition.

       The mission agreed with the recommendation. The mission’s cognizant contracting officer will
       determine the allowability of those questioned costs and initiate recovery of any unallowable costs
       through the issuance of a bill for collection. The target date for final action is February 28, 2012.
       This recommendation remains open.

2.     Determine the allowability of and recover from Development Alternatives Inc., as
       appropriate, the $352,500 in questionable lease payments for Local Governance and
       Community Development Project office space and guesthouses identified in the DAI
       internal audit report.

       The mission agreed with this recommendation. The mission’s cognizant contracting officer will
       determine the allowability of those questioned costs and initiate recovery of any unallowable costs
       through the issuance of a bill for collection. The target date for final action is February 28, 2012.
       This recommendation remains open.

3.     Determine the allowability of and recover from Development Alternatives Inc., as
       appropriate, $2,019,036 in goods and services procured without adequate competition and
       supporting documentation.

       The mission agreed with the recommendation. The mission’s cognizant contracting officer will
       determine the allowability of those questioned costs and initiate recovery of any unallowable costs
       through the issuance of a bill for collection. The target date for final action is February 28, 2012.
       This recommendation remains open.

4.     Determine the allowability of and recover from Development Alternatives Inc., as
       appropriate, $3,424,400 in inadequately supported fuel purchases for the Local
       Governance and Community Development Project.

       The mission agreed with this recommendation. The mission’s cognizant contracting officer will
       determine the allowability of those questioned costs and initiate recovery of any unallowable costs




                                                  110
     through the issuance of a bill for collection. The target date for final action is February 28, 2012.
     This recommendation remains open.

5.   Determine whether Development Alternatives Inc. billed USAID for $48,530 in
     unliquidated and uncollectible project advances and, if so, disallow and recover the costs.

     The mission agreed with the recommendation. The mission’s cognizant contracting officer will
     determine the allowability of those questioned costs and initiate recovery of any unallowable costs
     through the issuance of a bill for collection. The target date for final action is February 28, 2012.
     This recommendation remains open.

6.   Determine the allowability of and recover from Development Alternatives Inc., as
     appropriate, the $4,781.87 in unapproved seat upgrades on international flights charged to
     the Local Governance and Community Development Project.

     The mission disagreed with the amount and description provided in Recommendation 6, which
     recommended that the mission determine the allowability of $4,257,722 in questioned costs related
     to fees for unapproved seating upgrades charged to the Local Governance and Community
     Development Project, and recover from DAI any amounts determined to be unallowable. The amount
     of unapproved seating upgrades included in the draft recommendation was the total amount of
     international travel costs, because DAI was unable to provide OIG with a complete, comprehensive
     listing of those upgrades. Subsequently, DAI provided an analysis of its upgraded international travel
     costs to USAID/Afghanistan, which determined that the actual unallowable travel cost related to
     seating upgrades was $4,781.87 of which $4,483.87 had already been recovered. The balance of
     $298 is to be credited against future Invoices submitted by DAI. In response to the mission‘s
     comments, we modified the questioned cost of unapproved seating upgrades in the recommendation.
     The target date for final collection of this amount is December 31, 2011, and that is the target date
     for final action. This recommendation remains open.

7.   Arrange for a financial audit of the Local Governance and Community Development
     Project to help ensure that all the costs charged to USAID were reasonable, allowable, and
     allocable.

     The mission agreed with this recommendation. In addition, USAID/Afghanistan indicated that it
     would include a closeout financial audit of the Local Governance and Community Development
     Project in its fiscal year 2012 audit management plan. The target date for final action is May 31,
     2012. This recommendation remains open.




                                                 111
Audit of USAID/Afghanistan’s Afghanistan Stabilization Initiative
           for the Southern Region (F-306-12-001-P)


Date:                             November 13, 2011

Implementing Partner:             Chemonics International, Inc.

Audit Period:                     March 5 through May 18, 2011

Funding:                          USAID/Office of Transition Initiatives had obligated
                                  $91.1 million and disbursed $66.9 million

Background—Summary of Findings

In June 2009, the USAID Office of                      Furthermore, Chemonics officials stated that
Transition Initiatives (OTI) signed a 3–year,          the company had leased 13 armored vehicles
$159.6 million contract with Chemonics                 because it felt the vehicles were needed to
International, Inc. (Chemonics) to                     provide sufficient security. However,
implement the Afghanistan Stabilization                Chemonics’ security personnel prohibited
Initiative for the Southern Region (ASI–SR).           expatriate staff from traveling into the field,
ASI–SR has implemented project activities              and to maintain a low profile, local staff were
through grants in districts and municipalities         using unarmored vehicles. They lease costs
in Kandahar and Helmand Provinces.                     were unreasonable which results in
                                                       questioning use.
OIG was unable to reach a conclusion about
whether the program as a whole was                     The long–term benefits of the initiative were
achieving its goal because of multiple issues          also undercut by a lack of planning.
with the program. Many of these problems               Although some key districts were ready for
stemmed from program implementation,                   longer–term development projects, no
which was delayed by a lack of formal work             comprehensive plans were in place to guide
plans, inadequate USAID/OTI oversight,                 this transition. Without a comprehensive
staffing difficulties, and poor quality                transition plan to prepare for longer–term
subcontractors, among others. In addition,             development, key districts may not be able to
Chemiconics did not properly manage its                sustain gains in stability, as district governors
budget and began running out of funds in               may not have the resources to meet the needs
the first quarter of fiscal year 2011.                 of their communities.

Security costs were also questionable.                 Financial controls were also problematic.
Chemonics paid $1.2 million for personal               For example, Chemonics is using cash to
security details for staff members who lived           make large tax payments to the Afghan
on military bases and traveled exclusively in          Government, increasing the risk that a
military convoys, even though no other                 payment may be stolen. In May 2011, an
contractor incurs this type of cost when the           employee sent to a bank in Lashkar Gah with
contractor’s staff members are resident on a           $62,398 to pay taxes to the Ministry of
military installation.                                 Finance disappeared with the money. Due to
                                                       instances like this, Chemonics officials


                                                 112
contend that this presents a risk to                      “get lost” in the banking system and it is
companies, as funds have had a tendency to                difficult to prove deposits were ever made.


Recommendations—Management Decisions

The audit report made 18 recommendations:

1.     Direct Chemonics to develop detailed work plans for program implementation based on
       the district stability framework and determine the adequacy of these plans.

       USAID/OTI concurred with the recommendation. Further, USAID/OTI stated that 1) district
       strategies have been written and approved by OTI for all active program districts (or sub-districts in
       the case of Kandahar City); 2) all USAID/OTI staff and all but the newest Chemonics staff have
       received District Stability Framework training; and 3) the District Stability Framework is in use in all
       active USAID/OTI programming districts and Kandahar City. Nevertheless, USAID/OTI did not
       provide documentation of its direction to Chemonics concerning the development of work plans. We
       consider that USAID/OTI has reached a management decision on this recommendation, but the
       recommendation remains open.

 2.    Develop objective standards for evaluating Chemonics’ performance, including standards
       for timeliness of program implementation.

       USAID/OTI agreed with the recommendation and noted that 1) Chemonics received general
       guidance to design grants that can be implemented in the three to five month range; 2) USAID/OTI
       and Chemonics now hold weekly (or bi-weekly in Districts with less grant volume) implementation
       meetings to review performance of each ongoing grant; and at the end of grant implementation,
       Chemonics is required to write a Final Evaluation Report. While these may be elements that provide
       information concerning grants, they do not necessarily constitute objective measures to evaluate
       Chemonics performance. We consider that USAID/OTI has reached a management decision on this
       recommendation. Thus, this recommendation remains open.

3.     Develop formal communication protocols to facilitate interaction and communication
       between USAID/OTI managers and Chemonics’ officials.

       USAID/OTI agreed to develop a new communications protocol. It stated that 1) USAID/OTI’s
       Regional Representative and Deputy Regional Representative have instituted weekly leadership
       meetings with Chemonics chief of party and deputy chief of party, 2) weekly implementation meetings
       have been instituted with Chemonics field director and other relevant staff, 3) a USAID/OTI
       representative and Chemonics staff usually meet at Chemonics’ Kandahar office at least once per
       week, and 4) USAID/OTI’s monitoring and information officer regularly meets with Chemonics’
       monitoring and evaluation staff at Chemonics Kandahar headquarters. Based on these actions, this
       recommendation is closed.

4.     Prepare activity manager designation letters describing the responsibilities of field program
       managers.

       USAID/OTI agreed that it should prepare activity manager designation letters describing field
       program managers’ responsibilities. USAID/OTI noted that it has drafted designation letters for its


                                                    113
      field program managers and is coordinating final approval of those letters. This recommendation
      remains open.

5.    Provide training for its field program managers to include roles and responsibilities as well
      as how to implement the program.

      USAID/OTI agreed with the recommendation. OTI stated that it has provided training in these
      areas to its staff, although it did not provide documentation evidencing such training. Thus, this
      recommendation remains open.

6.    Instruct Chemonics to balance its program grants portfolio to include more small-scale
      activities.

      USAID/OTI agreed with the recommendation. OTI also indicated that, among other things, it had
      provided guidance that the program should refrain from implementing large infrastructure projects
      with complex subcontracts and that the program is now only approving grants of $100,000 or less.
      This recommendation remains open.

7.    USAID/OTI formally delegate contracting officer’s technical representative (COTR)
      responsibilities to the USAID/OTI Regional Representative in Kandahar.

      USAID/OTI agreed with the recommendation. According to OTI, the designation memo is awaiting
      final approval and should be issued by November 30, 2011. This recommendation remains open.

8.    Implement budgetary controls at the district level to manage existing and future grants.

      USAID/OTI agreed with the recommendation. OTI also noted that it had established quarterly
      budgets for each district and was tracking disbursements and commitments against those budgets as
      well as taking other measures. This recommendation is closed.

9.    USAID/OTI recover, as appropriate, the $12,200 spent for supporting other agencies
      under the ASI-SR program.

      USAID/OTI and the mission are currently reviewing the recommendation to recover as appropriate
      the $12,200 spent for supporting other agencies under the program. Consequently, this
      recommendation remains open.

10.   Develop benchmarks to assess Chemonics’ progress in closing out completed grants.

      USAID/OTI concurred with the recommendation. OTI indicated that it uses its Activity Database
      to monitor grants through the activity cycle from concept to closure. It further stated that it meets with
      Chemonics on a weekly and biweekly basis to confirm project implementation progress and that an
      official modification is required if a grant is nearing its end date. Nevertheless, these mechanisms do
      not constitute benchmarks for assessing Chemonics’ progress in closing out grants. This
      recommendation remains open.

11.   Issue guidance to Chemonics describing time frames for project closeout.




                                                   114
      USAID/OTI concurred with the recommendation. While USAID/OTI did provide a document
      titled New Guidance on Activity Modification & Grant Closure Procedures, there is no indication
      that this document was issued to Chemonics. This recommendation remains open.

12.   Direct Chemonics to assist Afghan Government officials in developing a local branding
      plan.

      USAID/OTI concurred with the recommendation. USAID/OTI intends to issue specific guidance to
      its field program managers to work with Chemonics and government officials on district branding
      plans by November 30, 2011. This recommendation remains open.

13.   USAID/Afghanistan 1) identify the districts in which it intends to implement post-
      transition development projects, 2) develop transition plans for districts in which it plans
      to implement future projects, and 3) closeout plans for districts where it will not
      implement new projects.

      USAID/Afghanistan did not agree to dedicate resources to develop district transition plans because it
      has not determined whether it is necessary to implement near- and longer-term development programs
      in each of the districts in which OTI projects have been implemented. Accordingly, we modified our
      recommendation to focus on that determination and subsequent necessary action.
      USAID/Afghanistan has not reached a management decision and this recommendation remains
      open.

14.   Determine the allowability of $6.5 million in security costs and recover costs determined to
      be unallowable.

      USAID/OTI agreed with the recommendation. A management decision may be recorded when the
      contracting officer determines whether the questioned costs are allowable. Thus this recommendation
      remains open.

15.   Instruct Chemonics to develop compensating controls for use in conjunction with
      cash payments.

      USAID/OTI concurred with the recommendation and agreed to direct Chemonics to develop
      compensating controls for use in conjunction with cash payments. However, although USAID/OTI
      indicated that it had directed Chemonics to develop such controls, it did not provide a copy of that
      direction with its management comments. This recommendation remains open.

16.   Instruct Chemonics to report actual results in its progress reports.

      USAID OTI concurred with this recommendation. It has provided Chemonics with such direction, as
      well as other guidance. Thus, this recommendation is closed.

17.   Develop procedures for validating reported results on a periodic basis.

      In response to the recommendation that it develop procedures for periodically validating reported
      results, USAID/OTI indicated that it is verifying “actuals” as part of its review prior to closing out
      activities. USAID/OTI also stated that it works with Chemonics to implement a robust monitoring
      plan to track activity progress and verify completion. In addition, USAID/OTI distributed to OTI


                                                  115
      and Chemonics’ staff a revised final evaluation template for activities, the instructions for which
      indicate that it should include an explanation describing how output information was verified. While
      USAID/OTI’s comments indicate agreement with this recommendation, they do not specifically
      identify the procedures that it will apply to validate results reported by Chemonics. This
      recommendation remains open.

18.   Complete all required contractor performance reviews under the ASI-SR contract.

      USAID/OTI concurred with the recommendation. It also stated that the first annual contractor
      performance review had been completed and that it expected to finalize the second annual contractor
      performance report by November 30, 2011. This recommendation remains open.




                                                 116
          Afghanistan Performance
                           
                                  Audits
                                Fiscal Year
                                            2011
Audit of USAID/Afghanistan’s On-Budget Funding Assistance to
  the Ministry of Public Health in Support of the Partnership
   Contracts for Health Services Program (F-306-11-003-P)

Date:                             September 29, 2011

Implementing Partner:             Government of the Islamic Republic of Afghanistan (Ministry of
                                  Public Health (MoPH)

Audit Period:                     April 17 through June 30, 2011

Funding:                          As of May 31, 2011, USAID had obligated $56 million, disbursed
                                  $47 million, and advanced $3 million for the PCH program.

Background—Summary of Findings

In 2008, USAID signed an implementation                 appears unlikely, while its ability to sustain
letter with the Government of the Islamic               the current level of coverage remains
Republic of Afghanistan to provide the                  uncertain. Unless the Afghan government is
mission’s first core–budget funding assistance          able to generate sufficient revenue to cover its
to the Ministry of Public Health (MoPH) in              healthcare costs, the health sector’s
support of the Partnership Contracts for                dependency on donor support will continue.
Health Services (PCH) Program. Under this
program, the mission planned to provide                 Although the program has contributed to
MoPH with up to $236 million in budget                  increasing access and use of health services,
assistance over 5 years to support the delivery         OIG noted deficiencies in quality at all
of standardized health services in more than            health facilities visited. Doctors and staff at
a dozen target provinces. In 2009, MoPH                 several facilities complained that the volume
awarded $80 million in contracts to ten                 of patients was up to double their capacity to
nongovernmental organizations (NGOs).                   handle. Patients would sometimes have to
These NGOs were responsible for providing               wait up to 5 hours before receiving medical
standardized health services in more than               services, and others would go home without
500 health facilities and 5,500 health posts            receiving treatment. Some of the health
throughout the target provinces.                        facilities had old equipment that needed
                                                        repair or replacement. One health facility
OIG’s audit found that sustainability of the            had a newly donated anesthesia machine, but
program was a concern. The government’s                 the responsible NGO ignored repeated staff
extremely low contribution to healthcare                requests for training on the equipment.
raises questions about the long–term viability          Several of the buildings were in poor
of health services. With shrinking donor                condition, requiring repairs, renovation, and
support in the foreseeable future, the Afghan           painting.
Government’s ability to increase healthcare
coverage to 90 percent of the population


                                                  117
Program management also needs to be                       complicated process, and OIG could not find
tightened. Confusion over who responds to                 anyone who could explain the process from
MoPH’s technical inquiries has led to                     start to finish. Staff attempted to explain the
delayed responses or inadequate feedback                  process within their own areas of
from USAID. In addition, the mission has                  responsibility, but they contradicted one
limited experience in managing on–budget                  another, and most were not sure what
assistance activities. In fact, when trying to            happened outside of their own areas.
resolve the problem of consistently late
payments to the NGOs, Ministry and USAID
staff had difficulty explaining the lengthy and

Recommendations—Management Decisions

The audit report made 13 recommendations:

1.      In collaboration with MoPH, develop and implement a plan that (1) improves the NGO
        contractors’ supervision, monitoring, and problem solving at their health facilities; and (2)
        verifies the successful implementation of a reliable quality assurance mechanism by the
        NGO contractors, including the establishment of quality assurance committees at each of
        the health facilities.

        USAID plans to work with Ministry of Public Health to develop and implement a plan that
        identifies which elements the nongovernmental organization contractors should address.
        USAID/Afghanistan will also work with the Ministry of Public Health to ensure that
        nongovernmental organizations’ roles and responsibilities related to quality assurance are clearly
        defined and articulated and are in line with established guidance on quality assurance. The mission
        will also work to ensure that the Ministry of Public Health’s monitoring plans cover quality assurance
        issues. The mission intends to implement this plan by February 29, 2012. This recommendation
        remains open.

2.      Assist MoPH in establishing and implementing a plan to ensure that NGO contractors are
        verifying that the requirement of second-person verification is being effectively
        implemented at health facilities.

        The mission agreed with the recommendation. The mission will work with the Ministry of Public
        Health to develop a plan to reinforce verification guidelines and to incorporate monitoring of
        implementation of the verification guidelines into the Ministry of Public Health’s facility monitoring
        plan. The mission anticipates completion and implementation of the plan by March 31, 2012. Based
        on the proposed action, the mission has reached a management decision. This recommendation
        remains open.

3.      In collaboration with MoPH, develop a plan to (1) identify a pool of qualified civil service
        employees who would benefit from capacity building training in order to sustain the
        ministry’s capacity for managing the PCH program and (2) provide the training.

        The mission agreed with the recommendation. The mission anticipates working with the Ministry of
        Public Health to develop a plan to identify and assign civil-service counterparts for training by PCH
        long-term external advisers. The mission anticipates completing action on this recommendation by



                                                    118
     March 31, 2012. Based on the proposed action, a management decision has been reached. This
     recommendation remains open.

4.   Work with MoPH and the Ministry of Finance (MoF) to streamline the payment process to
     accelerate payments to NGO contractors and health workers.

     The mission agreed with the recommendation. Specifically, the mission will conduct an assessment of
     Ministry of Public Health systems, policies, and procedures and use the results of the assessment to
     streamline the payment process. The mission intends to complete this task by February 29, 2012.
     Based on the proposed actions, a management decision has been reached. This recommendation
     remains open.

5.   Work with MoPH and MoF to (1) implement written policies and procedures that clearly
     define the roles, responsibilities, and approval authorities for the payment process; and (2)
     provide them with further training on the advance/liquidation mode of payment.

     The mission plans to work with the Ministry of Public Health and the Ministry of Finance to
     implement written policies and procedures covering the payment process. USAID/Afghanistan also
     plans to provide further training to ministry staff on the advance/liquidation mode of payment. The
     mission anticipates completing this work by February 29, 2012. Based on the proposed actions, a
     management decision has been reached. This recommendation remains open.

6.   Work with MoPH and MoF to implement procedures limiting the frequency of changes
     made to the payment process and providing sufficient notification and clear instructions to
     NGO contractors on any changes.

     As mentioned in the response to Recommendation 4, the mission will conduct an assessment of
     Ministry of Public Health systems, policies, and procedures. The Mission will draw on the results of
     the assessment in working with Ministry of Public Health and Ministry of Finance to implement
     policies and procedures regarding changes in the payment process and issuance of instructions on such
     changes. The mission intends to complete these tasks by February 29, 2012. Based on the proposed
     actions, a management decision has been reached. This recommendation remains open.

7.   Review its internal administrative procedures, such as the processing of implementation
     letters, to ensure the smooth and timely flow of the payment process for on-budget
     assistance agreements.

     The mission agreed with the recommendation. The mission anticipates completing this review and
     modifying its procedures by February 29, 2012. Based on these proposed actions, a management
     decision has been reached. This recommendation remains open.

8.   Issue a mission order to provide an organizational framework with clearly defined roles and
     responsibilities of all mission offices responsible for managing on-budget assistance
     activities.

     The mission agreed with the recommendation. The mission intends to complete this task by February
     29, 2012. Based on the proposed actions, a management decision has been reached. This
     recommendation remains open.



                                                119
9.    Provide a formal designation letter similar to the designation letter for an agreement
      officer’s technical representative (AOTR) to staff monitoring implementation of on-budget
      assistance agreements.

      The mission will include a provision related to the designation of activity or project managers for
      government-to-government assistance mechanisms in its revised mission order referred to in
      Recommendation 8. The mission anticipates completing this mission order by February 29, 2012.
      Based on the proposed action, a management decision has been reached. This recommendation
      remains open.

10.   Work with MoPH to prepare a performance management plan for the PCH program.

      The mission agreed with Recommendation 10. Work is under way, with a target completion date of
      March 31, 2012. Based on the proposed action, a management decision has been reached. This
      recommendation remains open.

11.   Provide MoPH with clearly written definitions of Afghan Info performance indicators.

      The mission will provide the Ministry of Public Health with a list of Afghan Info performance
      indicators and their associated definitions by February 29, 2012. A management decision has been
      reached based on this proposed action. This recommendation remains open.

12.   Implement procedures to review and verify the accuracy of data entered into Afghan Info
      and provide timely feedback to users.

      The mission plans to provide PCH consultants with orientation to and training in utilizing the
      Afghan Info database, with a target completion date of February 29, 2012. However, while the
      training will address the needs of PCH, the mission’s actions do not address the verification aspect of
      the recommendation. This recommendation remains open.

13.   In collaboration with MoPH, implement a plan to confirm and document accurate global
      positioning system (GPS) coordinates for the ministry’s health facilities.

      The mission plans to request implementing partner assistance in updating GPS coordinates for health
      facilities and in developing a plan for completion of all GPS requirements. The plan is to be
      completed by February 29, 2012, and the updated GPS coordinates by March 31, 2012. Based on
      the proposed actions, a management decision has been reached. This recommendation remains open.




                                                  120
                  Review of USAID/Afghanistan’s Afghanistan
                         Civilian Assistance Program
                                (F-306-11-005-S)

Date:                              August 31, 2011

Implementing Partner:              International Organization for Migration

Audit Period:                      March 31, 2011, through June 16, 2011

Funding:                           As of March 2, 2011, according to USAID/Afghanistan records,
                                   $54 million had been obligated and $52 million spent under the
                                   program.

Background—Summary of Findings

The Afghan Civilian Assistance Program was               contaminated food items were not segregated
designed to assist Afghan families and                   from food that was fit for use. Other items
communities that have suffered losses as a               such as wheelbarrows and shovels were stored
result of military operations against                    in disorganized piles or even kept outside.
insurgents and the Taliban. The program is
implemented through a $76 million, 4½–                   In addition to problems with commodities,
year cooperative agreement with the                      there were also difficulties with verifying
International Organization for Migration                 beneficiaries. A report commissioned by
(IOM). Beneficiaries under the program are               IOM to confirm assistance concluded that at
generally given in–kind assistance, often in             least 34 percent of the beneficiaries in two
the form of kits that include food, household            districts could not be verified, most likely
items, school supplies, or tools and                     because of fraud. Moreover, the report’s
equipment for agriculture or small business              authors believed that program personnel
activities.                                              were actively working to undermine the
                                                         results of their investigation. Additionally,
IOM did not properly manage commodities                  other funds were misspent when IOM used
under the program. Inventory records                     more than $3.6 million in program funds to
revealed large quantities of flour, beans, rice,         purchase cars for beneficiaries without
tomato sauce, and cooking oil that had                   USAID’s approval. Furthermore, OIG
expired were found, some with dates as far               determined that $180,000 embezzled by field
back as 2004. Rats had gnawed open dozens                staff had not been properly been reimbursed
of food bags, and auditors noted feces inside            to USAID.
and around the bags. Further, expired and



Recommendations—Management Decisions

The audit report made seven recommendations:

1.      Instruct IOM to (1) dispose appropriately of food in its warehouses that is no longer fit for
        human consumption, (2) clean and sanitize all of its warehouses, and (3) place the


                                                   121
     warehouses under an appropriate management regime including staffing and supervision
     by qualified personnel, adequate sanitation and storage practices, and adequate record
     keeping.

     Specifically, the mission has instructed IOM to clean the warehouses and dispose of expired food
     items. As a result, IOM disposed of expired food items and implemented just-in-time delivery of food
     items to warehouses for distribution to beneficiaries. Under this system, food items spend a minimal
     amount of time in warehouses. IOM now orders kits to respond to confirmed beneficiary demand
     rather than for bulk storage. Finally, IOM has implemented written warehouse procedures for proper
     management of its warehouses. Based on these actions, final action has been taken. This
     recommendation is closed.

2.   Recover from IOM the cost of stored food that is no longer fit for human consumption,
     which we estimate at up to $2,660,924.

     The mission agreed with Recommendation 2. The mission intends to issues a bill of collection to
     recoup the costs. The mission’s review of the list also revealed items purchased from a prohibited
     source. The mission intends to perform a financial audit of the program, which will also include a
     review of items purchased from prohibited sources. This recommendation remains open.

3.   Recover from IOM the $740,331 cost of Purchase Order 12, which was not needed to
     carry out program operations.

     The mission disagreed with Recommendation 3. According to the mission, the program was
     distributing assistance kits aggressively from February through July 2011 and, without the additional
     inventory on hand; the program might not have been able to assist all beneficiaries without
     interruption. The mission stated that IOM did not base its decision to award the purchase order on
     “a numerical analysis of beneficiary demand, but, rather, on the potential refusal of the current
     vendor, Uranus [Trading and Logistics Company], to guarantee future kit procurements.” Such
     refusal, the mission stated, potentially would have left the program without a kit supplier and resulted
     in kit shortages and suspension of deliveries to beneficiaries. Finally, the mission indicated that all the
     kits from Uranus Trading and Logistics Company ultimately were distributed to beneficiaries.

     We disagree with the mission’s analysis. As detailed in the audit finding, IOM had inventory records
     supporting 4,821 kits stored at Uranus Trading and Logistics Company, and that total did not
     include kits stored in IOM warehouses, for which no inventory records were available. This order
     added 3,000 kits, which Uranus Trading and Logistics Company had to have stored.

     Furthermore, testimonial evidence provided by a program official indicates that IOM management
     was aware that Purchase Order 12 was not needed before it was placed. In addition, given the
     inability of IOM to store these kits properly and the volume of kits available at the time the order was
     placed, Purchase Order 12 appears unreasonable. In terms of the Uranus Trading and Logistics
     Company’s refusing future deliveries, the mission and IOM provided no evidence to substantiate this
     potentiality. Finally, no documentation was provided showing the distribution of all the Uranus
     Trading and Logistics Company kits during the audit or as part of the management response. Given
     the lack of inventory records available during the audit, it is incumbent on the mission to verify that
     there are supporting inventory records or other corroborating evidence that these kits were indeed
     distributed to legitimate recipients that were properly vetted through the ACAP grant approval


                                                   122
     process.. Therefore, a management decision has not been reached, and we still recommend that the
     agreement officer determine the allowability of the kits purchased under Purchase Order 12. This
     recommendation remains open.

4.   Determine the allowability of and recover, as appropriate, the $1,360,800 in shelter
     assistance grants in Helmand Province that could not be verified.

     The mission asked IOM for a summary of the assessment done by SHAL, a nongovernmental
     organization contracted by IOM, which will identify which individuals not entitled to assistance
     received commodities or cash. IOM is expected to forward the summary report by mid-September
     2011. The mission will then review the report, and the agreement officer will make a final
     determination on the allowability of the questioned costs and initiate recoupment of funds, as
     appropriate. The mission intends to communicate its determination to OIG by November 30, 2011.
     This recommendation remains open.

5.   Arrange for a financial audit of the Afghan Civilian Assistance Program to help ensure that
     the costs charged to USAID are reasonable, allowable, and allocable.

     The mission agreed with the recommendation, and included in its audit management plan a financial
     audit to begin on or about September 15, 2011. The mission’s target completion date for the audit is
     January 31, 2012. On the basis of this information, a management decision has been reached. This
     recommendation remains open.

6.   Perform an environmental assessment for the program and implement any corrective
     actions that may be required.

     The mission partially agreed with the recommendation, that it determine the allowability of and
     recover, as appropriate, $180,000 that was reportedly embezzled from the program. The mission
     agreed to recover the funds that were reportedly embezzled, but did not agree with the amount
     embezzled. The mission is currently reviewing documentation provided by IOM to determine the
     actual amount of funds misappropriated and will make a final determination on the allowability of
     the questioned costs and initiate recoupment of funds, as appropriate. The mission intends to
     communicate its determination to OIG by November 30, 2011. This recommendation remains open.

7.   Perform an environmental assessment for the program and implement any corrective
     actions that may be required.

     The mission agreed with the recommendation, that it determine the allowability of and recover, as
     appropriate, the $3,437,000 for the purchase of used vehicles. The agreement officer is reviewing the
     documentation provided by IOM to determine the allowability of this cost. USAID/Afghanistan will
     initiate recovery action, as appropriate, through the issuance of a bill for collection. The mission
     intends to communicate its determination to OIG by November 30, 2011. This recommendation
     remains open.




                                                 123
    Audit of USAID/Afghanistan’s Support to The Electoral Process
     (STEP) and Support for Increased Electoral Participation in
             Afghanistan (IEP) Programs (F-306-11-003-P)

Date:                              June 19, 2011

Implementing Partner:              International Foundation for Electoral Systems (IFES), the
                                   Consortium for Election and Political Process Strengthening
                                   (CEPPS)

Audit Period:                      December 9, 2010, to March 14, 2011

Funding:                           As of December 31, 2010, USAID had obligated approximately
                                   $124.5 million and expended approximately $98.9 million.


Background—Summary of Findings

To help strengthen Afghanistan’s electoral               Despite these accomplishments, however, no
system, USAID/Afghanistan has provided                   persuasive evidence exists that these short-
assistance through the Support to the                    term results have produced increased citizen
Electoral Process (STEP) Program                         awareness of the electoral process or a
implemented under a contract with the                    stronger democratic political party system. In
International Foundation for Electoral                   fact, auditors reported on a number of
Systems (IFES), and the Increased Electoral              longer-term issues that need to be addressed
Participation in Afghanistan (IEP) Program               to better ensure credible elections, including
implemented through a cooperative                        legal reforms to protect the independence of
agreement with the Consortium for Election               the IEC and ECC, reform of the “single
and Political Process Strengthening (CEPPS).             nontransferable vote” system of
                                                         representation in favor of a system in which
The STEP program has achieved many short                 votes and electoral results have a more
term objectives—in particular, those dealing             predictable and proportional relationship,
with civic education and outreach, training,             actions to make Afghanistan’s electoral
and staffing of the Independent Election                 system more sustainable, and a more reliable
Commission (IEC) and the Electoral                       voter registry.
Complaints Commission (ECC).
                                                         Moreover, costs could have been reduced by
The program has helped to increase the                   consolidating consortium expenses.
capacity of both commissions to administer               Specifically, each consortium participant had
elections and has contributed to the                     its own Kabul-based home office, living
credibility of elections themselves. The IEP             quarters, and support functions such as
program has also performed well, training                security, human resources, and information
tens of thousands of Afghans who                         technology. Combining these costs would
participated in elections as political party or          have saved the mission a combined 15
coalition members and election observers.                percent to 20 percent, or $6 million to $8
Furthermore, IEP implemented civil and                   million.
voter education programs that reached
hundreds of thousands of people.




                                                   124
Recommendations—Management Decisions

The audit report made 9 recommendations:

1.     Undertake a technical evaluation of the effectiveness of voter education and civic
       education efforts it has supported.

       The mission agreed and is working with implementing partners to develop a national survey that
       includes questions that focus on voter awareness and participation. These questions will gauge the
       effectiveness of USAID-supported voter and civic education. In addition to the survey instrument, the
       mission will conduct an election program evaluation in June and July 2011. This evaluation will
       examine the effectiveness of USAID's support to the election process and will include a review of the
       civic and voter education initiatives. The mission noted that it will be challenging to solicit
       meaningful data on the effectiveness of civic and voter education initiatives during a non-election
       period. These actions will be completed by October 31, 2011. This recommendation remains open.

2.     Prepare a more formal project design document for the follow-on program after the STEP
       program ends in June 2011 that explicitly identifies the critical assumptions underlying the
       program design.

       The mission plans to incorporate national perspectives into the design of its future elections support
       programs by engaging with the GIRoA and IEC counterparts. The mission also plans to invite
       independent technical elections specialists to conduct strategic reviews of the elections portfolio. These
       actions will be completed by September 30, 2011. This recommendation remains open.

3.     Develop detailed plans for addressing long-term legal reform, financial and constitutional
       arrangements for elections, and voter registration issues in conjunction with the
       Government of Afghanistan, other local stakeholders, and international donors.

       The mission has outlined a series of activities undertaken and others planned to address the legal
       reform, financial and constitutional arrangements for elections and voter registration. However, the
       mission did not provide a date to complete plans for addressing needed legal reforms, financial and
       constitutional arrangements for elections, and voter registration issues discussed in the finding because
       discussions on these issues are on-going. This recommendation remains open.

4.     Complete all required contractor performance reviews of IFES under the STEP contract.

       The mission agreed and the COTR and alternate COTR will complete the contractor performance
       reviews in collaboration with the Contracting Officer using the Contractor Performance Assessment
       Reporting system. The contractor performance reviews for the first two project years will be completed
       by August 31, 2011. Year 3 reviews will be conducted after the end of the period of performance on
       September 30, 2011. All actions will be completed by November 1, 2011. This recommendation
       remains open.

5.     Prepare an implementation plan for use of the $1.4 million rural radio supplemental
       funding consistent with the goals of the program, or reprogram these funds for other
       mission programs.




                                                    125
     The mission has directed IRI to prepare an implementation plan for using the funds, and IRI has
     submitted a concept paper that envisions using the funds—originally for pre-election voter education
     programs—for radio programs focusing on the performance of elected officials and discussion of
     political and social issues. This recommendation remains open.

6.   Determine the allowability of the $6,350,319 incurred by the International Republican
     Institute (IRI) for security expenses, and recover any costs determined to be unreasonable.

     The mission conducted a review to determine the allowability of the questioned security costs. After a
     review, it was determined that the $6,350,319 was allowable. No further action was required. A
     management decision has been reached and this recommendation is closed.

7.   Establish procedures and criteria for determining the reasonableness of security costs
     charged by implementing partners.

     The mission asked the Office of Inspector General to reconsider its recommendation. The mission
     interpreted the recommendation as requiring a market price survey that could take 12 to 15 months,
     and it wondered whether this would be worthwhile in light of recent developments affecting private
     security firms in Afghanistan.

     The mission noted that, once the Afghan Public Protection Force assumes responsibility for the
     security of USAID’s partners, the partners will be expected to pay fixed prices for security services.
     Therefore, the mission considered that our recommendation was overtaken by events. This
     recommendation remains open.

8.   For the follow-on program, require members of the Consortium for Election and Political
     Process Strengthening to consolidate functions and facilities to the extent possible to
     reduce expenses.

     The mission partially concurred. The mission noted that a consolidation of functions and facilities of
     implementing partners' at the national level may prove less advisable. No management decision has
     been reached because the mission has not stated whether it will require the Consortium partners to
     consolidate functions and facilities at the national or sub-national level should the mission select the
     Consortium for any follow-on implementation. Therefore, no management decision has been reached.
     This recommendation remains open.

9.   Require IRI, as the lead partner in the Consortium, to submit a Consortium marking and
     branding plan, and verify that the plan has been implemented.

     The mission has received a Consortium branding and marking plan. The mission will review the plan
     and verify its implementation through field visits during the remainder of the activity. This action
     will be completed by July 31, 2011. Based on mission receipt of the Consortium branding and
     marking plan, a management decision has been reached. This recommendation remains open.




                                                  126
     Review of USAID/Afghanistan’s Portion of the Embassy Air
                   Program (F-306-11-004-S)
Date:                           June 9, 2011

Implementing Partner:           Aircraft Charter Solutions Inc.

Audit Period:                   January 26, 2011, to February 27, 2011 and February 1,
                                2010, to January 31, 2011

Funding:                        As of March 29, 2011, USAID had obligated approximately
                                $59 million and expended approximately $54 million.

Background—Summary of Findings

On January 4, 2010, USAID awarded                    reservations on Embassy Air did not appear
Aircraft Charter Solutions Inc. a 2-year,            for their flights but did not cancel 24 hours
$361 million contract to supply air                  in advance as required. There was no penalty
transportation in Afghanistan. The                   for these passengers, and with a cancellation
contractor is providing aircraft, personnel,         system in place, these seats could have been
equipment, tools, material, maintenance,             offered to others. Additionally, unapproved
spare parts, and supervision for                     international travel by Aircraft Charter
transportation to and from various locations         Solutions personnel led to more than
in the country. The aircraft provided by the         $525,000 in questioned costs.
contractor includes seven 18-passenger
Beechcraft 1900s, three 8-passenger                  Furthermore, Aircraft Charter Solutions did
Beechcraft Super King Air 200s, two Bell 412         not provide the mission with required work
helicopters, and four MI-8 helicopters.              plans, performance management plans, or
                                                     progress reports that would detail problems
OIG’s review found that the USAID-funded             encountered or resolved, best practices,
portion of the Embassy Air program is                flights or activities completed, or
providing safe and reliable air service in           performance standards. Without these
support of provincial reconstruction teams           reports, the mission was unable to effectively
and other U.S. Government development                monitor the program.
assistance programs in Afghanistan; however,
the review identified many opportunities for         OIG also noted that USAID markings were
improvement. For instance, between                   missing from all of the aircraft and that
February 2010 and January 2011, 20 percent           environmental requirements for the contract
of passengers (almost 10,000 people) with            were ambiguous and needed to be updated.


Recommendations—Management Decisions

The audit report made 8 recommendations:

1.      Implement a nominal charge for no-show passengers.




                                               127
     The mission did not agree with recommendation 1 for two reasons: 1) the mission estimated that up
     to 50 percent of no-shows were due to security restrictions and were largely beyond the control of
     individual travelers. 2) The mission believed that imposing nominal charges on no-show passengers
     would not be feasible, although the mission did not identify any specific feasibility issues.

     The mission also disagreed with our estimate of funds that could be put to better use by reducing the
     number of no-show passengers. The mission noted that there may be no significant difference in cost
     between flying a plane that is fully loaded with passengers and one with a number of empty seats.

     In response to the mission’s first point, OIG undertook an analysis of the reasons for no-shows and
     determined that only 6 percent of no-shows were due to security restrictions, while 94 percent of no-
     shows were unrelated to security. In response to the second point, without further details, we do not
     see any insurmountable obstacles to charging no-show passengers some nominal amount to encourage
     them to honor their reservations or cancel them as required. Federal travelers on commercial flights are
     of course already liable for any penalties or other costs that result if they negligently fail to appear for
     a scheduled flight; we see no reason why this should not be the case for Embassy Air flights as well.
     We also note that USAID already has collections systems in place to charge employees, contractors,
     and grantees for personal telephone charges, inadvertent overpayments, and other reasons. A
     management decision can be reached when the mission and OIG agree on a firm plan of action, with
     time frames, for implementing the recommendation. This recommendation remains open.

2.   Clarify the contract’s environmental requirements and obtain evidence that the contractor
     is complying with them.

     The mission agreed with the recommendation. The contracting officer, in collaboration with the
     mission’s environmental officer, will review the contract’s environmental provisions to determine how
     they should be revised. In addition, the mission will ensure compliance with these provisions through
     enhanced monitoring and evaluation of the contractor’s compliance with any environmental
     requirements set forth in the revised contract provisions or modification. The mission anticipates
     completion of these actions by August 31, 2011. This recommendation remains open.

3.   Determine the allowability of and recover, as appropriate, unsupported questioned costs of
     $525,467 representing international travel (including premium-class travel of $31,902) by
     contractor officials that was not approved by USAID as required.

     The mission is reviewing the circumstances surrounding the international travel to determine the
     allowability of the unsupported questioned costs of $525,467 representing international travel
     (including premium-class travel of $31,902). The contracting officer has made an initial
     determination that $16,302 of the $31,902 spent for premium-class travel is unallowable and will
     be recovered.

     Allowability of the questioned costs of $525,467 for unapproved international travel will be
     determined by the contracting officer. If the amount is determined to be unallowable, a bill of
     collection will be issued to the contractor, and recovery will be made through a deduction in the next
     invoice or another appropriate method. The contractor has been told to submit written requests for
     international travel to the COTR. The mission anticipated completion by June 15, 2011.

     A management decision can be recorded when the allowability of the $525,467 in questioned costs is
     determined by the contracting officer. This recommendation remains open.


                                                   128
4.   Verify that Aircraft Charter Solutions Inc. has implemented a branding and marking plan.

     The mission agreed and instructed the contractor to submit a branding and marking plan for approval
     on May 9, 2011. In addition, USAID/Afghanistan provided the contractor with appropriate
     branding and marking materials to initiate compliance with the requirements. Aircraft Charter
     Solutions Inc. installed tags on various sections of the aircrafts and on furniture and equipment inside
     the terminal buildings. This recommendation remains open.

5.   Verify that Aircraft Charter Solutions Inc. has provided clear instructions and signs in its
     terminal for passenger convenience and security.

     The mission agreed and required the contractor to provide clear instructions and make maps more
     easily available to customers to ensure passenger convenience and security. Appropriate signage was
     placed in the terminal building; the instructions and maps have been made available to all authorized
     persons through the Web-based booking system. This recommendation is closed.

6.   Instruct the contractor to provide transportation for passengers from passenger staging
     areas to the aircraft.

     The mission believed that vehicle traffic would bring foreign objects and debris onto the aircraft ramp,
     posing a hazard to the aircraft. In addition, the space available for vehicles at the Embassy Air
     terminal is very limited and the additional vehicles would compound the space situation.
     Management determined that transportation of passengers from the passenger staging area to the
     aircraft was not necessary and modified the contract in March 2011 to state: “The contractor will
     provide vehicles capable of transporting passengers as necessary.” This recommendation is closed.

7.   Obtain required reports from Aircraft Charter Solutions Inc.

     The mission concurred and reminded the contractor of its contractual obligations to submit all reports
     specified in the contract according to the timelines set forth therein. Reports have been submitted by
     the contractor and accepted by USAID. These reports include an annual program review for the first
     year of the contract, annual work plan for the second year of the contract, and monthly progress
     reports. This recommendation is closed.

8.   Clarify its performance standards to Aircraft Charter Solutions Inc. so that realistic
     expectations and proper reporting and accountability can be obtained.

     The mission did not agree with the recommendation. The mission and the contractor both understood
     the performance standard “93% of missions completed as scheduled” to mean that the contractor was
     obligated to maintain a 93 percent on-time mission capability rate, excluding factors outside the
     contractor’s control such as weather, security, and 15 other extenuating circumstances. However, this
     understanding is contradicted by the wording of the performance standard itself.

     The mission did require the contractor to develop and submit a performance management plan for
     approval. The mission planned to monitor compliance with the performance standards and indicators.
     Thus this recommendation remains open.




                                                  129
        Audit of USAID/Afghanistan’s Construction of Health and
             Education Facilities Program (F-306-11-002-P)

Date:                             March 27, 2011

Implementing Partner:             International Organization for Migration

Audit Period:                     September 14, 2010, to November 8, 2010

Funding:                          As of September 30, 2010, USAID had obligated approximately
                                  $57 million and expended approximately $10 million.

Background—Summary of Findings

To help respond to unmet health and                     violated when the mission approved the
education needs in Afghanistan,                         building of religious structures. IOM’s
USAID/Afghanistan entered into a                        technical proposal clearly indicated that these
$57 million cooperative agreement with the              religious structures would be incorporated
International Organization for Migration                into the designs of the provincial teacher
(IOM) in January 2008, effective through                training colleges, but USAID staff failed to
January 2011, to implement the                          recognize these structures as being ineligible
Construction of Health and Education                    for USAID funding.
Facilities (CHEF) Program. The agreement
was subsequently extended through June                  The mission has not yet provided the
2012.                                                   completed designs for two hospitals and four
                                                        provincial teacher training centers to the
The objective of the audit was to determine             Ministries of Education and Public Health.
whether USAID/Afghanistan’s program was                 The completed designs are site specific and
achieving its main goals of strengthening the           include drawings, specifications, design
Government of Afghanistan’s ability to                  analysis, design calculations, and bills of
provide health services to its citizens and             quantities with adherence to the
train competent teachers by constructing                international building codes and compliance
provincial hospitals, midwife training centers,         with seismic requirements.
and provincial teacher training colleges.
While the mission has realized some                     The audit disclosed several instances of
successes—for example, in strengthening the             noncompliance with IOM’s quality control
capacity of local construction companies and            manual, which is incorporated into the
adhering to the international building code—            cooperative agreement and approved by the
the program was not on schedule to achieve              mission. The manual required specific tests
its main goals. Construction fell significantly         of construction materials to be performed at
behind schedule. The program was                        specified intervals, but we noted instances
approximately 18 months behind schedule                 where there was no evidence that required
and was making slow progress toward                     tests were performed.
achieving its goals. Cost and security issues
reduced the scope of new construction.                  For example, of 49 required seven-day
Achievement of the original goals of the                concrete compression strength tests reviewed,
agreement was hindered by funding                       IOM could only provide evidence that 35
limitations. Federal requirements also were             tests were performed.


                                                  130
                                                          of competing priorities for ministry funds,
Additionally, sustainability of facilities is             which could further hinder achievement of
questionable. The ability of the Ministries of            the program’s main goals.
Education and Public Health to maintain the
completed structures is questionable because

Recommendations—Management Decisions

The audit report made 15 recommendations:

1.      That USAID/Afghanistan obtain a revised implementation plan from IOM identifying
        revised completion dates for all structures, recovery actions to increase the speed of
        construction, potential barriers to timely completion of construction, and actions that
        could be taken to mitigate delays.

        The mission agrees with the recommendation and has directed International Organization for
        Migration (IOM) to prepare a revised implementation plan indicating completion dates for all
        structures and the recovery actions required to mitigate delays. IOM's implementation plan is revised
        and approved by the Mission annually. The most recent implementation plan revision has been
        received by the Mission and is currently in review. This action was scheduled for completion by May
        30, 2011. This recommendation is closed.

2.      That USAID/Afghanistan extend the agreement with IOM to ensure that the warranty
        period for all completed structures falls within the agreement period.

        The mission stated that it will extend the Construction of Health and Education Facilities
        cooperative agreement from June 30, 2012, to June 30, 2013, through the end of the last project
        warranty period of IOM for the completed structures. The action was scheduled for completion by
        May 30, 2011. This recommendation is closed.

3.      Review the eligibility of the cost of the prayer buildings and prayer rooms included in the
        provincial teacher training centers and recover any costs found to be unallowable.

        The mission has required IOM to redesign the women’s prayer room into two rooms including a
        visiting room and living room which is similar to the layout at the men’s dormitory. The mission has
        also halted construction on the mosque structures and advised that it plans to document the recovery
        of USAID funds disbursed to date for this structure. Action is scheduled for completion by September
        30, 2011. A management decision was reached and the recommendation remains open.

4.      Review the eligibility of the cost of the prayer buildings and prayer rooms included in the
        provincial teacher training centers and recover any costs found to be unallowable.

        The mission planned to issue a notice to all Contracting Officer’s Technical Representative
        (COTRs)/Agreement Officer’s Technical Representatives (AOTRs) regarding USAID’s policy on
        funding religious activities by May 30, 2011. This recommendation is now closed.

5.      Develop a process for releasing completed designs.




                                                   131
      In consultation with Regional Legal Advisor, the mission has developed Transfer Agreements for the
      release of completed CHEF designs to the relevant ministries and other; donors. The Transfer
      Agreements release USAID of all liability for construction of CHEF designs by others. This action
      was completed on March 09, 2011. This recommendation has been closed.

6.    Obtain evidence that IOM has standardized its quality control procedures at all
      construction sites.

      The mission agreed with the recommendation. IOM has demonstrated the use of standardized
      quality control procedures through continuous revisions that have been made to its Quality Control
      Manual which is in its seventh revision. IOM’s Quality Control and Safety Manager makes regular
      visits to all construction sites to ensure compliance with the quality control manual revisions. The
      mission believes that appropriate actions have been taken to address this recommendation. A
      management decision was reached and the recommendation has been closed.

7.    Obtain evidence that IOM has updated its quality control manual to include all tests
      performed and acceptance criteria used for quality control.

      As stated above, IOM has revised its quality control manual to include all additional testing that is
      performed along with the acceptance criteria. This action was completed on November 22, 2010. The
      recommendation has been closed.

8.    Develop and implement a process whereby the agreement officer’s technical representatives
      verify and review quality control tests.

      The mission agreed with the recommendation that the AOTRs verify and review quality control tests.
      USAID/Afghanistan’s mission order dated July 7, 2010, mandates that USAID construction
      projects for schools and hospitals be continuously monitored by an independent Quality
      Assurance/Quality Control (QA/QC) firm reporting directly to the AOTR. The AOTR is
      responsible for review of QA/QC Reports and for follow up with IOM to resolve deficiencies. This
      action was completed in late November 2010 when IRD incorporated all quality control testing, test
      results, and identify deficiencies into the weekly QA/QC reports. This recommendation has been
      closed.

9.    After preparing an analysis of the Government of Afghanistan’s ability to fund
      maintenance for the structures turned over under the program, USAID/Afghanistan
       (1) make a determination of the need for a separate operation and maintenance program
      and (2) revise as appropriate the certification previously prepared for the Construction of
      Health and Education Facilities Program.

      The mission will obtain the Annual Operations and Maintenance Budgets for all CHEF projects
      from IOM, submit them to the relevant ministries, and verify that the ministries have adequate
      funding to operate and maintain the facilities. The mission stated that it will then revise the
      certification if necessary. This action is scheduled for completion by September 30, 2011. A
      management decision was reached and the recommendation remains open.

10.   Complete the necessary environmental assessments according to federal regulations.




                                                 132
      The mission agrees to complete environmental assessments for the CHEF projects that are currently
      under construction by September 30, 2011, in order to determine if existing environmental mitigation
      plans are sufficient. A management decision was reached and the recommendation is closed.

11.   Provide adequate supervision to reasonably ensure compliance with USAID’s
      environmental procedures.

      The mission agrees with the recommendation to provide adequate supervision to reasonably ensure
      compliance with USAID’s environmental procedures. On November 1, 2010, the mission added a
      second Mission Environmental Officer position to assist with supervision of USAID’s environmental
      procedures. A management decision was reached and the recommendation has been closed.

12.   Direct IOM to submit a formal marking plan as required by the agreement.

      IOM submitted a formal marking plan to the mission for approval on December 12, 2010. A
      management decision was reached and the recommendation has been closed.


13.   That USAID/Afghanistan determine the adequacy of IOM’s marketing plan.

      The mission is currently reviewing the marking plan and intends to issue a final determination of the
      acceptability of the plan by May 30, 2011. This recommendation is closed.

14.   Identify and recover the unallowable costs billed to the mission for the use of off-duty
      Afghan National Police officers.

      The mission stated that based on legal review of the situation that the security guard costs are
      allowable. The Acquisition Officer's (AO) decision of Oct 21, 2010, was a prudent response to new
      and misunderstood development in Afghan law. However, since the AO's Oct 21 decision, the
      mission's understanding of these matters has evolved. Decree 62, issued by President Hamid Karzai
      on Aug 17, 2010, banned Private Security Contractors (PSCs) and stated that henceforth the Afghan
      Ministry of the Interior would provide security services. The Regional Legal Advisor has concluded
      that IOM’s Ghazni province arrangement was legal under Afghan law because while Decree 62
      prohibited the use of PSCs, the Afghan law on Firearms, Ammunition and Explosives nonetheless
      continues to permit an organization to use individuals licensed by the IOM to carry firearms to
      provide their security. Other arrangement in Faryab, while arguably unallowable, is within the AO's
      discretion to retroactively approve the agreement making the costs allowable. Since the arrangement in
      Faryab was in fact legal, the AO approved this arrangement as well. The AO will issue a revised
      ruling to IOM by May 30, 2011. This recommendation is closed.

15.   After identifying all clinics built under a previous USAID construction program that may
      have a design flaw that creates a fire hazard, we recommend that USAID/Afghanistan
      notify the Ministry of Public Health and provide a remedy for the design flaw.

      The mission agrees to officially notify the Ministry of Public Health about the potential hazard of the
      stove chimneys and provide a recommendation for proper installation by May 30, 2011. This
      recommendation is closed.




                                                  133
     Review of USAID/Afghanistan’s Bank Supervision Assistance
                Activities and the Kabul Bank Crisis
                          (F-306-11-003-S)

Date:                            March 16, 2011

Implementing Partner:            Deloitte, BearingPoint

Audit Period:                    September 2005 to January 2011

Funding:                         As of January 31, 2011, USAID had obligated approximately $47
                                 million for the Economic Growth and Governance Initiative and
                                 expended approximately $112 million.

Background—Summary of Findings

Since 2003, USAID/Afghanistan has                      looming problems at Kabul Bank before the
supported a number of capacity-building                first news reports broke in February 2010.
activities at the Afghanistan Central Bank             They also questioned Deloitte’s effectiveness
(DAB) to help DAB regulate the banking                 and performance because Deloitte staff had
sector. Currently, Deloitte provided DAB               provided bank supervision assistance to DAB
technical assistance in bank supervision and           for 7 years, yet DAB supervisors were unable
examination through a $92 million task                 to prevent the near collapse of Afghanistan's
order for the Economic Growth and                      largest bank. In January 2011,
Governance Initiative, which includes many             USAID/Afghanistan requested the assistance
activities in addition to bank supervision and         of the Office of Inspector General (OIG) in
examination. The purpose of the task order             determining whether USAID or Deloitte
was to increase Afghanistan's ability to               staff members were negligent in failing to
develop and implement sound economic and               report the Kabul Bank fraud.
regulatory policies that provide the
foundation for private sector growth in a              In response to USAID/Afghanistan’s
market economy. According to Deloitte's                request, OIG conducted this review to
work plan, one of the main goals of the                determine what opportunities USAID and
assistance Deloitte provided to DAB was to             contractor staff had to learn of fraudulent
assist DAB in fulfilling its statutory                 activities at Kabul Bank through USAID’s
responsibilities―to promote the stability and          Economic Growth and Governance Initiative
contribution to economic growth of the                 and its predecessor, the Economic Growth
financial sector and to prevent avoidable              and Private Sector Strengthening Activity.
losses. Deloitte provided onsite technical             The review also sought to determine how
advisors at DAB’s Directorate for Financial            staff learned of the fraud and what actions
Supervision.                                           staff members took once they became aware
                                                       of the fraud.
After depositors’ run on Kabul Bank, senior
officials in the U.S. Embassy raised concerns          Audit findings included: BearingPoint and
about Deloitte’s performance. Specifically,            Deloitte advisers who were embedded at
they were concerned that Deloitte staff did            DAB encountered fraud indications at Kabul
not warn the U.S. Government about                     Bank on a number of occasions over a span


                                                 134
of 2 years before the run on Kabul Bank in                technical assistance activities, to question
early September 2010. However, they did                   Deloitte advisers' written and oral reports,
not aggressively follow up on indications of              and to delve more deeply into those reports,
serious problems at Kabul Bank. Also,                     rather than accepting them at face value.
Deloitte advisers did not report fraud
indicators at Kabul Bank to USAID, and the                In hindsight, Deloitte’s lead adviser
mission did not have a policy requiring                   acknowledged that Deloitte should have
contractors and grantees to report indications            taken more aggressive actions in November
of fraud in host government institutions or               2009, such as resuming participation by
possible problems that could reasonably be                Deloitte’s advisers in onsite bank
considered to be of foreign policy interest to            examinations alongside the DAB examiners.
USAID and the U.S. Government. It was                     This practice was suspended in November
also determined that USAID/Afghanistan’s                  2008 because an adviser received death
management of its task order with Deloitte                threats. The lead adviser said that if
was weak. If senior program managers and                  Deloitte’s onsite assistance had restarted in
technical experts had been on staff at the                November 2009, the fraud could have been
mission, USAID would have had greater                     detected earlier, and the magnitude of losses
capacity to detect deficiencies in Deloitte's             would have been smaller.

Recommendations—Management Decisions

The audit report made four recommendations:

1.      Develop and implement an action plan to address the performance issues with the bank
        supervision and examination assistance provided to the Afghanistan Central Bank by
        Deloitte.

        USAID/Afghanistan addressed the performance issues with the bank supervision and examination
        assistance provided to the Afghanistan Central Bank by Deloitte, the Office of Afghanistan and
        Pakistan Affairs indicated that USAID/Afghanistan has decided to terminate the bank supervision
        component of the task order with Deloitte. In addition, for any ongoing or future activities with the
        Central Bank, USAID/Afghanistan will strengthen contractor oversight and ensure that USAID
        contractors working with the Central Bank (1) adopt a proactive stance in identifying and reporting
        to USAID fraud, waste, or abuse, (2) educate its personnel and embedded consultants on the unique
        operating culture and challenges of the Afghan financial sector, (3) engage the Afghan banking system
        to creatively address problems in light of these challenges, and (4) work with the Central Bank to
        develop policies on business ethics and train bank staff on these policies. USAID/Afghanistan
        determined and the RIG/Afghanistan agreed that management decisions have been reached to
        implement recommendations 1 and 2. In June 2011, USAID/Afghanistan terminated Component
        2 of the program under which assistance in the areas of bank supervision and examination was
        provided to DAB. The mission indicated that as a result of this termination, the award budget was
        realigned and the amount of the funds budgeted, but not ultimately obligated, was $92,371,523.
        Given the termination of the assistance to the Afghanistan Central Bank, the mission deemed that
        Recommendations 1 and 2 were not actionable. This recommendation is closed.

2.      Arrange for more robust assistance to the Afghanistan Central Bank in bank supervision
        and examination, including on-site examination assistance and fraud detection training.




                                                   135
     USAID/Afghanistan determined and the RIG/Afghanistan agreed that management decisions have
     been reached to implement recommendations 1 and 2. In June 2011, USAID/Afghanistan
     terminated Component 2 of the program under which assistance in the areas of bank supervision and
     examination was provided to DAB. The mission indicated that as a result of this termination, the
     award budget was realigned and the amount of the funds budgeted, but not ultimately obligated, was
     $92,371,523. Given the termination of the assistance to the Afghanistan Central Bank, the mission
     deemed that Recommendations 1 and 2 were not actionable. This recommendation is closed.

3.   Implement a written policy clarifying the responsibilities of USAID contractors and
     grantees to report on indications of fraud in host-country institutions or other matters that
     could reasonably be expected to be of foreign policy interest to the U.S. Government.

     USAID/Afghanistan accepts the recommendation to work on providing a written policy clarifying the
     responsibilities of USAID contractors and grantees to report on indications of fraud in host-country
     institutions as well as on other matters that could reasonably expected to be of foreign policy interest
     to the U.S. Government as it applies to Afghanistan. This effort is being led by the Regional Legal
     Advisor and other concerned offices in USAID. Reporting responsibilities may vary depending on the
     nature of the project and the type of implementing partners involved. A management decision has
     been reached and this recommendation remains open.

4.   Correct the deficiencies in its management of its bank supervision and assistance activities.

     A management decision was reached upon issuance of the audit report. USAID/Afghanistan has
     been very sensitive to having the proper in-house expertise to manage highly technical activities, and
     analyze issues related to this area and is fully committed to making the extra effort needed to obtain
     such expertise. In this regard, USAID/Afghanistan brought on board, a Director of the Office of
     Economic Growth, a senior financial sector expert to guide USAID's work in the financial sector.
     Another financial sector expert was appointed in March 2011, to serve as Chief of the Economic
     Policy and Governance Division. A third senior financial sector expert was appointed to provide direct
     technical advice to DAB, as well as to manage a newly reformulated bank supervisory assistance
     activity on a day-to-day basis. With various financial sector experts on board, USAID/Afghanistan
     believes that it has appropriately corrected the deficiencies in the management of its bank supervision
     and assistance activities. The mission further stated that if they re-engage in bank supervision and
     assistance activities in the future, they will ensure that staff with appropriate expertise is designated as
     program managers. This recommendation is closed.




                                                   136
    Review of Cash Disbursement Practices Employed by Selected
           USAID/Afghanistan Contractors and Grantees
                          (F-306-11-002-S)

Date:                            March 7, 2011

Implementing Partners:           N/A

Audit Period:                    November 14, 2010, to December 15, 2010

Funding:                         About $1.43 billion in awards to contractors and
                                 grantees in fiscal year 2010

Background—Summary of Findings

In late 2001, following decades of conflict,          activities financed by USAID, and location of
the financial and banking systems of                  program sites and activities in unsafe areas.
Afghanistan were devastated. Afghanistan
had six licensed, state-owned commercial              OIG conducted this review to determine
banks that were almost entirely based in              whether the cash disbursement practices of
Kabul and, to a large extent, inactive.               the implementing partners ensured that
Besides lacking connectivity and reliable             disbursements are reasonable, allocable, and
information on assets and liabilities, the            allowable under the agreements.
banks did not follow generally accepted
accounting standards. Vital functions of the          This review determined that cash
central bank were not defined or carried out,         expenditures were reasonable, allocable, and
and Afghanistan lacked a credible, formal             allowable. However, no controls can
payment system. The lack of confidence in             completely eliminate the risk of fraud, loss,
the banking system and uncertainties and              and personal harm to staff associated with
difficulties faced by the population and the          handling and transporting cash in a war
business sector led them to rely almost               zone.
exclusively on the hawala money transfer
system, an informal network of cash brokers           Using an OIG risk assessment of
who operate based on trust and reputation.            USAID/Afghanistan’s U.S. contractors and
                                                      grantees, we evaluated internal controls over
The 10 selected U.S. contractors and                  cash disbursements, performed a walk-
grantees represented about 42 percent of              through of the cash voucher payment
USAID/Afghanistan’s total active awards               process, reviewed a judgmental sample of
($3.4 billion) and included six of the                cash vouchers and supporting documents,
mission’s program areas: infrastructure,              identified areas for improvement, and noted
democracy and governance, education,                  best practices employed.
health, economic growth, and stabilization in
support of the U.S. Government’s                      According to information provided to us by
counterinsurgency strategy. The risk factors          the selected implementing partners, they
for selection included the size of the award,         made $13.5 million in cash payments in
the type of award, the magnitude of                   2010, representing 7 percent of the
subcontracts or subgrants, the type of                $181.1 million in total costs they incurred in


                                                137
Afghanistan. For individual implementing
partners, cash payments as a percentage of                After the review, five of the 10 selected
total costs incurred in Afghanistan ranged                implementing partners took steps to
from 2 percent to 69 percent. Partners’ total             significantly reduce their cash exposure risk
combined cash on hand was $270,000 at the                 by proactively seeking ways to make payments
time of the review. The types of costs paid in            through electronic funds transfer, check, or
cash included office supplies, local travel,              hawala transfers. The selected implementing
prepaid phone cards, utilities, and                       partners also implemented a number of best
maintenance. The implementing partners                    practices for managing cash disbursements
that had a higher percentage of costs paid in             that other USAID/Afghanistan
cash also used cash for programmatic                      implementing partners should consider
activities such as small grants, cash-for-work            adopting.
programs, and microfinance loans.

Recommendation—Management Decision

The audit report made one recommendation:

1.      Disseminate some best practice precautions to its implementing partners to minimize cash
        transactions to the extent possible.

        The mission agreed with the recommendation and the Office of Acquisition and Assistance issued a
        letter in February to all its implementing partners to make them aware of the best practices described
        in the report. In it, USAID strongly recommended that partner organizations review the best
        practices observed by the OIG and implement applicable procedures to ensure that USAID-funded
        cash resources are adequately safeguarded. This recommendation is closed.




                                                    138
          Audit of USAID/Afghanistan’s Agriculture, Water, and
            Technology Transfer Program (F-306-11-001-P)

Date:                             February 13, 2011

Implementing Partner:             New Mexico State University

Audit Period:                     March 3, 2008, to October 25, 2010

Funding:                          As of September 30, 2010, USAID had obligated approximately
                                  $16 million and expended
                                  approximately $9 million.

Background—Summary of Findings

According to USAID/Afghanistan, nearly 80              Financial records for the program showed
percent of Afghans earn their living from              that about 61 percent of spending was in
agriculture. USAID/Afghanistan’s active                Afghanistan, while the other 39 percent was
agriculture and alternative livelihoods                in the United States. Officials connected
programs, with reported obligations of                 with the program raised concerns that the
$701 million and disbursements of $494                 high proportion of expenditures in the
million as of September 30, 2010, are                  United States left fewer resources available
intended to create jobs and increase incomes           for activities in Afghanistan and raised other
in the agricultural sector and increase                questions about the financial management of
Afghans’ confidence in their government,               the program. To address these issues, the
particularly in the Ministry of Agriculture,           OIG contracted with an audit firm to
Irrigation and Livestock (MAIL). One such              conduct financial audits of NMSU and its
program, the Afghanistan Agriculture,                  partner universities in the United States and
Water, and Technology Transfer Program, is             issued a separate report with audit results.
implemented through a $20 million
cooperative agreement with New Mexico                  The March 2008 cooperative agreement with
State University (NMSU).                               NMSU also established the following as a
                                                       program objective: “To develop an
The objective of this audit was to determine           institutional framework for effective supply
whether the program was achieving its main             and demand management of the country’s
goals, which dealt with irrigation water               limited water resources—from local watershed
management, agricultural technology                    management to trans-boundary basins.” The
transfer, and institution building. Two-and-a-         revised program description, dated July 2010,
half years into the 3-year program, NMSU               reduced the scope of the work that NMSU
had achieved a number of successes in                  was to undertake in water resource
introducing new agricultural and water                 governance.
technologies, and many farmers were
participating in on-farm demonstrations of             NMSU demonstrated a number of water-
these technologies. Auditors found some                conserving technologies and successfully
evidence of demand for these new                       stimulated demand for some of them.
technologies—laser land leveling being the             However, farmers have not adopted these
clearest example—but adoption of the                   technologies for wider use, and NMSU
technologies lies in the future.


                                                 139
placed relatively little emphasis on improving               they introduced could make more water
distribution of irrigation water resources.                  available for farmers at the tail of irrigation
                                                             canals. For this to occur, however, the
NMSU’s efforts have not yet resulted in a                    technologies must be widely adopted, and
more equitable, community-based system for                   evidence of adoption of these technologies
managing irrigation water. NMSU officials                    was lacking.
noted that the water-conserving technologies

Recommendations—Management Decisions

The audit report made six recommendations:

1.      Instruct NMSU to conduct appropriate follow-up activities to determine the effectiveness
        of its technical assistance and training activities with MAIL.

        A management decision was reached upon issuance of the audit report. On January 10, 2011,
        USAID/Afghanistan instructed NMSU to conduct follow-up activities to determine the effectiveness
        of the technical assistance and training it provided to the Ministry of Agriculture, Irrigation and
        Livestock and instructed NMSU to include the progress of these activities in all future quarterly
        reports for the program. AOTR verified through a review of documentation provided by NMSU that
        corrective actions were taken. This recommendation is closed.

2.      Periodically verify the results reported by NMSU for the Agriculture, Water, and
        Technology Transfer Program.

        The mission stated that the Office of Agriculture is in regular contact with USAID field program
        officers, who are the “eyes and ears” of the office and report regularly on program activities and
        accomplishments. The Office of Agriculture confirmed that it periodically sends Kabul staff members
        to verify reported results and that these visits are documented in trip reports. In addition, the Office of
        Agriculture officials stated they would ensure that site visits occur at least twice a year, taking into
        consideration security issues. Final action is expected to be completed by March 31, 2011, upon
        performance of the next site visit. This recommendation is closed.

3.      Provide NMSU with written definitions of the performance indicators and discuss them
        with staff members periodically to ensure that the definitions are understood.

        The mission provided written definitions of the performance indicators to Office of Agriculture staff
        on November 9, 2010. The mission also delivered a PowerPoint presentation on the performance
        management plan and provided performance measure reference sheets with written measure
        definitions to Office of Agriculture staff members to ensure that they understood the definitions. A
        management decision was reached and that the recommendation is closed.

4.      Require New Mexico State University to document challenges and implementation
        shortfalls in its quarterly reports.

        The mission instructed NMSU to document the challenges and implementation shortfalls in its
        quarterly reports. In addition, the mission returned the latest draft of the annual report for
        October 1, 2009, to September 30, 2010, to NMSU with specific instructions to include its


                                                      140
     challenges and implementation shortfalls. The mission will verify that all future quarterly reports
     reflect the program’s challenges and implementation shortfalls. The recommendation is closed.

5.   Determine the acceptability of the branding and marking plan submitted by New Mexico
     State University, and after approving some version of the plan, verify its implementation.

     The mission’s Development, Outreach, and Communications Office approved the NMSU branding
     and marking plan on January 4, 2011. The implementation of the branding and marking plan will
     be verified through field visits during the remainder of the program. Final action was pending on
     performance the March 2011 field visit. This recommendation is closed.

6.   Perform an environmental assessment for the program and implement any corrective
     actions that may be required.

     The mission determined and the OIG agreed that a management decision had been reached upon
     issuance of the audit report. Reference (c) indicates that USAID/Afghanistan submitted an Initial
     Environmental Examination which was approved by the Bureau Environmental Officer on February
     8, 2011. Based on the approved Initial Environmental Examination, the lEE determined that
     Environmental Assessment is not required for AWATT activity. This recommendation is closed.




                                               141
     Review of USAID/Afghanistan’s Ministerial Assessment Process
                          (F-306-11-001-S)

Date:                             November 6, 2010

Implementing Partner:             Various GIRoA ministries

Audit Period:                     August 31, 2010, to September 16, 2010

Funding:                          As of August 31, 2010, USAID had distributed approximately
                                  $19.8 million and expects to deliver
                                  at least $509.4 million to GIRoA ministries.

Background—Summary of Findings

The U.S. Government expects to deliver 50                to reviewers on how to assess compliance
percent of its development aid to                        with applicable laws and regulations.
Afghanistan through the Government of the
Islamic Republic of Afghanistan (GIRoA)’s                The review found significant vulnerabilities
core budget by the end of calendar year 2011.            that could result in waste or misuse of U.S.
With this expectation, USAID/Afghanistan                 Government resources. Clearer direction
is conducting a series of pre-award                      and closer supervision would have helped
assessments of GIRoA ministries to see                   ensure more thorough reviews. The
whether the ministries can responsibly                   assessments performed to date did not
manage U.S. Government resources.                        provide reasonable assurance of detecting
                                                         significant vulnerabilities.
Our review focused on assessments already
performed by USAID/Afghanistan as well as                The scope of the assessments varied from one
on draft scopes of work for future                       ministry to another, but some of the
assessments. Most of the assessments                     significant limitations on the assessments
completed to date were based mainly on                   included the fact that, for three of the six
reviews of written procedures, inquiries of              assessed ministries, reviewers did not know
ministry officials, and inspections of a limited         what programs the ministries would be asked
number of transactions.                                  to manage. The reviewers were asked to
                                                         assess the ministries’ management capacity,
This review was performed to determine                   but they had no answer to the question
whether USAID’s ministerial assessment                   “capacity to manage what?” In our opinion,
process provides reasonable assurance of                 it is difficult—perhaps impossible—to assess a
identifying significant vulnerabilities that             ministry’s ability to responsibly manage
could result in waste or misuse of U.S.                  USAID programs without understanding the
Government resources. The draft scopes of                types of USAID programs the ministry will
work for future assessments can be                       manage and their approximate magnitudes.
strengthened by telling reviewers what
program ministries may be asked to manage,               Additionally, none of the assessments
assessing the control, expanding coverage of             explicitly considered the control
controls over human resources and fixed                  environment in Afghanistan or in individual
assets, and providing more detailed guidance             ministries. The environment in which


                                                   142
ministries are embedded—as well as the                     A range of specific actions can be taken by
environment within individual ministries—                  USAID/Afghanistan so that future
can significantly influence the effectiveness of           assessments will provide greater assurance
control procedures.                                        that ministries will be able to manage USAID
                                                           funds responsibly.


Recommendations—Management Decisions

The audit report made three recommendations:

1.      Develop and implement suitable policies, procedures, and practices so that ministerial
        assessments will provide reasonable assurance of identifying significant vulnerabilities that
        could result in waste or misuse of U.S. government funds.

        The mission indicated that it had prepared a new statement of work for ministerial assessments
        which, along with other tools that the mission is using for these assessments, incorporated all of the
        specific suggestions in our report. The mission has also provided training to responsible staff and has
        established a procedure that requires the Deputy Director of Office of Financial Management or
        his/her designee to approve sampling and testing plans. This recommendation is closed.

2.      Make appropriate modifications to the scopes of work for future ministerial assessments as
        outlined in this report.

        The mission developed a new statement of work and made available additional tools for conducting
        ministerial assessments that incorporate the specific suggestions in our report. This recommendation is
        closed.

3.      Rely on joint donor assessments of host government ministries to the degree that they meet
        USAID’s needs.

        USAID/Afghanistan determined and the OIG/Afghanistan agreed that a management decision had
        been reached to implement the recommendation. USAID/Afghanistan stated that it intends to rely
        on joint donor assessments to the degree that they meet USAID’s needs and undertake additional
        assessment work if necessary. This recommendation is closed.




                                                    143
  Audit of USAID/Afghanistan’s Support to the American University
                  of Afghanistan (5-306-11-002-P)

Date:                             November 5, 2010

Implementing Partner:             The American University of Afghanistan

Audit Period:                     May 5, 2010, to June 1, 2010

Funding:                          As of April 30, 2010, USAID/Afghanistan had obligated
                                  approximately $13 million and expended approximately $11
                                  million.


Background—Summary of Findings

The American University of Afghanistan                 university’s ability to become self-sustaining.
(AUAf) was officially chartered under the              AUAf is behind schedule in reforming its
Afghan Constitution and Civil Code in July             undergraduate program. While the
2004 as a private institution of higher                university has developed additional courses
education.                                             and a bachelor’s degree with concentrations
                                                       in business, information technology, and
The university’s mission is to provide a high-         social sciences, it has not developed the
quality education that meets international             curricula for three individual bachelor’s
standards and emphasizes a liberal arts                degrees, as required under the agreement
curriculum and higher education for the
professions. To assist in the development of           The audit found other problems as well. The
AUAf, USAID/Afghanistan entered into a                 university was not in compliance with
$42 million cooperative agreement with the             agreement terms—as it had not submitted its
university in August 2008.                             required Year 2 budget, Year 2 work plan,
                                                       and performance management plan—and as a
The objective of the audit was to determine            result, the mission was withholding
whether USAID/Afghanistan’s support to                 incremental funding.
the American University of Afghanistan was
achieving its main goals of increasing student         Additionally, the university’s Professional
enrollment; improving the school’s                     Development Institute will not meet its
infrastructure; increasing the number of               financial contribution goal. The university
qualified staff; reforming the undergraduate           may not meet its goal of increasing
curriculum; and enhancing the university’s             enrollment of women to 30 percent. The
ability to become self-sustaining.                     undergraduate preparatory program was not
                                                       preparing students adequately to become
The audit found that the university has                undergraduates.
already achieved its goal of increasing the
number of qualified staff, thus meeting the            University contracting was deficient and did
end-of-program target. However, AUAf has               not consistently document its competitive
not made progress in reforming the                     bidding process. Items funded by USAID
undergraduate curriculum or enhancing the              were not marked as having been provided by



                                                 144
the U.S. taxpayer. Finally, environmental                 of the new campus or in renovations of
procedures were not followed in construction              existing facilities.


Recommendations—Management Decisions


The audit report made 18 recommendations:

1.      Continue to withhold incremental funding until all required documents are submitted by
        the University.

        The mission agreed with this recommendation. A management decision was reached upon issuance of
        the audit report. The referenced memorandum indicates that the AUAf has submitted and the
        mission has approved the required documents. This recommendation is closed.

2.      Work with the university to establish procedures for timely submission of the annual
        budget.

        The terms of the cooperative agreement require AOTR approval of the AUAf budget on an annual
        basis and by October 30 of each year. However, the university’s fiscal year began on July 1 and the
        Board of Trustees reviewed the university’s proposed annual budget prior to July 1. This
        recommendation is closed.

3.      Work with the university to establish procedures for timely submission of the annual work
        plan and performance management plan.

        The mission stated that AUAf planned to submit its draft annual work plan and revised performance
        management plan (if necessary) by March 31, 2011, along with the discussion draft of its annual
        budget. The AUAf cooperative agreement was modified by December 15, 2010, to reflect this new
        budget, work plan, and performance management plan approval process. This recommendation is
        closed.

4.      Determine how excess funds, estimated at $6.4 million, will be put to use within the
        agreement or other mission programs.

        The mission has determined that the excess funds of $6.4 million from Year 1 and 2 will be
        reprogrammed into Years 3–5 to fund activities intended by the award. A management decision was
        reached and this recommendation was closed.

5.      Review whether to approve subcontracts entered into by the university that has not been
        approved by the mission.

        The mission’s Office of Acquisition Assistance, in consultation with the agreement officer’s technical
        representative, will provide consent to subcontract all firm fixed price contracts over $100,000 and
        all cost-reimbursement contracts, which are funded with mission funds. This recommendation is
        closed.




                                                    145
6.    We recommend that USAID/Afghanistan prepare a sustainability plan so that the
      university will not be dependent on mission funding after the end of the program.

      A management decision was reached upon issuance of the audit report. The referenced memorandum
      indicates that AUAf’s Board of Trustees approved a five-year strategic plan in August 2011.
      Sustainability is addressed in the plan which also includes notional budget scenarios for the period
      2011-2016 and scenarios on cessation of USAID/Afghanistan funding by June 2013. The mission
      reviewed the status of the strategic planning process and budget scenarios to assess the impact of
      cessation of the mission's investments in AUAf in 2013 and the reasonableness of other income
      projections. Given the United State Government's overarching commitment to support the concept of
      an U.S.-style university in Afghanistan, it is possible that the mission may deem it strategically
      important to continue support to AUAf beyond 2013. A final determination on any possible USAID
      support to AUAf beyond the current grant period will be made by the mission by December 2011.
      This recommendation is closed.

7.    Work with the university in developing a construction implementation plan for its new
      campus.

      The AUAf administration has determined that USAID funds will not be used for the construction of
      its new facilities. Modification to the agreement to reflect that USAID will not be involved in the
      approval of any further new campus construction activities is expected to be completed by December
      15, 2010. This recommendation is closed.

8.    Work with the university to complete a four-year curriculum for the three undergraduate
      degrees identified in the agreement.

      A management decision was reached upon issuance of the audit report. AUAf conducted an
      extensive review of its undergraduate program offerings and several revisions were made to ensure that
      AUAf's programs aligned with market demand for university graduates in both the public and private
      sectors. As a result, the General Studies degree was phased out. The reformulated degree programs are
      as follows: Bachelor of Arts in Business Administration, Bachelor of Science in Computer Science,
      and Bachelor of Arts in Political Science and Public Administration. Curricula have been developed
      and are included in the AUAf Course Catalog for the academic year 2010-11 and have been
      incorporated into the AUAf budget, work plan, and draft performance management plan. In AUAf's
      Year 3 budget and draft annual work plan, all matters related to adequately funding the three new
      undergraduate programs were addressed. This recommendation is closed.

9.    Require the university to develop a business plan for the Professional Development
      Institute Program.

      A management decision was reached upon issuance of the audit report. The referenced memorandum
      indicates that AUAf has developed and USAID/Afghanistan has reviewed a business plan for the
      Professional Development Institute program. The plan has been incorporated into AUAf’s Year 4
      budget, work plan, and performance management plan. This recommendation is closed.

10.   Modify the agreement to add a business manager position for the Professional
      Development Institute.




                                                  146
      The mission stated that the university is preparing a business plan for the Professional Development
      Institute. Staffing qualification requirements are expected to be addressed in this plan. The mission
      and the university discussed the qualification requirements for senior-level institute staff. This
      recommendation is closed.

11.   Develop an implementation plan for the Professional Development Institute that will
      address deficiencies in program quality.

      A management decision was reached upon issuance of the audit report. The referenced memorandum
      indicates that AUAf has AUAf's draft performance management plan was revised to include learning
      achievement indicators where practical, as well as other quality standards such as attendance
      requirements. AUAf's draft performance management plan was reviewed and commented on by the
      Mission on several occasions to ensure that quality standards for Professional Development Institute
      learners were included. Final Mission approval of the Professional Development Institute
      Implementation Plan as part of the performance management plan was provided on August 25,
      2011. This recommendation is closed.

12.   Require that the action plan developed to increase the proportion of women enrolled at
      the university be incorporated into key program planning documents.

      A management decision was reached upon issuance of the audit report. The referenced memorandum
      indicates that AUAf incorporated its female students recruitment plans into its Year 3 work plan for
      2010-2011 and set targets for the next three years. In addition, AUAf submitted a formal action
      plan for recruitment of female students to the Mission on September 25, 2010, in line with the 2010-
      11 work plans and budget as well as the performance management plan. The Mission recommended
      further analysis and gender-equitable approaches be incorporated into the female enrollment action
      plan. AUAf submitted a revised female enrollment plan in January 2011 that the Mission deemed
      acceptable in February 2011 after further revisions. The Mission recommended that the action plan
      be updated on an annual basis in line with the submission of the annual budget and implementation
      plan. This recommendation is closed.

13.   Develop a plan to improve the university’s undergraduate preparatory program.

      A management decision was reached upon issuance of the audit report. The referenced memorandum
      indicates that AUAf has developed and USAID/Afghanistan has reviewed an implementation plan
      that includes the restructuring of the Foundation Studies Program and that this plan was reflected in
      the annual work plan, budget and performance management plan. This recommendation is closed.

14.   Review the university’s procurement system, as required by the agreement.

      The mission’s Office of Acquisition and Assistance has prepared a plan regarding the steps it will take
      in performing the review of the university’s procurement system. This recommendation remains open.

15.   Review procurement files before approving construction subcontracts in order to verify
      that adequate competition existed during the bidding process.

      The mission has proposed a process by which all subcontractor construction procurements will be
      reviewed and approved by the mission prior to the commencement of work. This plan includes the
      review of any procurements that are funded in whole or part with USAID funds totaling more than


                                                  147
      $100,000 as well as all cost-reimbursement contracts. The review is expected to take place by
      September 30, 2010. This recommendation remains open.

16.   Evaluate the university’s branding and marking plan and make a determination as to the
      acceptability of the plan.

      The mission has evaluated the university’s May 2010 revised branding and marking plan and
      determined that it was unacceptable. The university has provided an additional branding and
      marking plan, which the mission is reviewing. This recommendation was closed.

17.   Establish procedures for the submission of environmental mitigation and monitoring plans
      for new construction.

      The mission has established a process for the submission of Year 3 environmental mitigation and
      monitoring plans for renovation work to be done on existing university structures.

      Additionally, the university understands that after October 1, 2010, no construction or renovation
      projects using USAID funds can begin when the agreement officer’s technical representative approves
      the environmental mitigation and monitoring plan for the project. Previously, AUAf has completed
      six construction and renovations projects without submitting an environmental mitigation and
      monitoring plan as outlined by the agreement. This recommendation is closed.

18.   Obtain a written legal decision from the mission’s regional legal advisor on how to proceed
      for completed and in-process projects for which environmental procedures were not
      followed.

      The mission has obtained a written legal decision from the regional legal advisor on how to proceed for
      completed and in-process projects in which environmental procedures were not followed. This
      recommendation is closed.




                                                  148
        Audit of USAID/Afghanistan’s Partnership for Advancing
         Community-Based Education in Afghanistan (PACE-A)
                          (5-306-11-001-P)
Date:                            October 28, 2010

Implementing Partners:           CARE International (CARE), Catholic Relief Services (CRS),
                                 International Rescue Committee (IRC), and
                                 the Aga Khan Foundation (AKF)

Audit Period:                    April 10, 2006, to March 31, 2010

Funding:                         As of March 31, 2010, USAID had obligated approximately $24.8
                                 million and expended approximately $17.8 million.

Background—Summary of Findings

The Partnership for Advancing Community-               supported. In addition, efforts to integrate
Based Education in Afghanistan (PACE-A) is             the program’s primary classes into the
a 5-year program to expand quality learning            Ministry of Education system were not always
and life opportunities for marginalized                implemented effectively. Through its
communities and their children in                      community-based activities, PACE-A has
Afghanistan. The program’s core objectives             provided educational opportunities to
are: to expand access to community-based               children living in rural villages in different
schools, strengthen community structures               regions of Afghanistan.
and processes that support basic education,
and improve the quality of community-based             According to PACE-A’s progress report for
education. Under this agreement, the                   the quarter ending March 31, 2010, program
program’s activities were expected to directly         activities to date had resulted in the
benefit a total of 93,240 students─of whom             establishment of 3,695 classes attended by
at least 60 percent were to be girls or                98,212 students―the majority of whom were
women─in over 1,000 communities in 90                  girls―in a total of 1,672 communities
districts and 20 provinces.                            located in 97 districts and 19 provinces,
                                                       meeting or exceeding at least some of the
Although the majority of these activities              program’s targets. The program has also
involve primary education classes covering             made progress in facilitating the integration
grades 1 through 6, the program also offers            of many of its classes into the Ministry of
other types of classes, including early                Education system, with 51 percent of the
childhood development and adult literacy,              program’s primary classes integrated into the
for learners younger or older than primary             school system to date.
school age (7 to 12 years old).
                                                       PACE-A has not been fully achieving all of its
The audit determined that the program was              core objectives, however. One area in which
partially achieving its goals but was not              program efforts have fallen short has been
offering its teachers the basic training to            teacher training, which is the primary means
ensure that their students received a quality          of ensuring that PACE-A supported students
education. Results data reported on this and           receive a quality education.
other program areas also were not adequately



                                                 149
An examination of the records for four tested            to teacher training and other activities were
provinces also disclosed that data reported              not adequately supported, partly because of
under several performance measures relating              recordkeeping deficiencies.


Recommendations—Management Decisions

The audit report made four recommendations:

1.      That USAID/Afghanistan direct CARE International to (1) develop clear standards on
        teacher training, to be followed by all four partners, which define the requisite training
        workshops that each teacher must receive to be considered fully prepared to teach his or
        her students; and (2) develop and implement a plan to ensure that all supported teachers
        receive the requisite training in its entirety.

        USAID/Afghanistan determined and OIG agreed that a management decision had been reached
        upon the issuance of the audit report. Reference (b) indicates that USAID/Afghanistan directed
        CARE International to develop a standard teacher training package based on the needs of
        community-based education teachers. The mission indicated that CARE has taken the appropriate
        actions to fully implement the recommendation. This recommendation is closed.

2.      That USAID/Afghanistan direct CARE International to carry out the data quality
        assurance procedures specified in its performance monitoring plan, which include random
        field visits at least quarterly to verify the quality of the data furnished by field staff and
        reported to USAID.

        On July 28, 2010, CARE agreed to conduct data quality assurance procedures regularly as specified
        in its performance monitoring plan. This includes the conduct of spot checks on a quarterly basis to
        verify the quality of the data reported against source documentation at field offices. This
        recommendation is closed.

3.      That USAID/Afghanistan conduct a data quality assessment in accordance with USAID’s
        Automated Directives System to provide assurance on the quality and reliability of the
        program’s reported results data.

        USAID/Afghanistan’s AOTR organized and participate on a team that performed a Data Quality
        Assessment (DQA). The DQA was carried out using USAID’s standard DQA checklist contained
        ADS 203.3.5 adapted to the PACE-A information system. After the DAQ was performed, the team
        visited the CARE office to verify that data was correctly entered into the database from the paper-
        based reports. The DQA team determined that all five standards (validity, reliability, accuracy,
        completeness, and integrity) were put in place and were operational at the various organizational
        levels of the PACE-A project, producing good quality data. This recommendation is closed.

4.      That USAID/Afghanistan direct CARE International to (1) develop a formal class
        integration strategy and a process that allows for the effective integration of the program’s
        primary education classes into the Ministry of Education’s school system and provide a
        viable alternative that allows children to continue their learning without having to travel
        long distances; and (2) implement this integration strategy for all new and, if possible,
        formerly integrated classes by the program’s completion date.


                                                   150
The mission directed CARE International to develop a formal integration strategy and a process that
allows for integrating community-based education classes into the Ministry of Education’s primary
school system. This recommendation is closed.




                                          151
152
             Afghanistan Performance Audits
                                  Fiscal Year 2010
[START]   Review of Security Costs Charged to USAID Projects in
                     Afghanistan (No. 5-306-10-002-S)

Date:                            September 29, 2010

Implementing Partner:            Development Alternatives, Inc.

Review Period:                   March through May 13, 2010

Funding:                         $11.3 million

Background—Summary of Findings

USAID/Afghanistan relies on private security           Other news reports said that PSCs were
contractors (PSCs) to supply an array of               involved in the negotiations with insurgents.
security services for contractors and grantees         (OIG) staff met with one of the reporters
that implement USAID-funded projects in                involved to obtain additional details.
Afghanistan. PSCs free up military forces for
their core missions and provide protection to          OIG conducted a review of Edinburgh
USAID’s implementing partners in hostile               International’s security costs charged to the
environments. USAID/Afghanistan’s                      following three USAID-funded projects in
practice has been to delegate responsibility           Afghanistan implemented by Development
and oversight for security to its implementing         Alternatives, Inc. (DAI):
partners and factor the cost of security into
their program budgets. These implementing                  •   Afghanistan Small and Medium
partners typically subcontract their security                  Enterprises Development
services to PSCs. USAID indirectly pays for                •   Incentives Driving Economic
PSCs when the implementing partners submit                     Alternatives for the North, East, and
their invoices, which include the cost of                      West
security services, for payment.                            •   Local Governance and Community
                                                               Development (LGCD)
In the past year, news reports have said that
U.S. Government funds paid to contractors              The review found no indication that
for reconstruction projects were being                 Edinburgh International had misused USAID
siphoned off to Taliban insurgents in                  funds to pay the Taliban or others in
exchange for “protection” to prevent attacks.          exchange for protection. However, there were
For example, one news article reported that            indications that Afghan subcontractors
USAID funds were ending up in the hands of             working on the LGCD project had paid
the Taliban through a protection racket for            insurgents for protection in remote and
contractors. Another article said that in              insecure areas of Afghanistan. The payments
southern Afghanistan, no contract can be               were allegedly made as part of a security
implemented without the Taliban taking a               arrangement with local communities that very
cut, sometimes at various steps along the way.         likely included the Taliban or groups that


                                                 153
support them. OIG also found indications of                  General for Afghanistan Reconstruction and
pervasive fraud in DAI’s LGCD office in                      the Federal Bureau of Investigation, as well as
Jalalabad and indications of endemic                         the local Afghanistan prosecutor’s office and
corruption in Nangarhar Province, where                      the Afghanistan Major Crimes Task Force. In
Jalalabad is located. It is conducting an                    June 2010, DAI terminated ten LGCD
investigation with members of the                            employees who were involved in the fraud
International Contract Corruption Task                       scheme.
Force, including the Special Inspector

Recommendations—Management Decisions

The review report made four recommendations to help USAID/Afghanistan reduce the likelihood
that subcontractors will misuse USAID funds to pay off Taliban insurgents or other criminal
elements and to mitigate the risk of fraud within its LGCD project.

1. That USAID/Afghanistan conduct appropriate risk and impact assessments of current and
   proposed locations that are targeted for Local Governance and Community Development
   subprojects to determine whether the security environment in those locations is permissive
   enough to allow civilian implementation and monitoring efforts to proceed without interference
   from insurgent groups.

   The mission stated that we had reported indications of pervasive fraud in DAI’s LGCD Jalalabad office, as
   provided by interviewed sources, but did not list supporting documentation for the alleged fraud. Nonetheless,
   the mission indicated that the contracting officer has directed DAI to conduct an internal audit of all offices
   under the LGCD Project.

   It is OIG policy not to provide information in its published reports that would compromise investigations of
   suspected fraud. Instead, this information is provided to OIG/Investigations for further investigation. As
   indicated in the draft report, we referred the specific indications of pervasive fraud in LGCD’s Jalalabad
   office to OIG/Investigations, which expanded an ongoing investigation of the LGCD fraud and worked with
   members of the International Contract Corruption Task Force, including the Special Inspector General for
   Afghanistan Reconstruction and the Federal Bureau of Investigation, as well as the local Afghanistan
   Prosecutor's Office and the Afghanistan Major Crimes Task Force. In June 2010, DAI terminated ten
   LGCD employees who allegedly had been involved in the fraud scheme. Because USAID/Afghanistan has
   directed DAI to conduct an internal audit of the offices implementing the LGCD project, final action has
   been taken. This recommendation is closed.

2. That USAID/Afghanistan direct Development Alternatives, Inc., to conduct an internal audit of
   all offices under the Local Governance and Community Development Project to evaluate
   internal controls and take appropriate corrective actions on any material weaknesses identified
   and fraud uncovered. A copy of the report is to be provided to the USAID/Afghanistan
   Controller and the OIG.

    The Contracting Officer directed DAI to conduct an internal audit of all offices under the LGCD Project
    to evaluate internal controls and take appropriate corrective actions on material weaknesses identified and
    fraud uncovered. DAI is in daily contact with the RIG Office at the USAID Mission in Kabul on alleged
    improprieties and information is passed rapidly – currently between 24-72 hours of notification between
    both USAID activity managers and DAI directly to the OIG. USAID expatriate and national staff have
    reinforced their efforts to report alleged cases of improprieties reported either by local communities, or from

                                                      154
     GIRoA directly to the COTR for immediate investigation. The COTR has sent guidance to all activity
     managers to meet with their local DAI implementers at least on a weekly basis. The COTR and Alternate
     COTR are immediately moving information received either from USAID/LGCD activity managers, and
     DAI to the OIG for review and preliminary guidance. This recommendation is closed.

3. That USAID/Afghanistan direct Development Alternatives, Inc., to implement policies and
   procedures to perform adequate cost analysis of fair market prices and to detect and prevent
   inflated costs and possible fraudulent activity as part of its subcontracting process for the Local
   Governance and Community Development Project.

    USAID’s contracting officer directed DAI to review its existing procurement policies and procedures, modify
    them accordingly, and implement them to ensure that it performs adequate cost analysis of fair market prices
    and to detect and prevent inflated costs and possible fraudulent activity as part of its subcontracting process
    for the LGCD Project. This recommendation is closed.

4. That USAID/Afghanistan develop an action plan to maintain a sufficient level of oversight of
   subcontracting and purchasing systems by Development Alternatives, Inc., for the Local
   Governance and Community Development Project.

    USAID requested that DAI conduct a contractor purchasing system review, to establish a baseline for DAI’s
    proficiency in performing its responsibilities in subcontracting in accordance with FAR 44.3. The review
    provides a baseline assessment of DAI’s capacity and documents weaknesses for further action by the
    contracting officer or his or her field support team. USAID also reported that it plans to conduct periodic
    surveys of DAI’s purchasing system. This recommendation is closed.




                                                      155
  Audit of USAID/Afghanistan's Alternative Development Program
             Expansion–South West (5-306-10-011-P)
Date:                             July 29, 2010

Implementing Partner:             Associates in Rural Development, Inc.

Audit Period:                     March 5, 2008, to December 31, 2009

Funding:                          As of December 31, 2009, USAID/Afghanistan had obligated
                                  $30 million and disbursed $25 million for program activities

Background—Summary of Findings

The production and trafficking of illicit                districts within each province. The
narcotics in Afghanistan breeds corruption               implementer put in place 45 cash-for-work
and provides resources to the Taliban, drug              projects that included road, canal, and market
lords, and other terrorist groups. The U.S.              rehabilitations. One project provided
Government has supported the Afghan                      employment to 220 workers, while another
Government’s counternarcotics strategy of                project targeted 30 disadvantaged women,
providing incentives to stop growing opium               mainly widows. The program also assisted
poppy through alternative development                    local farmers with sales of produce totaling
projects, supporting strong disincentives in             nearly $3.8 million. Further, it helped the
the form of provincial governor–led                      Farah Farmer’s Union, a cooperative of 8,700
eradication, interdiction, and law                       growers, identify business opportunities and
enforcement, and spreading the antinarcotics             develop the Farah Agricultural Center, which
message.                                                 will provide an all-inclusive hub for market
                                                         expansion and business development.
USAID is implementing a 3-year, $75 million
program (through Associates in Rural                     Despite the program’s progress, issues need to
Development) to counter illicit poppy                    be addressed. First, continued reductions in
cultivation by providing alternative                     poppy cultivation may not be sustainable
development programs, improved economic                  because no follow-on alternative development
opportunities, and diverse regional economic             program has been approved beyond March
growth.                                                  2011, and a critical southern province is not
                                                         included in the current program. Second, the
The program has made progress. A                         program has experienced delays in
32 percent decrease in poppy production                  implementation, partly because of security
between 2008 and 2009 has been attributed                issues. Also, a new embassy-led annual
to strong antipoppy messages from provincial             program review process, the restructuring of
governors, increased interdiction activities, an         the regional commands, and the mission’s
overproduction of poppy in prior years that              plan to implement regional platforms present
suppressed market prices, and provision of               future challenges that could hamper program
alternative economic opportunities in targeted           implementation if not properly managed.




                                                   156
Recommendations—Management Decisions

The audit report made three recommendations:

1. That USAID/Afghanistan develop an implementation plan for follow-on activities to cover
   critical southern and western provinces.

    In January 2010, the Office of Agriculture began developing follow-on agriculture programs to deliver
    alternative development activities in the southern and western provinces. This recommendation is closed.

2. That USAID/Afghanistan officially designate a specific position within each technical office to
   handle the preparation and coordination of embassy program approval requests.

    USAID took three steps to further improve the project review process. First, it designated one officer in the
    Office of Program and Project Development (OPPD) to be responsible for preparing and coordinating all
    project reviews. Second, the OPPD officer in charge of the project review process was made responsible for
    directly coordinating upcoming reviews with the technical office director, who is accountable for ensuring
    that the office’s relevant contracting officer’s or agreement officer’s technical representative completes the
    review sheet promptly. Third, in June 2010, the designated officer in OPPD conducted an extensive
    inventory of all mission programs to determine which programs are due for a 1-year review and, on the basis
    of this inventory, established a specific schedule for upcoming reviews. This recommendation is closed.

3. That USAID/Afghanistan require an activity manager designation letter for all activity managers,
   outlining responsibilities and relevant mission orders related to making unauthorized
   commitments and funds control violations.

    On September 22, 2010, USAID/Afghanistan issued a Mission Order that outlined the roles and
    responsibilities of activity managers in USAID/Afghanistan’s project monitoring and included a sample
    activity manager designation letter. This recommendation is closed.




                                                      157
                                                               



   Review of School and Health Clinic Buildings Completed Under
  the Schools and Clinics Construction and Refurbishment Program
                        (No. 5-306-10-002-O)


Date:                                             June 24, 2010

Implementing Partner:                             KPMG Afghanistan

Audit Period:                                     2002 to 2009

Funding:                                          Disbursements under the program amounted to more
                                                  than $105 million

Background—Summary of Findings

In September 2002, USAID/Afghanistan                              used for their intended purposes and (2) to
began to build and reconstruct schools and                        measure the impact of the program on the
health clinics throughout Afghanistan under                       provision of education and health services to
the Schools and Clinics Construction and                          the people of Afghanistan.
Refurbishment Program. During the
following 4 years, the mission increased the                      KPMG visited and inspected 50 buildings to
number of structures subject to the program                       verify their physical existence and observe how
from fewer than 100 to 776. Similarly, the                        they were being used. Overall, KPMG found
number of implementing partners grew to                           that 48 of the 50 facilities were being used for
more than a half dozen, and disbursements                         their intended purposes. The two exceptions
under the program amounted to more than                           were due to security concerns in the
$105 million.                                                     surrounding area and one building’s inability
                                                                  to accommodate area students.
In October 2004, the OIG audited the school
and health clinic reconstruction activities.1                     KPMG noted numerous physical deficiencies
The audit found that the program was behind                       in the condition of the school and health
schedule, and it recommended that the                             clinic buildings. These deficiencies included
mission develop a new implementation plan.                        structural problems, poor hardware, lack of
                                                                  electrical supply (because buildings were
RIG/Manila contracted with KPMG                                   located in areas where electrical service is
Afghanistan—whose staff could travel more                         unavailable), deficient water service and
easily within Afghanistan—to conduct site                         plumbing (or none), and toilet problems.
visits for this review. OIG provided KPMG a                       However, KPMG could not determine
statistical sample of 50 buildings—30 schools                     whether the deficiencies were attributable to
and 20 clinics—from the 776 schools and                           work performed under the program or to a
clinics completed across Afghanistan under                        subsequent lack of maintenance.
the program. The review had two objectives:
(1) to determine whether schools and clinics                      KPMG noted that the deficiencies created an
constructed under the program were being                          environment that was not conducive to
                                                                  quality education and health services and
1
   “Audit of USAID/Afghanistan’s School and Clinic                might expose the students, patients, and staff
Reconstruction Program,” Audit Report No. 5-306-05-003-P,         working in those buildings to unhealthy and
issued March 14, 2005.


                                                            158
even dangerous conditions. In addition, the                   documentation maintained at each location.
report noted operational problems in the                      KPMG found that the 30 schools visited were
schools and clinics. These problems included                  staffed with 1,385 teachers providing
poor maintenance, inadequate personnel, and                   instruction to 57,744 students. The 20 health
lack of furniture and equipment. These                        clinics visited employed 109 clinical staff and
conditions, however, were the responsibility                  provided medical treatment to approximately
of the Government of Afghanistan.                             39,500 patients a month. KPMG concluded,
                                                              however, that these figures do not provide a
To measure the impact of the program on                       meaningful indication of the completed
providing educational and health services to                  buildings’ impact on the provision of
the people of Afghanistan, KPMG scheduled                     education and health services in Afghanistan
its field visits when the schools and clinics                 because baseline information was not
would be in use and reviewed records and                      available for comparison.

Recommendations—Management Decisions
The report made two recommendations:

1.    That USAID/Afghanistan consider requesting from the Ministry of Education and the
      Ministry of Health a list of schools and clinic buildings completed under the Schools and
      Clinics Construction and Refurbishment Program that are not being used for intended
      purposes and make a determination in coordination with these ministries whether adjustments
      in the use of these facilities can or should be made.

      Ninety-six percent (48 of 50) of the buildings inspected under the OIG’s review were found to be used for
      the original intended purpose. These results are consistent with the results of post occupancy evaluations
      conducted by International Relief and Development at the mission’s request in 2007. These evaluations
      determined that most of the buildings sampled were being used for their original intent. This
      recommendation is closed.

2.    That USAID/Afghanistan evaluate the physical and construction deficiencies identified in
      annexures C and D of the KPMG report and develop an action plan to correct those
      deficiencies.
      The mission agreed that deficiencies that are the result of defects in construction, and in particular those
      defects that could impact life or safety, need to be corrected. The mission is inspecting all buildings funded
      and constructed under the program between 2002 and 2009 for seismic structural safety. As the
      inspection of each building is completed, an action plan will be developed for remedial reconstruction for
      earthquake safety. This recommendation is closed.




                                                       159
    Audit of USAID/Afghanistan’s Oversight of Private Security
                   Contractors in Afghanistan
                       (5-306-10-009-P)
Date:                            May 21, 2010
Implementing Partner:            Not applicable
Audit Period:                    October 1, 2006, through June 30, 2009
Funding:                         $167 million for subcontracted private security services

Background—Summary of Findings

USAID program implementers rely on private              statutory requirements been issued. The
security contractors (PSCs) to protect their            mission-wide instructions would have also
operations in hostile environments. However,            incorporated statutorily-mandated procedures
the murder of 4 PSCs in Iraq in 2004 and the            to ensure PSCs in Afghanistan are qualified
killing of 17 Iraqi civilians by PSCs in 2007           and responsible. The report found such
raised concerns about failures to supervise             procedures were not in place.
PSCs adequately and to properly investigate
alleged killings by security contractors. In            USAID/Afghanistan has provided only
January 2008, Congress enacted detailed                 limited oversight and direction relative to
oversight requirements for PSCs in combat               standards and requirements for security and
operation areas, to be implemented by                   cannot ensure that responsible security firms
Department of Defense (DOD) regulation                  are employed. The audit found that two PSCs
and the Federal Acquisition Regulation.                 were not licensed with the Afghan
                                                        Government and that USAID/Afghanistan
OIG examined the reporting of serious                   did not provide subcontracting consent for 17
security incidents, whether USAID                       private security firms or include in its
implementing partners had subcontracted                 contracts a clause to require various security
with responsible firms, the costs of these              measures. Moreover, USAID/Afghanistan
services, and the oversight of those costs. We          has no standard grant award provision related
found that detailed statutory oversight                 to security, so about one-third of its awards
requirements intended to cover both non-                with subcontracted PSCs have no standard
DOD and DOD PSCs in Afghanistan had not                 security requirements. With respect to
been implemented by USAID because the                   security costs, prime implementing partners
Chief of Mission had not issued mission-wide            reported that they had charged about
instructions in accordance with DOD                     $167 million for subcontracted PSC services
implementing regulation. As a result, USAID             during the review period. On average, these
PSCs did not report certain serious security            services accounted for 8.3 percent of award
incidents (e.g., persons killed or injured as a         disbursements. The audit found no specific
result of PSC conduct) that they otherwise              requirements applicable to this category of
would have been required to report had                  costs and few requirements relative to the
mission-wide instructions implementing the              audit of subcontractor costs.




                                                  160
Recommendations—Management Decisions

OIG made eight recommendations:

1.   That, in the absence of mission-wide instructions, USAID/Afghanistan’s Director of
     Acquisition and Assistance include a clause or provision in all acquisition and assistance
     agreements to require the implementing partner to report information on casualties as well as
     serious incidents.

     USAID/Afghanistan’s Office of Acquisition and Assistance is coordinating additional reporting
     requirements with USAID/Washington’s Management Bureau's Office of Acquisition and Assistance.
     The additional standard provisions or clauses in agreements are subject to the Paperwork Reduction Act
     and require approval by the Office of Management & Budget. Upon approval of the standard provisions
     or clauses, USAID will modify the acquisition and assistance agreements accordingly. This
     recommendation is closed.

2.   That, in the absence of mission-wide instructions, USAID/Afghanistan devise and implement
     a formal process, consistent with standards specified in 39 CFR 159.6, for its employees to
     forward reports of serious incidents and casualties to a designated office that will collect and
     coordinate the reports.

     In July 2009, the mission established an in-house Office of Safety and Security to, among other duties,
     coordinate the reporting of serious incidents and casualties. Serious incident reporting has increased, as has
     general cooperation on security issues with the implementing partners. The mission will formalize the
     process through a mission order for employees to forward reports of serious incidents and casualties to the
     designated office. This recommendation is closed.

3.   That USAID/Afghanistan’s Director of Acquisition and Assistance provide written
     notification to the implementing partners responsible for the two awards directing them to use
     only private security contractors licensed by the Government of the Islamic Republic of
     Afghanistan.

     USAID/Afghanistan indicated that one of the awards has since ended. The Contracting Officer for the
     other award has provided written instructions to the Implementing Partners and Contracting Officers
     Technical Representatives, directing them to use only licensed private security companies that are legally
     registered with the Government of the Islamic Republic of Afghanistan. This recommendation is closed.

4.   That USAID/Afghanistan’s Director of Acquisition and Assistance require that the
     implementing partners—to which the 17 private security companies (identified in the audit
     report) have been subcontracted—provide what would customarily be advance notification to
     USAID/Afghanistan so that consent to subcontract may be considered and granted or refused.

     USAID/Afghanistan indicated that one of the awards has since ended. The Contracting Officer for the
     other award has provided written instructions to the implementing partners and COTRs, directing them
     to use only licensed private security companies that are legally registered with GIRoA. On April 25,
     2010, the Supervisory Contracting Officer, Afghanistan sent a written notice to the implementing
     partners stating that they are required to provide the customary advance notification to



                                                      161
     USAID/Afghanistan, so that the cognizant contracting officer can provide consent to subcontract. This
     recommendation is closed.

5.   That USAID/Afghanistan’s Director of Acquisition and Assistance issue written guidance to
     existing implementing partners and the office’s contracting officers, reminding them of the
     requirements of Federal Acquisition Regulation Part 44.2.

     On April 25, 2010, USAID/Afghanistan’s Director of the Office of Acquisition and Assistance issued
     written guidance to the existing implementing partners and the office’s contracting officers reminding them
     of Federal Acquisition Regulation Part 44.2 requirements. This recommendation is closed.

6.   That USAID/Afghanistan’s contracting officer add Federal Acquisition Regulation Clause
     52.225-19, “Contractor Personnel in a Designated Operational Area or Supporting a
     Diplomatic or Consular Mission Outside the United States,” to all its existing acquisition
     awards and issue guidance to include the clause in future awards.

     USAID/Afghanistan’s Office of Acquisition and Assistance reported that it would review its active
     acquisition awards and ensure that the required clause is included in the awards. Additionally, the
     mission indicated that the Office of Acquisition and Assistance Director will issue guidance to the
     contracting officers, directing them to include the clause in all future awards. This recommendation is
     closed.

7.   That USAID/Afghanistan’s contracting officer request in writing that the Chief of Mission
     issue mission-wide instructions for non-DOD PSCs and their personnel, as required by Interim
     Final Rule 32 CFR 159.4(c), to either (1) implement standards set forth by the geographic
     combatant commander or (2) instruct non-DOD PSCs and their personnel to follow the
     guidance and procedures developed by the geographic combatant commander or subordinate
     commander.

     The Chief of Mission is aware of this issue and guidance on the use of PSCs has been prepared by the
     U.S. Embassy/Kabul Regional Security Office. The guidance has been reviewed by the Department of
     State Legal Office in Washington, DC. The USAID/Afghanistan mission director wrote to the
     Ambassador to communicate the findings of this audit report. This recommendation is closed.

8.   That, in the absence of mission-wide instructions, USAID/Afghanistan’s contracting officer
     request in writing that the Office of Acquisition and Assistance provide acquisition and
     assistance award language to regulate subcontracted private security services.

     USAID/Afghanistan’s Office of Acquisition and Assistance is coordinating additional reporting
     requirements with USAID/Washington’s Management Bureau’s Office of Acquisition and Assistance.
     The additional standard provisions or clauses in agreements are subject to the Paperwork Reduction Act
     and require approval by the Office of Management and Budget. Upon approval of the standard
     provisions or clauses, USAID will modify the acquisition and assistance agreements accordingly. This
     recommendation is closed.




                                                    162
Audit of USAID/Afghanistan's Afghanistan Vouchers for Increased
           Productive Agriculture (AVIPA) Program
                     (No. 5-306-10-008-P)

Date:                               April 20, 2010
Implementing Partner:               International Relief and Development
Audit Period:                       September 2008 to December 2009
Funding:                            As of December 31, 2009, cumulative obligations under the
                                    program totaled approximately $185.2 million, and
                                    expenditures were about $93.4 million.

Background—Summary of Findings

The AVIPA Program was initially designed to                 The audit identified several other problems:
provide wheat seed and fertilizer to drought-               In addition to the lack of reliable data to
affected subsistence farmers to help them                   measure program results, the program
increase wheat production in targeted areas of              suffered from insufficient oversight. The
the country.                                                implementer could not retain staff, in part
                                                            because of death threats, and project staff
The audit found that the program had                        members were overburdened by requests for
contributed to the country’s increase in wheat              information and briefings from officials
production; however, the extent of the                      outside of USAID. In some cases, materials
program’s role in this increase was unclear,                did not reach beneficiaries (a finding that has
since the audit determined that some of the                 been referred to OIG’s Office of
reported results were not reliable.           In            Investigations). Moreover, the audit noted
addition, the program’s stabilization activities            that up to $50 million in unspent program
in the country’s southern region were not                   funds could be reprogrammed for other
being implemented as widely as originally                   activities.
planned.

Recommendations—Management Decisions

OIG made three recommendations:

1.    That USAID/Afghanistan require its implementer to establish appropriate procedures and
      controls to strengthen its monitoring of AVIPA program activities to ensure that intended
      beneficiaries receive program inputs and irregularities, such as those identified by this audit,
      are detected and addressed in a timely manner.

      USAID/Afghanistan confirmed that the implementer had established a “most robust” monitoring system
      to more effectively monitor program activities which included: 1) an independent Quality
      Assurance/Quality Control (QA/QC) team which samples selected activities for testing; 2)
      programmatic QA/QC teams that are dedicated to a specific program component (e.g., cash for work)
      and responsible for monitoring and ensuring that prescribed procedures are adhered to; and 3) a telephone
      “hotline” that allows the general public to express any concerns they may have regarding AVIPA activities.
      This recommendation is closed.


                                                     163
2.   That USAID/Afghanistan require its implementer to reassess the impact of its 2008–2009
     wheat seed distributions using a justifiable methodology and report the results to the mission
     along with supporting calculations that clearly show the basis for the assessed impact.

     A management decision was reached. USAID/Afghanistan discussed the concerns regarding the
     assessment and the methodology with International Research and Development (IRD), and required them
     to undertake a new assessment of the 2008-2009 wheat seed distribution. On August 21, 2010, IRD
     presented the mission with a report entitled "Note on the Effects of the AVIPA Plus Voucher Distribution
     Program on Wheat Yields in Northern Afghanistan". According to this document, IRD reviewed and
     adjusted data sets in order to capture the effects of the voucher packages. This recommendation is closed.

3.   That USAID/Afghanistan determine the amount of projected surplus funds under the
     program and reprogram these funds to make them available for other activities under this or
     other programs.

     A management decision was reached. USAID/Afghanistan determined the amount of unexpended funds
     projected to be available in June 2010 to be $131 million. The projected surplus funds were
     reprogrammed through a no-cost extension to AVIPA for the period September 1, 2010 through
     March 31, 2011. This recommendation is closed.




                                                    164
            Audit of USAID/Afghanistan’s Human Resources and
                        Logistical Support Program
                           (No. 5-306-10-007-P)

Date:                             March 31, 2010
Implementing Partner:             International Relief and Development, Inc.
Audit Period:                     March 1, 2006, to October 29, 2009
Funding:                          As of September 30, 2009, $47 million had been obligated,
                                  and $36 million had been spent for project activities

Background—Summary of Findings

USAID/Afghanistan launched its Human                     efficient means of managing and maintaining
Resources and Logistical Support Program in              roads in the future. At the Ministry of Energy
February 2007 to help design, monitor, and               and Water, the program contractor provided a
support the activities of USAID-funded                   transboundary water-rights adviser to help the
contractors.    The program intended to                  ministry develop water policies for
(1) enhance capacity at selected ministries, (2)         negotiations with neighbors in other
identify USAID-constructed buildings that do             countries.
not meet seismic standards, and (3) provide
quality assurance and engineering oversight              With regard to the second goal—evaluating
for mission construction projects. USAID                 and identifying USAID-built structures that
awarded a 5-year, $72 million contract to                did not meet seismic standards—the program
International Relief and Development, Inc.,              was successful in establishing a process for
to implement the program.                                identifying structures that are not earthquake
                                                         resistant. The mission had a database of
The audit found that the program had made                1,474 USAID-built structures, but the
progress in capacity building within selected            database was not complete. As of October
Afghan ministries, identified defective                  2009, the program had completed preliminary
USAID-built structures, and provided                     assessments of 468 of these structures and
engineering     oversight     for    mission             detailed structural seismic evaluations of 35.
construction projects.                                   At that point, the program had found 15
                                                         structures to be unsafe for occupancy.
In support of its first goal, the program
provided the Afghan Government with                      With regard to the third goal, of providing
additional capacity. Technical consultants               quality assurance and engineering oversight
hired under the program assisted Ministry of             on USAID construction projects, the program
Mines personnel in preparing a proposal for              had succeeded in providing these services for
the rehabilitation of gas fields to generate             projects initiated by the mission’s Office of
electrical power for the country. Meanwhile,             Infrastructure, Engineering and Energy.
at the Ministry of Public Works, program                 However, the mission had not been so
advisers initiated the development of a pilot            successful in providing quality-assurance
program to teach ministry staff how to                   services for construction projects initiated by
implement and monitor road construction                  other program offices within the mission.
projects and provide them with a more


                                                   165
Despite the program’s progress in addressing               contract. In addition, significant defects in
its three main goals, it has serious issues that           five buildings reported in a prior Office of
need to be addressed. The most critical issue              Inspector General audit report (“Audit of
is to identify the many defective structures               USAID/Afghanistan’s Accelerating
that likely remain among the estimated 1,474               Sustainable Agriculture Program,” Audit
mission-built structures. The total number of              Report No. 5-306-08-009-P, August 8, 2008)
defective structures will be determined when               have yet to be corrected.
the remainder of the preliminary assessments
and any subsequent detailed seismic                         If all defective structures are not identified,
evaluations are completed. The mission                     and if those already identified are not repaired
anticipates that the contractor will complete              or rebuilt, a catastrophic earthquake could
200 seismic evaluations by the end of the                  cause many injuries and deaths.

Recommendations—Management Decisions

This report makes 12 recommendations to improve mission implementation of its construction
programs:

1.    That USAID/Afghanistan establish a separate reconstruction program that will provide
      prompt implementation of reconstruction action plans for defective structures and ensure
      that all defective USAID-built structures are reconstructed.

      The mission will implement the required changes using an alternative implementation strategy than
      that proposed in the recommendation. Rather than establishing a separate reconstruction program,
      the mission will use existing contracting mechanisms. A structural engineer will manage the
      assessment of buildings while a new construction manager will supervise the reconstruction of
      defective buildings. This recommendation is closed.

2.    That USAID/Afghanistan take immediate action to secure and vacate the two currently
      occupied defective buildings constructed under the Accelerating Sustainable Agriculture
      Program.

       USAID/Afghanistan determined and the RIG/Manila agreed that a management decision had been
       reached. In May 2010, USAID/Afghanistan completely demolished the Agricultural Network
       (AgNet) building in Parwan Province. The demolition was monitored and documented by the
       International Relief and Development, the contractor for the Human Resource and Logistical Support
       Program. However, USAID/Afghanistan stated that the AgNet building in Kunduz Province has not
       been demolished because it is occupied by a unit of Afghanistan's National Police), which commenced
       occupancy without the knowledge or consent of the Ministry of Agriculture, Irrigation and Livestock
       (MAIL), USAID, or Chemonics. According to the USAID/Afghanistan, all attempts to have ANP
       vacate the building have been unsuccessful and as result, MAIL and the (MOl), which has authority
       over ANP, jointly executed a full waiver of liability releasing USAID and Chemonics from any
       current or future liability for the Kunduz AgNet Building. Therefore, this recommendation is closed.

3.    That USAID/Afghanistan complete an implementation plan for the demolition and
      retrofitting of the five buildings constructed under the Accelerating Sustainable
      Agriculture Program either by compelling Chemonics to perform or by using a third party.
      If a third party is used, the implementation plan should include requirements to reduce


                                                     166
     Chemonics’ future billings in accordance with Federal Acquisition Regulation 52.246–5(e)
     for the cost of demolishing or retrofitting the structures.

     USAID/Afghanistan completed an implementation plan for the demolition and reconstruction of the
     five AgNet buildings. All demolition work was being conducted by Chemonics. To carry out the
     demolition, Chemonics awarded four subcontracts to local firms, and processing a subcontract for the
     demolition of the fifth building. According to the schedule submitted, demolition of all five buildings
     will be completed by the third week of May 2010. In accordance with the implementation plan,
     Chemonics submitted two documents that comprise the demolition plan. Thus, this recommendation
     is closed.

4.   That USAID/Afghanistan revise and reissue the November 2008 Office of Acquisition
     and Assistance notice on quality assurance to include requirements for quality assurance of
     construction performed under subcontracts and subagreements.

     On December 7, 2009, USAID issued a notice to revise previous guidelines pertaining to
     construction requirements in subcontracts and subagreements. This recommendation is closed.

5.   That USAID/Afghanistan revise its contracting officer’s technical representative (COTR)
     designation letter to communicate the need to comply with construction oversight and
     quality-assurance requirements.

     USAID/Afghanistan’s Office of Acquisition and Assistance issued an internal notice on December
     30, 2010. The notice includes requirements that any award containing a construction and/or
     Architecture and Engineering component as defined by Mission Order No. 302-03 must include the
     requirements for construction monitoring and quality assurance services. Therefore, this
     recommendation is closed.

6.   That USAID/Afghanistan develop written procedures covering the types of roads that
     require mandatory engineering oversight and quality assurance.

     USAID/Afghanistan has drafted procedures for providing the appropriate engineering oversight and
     quality-assurance services to specific types of roads. This recommendation is closed.

7.   That USAID/Afghanistan take appropriate action during each portfolio review to require
     that all in-process and completed construction projects during the review cycle are
     documented and shared with the Office of Infrastructure, Engineering and Energy as a
     means for it to ensure the existing database of constructions projects is complete and
     provide engineering quality-assurance oversight for those projects lacking it.

     USAID/Afghanistan determined that using portfolio reviews as a vehicle would not adequately
     address the underlying problem that led to the recommendation. Accordingly, USAID/Afghanistan
     instituted a more systemic and comprehensive approach and modified project and activity approval
     and review to require Office of Infrastructure, Energy, and Engineering review and clear on activity
     planning documents that include construction or infrastructure development components. With this
     systemic and comprehensive approach, USAID/Afghanistan believes that quality assurance and
     quality control, and data management for the Mission infrastructure projects will vastly improve,
     helping to ensure the protection and sustainment of the U.S. Government investments in


                                                    167
      infrastructure and the safety of Afghans who utilize structures funded by USAID. This
      recommendation is closed.

8.    That USAID/Afghanistan establish procedures to grant the mission engineers or their
      designated representatives the right to communicate directly with the construction
      contractors or subcontractors on deviations from approved engineering designs.

      USAID/Afghanistan’s Office of Acquisition and Assistance issued an internal notice on December
      30, 2010. The notice included language that allows mission engineers or their designated
      representatives to directly communicate to construction contractors and assistance providers any
      observed deviations from approved engineering designs. Such communications should be limited to
      observed deviations and should not include instructions to construction contractors or assistance
      providers that could result in constructive changes to the construction agreement. This
      recommendation is closed.


9.    That USAID/Afghanistan require that the final subcontract requirements for the design
      of the new campus for the American University of Afghanistan be reviewed for adherence
      to appropriate engineering standards.

      On December 7, 2009, USAID issued a notice requiring that subcontract requirements for
      construction and architectural and engineering services be reviewed and approved by the Office of
      Infrastructure, Engineering, and Energy (OIEE) before the Office of Acquisition and Assistance
      accepts them for processing.

      To ensure that the design of the American University of Afghanistan (AUAf) campus adheres to
      engineering standards and USAID requirements, USAID decided to implement the design activity
      through a separate mechanism managed by OIEE. This was conveyed to the AUAf president in a
      letter from the agreement officer dated March 2, 2010. Because of AUAf’s reticence about
      USAID’s determination, discussions are ongoing to determine the best option for proceeding with the
      design, including whether the design should be funded by USAID. Should AUAf and its Board of
      Trustees opt to use USAID funds for the design activity, the procurement requirements will have to
      be reviewed for adherence to appropriate engineering standards. This recommendation is closed.

10.   That USAID/Afghanistan require that all engineering drawings related to the American
      University of Afghanistan Campus be reviewed for compliance with specified standards
      before the mission accepts delivery of the drawings.

      In order to ensure compliance with specified standards, USAID has determined and conveyed to
      AUAf that, if USAID funds are used for the design of the new campus, OIEE would implement the
      activity under a separate mechanism that it manages. USAID plans to present AUAF with several
      options for proceeding with design activities, with or without funding. This recommendation is
      closed.

11.   That USAID/Afghanistan require that the final statement of work clearly identifies the
      continuation of the Afghan Infrastructure Data Center as a core aspect of the follow-on
      contract, to include training of Afghan Ministries in the maintenance and use of the data
      center.


                                                    168
      The statement of work for the Engineering Quality Assurance and Logistical Support Program, the
      follow-on activity, has been revised to include training of Afghan Ministries. Meanwhile, the
      ongoing Human Resource and Logistical Support Program has completed an assessment of the
      Ministry of Public Works’ requirements to enable it to operate and maintain the roads database. A
      presentation is also scheduled at the Ministry of Energy and Water to inform staff about the roll-out
      of the infrastructure database—Afghanistan Infrastructure and Security Cartography System—and to
      discuss their involvement in a user needs assessment and training. This recommendation is closed.

12.   That USAID/Afghanistan complete all required contractor performance reviews of
      International Relief and Development, Inc., in accordance with Agency procedures.


      Contractor performance reviews for the contract have been completed and submitted to the
      Contractor Performance System of the National Institutes of Health. This recommendation is closed.




                                                     169
        Audit of USAID/Afghanistan’s Building Education Support
                     Systems for Teachers Project
                         (No. 5-306-10-006-P)

Date:                             January 29, 2010
Implementing Partner:             Creative Associates International, Inc.
Audit Period:                     May 20, through June 10, 2009
Funding:                          As of September 30, 2009, $56 million had been obligated, and
                                  $48 million had been spent for project activities

Background—Summary of Findings


Almost 4 years into a $94 million, 5-year                5-year National Education Strategic Plan
contract with Creative Associates                        (2006–10).
International, Inc., to implement USAID’s
Building Education Support Systems for                   The audit found that much of the training of
Teachers project, OIG’s audit concluded that             teachers had been completed. For example,
the project was making progress in helping to            50,600 of the target of 54,000 teachers in the
improve the quality of education in                      11 provinces had received inservice training
Afghanistan but had not achieved its two                 for teachers already working for the Ministry
main goals: improving teaching through                   of Education. Although the project had not
teacher training, and institutionalizing                 attempted to measure the extent to which
ministry structures and systems that support             teaching had actually been improved, teachers
high-quality teaching.                                   we spoke with expressed satisfaction with the
                                                         training they had received. And much of the
Afghanistan has one of the highest illiteracy            technical assistance to the Ministry of
rates in the world. More than 11 million                 Education had been completed. For example,
Afghans over the age of 15 cannot read or                Creative Associates had assisted in recruiting
write. In rural areas, where three-fourths of            and selecting most of the 444 candidates who
all Afghans live, 90 percent of the women and            were expected to help the Ministry of
over 60 percent of the men are illiterate.               Education develop its capacity to improve the
Under the Taliban, girls were not allowed to             quality of teaching.
go to school, fewer than 900,000 boys were
enrolled, and many received religious                    In addition, the audit found that district
education in lieu of academics. The                      teacher training teams had been established to
implications of this lack of education can be            help conduct training in all 11 provinces.
felt in all domains of life. Afghans have little          This approach used a cascading process of
access to information about good health                  training existing teachers as instructors who in
practices, and most of the country’s judges              turn would train other teachers. The project
and civil servants do not have more than a               teamed with subcontractors to select and hire
high school diploma. Today more than 5.7                 181 team leaders, 1,361 team members, and
million students attend school. However, the             8 provincial project monitoring officers, all by
Afghan Government is striving to improve                 December 2007. Moreover, the project
education for its people, and the Ministry of            developed (1) an action plan for the Ministry
Education is working with USAID and                      of Education’s 5-year strategic plan, (2) a
other donors to implement a                              human resources policy manual, (3) a training

                                                   170
curriculum for management skills, and (4) an                 specific subject/grade level, as planned under
action plan for the integration of the Human                 component 1 of the project. The project also
Resources Department and the Reform                          did not complete some activities planned
Implementation and Management Unit at the                    under component 2—for example, technical
Ministry of Education.                                       assistance intended for the Ministry of
                                                             Education’s Human Resources Department,
Notwithstanding these accomplishments, the                   such as development of a curriculum and staff
audit found that some significant tasks and                  training on a human resource database;
activities included in the project’s contract                creation of a training manual for the payroll
and work plan had not been completed. For                    database for budget staff; and preparation of
example, the project had not completed the                   at least one workshop on pedagogical methods
curriculum development and related inservice                 for faculty at each provincial teacher training
teacher training or the accelerated program                  college. The contractor hoped to complete
for teachers who did not meet Ministry of                    these efforts by the contract’s end.
Education teaching qualifications for their

Recommendations—Management Decisions

The audit made four recommendations to help the mission properly oversee implementation and
evaluation of the project:

1. That USAID/Afghanistan negotiate a new memorandum of agreement with the Afghan Ministry
    of Education to formalize a working relationship between the mission, Creative Associates
    International, Inc., and the Ministry of Education to be used for accomplishing tasks and
    activities for the remaining period of the Building Education Support Systems for Teachers
    Project (BESST).

    A new memorandum of agreement (MOA) between the Ministry of Education, Creative Associates
    International and USAID was signed on January 25, 2011. The revised MOA formalizes the relationship
    between the Mission, Creative Associates International, and the Ministry of Education by defining roles and
    responsibilities of the partners and the activities to be implemented during the remaining period of the
    BESST project. Activities include the accelerated learning program for teachers, building the capacity of the
    Human Resources Department of the Ministry of Education, and delivery of radio-based long-distance
    education. This recommendation is closed.

2. That USAID/Afghanistan require Creative Associates International, Inc., to submit all pertinent
    information related to all Building Education Support Systems for Teachers Project subcontract
    modifications for which the mission has not been notified. After receipt of the pertinent
    information from Creative Associates International, Inc., the mission should determine and
    document the acceptability of the subcontract modifications.

    Since contract inception, Creative Associates International, Inc. had sought initial consent from the contract
    office for all subcontracts with individual organizations. After receiving approval from USAID for
    subcontractor budget estimates, documents on administrative actions between Creative Associates
    International, Inc. and the subcontractors, such as funding modifications, were not submitted to USAID
    for approval. Creative Associates International, Inc. has now provided USAID with all subcontract
    modifications. Each subcontract modification will be reviewed by the contracting officer for acceptability
    and approval. This recommendation is closed.


                                                      171
3. That USAID/Afghanistan require a closeout audit of the subcontract between Creative
   Associates International, Inc., and JBS International, Inc.-Aquirre Division related to the
   Building Education Support Systems for Teachers Project and take all corrective actions detailed
   in the closeout audit report.

   USAID/Afghanistan verified that Creative Associates procured an audit of their subcontract with JBS
   International, Inc. - Aguirre Division. According to Creative Associates, all cost samples were tested as to
   their compliance with the Federal Acquisition Regulations and USAID regulations and allowability to be
   billed to USAID. Also, JBS termination costs were determined by Creative Associates as being within
   reason. This recommendation is closed.

4. That USAID/Afghanistan require Creative Associates International, Inc., and its subcontractors
   to provide documented proof of compliance with the requirements of USAID Automated
   Directive System Chapter 320, “Branding and Marking,” or submit a written request to the
   mission for a waiver from the requirements.

   The mission has formally advised the contractor of its responsibility to be compliant with the approved
   branding and marking plan and has received the contractor's plan. This recommendation is closed.




                                                    172
      Audit of USAID/Afghanistan’s Civilian Assistance Program
                       (No. 5-306-10-004-P)
Date:                             December 15, 2009
Implementing Partner:             International Organization for Migration
Audit Period:                     April 2007 to February 2009
Funding:                          As of December 31, 2008, $18.5 million had been obligated
                                  and about $6.4 million had been spent for program activities

Background—Summary of Findings

The Civilian Assistance Program is being                information about its progress. Officials had
implemented through a $27 million, 3-year               not followed up regularly on the status of the
cooperative agreement (April 2007 to April              implementer’s implementation plan,
2010) with the International Organization for           monitoring and evaluation plan, or quarterly
Migration. OIG’s audit found that the                   program reports. The mission also had not
program—which is intended to provide help to            made sufficient site visits to adequately
Afghan families and communities that have               evaluate the program’s progress and had not
suffered losses because of military operations—         properly monitored the staffing of positions
was not on target to assist eligible program            for the implementing organization.
beneficiaries.
                                                        Security concerns contributed to the
Assistance under the program is generally               program’s understaffing, which continued to
provided in the form of goods and services to           be a challenge at the time of the audit. As of
those who have suffered losses—a farmer                 January 2009, a subcontractor for the
might receive a tractor or livestock and a              implementer had hired only 56 of the 86
grocer might receive merchandise to restock             employees that it believed necessary to meet
his store. At the midpoint of the program,              program targets. At the time of the audit, the
just over 800 of the more than 6,000 eligible           implementer’s documents indicated that its
families in the program were receiving                  subcontractor was still in the process of hiring
assistance, about 13 percent. As of                     30 staff members for the 6 regional offices
January 22, 2009, the implementer reported              where the program was being implemented.
that it had assisted only about 40 percent of           In addition, the implementer had not taken
families included in its revised recovery plan,         advantage of opportunities to improve the
which had been submitted just after the                 effectiveness and efficiency of the program,
implementation midpoint.                                such as limiting the program’s eligibility
                                                        period and requiring beneficiaries to present
In addition, until the program was halfway              Afghan national identification cards.
through, USAID officials had very limited
involvement in the program and little



Recommendations—Management Decisions

The audit made seven recommendations to help the mission properly oversee implementation and
evaluation of the program.

                                                  173
1. That USAID/Afghanistan develop a plan that will provide sufficient work time for the
   agreement officer’s technical representative assigned to the Afghan Civilian Assistance Program
   to properly monitor and evaluate the programmatic needs for the program so that it can be
   implemented effectively and on schedule.

   USAID dedicated a full-time technical representative to the program in July 2009 and ensured that the
   incumbent had a limited scope of work to enable them to better manage the program. The incumbent is
   assigned to the Provincial Reconstruction Team Office and reports directly to the office director, ensuring
   that the individual’s duties will not be divided between oversight of the program and other outside duties.
   USAID also arranged for a four-member monitoring team, using an existing support services contract, to
   conduct site visits at four locations throughout Afghanistan in January 2010. This recommendation is
   closed.

2. That USAID/Afghanistan require the International Organization for Migration to adhere to a
   schedule in preparing and submitting the required planning and program reporting documents,
   such as implementation plans, monitoring and evaluation plans, and program reports to help the
   mission monitor and evaluate the implementation of the Afghan Civilian Assistance Program.

   Consistent with the requirements of the cooperative agreement between USAID and the International
   Organization for Migration, USAID stated that the implementer has been adhering to specified reporting
   requirements for the past 3 quarters. With the establishment of a dedicated technical representative to
   provide oversight, USAID believes that the implementer will continue to meet its reporting requirements
   throughout the remainder of the program. This recommendation is closed.

3. That USAID/Afghanistan require the International Organization for Migration to take
   appropriate action to adequately staff the Afghan Civilian Assistance Program at a level sufficient
   to provide timely and effective assistance to eligible beneficiaries.

   Following the audit, the implementer reassessed its staffing needs on the basis of the number of new incidents
   occurring in 2009, as well as the number of eligible families still requiring program assistance. The
   International Organization for Migration has increased its staff to 161 as agreed upon in the management
   decision. With the hiring of this additional staff, the International Organization for Migration increased by
   78.7 percent the total program number of families receiving assistance to 3,653 families as of December 31,
   2009. This recommendation is closed.

4. That USAID/Afghanistan require that the International Organization for Migration review its
   policy on the eligibility period for which applicants under the Afghan Civilian Assistance
   Program can apply and receive benefits to determine whether a more appropriate eligibility
   period should be used.

   The technical representative instructed the implementer to modify the targeting of program assistance to
   newly occurring incidents. The implementer was responsible for prioritizing newly occurring cases over those
   that occurred previously and will focus efforts primarily on those incidents occurring within the life of the
   current award (April 2007 through November 2010).

   For incidents prior to April 2007 that were entered into the database and had yet to receive program
   assistance, the implementer was to determine which ones it could realistically access and respond to with


                                                     174
   available resources and which ones would need to be removed from the database. In eliminating selected
   past incidents from the database, the implementer’s staff was expected to be able to more readily focus their
   efforts and resources on newly occurring incidents and those that occurred within the life of the project. This
   recommendation is closed.

5. That USAID/Afghanistan require that the International Organization for Migration review its
   policy on completed and closed-out grants to determine whether the policy should be revised
   and, if appropriate, revise the policy so that completed grants can be closed out more rapidly.

   The technical representative and the implementer’s management staff met to review standing program
   policies and discuss steps to expedite the delivery of program assistance. The performance period of
   assistance grants was reduced and, as of September 2009, all program assistance grants were set at a
   maximum of 6 months. The implementer conducts a final monitoring visit at the end of the grant and aims
   to close out the grant 30 days thereafter. This will enable the implementer to close out assistance grants in
   half of the time it had previously spent completing grants. This recommendation is closed.

6. That USAID/Afghanistan require that the International Organization for Migration review its
   policy on the acceptance of identification from applicants under the Afghan Civilian Assistance
   Program to determine whether the policy should be revised, and, if appropriate, revise the policy
   to require that national identity cards be used for identification.

   The technical representative instructed the implementer to report to USAID on the costs, benefits, and
   feasibility of requiring recipients of program assistance to possess a national identification (ID) card, and the
   implementer responded with its revised policy on identification cards. In addition, it has taken the following
   steps to ensure that assistance is not provided to the same beneficiaries more than once:

   All program beneficiaries are asked to present their national ID card when the implementer’s staff conducts
   the family assessment. The national ID card number is recorded in the program’s grants database following
   the interview. If beneficiaries do not possess a national ID card, implementing staff members ask them to
   obtain one as soon as possible and request that the beneficiaries to produce another form of identification.

   Program staff search the implementing database by ID number, name (including father’s name), and
   location (village) before issuing new grants to avoid any duplication. This recommendation is closed.


7. That USAID/Afghanistan require that the International Organization for Migration review its
   procedures on the distribution of education and tailoring kits to program beneficiaries, under
   the Afghan Civilian Assistance Program, to determine whether the kits are being distributed
   expeditiously and, if not, initiate actions to remedy the distribution.

   The technical representative instructed the implementer to develop a plan for preordering and prepositioning
   standard forms of assistance, including education and tailoring kits. Following this instruction, the
   implementer reviewed its procedures and determined that the procurement process was the primary cause of
   its inability to expeditiously distribute assistance kits. The implementer provided a revised policy on
   preordering and prepositioning standard forms of assistance and signed long-term agreements with various
   local vendors. To attract possible bidders, implementers provide an estimate for the total value of the
   business.



                                                      175
The long-term agreements are valid for 6 months. After 6 months, depending on the performance of the
vendors, the implementer will conduct another bid or negotiate with existing vendors to renew the agreements
under the same prices, terms, and conditions. This recommendation is closed.




                                                 176
  Audit of USAID/Afghanistan’s Power Sector Activities Under Its
        Afghanistan Infrastructure Rehabilitation Program
                       (No. 5-306-10-002-P)

Date:                               November 10, 2009

Implementing Partner:               Louis Berger Inc./Black and Veatch Special Projects Corp.
                                    Joint Venture

Audit Period:                       January 2007 through April 2009

Funding:                            As of April 30, 2009, the combined ceiling price for these two
                                    task orders was $305.5 million, and USAID/Afghanistan had
                                    obligated $290.8 million and expended $249.6 million for the
                                    two projects.

Background—Summary of Findings

Providing electrical power to the Afghan                    statement of work resulting in poor planning
population is crucial to Afghanistan’s                      and implementation, subcontractor
development. As a key to political stability,               performance problems, a lack of onsite quality
sufficient, reliable electrical power is especially         assurance, and problems clearing equipment
important for both the capital city of Kabul                and material through customs. For the
and the southern agricultural provinces of                  Kajakai Dam project, deteriorating security in
Helmand and Kandahar. To improve the                        southern Afghanistan and inconsistent
availability of electricity in these areas,                 contractor performance contributed to the
USAID/Afghanistan awarded two major task                    delay.
orders under its Afghanistan Infrastructure
Rehabilitation Program to the Louis Berger                  By May 2009, the USAID-funded projects had
Inc./Black and Veatch Special Projects Corp.                completed construction of generators with the
Joint Venture.                                              ability to produce only 12 megawatts of power
                                                            out of the original goal of 140 megawatts—and
OIG’s audit report highlighted problems                     this increase in power had not actually been
faced by two power projects in Afghanistan—                 delivered to the Afghan population. As a
building a 105-megawatt plant in Kabul and                  result, the economic benefits anticipated for
making improvements in the Kajakai Dam—                     Kabul and the southern provinces of
which were intended to supply power to key                  Helmand and Kandahar were not being
cities and provinces.                                       realized. Additionally, the contractor
                                                            estimated that cost overruns attributable to
The audit concluded that, because of                        the delays would amount to $39 million in
construction delays, USAID had not                          order to complete the Kabul power plant by
increased reliable power supplies to these two              December.
areas within the planned timeframes. For the
Kabul power plant, the delays were caused by                The audit also found that the host
an initial inability to obtain adequate title to            government may not be able to afford to
land for the power plant, an ambiguous                      operate the Kabul power plant because of the


                                                      177
rising cost of diesel fuel and the government’s              for these questionable costs (including
inability to collect revenue for the generated               contractor overhead, fixed fees, and imputed
electricity. Further complicating operation of               interest) amounted to an overbilling of
the power plant is the configuration of the                  USAID by $2.1 million.
Kabul transmission system, which does not
allow for the use of other power sources at                  As for the Kajakai Dam project, the original
times of year when those power sources are                   subcontractor left after its personnel received
more competitive.                                            kidnapping threats, and the project cannot be
                                                             completed until a new subcontractor is
With regard to subcontractor performance on                  selected. USAID will have to continue paying
the Kabul power plant, the audit found that                  the fixed costs of securing and maintaining
the contractor had charged USAID for                         the facility until work on the plant can be
subcontractor costs that the contractor had                  resumed. These fixed costs amount to an
not paid. The contractor had not paid these                  estimated $1 million per month, even though
costs because of disputes and questionable                   none of the 35 extra megawatts of power has
claims in subcontractor invoices. The total                  been delivered.
amount the contractor received from USAID

Recommendations—Management Decisions

The Office of Inspector General audit report made eight recommendations:

1. That USAID/Afghanistan require that its training on statement-of-work preparation be provided
    to all new COTRs.

    USAID established the appropriate contractual mechanisms for COTRs to receive statement of work
    training. This course was intended to improve the COTRs' capacity in both technical writing and the
    review of statements of work, and it will be provided to all new COTRs. This recommendation is closed.

2. That USAID/Afghanistan develop procedures, such as the use of quality control checklists, to
    ensure that statements of work include such critical elements as clear deliverables with specified
    due dates.

    The contracting officer for the OIEE issued a statement of work template to all OIEE COTRs in June
    2009. The template serves as a quality control checklist that describes the required elements for the
    statement of work and provides detailed instruction for preparing each section. This recommendation is
    closed.

3. That USAID/Afghanistan establish procedures requiring that a labor skills assessment be
    performed by a contractor, either upon award of a construction contract or upon the award of a
    task order under the contract. The assessment would include, as appropriate but not limited to,
    the availability of qualified local labor, vocational training needed to cultivate local labor, and
    plans to coordinate with the mission to obtain appropriate visas for non-Afghan labor.

    Workforce capacity in designing infrastructure projects is being assessed, and new mission staff will be hired
    to perform preaward surveys of potential contractors and their proposed personnel. However, the mission did
    not agree that a blanket procedure should be put in place to require contractors to perform a labor skills
    assessment. Meaningful labor assessments are difficult to maintain in Afghanistan, given the fluidity of the


                                                      178
    workforce and the high demand for skilled labor. Instead, the mission expects to use preaward personnel
    surveys to help verify the availability of qualified staff proposed by the contractor. This recommendation is
    closed.

4. That USAID/Afghanistan establish written procedures to ensure that all significant construction
    projects have onsite quality-assurance engineers.

    On November 22, 2008, the Office of Acquisition and Assistance issued a notice requiring all offices to
    ensure that a quality-assurance surveillance program is included during the construction of vertical
    structures. To cover the road and power construction activities, the Office of Acquisition and Assistance
    will issue a similar notice that will define the technical standards to be observed and require quality-
    assurance monitoring during construction. This recommendation is closed.

5. That the mission develop an overall implementation plan for the Kabul power plant project that
    incorporates updated construction schedules for the contractor and subcontractor, identifies
    delays in critical tasks, and establishes steps to keep the project on track.

    At the October 4, 2009, management meeting for the Infrastructure Rehabilitation Program, the contractor
    presented a detailed construction schedule and discussed how progress on each of the project components is
    being tracked against the schedule, on the basis of staff utilization. To provide an independent assessment of
    the progress of work, the mission tasked the Human Resource and Support Program to monitor work progress
    and bring to the mission’s attention possible constraints in meeting the schedule. In addition, the COTR
    conducts weekly visits to the project to review the existing construction schedule, identify delays in critical
    tasks, and determine next steps. The contractor provides daily reports on project status. This
    recommendation is closed.


6. That USAID/Afghanistan develop a comprehensive sustainability plan that includes
    considerations for anticipated fuel purchases as well as the impact and timing of future mission
    projects affecting the 105-megawatt plant.

    A plan to improve long-term plant performance and to implement a training program to develop local skills
    and expertise in plant operation and maintenance is being developed. The Afghan Government has
    provided 50,343 liters of fuel to operate the plant and has established the new national electricity
    corporation, Da Afghanistan Breshna Sherkat, which lays the foundation for commercializing the country’s
    energy sector and improving services for the Afghan people. USAID is implementing the Kabul Electricity
    Directorate Kabul Electricity Directorate commercialization contract to improve the commercial
    performance of the Kabul Electricity Directorate so that it can operate on a full-cost recovery basis assuming
    that by 2012, this contract results in a reduction in system losses and increase in collections and revenues to
    be directed toward fuel purchases. This recommendation is closed.




                                                      179
7. That USAID/Afghanistan prepare a detailed implementation plan that documents the current
   status of the Kajakai project and explains how the mission intends to proceed with installation of
   turbine 2, including potential barriers to successful installation of the turbine and contingency
   plans to overcome these barriers.

   USAID/Afghanistan prepared a detailed implementation plan that documents the current status of the
   Kajakai project. The mission indicated that the installation of Turbine 2 continued to be delayed due to the
   ongoing volatile and dangerous security environment, which is preventing ground transportation of necessary
   equipment and material to the site. The mission continues to coordinate with the International Security
   Assistance Force assessing the security situation to determine when it might be feasible to proceed with the
   installation of Turbine 2. Additionally, USAID is taking action to be ready to install Turbine 2 if the
   security environment changes quickly. USAID is also contracting to finish installation design of Turbine 2
   and obtain detailed convoy size and frequency information for equipment and material that will require
   ground transportation to the site. Therefore, this recommendation is closed.

8. That USAID/Afghanistan recover at least $2.1 million (including interest imputed through May
   13, 2009) from the contractor.

   USAID/Afghanistan has recovered the amount owed from the contractor. This includes $2,042,680 that
   was billed for collection and $35,746 in accrued interest. This recommendation is closed.




                                                    180
                                       Afghanistan Investigative Case Work and Fraud Prevention Briefings
                  Criminal                                                                Program Integrity (PI)
                                                                                                                    Savings and     Department of Justice
Case Number   Law Enforcement       Source                 Allegation            Status   or Employee Integrity                                                                 Results
                                                                                                                   Recoveries ($)   Civil/Criminal Actions
              Records System                                                                      (EI)

                                                   Improper use/diversion of
  A03101                         USAID employee          government              Closed            EI                                                                     Employee reprimand
                                                      property/personnel
  A04031                           Contractor             False claim            Closed            PI

  A04083                         USAID employee     Bribery/gratuity/kickback    Closed            PI                                                                Contract employee termination

  A04144                           Contractor          Conflict of interest      Closed            EI
                                                           Reciprocal
                                                                                                                                        1 civil referral,
  A04147                         USAID employee        fraud/procurement         Closed            EI               11,275,000                                          Savings, declinations (2)
                                                                                                                                      1 criminal referral
                                                          investments

  A05041                             Other        Theft of government property   Closed            PI                  4,000                                             Administrative recovery


  A05042                             Other                False claim            Closed            PI                 46,670                                             Administrative recovery


  A05052                         USAID employee   Theft of government property   Closed            PI


  A05083                             Other                False claim            Closed            PI

  A06002                         USAID employee       Intimidation/extortion     Closed            PI

  A06003                            Unknown               False claim            Closed            PI

                                                                                                                                                               Arrests (6), indictments (7), convictions (5),
                                                    Conspiracy; false claim;
                                                                                                                                        1 civil referral,    debarments (5), contract termination, savings of
  L05046      LA-MA-08-0005-I      Contractor        obstruction of justice;     Closed            PI               27,057,474
                                                                                                                                      8 criminal referrals   $24,055,074, restitution of $3,000,000 and fines
                                                        wire/mail fraud
                                                                                                                                                                                  of $2,400

  L07023                         USAID employee    Pay and allowance matters     Closed            EI                                                                     Employee resignation

                                                                                                                                                                 Savings, bills of collection: $612,870;
                                                                                                                                        1 civil referral,
  L07089      LA-MA-08-0004-I      Anonymous              False claim            Closed            PI               22,155,361                                 $11,500,000; $2 million; $22,392; $40,053;
                                                                                                                                      1 criminal referral
                                                                                                                                                                        $7,480,046; $500,000

  L07090                            Unknown         Bribery/gratuity/kickback    Closed            EI

  L07093                            Walk-in            Collusive bidding         Closed            PI                                                                     Employee termination

  L08002                             Other                False claim            Closed            PI

  O03007                            Proactive              Proactive             Closed            PI

               LA-KA-09-0197-I     Contractor          Collusive bidding         Open              PI                                 1 criminal referral          Personnel suspension, resignation




                                                                                            181
                                         Afghanistan Investigative Case Work and Fraud Prevention Briefings
                  Criminal                                                                   Program Integrity (PI)
                                                                                                                       Savings and     Department of Justice
Case Number   Law Enforcement         Source                  Allegation            Status   or Employee Integrity                                                                Results
                                                                                                                      Recoveries ($)   Civil/Criminal Actions
              Records System                                                                         (EI)

              LA-H0-08-0175-R   Congressional inquiry        Program fraud          Closed            PI

              LA-H0-09-0034-G       Anonymous                Program fraud          Closed            PI

                                                                                                                                                                  Arrest, indictment, conviction, debarment,
              LA-H0-09-0177-I       Case spinoff        Bribery/gratuity/kickback   Open              PI                   100           1 criminal referral
                                                                                                                                                                        sentencing assessment $100

              LA-KA-09-0201-I      Private citizen           Program fraud          Open              PI                                   1 civil referral

              LA-KA-10-0005-I      Private citizen           Program fraud          Closed            PI

              LA-KA-10-0006-I      Private citizen           Program fraud          Closed            PI

              LA-KA-10-0011-G     USAID employee        Bribery/gratuity/kickback   Closed            PI

              LA-KA-10-0032-G     USAID employee        Bribery/gratuity/kickback   Closed            PI

              LA-KA-10-0035-I        Contractor         Bribery/gratuity/kickback   Closed            PI

              LA-KA-10-0039-I    Former contractor           Program fraud          Closed            PI

              LA-KA-10-0057-G      Private citizen      Bribery/gratuity/kickback   Closed            PI

                                                                                                                                                                Contract employee terminations (22), savings
              LA-KA-10-0062-I    Former contractor      Bribery/gratuity/kickback   Open              PI                 200,598         2 criminal referrals
                                                                                                                                                                $81,524, debarments (22), recovery $119,074

              LA-KA-10-0071-I         IG/Audit                    Theft             Closed            PI                                 1 criminal referral

              LA-KA-10-0074-G       Anonymous                Program fraud          Closed            PI

              LA-KA-10-0078-R      Private citizen         Conflict of interest     Closed            PI

              LA-KA-10-0079-R   Contractor employee          Program fraud          Closed            PI

              LA-MA-08-0097-G     USAID employee         Procurement integrity      Closed            EI


              LA-MA-08-0106-G     USAID employee                Extortion           Closed            PI



              LA-MA-08-0107-G   Other agency referral       False statement         Closed            PI



              LA-MA-08-0159-I     USAID employee           Collusive bidding        Closed            PI




                                                                                               182
                                          Afghanistan Investigative Case Work and Fraud Prevention Briefings
                  Criminal                                                                     Program Integrity (PI)
                                                                                                                         Savings and     Department of Justice
Case Number   Law Enforcement          Source                   Allegation            Status   or Employee Integrity                                                                   Results
                                                                                                                        Recoveries ($)   Civil/Criminal Actions
              Records System                                                                           (EI)

              LA-MA-08-0169-R      Private citizen             Program fraud          Closed            PI

              LA-MA-08-0178-I    USAID employee                Program fraud          Closed            PI

                                                                                                                                                                     Resignation, contract terminations (4) with
              LA-MA-08-0179-I       Anonymous             Bribery/gratuity/kickback   Closed            PI                 509,554         1 criminal referral      savings of: $51,551; $14,533; $433,270; and
                                                                                                                                                                            $10,200; Afghan declination

              LA-MA-09-0021-R   Confidential source            Program fraud          Closed            PI


              LA-MA-09-0024-G      Private citizen             Program fraud          Closed            PI


              LA-MA-09-0031-I       Case spinoff                    Theft             Closed            PI

                                                                                                                                           1 criminal referral,        Contract employee removed, contract
              LA-MA-09-0065-I       Anonymous             Bribery/gratuity/kickback   Closed            PI               29,300,000
                                                                                                                                             1 civil referral       terminated, declination, savings $29,300,000

              LA-MA-09-0073-I        Contractor           Bribery/gratuity/kickback   Closed            PI                                                                 Contract employee termination

                                                                                                                                                                  Personnel suspension, bill of collection, recovery,
              LA-MA-09-0078-I   Self-initiated; spinoff       False statement         Closed            PI                  1,217
                                                                                                                                                                      systemic change; $671; restitution $546


              LA-MA-09-0079-G       Anonymous             Bribery/gratuity/kickback   Closed            PI


              LA-MA-09-0104-I   Self-initiated; spinoff         Conspiracy            Closed            PI


                                                                                                                                                                    Arrests (2), indictments (2), convictions (2),
              LA-MA-09-0121-I        Contractor           Bribery/gratuity/kickback   Closed            PI               62,030,589        2 criminal referrals   debarments (2), employee termination, contract
                                                                                                                                                                        cancellation, savings $62,030,589


              LA-MA-09-0124-I      Private citizen           Conflict of interest     Open              PI                                 1 criminal referral


                                                                                                                                                                     Arrest, debarment, indictment, conviction;
              LA-MA-09-0136-I       Anonymous                  Program fraud          Closed            PI                 78,926          1 criminal referral
                                                                                                                                                                                restitution $78,926

              LA-MA-09-0161-G   Other agency referral          Program fraud          Closed            PI

              LA-MA-09-0164-I        Contractor                Program fraud          Open              PI

                                                                                                                                           1 criminal referral,
              LA-MA-09-0166-I    USAID employee                 False claim           Open              PI                                                                           Declination
                                                                                                                                             1 civil referral




                                                                                                 183
                                             Afghanistan Investigative Case Work and Fraud Prevention Briefings
                  Criminal                                                                             Program Integrity (PI)
                                                                                                                                 Savings and     Department of Justice
Case Number   Law Enforcement             Source                      Allegation              Status   or Employee Integrity                                                     Results
                                                                                                                                Recoveries ($)   Civil/Criminal Actions
              Records System                                                                                   (EI)

              LA-MA-09-0168-I       Other agency referral                 Theft               Closed            PI                                 1 criminal referral          Declination

              LA-MA-09-0140-G          Private citizen                Conspiracy              Open              PI

              LA-MA-10-0013-I         USAID employee               Conflict of interest       Open              PI

              LA-MA-10-0063-G         USAID employee               Conflict of interest       Closed            PI

              *LA-KA-10-0052-I         Private citizen         Bribery/gratuity/kickback      Closed            PI

              LA-KA-10-0093-I           Anonymous                     False claim             Closed            PI

              LA-KA-10-0100-I      Outside agency referral    Bribery/gratuities/ kickbacks   Closed            PI

              LA-KA-10-0105-I         USAID employee          Bribery/gratuities/ kickbacks   Closed            PI
                                                                                                                                                                           Removal/termination
              LA-KA-10-0130-I            OIG audit                  Program fraud             Closed            PI
              LA-KA-10-0142-I    Former contractor employee           False claim             Closed            PI                                                        Removal/termination (2)
              LA-KA-10-0156-I         USAID employee               Conflict of interest       Closed            PI

              LA-KA-10-0189-I        Confidential source      Bribery/gratuities/ kickbacks   Closed            PI                                 2 criminal referrals

              LA-H0-10-0125-I       Other agency referral           Program fraud             Open              PI
              LA-KA-10-0099-G         USAID employee                Program fraud             Closed            PI

              LA-KA-10-0103-G          Private citizen        Bribery/gratuities/ kickbacks   Closed            PI

              LA-KA-10-0109-G          Private citizen              False statement           Closed            PI

              LA-KA-10-0124-G       Other agency referral     Bribery/gratuities/ kickbacks   Closed            PI

              LA-KA-10-0132-I       Other agency referral     Bribery/gratuities/ kickbacks   Closed            EI


              LA-KA-10-0140-G       Contractor employee       Bribery/gratuities/ kickbacks   Closed            PI


              LA-KA-10-0141-G          Private citizen              Program fraud             Closed            PI

              LA-KA-10-0153-G       Other agency referral           False statement           Closed            PI

              LA-KA-10-0162-R          Private citizen              Program fraud             Closed            PI




                                                                                                         184
                                              Afghanistan Investigative Case Work and Fraud Prevention Briefings
                  Criminal                                                                                Program Integrity (PI)
                                                                                                                                    Savings and     Department of Justice
Case Number   Law Enforcement              Source                        Allegation              Status   or Employee Integrity                                                                  Results
                                                                                                                                   Recoveries ($)   Civil/Criminal Actions
              Records System                                                                                      (EI)

              LA-KA-10-0164-G           Private citizen                 Program fraud            Closed            PI

              LA-KA-10-0193-R           Private citizen                 Program fraud            Closed            PI

              LA-KA-10-0203-I         USAID employee              Conflict of interest/ethics    Open              EI

                                                                                                                                                                              Employee termination (1), suspension, *arrest,
                                                                                                                                                                              indictment, *conviction, sentenced with jail time
              LA-KA-10-0209-I         Confidential source         Bribery/gratuity/kickback      Open              EI                 10,100          1 criminal referral
                                                                                                                                                                             (22 months), probation (24 months), restitution of
                                                                                                                                                                                    $10,000, special assessment $100

              *LA-KA-10-0214-I       Contractor employee              Computer crimes            Open              EI                                 1 criminal referral             Arrest, indictment, conviction

              LA-KA-10-0225-G        Contractor employee                   Extortion             Closed            PI

              LA-KA-10-0242-I        Contractor employee             Theft/wire/mail fraud       Open              EI                 20,000                                                Restitution $20,000

              LA-KA-10-0275-I      Other agency employee         Collusive bidding/false claim   Closed            PI

              LA-KA-10-0285-G    Confidential source/Informant    Conflict of interest/ethics    Closed            EI

              LA-KA-10-0297-I        Contractor employee                Program fraud            Open              PI                9,900,000                                             Savings $9,900,000

              LA-H0-10-0118-G           Private citizen          Bribery/gratuities/ kickback    Closed            PI

              LA-H0-10-0126-G        Other agency referral              Program fraud            Closed            PI

              LA-H0-10-0151-R           Private citizen                 Program fraud            Closed            PI

              LA-H0-10-0155-R           Private citizen           Conflict of interest/ethics    Closed            PI
              LA-H0-10-0160-G           Private citizen               Conflict of interest       Closed            PI
              LA-H0-10-0186-G           Private citizen                 Program fraud            Closed            PI
              LA-H0-10-0201-R           Private citizen               Conflict of interest       Closed            PI
              LA-H0-10-0261-I           Private citizen                False statement           Open              EI
              LA-KA-10-0319-R                GAO                        Program fraud            Open              PI                                                                         Debarment (2)
              LA-KA-10-0291-R           Private citizen                 Program fraud            Closed            PI
              LA-KA-11-0015-I               Audit                        False claim             Closed            EI                                                                           Reprimand
              LA-H0-11-0008-I             Contractor                         Theft               Closed            PI
              LA-KA-11-0018-I           Private citizen                 Program fraud            Open              PI




                                                                                                            185
                                              Afghanistan Investigative Case Work and Fraud Prevention Briefings
                  Criminal                                                                               Program Integrity (PI)
                                                                                                                                   Savings and     Department of Justice
Case Number   Law Enforcement              Source                        Allegation             Status   or Employee Integrity                                                                 Results
                                                                                                                                  Recoveries ($)   Civil/Criminal Actions
              Records System                                                                                     (EI)

              LA-H0-11-0045-I          Private citizen                 Program fraud            Open              PI
              LA-H0-11-0043-I        USAID employee                   False statement           Open              PI                                                                         Debarment
              LA-KA-11-0055-I           Anonymous                        False claim            Closed            PI
                                                                                                                                                     1 criminal referral,
              LA-H0-11-0056-I       Self-initiated; spinoff            Program fraud            Open              PI                                                                         Declination
                                                                                                                                                       2 civil referrals
              LA-KA-11-0024-G          Private citizen                 Program fraud            Closed            PI

              LA-KA-11-0030-I            Contractor               Bribery/gratuity/kickback     Closed            PI                                                                   Removal/termination (2)
              LA-H0-11-0040-I          Private citizen                 Program fraud            Closed            PI
              LA-H0-11-0068-G            Contractor                    Program fraud            Closed            PI
              LA-H0-11-0072-G          Private citizen                 Program fraud            Closed            EI
              LA-KA-11-0089-I        USAID employee                    Program fraud            Open              EI
              LA-KA-11-0090-G            Contractor                    Program fraud            Closed            PI
              LA-KA-11-0074-I            Contractor                    Program fraud            Closed            PI                 30,500                                 Removal/termination; Bill of collection $30,500
              LA-H0-11-0009-I             Proactive                    Program fraud            Open              PI
                                                                 Bribery/gratuity/kickback,
              LA-KA-11-0079-I          Private citizen                                          Closed            PI                                                                    Removal/termination
                                                                     conflict of interest
              LA-KA-11-0138-R            Contractor                   False statement           Open              PI                                                                    Removal/termination
              LA-KA-10-0296-G            Contractor                  Conflict of interest       Closed            PI
              LA-KA-10-0312-I           Anonymous                      Program fraud            Open              EI
              LA-KA-11-0022-G          Private citizen                 Program fraud            Closed            PI
                                                                 Bribery/gratuity/kickback,
              LA-KA-11-0114-G           Anonymous                                               Closed            EI
                                                                 conflict of interest/ethics
              LA-KA-10-0287-G               Audit                       False claim             Closed            EI
              LA-H0-10-265-R           Private citizen                 Program fraud            Closed            PI
              LA-H0-10-293-R           Private citizen                 Program fraud            Closed            PI
              LA-KA-11-0140-I          Private citizen            Bribery/gratuity/kickback     Open              PI
              LA-KA-11-0152-I          Private citizen                 Program fraud            Open              PI
                                                                False claim, false statement,
              LA-KA-11-0166-I        USAID employee                                             Open              PI
                                                                    program fraud, theft
              LA-KA-11-0129-I   Confidential source/informant     Bribery/gratuity/kickback     Open              PI
              LA-KA-10-0262-I        USAID employee               Conflict of interest/ethics   Closed            PI
              LA-KA-11-0189-I          Private citizen                      Theft               Open              PI                                                              Removal/termination; debarment
              LA-KA-11-0195-I       Contractor employee                Program fraud            Open              PI
                                                                 Bribery/gratuity/kickback;
              LA-KA-11-0182-I       Contractor employee                                         Open              PI
                                                                 conflict of interest/ethics




                                                                                                           186
                                             Afghanistan Investigative Case Work and Fraud Prevention Briefings
                  Criminal                                                                              Program Integrity (PI)
                                                                                                                                  Savings and     Department of Justice
Case Number   Law Enforcement             Source                       Allegation              Status   or Employee Integrity                                                               Results
                                                                                                                                 Recoveries ($)   Civil/Criminal Actions
              Records System                                                                                    (EI)

                                                               Bribery/gratuity/kickback;
              LA-KA-11-0183-I       Contractor employee                                        Open              PI
                                                                       conspiracy
                                                               Bribery/gratuity/kickback,
                                                               conflict of interest/ethics,
              LA-KA-11-0185-I       Contractor employee       conspiracy, false statement,     Open              PI
                                                               Procurement Integrity Act
                                                                        violation
              LA-KA-11-0174-I       Contractor employee         Bribery/gratuity/kickback      Open              PI                                                                   Removal/termination

              LA-KA-11-0210-G       Contractor employee         Conflict of interest/ethics    Closed            EI
              LA-KA-11-0211-I         USAID employee            Conflict of interest/ethics    Open              EI

              LA-KA-11-0212-R    Former contractor employee     Conflict of interest/ethics    Closed            PI

              LA-KA-11-0215-G           Anonymous               Conflict of interest/ethics    Closed            EI
                                                                Bribery/gratuity/kickback,
                                                                                                                                                                           Savings of $105,000;termination of contract;
              LA-KA-11-0197-I       Contractor employee         conflict of interest/ethics,   Open              PI                 105,000
                                                                                                                                                                                       removal/termination
                                                                        conspiracy
                                                                Bribery/gratuity/kickback;
              LA-KA-11-0179-1       Contractor employee                                        Open              PI
                                                                conflict of interest/ethics

                                                                Bribery/gratuity/kickback,
                                                                conflict of interest/ethics,
              LA-KA-11-0176-I       Contractor employee                                        Open              PI
                                                              conspiracy, collusive bidding,
                                                                program fraud, extortion

              LA-KA-11-0115-I    Former contractor employee                Theft               Open              PI
              LA-KA-11-0225-I       Other agency referral            Program fraud             Open              PI
              *LA-KA-11-0228-G         Private citizen               Program fraud             Closed            PI
              *LA-KA-11-0230-I         Private citizen                Program fraud            Open              PI
                                                                Bribery/gratuity/kickback;
              LA-KA-11-0240-I       Contractor employee         conflict of interest/ethics,   Open              PI                 40,005                                  Recovery of $40,005; removal/termination
                                                                      program fraud

              *LA-KA-11-0253-I      Contractor employee       False claim; false statement     Open              PI                                   1 civil referral


                                                                Bribery/gratuity/kickback;
              LA-KA-11-0267-I          Private citizen                                         Open              PI
                                                              collusive bidding; conspiracy

              LA-KA-11-0275-I           Case spinoff                False statement            Open              PI
                                                                  Conflict of Interest;
                                                              conspiracy; false statement;
              LA-KA-11-0274-I            Contractor                                            Open              PI
                                                                 program fraud; theft;
                                                                    wire/mail fraud




                                                                                                          187
                                                                   Afghanistan Investigative Case Work and Fraud Prevention Briefings
                         Criminal                                                                                                 Program Integrity (PI)
                                                                                                                                                              Savings and     Department of Justice
Case Number          Law Enforcement                           Source                             Allegation             Status   or Employee Integrity                                                                  Results
                                                                                                                                                             Recoveries ($)   Civil/Criminal Actions
                     Records System                                                                                                       (EI)

                                                                                         False claim; false statement;
                      LA-KA-11-0281-I                         Contractor                                                 Open              PI
                                                                                                program fraud

                     LA-KA-11-0284-P                       Private citizen                     False statement           Open              PI


                     LA-KA-11-0286-G                       Private citizen                      Program fraud            Closed            PI

                      LA-KA-11-0264-I                      Private citizen                      Program fraud            Closed            PI
                                                                                            False claim; conflict of
                      LA-KA-11-0280-I                    USAID employee                                                  Open              PI                    5,786                                  Savings of $842; bill of collection $4,944
                                                                                                interest/ethics
                      LA-KA-11-0306-I                         Contractor                             Theft               Open              PI                    7,885                                             Recovery of $7,885
                     LA-KA-11-0319-G                       Private citizen                      Program fraud            Closed            PI
                      LA-KA-11-0328-I                         Contractor                        Program fraud            Open              PI
                     LA-KA-11-0330-P                       Private citizen                      Program fraud            Open              PI
                     LA-KA-11-0342-G                     USAID employee                  False Claim; program fraud      Closed            PI
                     LA-KA-11-0345-R                         Anonymous                         False statement           Open              PI

                     LA-KA-11-0351-R                     Former Contractor                      Program fraud            Closed            PI                                                          Letter of reprimand; personnel suspension

                      LA-H0-12-0026-I                    USAID employee                              Theft               Open              PI                   95,722                                 Termination (2); bill of collection for $95,722
                      LA-H0-12-0028-I                         Contractor                             Theft               Open              PI
                      LA-KA-12-0031-I                         Contractor                        Program fraud            Open              PI
                     LA-KA-12-0054-R                   Contractor employee                   Program fraud; theft        Open              PI                    8,000                                 Recovery of $8,000; personnel suspension
                     LA-KA-12-0076-R                   Contractor employee                           Theft               Open              PI                                                                           Debarment
                     LA-KA-12-0077-R                   Contractor employee               False claim; false statement    Open              PI                                                                         Debarment (2)

                      LA-KA-12-0086-I                  Contractor employee                 Bribery/gratuity/kickback     Open              PI                                   1 criminal referral                        Arrest
                                                                                                                                                             $162,882,487
                                                                         FY 2012 First Quarter Results                                       Cumulative Results*
                                                                     Cases opened                      14                                           169
                                                                      Cases closed                     15                                           108
                                                                     Cases pending                     61                                            61
                                                Department of Justice referrals                                3                                      38
                                                                     Arrests                                   3                                      13
                                                        Indictments/criminal
                                                         complaints/criminal                                   3                                      13
                                                                Information
                                                          Convictions/pleas                                   2                                        11
                                                      Administrative actions                                 32                                       119
                                                 Fraud awareness briefings                                    6                                        96
                                     Attendees at fraud awareness briefings                                  100                                     1,879

                  Applicable monetary actions hav been added to administrative actions
* May 2003 through December 2011.




                                                                                                                                    188
                           Afghanistan
                    Investigative Summaries
                           Fiscal Years 2004–12
                Contract Employee Arrested by Local Police
                           on Kickback Charge
Allegation
A local USAID contract employee was arrested on bribery charges in Kabul. The employee was
charged with demanding and receiving a kickback stemming from his work as a procurement officer
for USAID’s Afghanistan Small and Medium Enterprise Development (ASMED) project.
Specifically, the employee solicited and received a one-time payment of $3,000, along with a promise
to receive an additional $1,500, in exchange for processing a grant to a program beneficiary in
Laghan province.

Status
A man whom was employed by USAID contractor DAI, is an Afghan citizen and therefore will be
prosecuted in an Afghan court with a criminal charge bearing a maximum sentence of up to 10
years in prison and restitution of $10,000. The arrest was carried out by the Afghan National Police
and by investigators from the Afghan Attorney General’s Anti-Corruption Unit (ACU) with
assistance from USAID’s Office of Inspector General (OIG) agents.



     Australian Man Sentenced to 22 Months in Prison for Bribe
Allegation
 A former senior construction manager who worked as an agent for an intergovernmental
organization pleaded guilty to seeking $190,000 in payments as a reward for steering U.S.-funded
contracts in Afghanistan. Neil Campbell worked in Afghanistan as a contractor and acted as an
agent for the International Organization for Migration.

Status
The International Organization for Migration has received more than $260 million from USAID
since 2002 to construct hospitals, schools and other facilities. He was sentenced to 22 months in
prison, to be followed by two years of probation. He also was ordered to forfeit $10,000 he received
as part of his illegal activities



        Personal Service Contractor Sentenced for Embezzlement
Allegation
As reported in our previous semiannual report, OIG agents arrested an individual who was
responsible for financial management activities in USAID’s Armenia office for embezzling more
than $47,000 in U.S. Government funds.

Status
The 63-year-old former employee with USAID was sentenced to 29 months in prison on federal



                                                189
charges of theft of government property and filing a false income tax return. He was also ordered to
pay restitution in the amount of $36,325 as well as a penalty of $1.9 million for failure to report a
foreign bank account.


      Foreign Service Nationals Steal Vehicles Worth $95,722
                   Purchased with USAID Funds
Allegation
OIG initiated an investigation into the theft of two vehicles from Jhipiego (an international
nonprofit health organization affiliated with Johns Hopkins University) in Afghanistan, which were
the property of the program and purchased with USAID funds. The investigation revealed that two
local national employees had apparently stolen the vehicles from their office when they were
scheduled for night duty. The employees checked out the vehicles and never returned with them
after their shift.

Status
Jhipiego reimbursed USAID for the loss of the vehicles through a bill of collection in the amount of
$95,722. The two employees were subsequently terminated.

                Foreign Service National Failed to Disclose
                         Conflict of Interest Issue
Allegation
An OIG investigation revealed that a USAID COTR approved the employment of his brother as a
construction supervisor on a project he managed. The COTR failed to disclose the relationship to
USAID and his brother was selected and approved for the position.

Status
The COTR was suspended without pay for 10 business days.


                  Local Afghan National Embezzled $8,000
                          from USAID Contractor
Allegation
A local Afghan employee of a USAID contractor embezzled $8,000 in U.S. Government funds from
the Afghanistan Informal Justice Program. The employee, as part of his duties, negotiated vehicle
rentals for the company. The employee entered into a contract with a local national to rent a
vehicle. Shortly thereafter, the vehicle was stolen. The employee called the contractor and stated he
was the rightful owner of the stolen vehicle and demanded payment. The employee also stated that
he had a contract with the contractor for $1,500 a month for the same vehicle. The employee
collected the $1,500 for the next six months.

Status
The contractor refunded $8,000 to USAID and terminated the employee.




                                                190
               2 Afghan Nationals Terminated for Submitting
                          False Travel Vouchers
Allegation
 A USAID implementer self-reported to the OIG that two local employees had submitted expense
reports with fraudulent invoices for project-related travel resulting in a loss of over $5,600 in U.S.
Government funds. One subject, was employed as the program’s Public Outreach Capacity
Development Advisor, and the other as the Print and Communications Specialist, created fake
invoices using Microsoft Word.

Status
USAID was reimbursed for the incurred loss of funds and both employees were later terminated.


           Suspension of Afghan Construction Company with
                Connections to Terrorist Organizations
Allegation
On September 30, 2010, International Relief and Development Incorporated and USAID OIG
received information from the U.S. Army that it had detained and arrested the president of Ashan
Aman Construction Company (AACC) for supporting and facilitating Taliban attacks in Kandahar,
Afghanistan. After confirming AACC was a subcontractor on the USAID-funded Afghanistan
Vouchers for Increased Productive Agriculture program, USAID OIG worked with the U.S. Army
and the USAID Office of Security to confirm the company’s president was a known insurgent
sympathizer and material supporter.

Status
Based on the referral from USAID OIG, the company’s president and AACC were subsequently
debarred from any involvement with U.S. Government programs, effective May 25, 2011.


               Investigation Leads to $105,000 in Savings and
                    Termination of Subcontract by DAI
Allegation
A DAI procurement officer instructed his subordinate to contact companies bidding on
subcontracts under the RAMP UP EAST program in Afghanistan and request that they increase
their bids in order to cover the cost of a kickback to the DAI employees for awarding the
subcontract. Farid Construction Professional Company (FCPC) subsequently entered into an
agreement with the DAI employee to increase its bid to cover the cost of the kickback. In exchange
for this payment, FCPC would be awarded the contract.

Status
DAI terminated the employee on April 20, 2011. Because of these findings, DAI did not award the
contract to FCPC, resulting in a savings of $105,000.




                                                 191
     Afghan Sentenced to Prison on Child Pornography Charges
Allegation
In April, 2011, an employee of DAI working on a project funded by USAID was found guilty of
child pornography and sentenced by an Afghan court to 1½ years in prison. DAI, a U.S.-based
corporation, has a $36 million contract with USAID to implement the Afghanistan Small and
Medium Size Development program designed to promote small and medium size businesses in
Afghanistan. USAID OIG obtained and executed a U.S. Federal search warrant on the employee’s
computer which revealed clips of child pornography.

Status
The employee was found guilty and sentenced to 1½ years. The case was prosecuted locally in Herat
Province.


          Civil Settlement Related to Fraud in USAID-Funded
                  Programs in Afghanistan and Pakistan
Allegation
In June 2011, the Academy for Educational Development (AED) agreed to settle allegations that the
company submitted false claims to USAID in connection with two cooperative agreements through
which AED provided foreign assistance in Afghanistan and Pakistan.

Status
 Although certain terms of the settlement with the Department of Justice are contingent on future
events, AED has already paid $5,635,000 towards these claims and could potentially pay up to an
additional $15 million over the next three years. In the settlement agreement, the Government
alleged that AED failed to ensure that its actions under these two cooperative agreements complied
with applicable regulations concerning competition in procurements, adherence to contract
specifications, and supervision of its subcontractors. The Government further alleged that AED
failed to inform USAID that it had discovered defects in its internal control systems and that certain
AED subcontractors may have been involved in corruption and wrongful activities.


   USAID Contractor Debarred in Connection with Principal’s
   Misconduct and Lack of Adherence to Federal Regulations
Allegation
As the result of an OIG investigation, SERVCOR, a provider of security services, has been debarred
from contracting with the U.S. Government for 3 years. The debarment is based on the company’s
affiliation with United States Protection and Investigations (USPI), whose principals were
prohibited in 2008 from working with U.S. Government agencies for 3 years. The former
executives of USPI were convicted of conspiracy, major fraud, and wire fraud in connection with
USPI’s subcontract with the Louis Berger Group, Inc. (LBG), in the performance of USAID-funded
rebuilding efforts in Afghanistan.

In 2009, SERVCOR signed a $2.3 million contract with a company doing business with the U.S.
Army Corps of Engineers. The principals, through their management and control of the company,


                                                 192
continued to subcontract with organizations that had been barred from doing business with the
U.S. Government.

Status
During the period of debarment—in the absence of compelling reasons otherwise—federal agencies
may not award or renew contracts with SERVCOR nor may other Government contractors award
subcontracts to the company that exceed $30,000. SERVCOR will also be excluded from certain
federal assistance and benefits programs during the period of debarment.



     Two Louis Berger Group Employees Plead Guilty to Fraud
Allegation
LBG is a corporation that focuses on infrastructure engineering, environmental science and
economic development. USAID awarded large, multiyear, multi-million-dollar contracts to LBG,
most of which involved reconstruction efforts in Afghanistan.

An investigation spanning several years substantiated that, during the life of these contracts, high-
ranking LBG employees manipulated overhead rates, incurred cost submissions, and corporate
salaries to overcharge the U.S. Government.

Status
On November 5, 2010, two high-ranking LBG employees pleaded guilty to conspiracy to defraud
the U.S. Government. As part of the plea agreement, LBG agreed to a settlement, which resulted in
a reimbursement to the U.S. Government of $69 million. Sentencing for the two LBG employees is
pending.

                 Afghan Sentenced to Prison and Debarred
                         for Fraud against USAID

Status
A former finance coordinator for Associates for Rural Development (ARD) was found guilty of
embezzlement and falsification of tax records in connection with the theft of approximately
$200,000 from ARD. The company is the implementer of an $80 million contract under USAID’s
Local Governance and Community Development (LGCD) Program in Afghanistan.

The individual was sentenced to 7½ years in an Afghan prison, fined $160,000, and is now
prohibited from participating in procurement transactions with any federal government agency.
The individual’s 3-year debarment took effect January 2011.




                                                193
        Ongoing Investigation Results in Multiple Debarments,
               Terminations, Savings, and Recoveries

Allegation
As a follow-up to OIG’s previous semiannual report, DAI, a USAID contractor managing a
$349 million governance and community development project in Afghanistan, has terminated 12
additional employees because of information revealed by ongoing internal investigations being
conducted in conjunction with OIG. USAID also proposed debarment of 22 former employees of
the implementing partner who were implicated in misconduct, including the solicitation of
kickbacks and conflicts of interest.

Status
To date, the investigations have resulted in the recovery of $119,074 and $81,524 in savings.

Our investigation resulted in the termination of the 22 of the contractor’s Afghan employees,
including several engineers and other staff members. OIG secured evidence that the employees
were engaged in schemes to defraud the U.S. Government and demanded kickbacks from local
subcontractors. After OIG brought the information to the contractor’s attention, the contractor
terminated the employees and prohibited them from future employment with the company.


        Afghan Citizen Arrested in Scheme to Defraud USAID

Allegation
An Afghan citizen was accused of embezzling nearly $193,000 while working as a finance
coordinator on a $229 million local governance program financed by USAID and implemented by
an American contractor.

Status
The individual was arrested by Afghan law enforcement authorities in May 2010. The defendant
was responsible for depositing into a local bank account the contractor’s monthly tax payments to
Afghanistan’s Ministry of Finance. When the Ministry reported that it had not received the
payments, an investigation was initiated. Law enforcement officials found that the bank deposit
slips the defendant had submitted to the contractor as proof of payment were fraudulent.


   Arrests Made and $62 Million Solicitation Canceled Following
          Investigation of Conspiracy to Solicit Kickbacks
Allegation
OIG initiated an investigation into an alleged conspiracy to sell privileged information in
connection with the award of a private security services subcontract to protect U.S. Government
personnel and contractors in Afghanistan. The subcontract was valued at more than $60 million.

Status
The investigation identified three subjects who were involved in a conspiracy to solicit kickbacks
from private security vendors in return for favorable consideration for the awarding of subcontracts


                                                194
in connection with USAID’s Afghanistan Infrastructure Rehabilitation Program. USAID, upon
learning of the full nature of the conspiracy, canceled the subcontract.

One of the co-conspirators, an Australian, voluntarily surrendered and was arrested upon entry into
the United States. The subject subsequently pleaded guilty on November 16, 2009, to one count of
conspiracy to solicit a kickback and received a 9-month prison sentence. The subject will be
deported after the conclusion of the sentence.

Another of the co-conspirators, an American, pleaded guilty on January 26, 2010, to one count of
aiding and abetting the solicitation of a kickback. The subject is free on bail awaiting sentencing,
scheduled for later this year.

A third co-conspirator, an American, was sentenced on December 19, 2009, to 12 months and 1
day. The subject has reported to the Bureau of Prisons to commence the sentence.


Allegation   Savings Mount to $22 Million in OIG Investigation

Allegation
In August 2007, OIG initiated an investigation on the basis of an anonymous complaint that a
grantee linked to the United Nations Development Fund may have improperly drawn funds from a
USAID agreement. The organization, the UN Office for Project Services (UNOPS), reportedly
withdrew millions of dollars from its letter of credit after being notified that it could bill only
nominal closeout costs for projects it was implementing. The projects were alleged not to have been
completed as claimed, and others had defects and warranty issues that the organization would not
address.

Status
OIG uncovered many performance and financial control problems and potential violations of law.
Relying on a USAID letter of credit, UNOPS had transferred funds to and from a USAID project
systematically without USAID’s knowledge or consent. When asked to explain the transfers, the
organization refused to justify the use of the questioned funds. The investigation further cited poor
design and poor performance on construction projects and false reporting on projects. Some
projects were not completed, and others had defects and warranty issues, including some life-
threatening oversights. Projects had numerous design errors, repairs left undone, and equipment
and materials never installed that had been billed as completed. Savings and recoveries from this
investigation total more than $22 million thus far.

                 Criminal Investigation Yields $24 Million in
                           Savings and Recoveries
Allegation
OIG received complaints of widespread fraud, waste, and abuse on the part of a primary USAID
contractor in Iraq and Afghanistan, United States Protection and Investigations (USPI), LLC.
Among the allegations were billing of the same labor costs to multiple contracts, inflation of rental
car receipts, and kickbacks to local officials. The security contracts were intended to support
USAID’s Rehabilitation of Economic Facilities and Services Program in Afghanistan.



                                                195
Status
Following an investigation, a seven-count indictment was returned on September 30, 2008,
involving four individuals charged with conspiracy, major fraud, and wire fraud arising from a
scheme to defraud the United States in connection with the war and reconstruction efforts in
Afghanistan. The subcontractors defrauded USAID by obtaining reimbursement for inflated
expenses purportedly incurred for rental vehicles, fuel, and security personnel. These false invoices
inflated the amounts the contractor actually had paid for rental vehicles and fuel.

The co-owners of the security company pleaded guilty on September 9, 2009, to conspiracy, major
fraud, and wire fraud.               Their plea agreements require them to forfeit
$3 million in proceeds that can be traced to the fraud. Further, USAID realized additional savings
after the contract with USPI was canceled in March 2009.

The company and the other individuals charged have been suspended indefinitely from doing
business with the U.S. Government. One is serving a 2-year sentence in Kabul. The second
individual was placed on trial on March 20, 2010. A mistrial was declared, and the Department of
Justice is considering whether to retry the individual.

This case was investigated jointly by USAID/OIG, the Federal Bureau of Investigation, and the
National Procurement Fraud Task Force.

                     Employee Resigns When Investigation
                        Uncovers Conflicts of Interest

Allegation
OIG received an allegation that USAID employees were committing fraud in connection with the
purchase of supplies and services. One employee reportedly demanded kickbacks from a vendor
and conspired with a third-country national to inflate costs for bulletproof vests and helmets and
then share the profits. The allegation also claimed that two employees working for the first suspect
were paying him shares of money they had received fraudulently, and one was given unfair
advantage in the hiring process by being provided interview questions in advance.

Status
A USAID employee responsible for purchasing equipment and supplies for the mission in
Afghanistan resigned after an investigation uncovered conflicts of interest and fraud. The employee
was found to be conducting business with people to whom he was personally connected, and he
produced false records from a nonexistent business as proof of various business transactions. Some
transactions were cancelled as a result of the investigation, saving USAID more than $500,000.


                          Inflated Claims for Medical Costs
                                 Result in Resignation
Allegation
OIG received an allegation that a USAID employee was committing fraud by submitting vouchers
and being paid for the reimbursement of medicine and medical treatment that cost less than the
employee claimed. The allegation claimed that the employee had self-audited one such voucher, in
violation of USAID’s internal controls.


                                                196
Status
The investigation substantiated the claims of the allegation, and the employee voluntarily resigned
after being suspended by USAID.


                 Employee Fired for Promoting Corruption

Allegation
OIG received allegations that a company responsible for building industrial parks in Afghanistan
was undertaking unfair and illegal procedures to award generator contracts, in collusion with a
USAID Foreign Service National (FSN) employee who was reportedly soliciting kickbacks in
exchange for future contracts.

Status
Investigators were unable to produce sufficient evidence to substantiate the allegations; however,
they did uncover other abuses in which the employee had been engaging, such as instructing friends
to lie on their applications to USAID and advising them that he would obtain the questions to be
asked in their interviews ahead of time. The FSN was subsequently fired.


                      Subgrantee Bills Inappropriate Costs
                              to USAID Grantee
Allegation
Allegations were received that a subgrantee of a USAID prime grantee billed unallowable costs in
connection with a $128 million cooperative agreement to provide basic health care services,
including family planning and immunizations, throughout Afghanistan.

Status
The OIG investigation identified $80,000 in questioned costs given as vouchers to the grantee by its
subgrantee, more than $46,000 of which was determined unallowable and inappropriately billed to
USAID. As a result of the investigation, USAID issued a demand letter to the grantee to repay the
funds. The grantee then issued a credit to USAID for the amount in question.



                Investigation Results in Savings of $11 Million
Allegation
OIG received an allegation that a grantee, in order to win an award, had made misrepresentations
in its proposal pertaining to the status of an agreement with a subgrantee.

Status
The investigation verified that the representations were false, but because there was insufficient
evidence to prove intent, OIG could not secure prosecution. However, USAID terminated the
cooperative agreement for material noncompliance with the terms and conditions of the award,
leading to $11.2 million in savings for USAID.




                                                197
